<html>
<title> - MISCELLANEOUS PUBLIC LANDS AND FORESTS BILLS</title>
<body><pre>[Senate Hearing 112-131]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-131
 
                    MISCELLANEOUS PUBLIC LANDS AND 
                             FORESTS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                            S. 233

                            S. 268

                            S. 375

                            S. 714

                            S. 730



                                     

                               __________

                              MAY 25, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
70-975                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                BOB CORKER, Tennessee
JOE MANCHIN, III, West Virginia
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
MARK UDALL, Colorado                 RAND PAUL, Kentucky
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
CHRISTOPHER A. COONS, Delaware

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Anderson, Sherman, President and Owner, Sun Mountain Lumber, Inc. 
  & Sun Mountain Logging LLC, Deer Lodge, MT.....................    73
Barrasso, Hon. John, U.S. Senator From Wyoming...................    12
Baucus, Hon. Max, U.S. Senator From Montana......................    15
Begich, Hon. Mark, U.S. Senator From Alaska......................    14
Burke, Marcilynn, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    35
Congdon, Walter E., Montana Cattlemen's Association, Dell, MT....    76
Mallott, Byron, Board Member, Sealaska Corporation, Juneau, AK...    52
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Poelstra, Myla, Representing Nine Alaska Towns, Edna Bay, AK.....    65
Sherman, Harris, Under Secretary, Natural Resources and 
  Environment, Department of Agriculture.........................    25
Tester, Hon. Jon, U.S. Senator From Montana......................    20
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    89

                              Appendix II

Additional material submitted for the record.....................    91


              MISCELLANEOUS PUBLIC LANDS AND FORESTS BILLS

                              ----------                              


                        Wednesday, May 25, 2011

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. This 
afternoon the subcommittee is going to receive testimony on the 
remaining bills that have been reintroduced from the last 
Congress. As was the case for the bills on last week's hearing 
schedule, all the bills were considered by the subcommittee 
last Congress. The purpose of today's hearing is to update the 
record and to allow committee members an opportunity to ask any 
questions they may have.
    The bills on today's agenda include:
    S. 233, the North Fork Watershed Protection Act
    S. 268, the Forest Jobs and Recreation Act
    S. 375, the Good Neighbor Forestry Act
    S. 714, the Reauthorization of the Federal Land Transaction 
Facilitation Act and
    S. 730, the Southeast Alaska Native Land Entitlement 
Finalization and Jobs Protection Act.
    Obviously the subcommittee's got a lot to cover this 
afternoon.
    In addition to statements from committee members, three of 
our colleagues have asked to speak in support of their bills. 
We'll have several witnesses testifying on behalf of the Obama 
Administration. Finally we'll wrap up with a panel of witnesses 
from Montana and Alaska, who have certainly traveled far to 
speak on the bills that are of interest to them.
    I know that these bills are important to my colleagues who 
have undertaken a great deal of work on these issues. A few of 
the bills are a little bit more complicated and a little bit 
more controversial than the bills that the subcommittee 
considered last week. But I want to re-emphasize my commitment 
to continue to work with all of the bill's sponsors to find a 
way to move these bills through the Senate and get them enacted 
into law this Congress.
    I know there are a lot of issues of concern on both sides. 
But I think the fact there has been so much hard work put in. 
Not just from the bill's sponsors but from many of the other 
interested parties that we have an opportunity to address these 
issues and to move forward.
    I'm pleased that among today's bills is S. 714, to 
reauthorize Federal Land Transaction Facilitation Act. I'm a 
co-sponsor of this legislation that's been introduced by the 
chairman of the committee, Senator Bingaman. This authority is 
set to expire this summer, provides the Bureau of Land 
Management the ability to dispose of properties that simply 
don't any longer make sense for them to own. The funds then can 
be used to acquire critical properties such as in holdings that 
are surrounded by other Federal lands.
    In my home State this fiscally responsible program has been 
used to sell lands to ranchers, who are able to expand their 
ranches with lands the BLM does not need. The funds from those 
sales have then been used to acquire some truly magnificent 
properties such as lands along the Rogue National Wild and 
Scenic River and in our National Wildlife Refuges. So I'm very 
much hoping that this legislation will be reauthorized.
    At this time I want to recognize my colleagues, the Ranking 
Member of the full committee is here today, Senator Murkowski 
and then Senator Barrasso. I want to welcome my friends and 
colleagues beginning with Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I do thank you 
for holding this hearing on all of these bills. I will be 
confining my remarks here to S. 730 which is what most Alaskans 
refer to as the Sealaska Lands Bill.
    First of all I'd like to welcome the two witnesses who have 
come from Alaska to testify today.
    Byron Mallott, who is a Board Member and former President 
and CEO of Sealaska.
    And also Myla Poelstra, of Edna Bay, who I know has 
concerns about the bill and its impact to her community.
    I welcome the proposals, what I know to be constructive 
changes in the bill from Myla. To you, Byron, I certainly 
understand the desire of Alaska natives to finally, after some 
40 years, get their long promised land. So I thank you for 
coming today. Myla, I thank you as well.
    I ask, Mr. Chairman, that I submit for the record a rather 
lengthy statement and several of these documents that I have 
that pertain to S. 730, if I can make them part of the record 
as well.
    Senator Wyden. Without objection, so ordered.
    Senator Murkowski. I would like to just briefly summarize 
why I continue to strongly support this bill. I appreciate the 
support of my colleague, Senator Begich. I'm pleased that he's 
here this afternoon to lend his comments as well.
    Back in 1971 Congress passed the Alaska Native Claims 
Settlement Act which gave Sealaska, the corporation that 
represents the region's nearly 20,000 native shareholders, the 
right to select only about 375,000 acres in return for giving 
up native Aboriginal claims to most of the 23 million acres 
that make up Southeast Alaska. As I mentioned it's been 40 
years. ANCSA will have its 40th anniversary coming up on 
December 18 of this year. Forty years is a long time to be 
waiting for these land issues to be resolved.
    This bill allows Sealaska to select other lands to complete 
its entitlement. These lands are not part of parks or 
wilderness. The bill attempts to encourage Sealaska to 
diversify, to reduce timber harvesting by giving the 
corporation access to some sites where they can develop their 
businesses whether it's in renewable energy, whether it's 
tourism. In return the corporation has to give unprecedented 
public access to their private property allowing hunters and 
recreationalists to utilize their timber lands and cross their 
development and sacred sites honoring all existing easements.
    Now from an environmental standpoint, this bill is clearly 
beneficial. It will likely result in Sealaska logging about 
38,000 fewer acres of old growth timber than it could have done 
initially if forced to stay within its original selection 
boxes. It pushes Sealaska to focus on second growth, smaller 
diameter timber, exactly what the Obama administration says it 
wants to see happen in Alaska.
    But without passage of this bill, Sealaska will likely be 
forced out of the timber business. Frankly, that is why, I 
believe, some groups may well oppose this bill. Because if 
Sealaska totally leaves the timber business, then the rest of 
the wood products industry in Southeast Alaska which is already 
hanging by a thread will almost certainly collapse.
    Sealaska is vital to helping fund the infrastructure 
needed, not just by timber, but by the cruise industry, the 
construction industry, and the heavy equipment repair firms. 
The region's 16 percent unemployment rate will only rise 
contributing to even worse social conditions in Southeast. This 
is the only area in the State where we're continuing to see 
falling populations, falling family incomes.
    The economic situation is Southeast is difficult right now. 
I know that. I was born in Ketchikan. I played as a child in 
Wrangell. I know how precious every acre of the Tongass is to 
all who live there even though this bill affects just three-
tenths of a percent of the entire forest.
    Now we have worked. We have worked aggressively over the 
past several years to really hear, to listen, to understand the 
concerns that have been raised and to address them. We have 
changed the bill markedly since last year, specifically to 
protect the land closest to Edna Bay to remove all of the 
acreage closest to the communities of Point Baker and Port 
Protection where we heard so much concern.
    The bill has been modified to meet the concerns voiced by 
Tenakee, Sitka, Petersburg, Craig, Juneau, Ketchikan, Kake, 
Thorne Bay, Hoonah, Naukati and Klawock residents just to name 
a few. But have these changes satisfied everyone? No, they have 
not.
    But what this bill finally comes down to is that it was not 
right. It was unfair to Southeast natives who lived in a region 
the size of the State of Indiana, to have had their lands taken 
away from them. We here in the Federal Government confiscated 
millions of acres to form the Tongass Forest and to create the 
Glacier Bay National Park early last century.
    Natives fought for decades for compensation, finally 
getting that compensation in the 60s. It was about 32 cents an 
acre is what it came down to. When the larger Native Claims 
Settlement Act finally passed in 1971, the Southeast natives 
were basically told that they couldn't select very much land in 
return. They should have gotten 9.6 million acres, but we told 
them that they had to settle for 375,000 acres in State or 
select it outside of Alaska, since the land by then had been 
committed to long term timber sales to two regional pulp mills.
    Mr. Chairman, those pulp mills are gone. But unless this 
bill passes we do have, again, some very dire economic 
situations within the panhandle region. I have listened hard. I 
have worked with all sides to really try to make this bill more 
fair to everyone in the region.
    I've accepted more than 150 changes in the bill since 2008. 
I've really tried to work to make sure that this bill doesn't 
harm the wildlife, doesn't harm the environment or the economy 
of the panhandle. I want to make sure that this legislation, 
not only addresses the equity that is at stake here for the 
Sealaska shareholders, but also for those who live and work and 
raise their families in the region.
    Mr. Chairman, I look forward to hearing the comments today 
and to continuing the work to finally and fully resolve this 
land entitlement.
    Senator Wyden. Senator Murkowski, thank you. We'll work 
very closely with you. I know this legislation is important to 
you. We'll be following up.
    [The prepared statement of Senator Murkowski follows:]
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    Mr. Chairman: Thank you for holding this hearing on S. 730, what 
most Alaskans call the Sealaska lands bill.
    The Southeast Alaska Native Land Entitlement Finalization and Jobs 
Protection Act was first proposed by Alaska Congressman Don Young in 
2007, and actually stems from talks between the Sealaska Native 
regional corporation, and the U.S. Forest Service that started many 
years earlier. The entire issue stems from legislation that Congress 
approved four decades ago and the many intervening events in the 
region.
    In 1971, Congress approved the Alaska Native Claims Settlement Act 
(ANCSA) that provided Alaska Natives with 44 million acres of land and 
$962.5 million to settle all aboriginal land claims. One of the largest 
of those corporations in number of shareholders (about 20,000) was 
Southeast Alaska's Sealaska Corp. The corporation, because of 
preexisting land commitments (long-term pulp mill timber sale contracts 
and the 1968 settlement of the Tlingit-Haida land claim suit), however, 
received one of the smallest initial allocations of land, just over 
290,000 acres. Under the Section 14(h) selection process, Sealaska was 
given the right to select more land in the region once all historic 
sites, allotments and municipal conveyances were finished statewide. 
That is because while Sealaska--with 22 percent of all Natives in the 
state in 1970--was the corporation with the largest percentage of 
Native residents, it gained the second smallest land entitlement above 
only the Aleut corporation's 70,000 acres--the Aleut corporation having 
just 3,250 shareholders. Doyon Inc. gained 12.5 million acres and 
Calista 6.5 million acres.
    The disparity is shown in that Sealaska on population alone should 
have received 9.6 million acres of the forest, if the land in the 
region had been readily available for Native selection. Sealaska is 
still guaranteed to select between 64,000 and 85,000 additional acres 
in the Panhandle once the final audit of other land selections is 
finished by the Bureau of Land Management.
    The Sealaska Corporation, by ANCSA amendment provisions, was 
limited to select that land from around 10 areas in Southeast: Yakutat, 
Hoonah, Angoon, Kake, Klawock, Craig, Hydaburg, Kasaan, Hollis and 
Ketchikan. The problem is that while there are 327,000 acres in the 
areas still available for selection, 44 percent of that represents 
saltwater and even more of that land constitutes village watersheds and 
lands with high conservation values and environmental concerns. Based 
on a 1976 amendment by Congress, Sealaska also does not have unfettered 
selection rights to those 327,000 acres because of state gubernatorial 
veto authority that can keep it from selecting any of the nearly 32,000 
acres located in the Yakutat (Situk River) corridor. While Sealaska 
does have 112,000 acres of old-growth timber still available within 
those areas, about 61,000 of those acres are in old-growth reserve 
areas--areas considered unacceptable for development on environmental 
grounds and currently protected by the U.S. Forest Service--and much 
are located in the 277,000 acres of land currently designated 
``inventoried roadless'' areas by the Forest Service. Significant 
acreage is also in municipal watersheds (notably around Craig), sharply 
reducing the availability of economic lands without environmental 
problems available for selection.
    Estimates are that within the selection areas, Sealaska has 312.5 
million board feet of commercial timber at current prices and another 
39 million board feet available at far higher prices, but that all but 
4.5 mmbf (one 1,600 acre tract on the Cleveland Peninsula sought for 
protection by the environmental community) are unacceptable for harvest 
on environmental grounds. Those grounds are that 32,000 acres (230 
mmbf) are in the Situk River drainage, 4,600 acres (38 mmbf) are near 
Essowah Lake and Eek Lake on Dall Island and near Hydaburg, 
respectively, that are vital for commercial and subsistence fisheries, 
that 19,500 acres (40 mmbf) are in the Craig municipal watershed, that 
2,500 acres (30 mmbf) are in important viewsheds/watersheds at Hoonah, 
important for the tourism industry, but also are economically marginal 
lands at present, and that 3,100 acres (9 mmbf) near Kake are equally 
economically marginal at present prices.
    In an effort to help the Corporation select economically and 
environmentally acceptable land, Alaska Congressman Young in 2007 
proposed the Southeast Alaska Native Land Entitlement Finalization Act. 
I introduced a slightly different bill in the Senate in 2008 and 
reintroduced, after extensive changes, in both the Senate and House, a 
further modified bill in spring 2009. The bill as then introduced and 
before a Senate hearing in October 2009, called for Sealaska to select 
the bulk of its lands from a roughly 79,000-acre selection pool, nine 
areas all located on Prince of Wales and nearby Kosciusko and Tuxekan 
Islands. The corporation would also receive up to 5,000 acres of Native 
``Futures'' sites--locations elsewhere in the Tongass National Forest 
where only non-timber or non-mining-dependent businesses could be 
developed, from eco-tourism to ocean/ hydro power generation. And 
another 3,600 acres are allowed for sacred sites for cultural and 
historic preservation. There were 46 futures sites and 206 sacred sites 
proposed for transfer to the corporation, plus three customary trade 
and migration routes. Most all of the timber sites in that bill were 
located in areas already left open by the U.S. Forest Service for 
commercial timber development.
    In return for the economic development lands, Sealaska would 
relinquish most all of its selection rights on the 327,000 acres of 
original lands, keeping only the Future sites located inside any of the 
original selection boxes.
    Based on public comments following the October 2009 Senate hearing, 
comments made by the public at 12 town meetings held in Southeast in 
February and March 2010, more than 200 informational meetings held by 
Sealaska, and hundreds of letters and verbal comments, in late June 
2010, I proposed significant revisions in the bill. Concerning timber 
lands, the revised bill proposes to remove all lands on northern Prince 
of Wales Island to meet the concerns of Port Protection and Point Baker 
residents. Harvesting on Koscuisko Island was reduced to meet the 
concerns of Edna Bay residents, and harvesting was reduced by 26 
percent at Keete to meet the concerns of some over wildlife impacts. 
The bill proposed adding about 151,565 acres of lands into conservation 
areas (make the areas congressional designated Land Unit Designation 
IIs) to offset impacts from timber development in the southern Tongass 
National Forest. The bill also proposed to eliminate 17 of the then 46 
formally proposed Futures sites, and included nearly two dozen 
amendments to protect continued public access among other purposes. It 
also deleted two provisions that raised concerns among outdoor user 
groups that the bill might somehow affect the definition of ``Indian 
Country'' in Alaska, and it deleted all potential sites in Glacier Bay 
National Park and Preserve at the request of the National Parks and 
Conservation Association. The February 2011 draft bill also made other 
proposed changes, including changes in the selection process for sacred 
sites, in access and easement language, in the conservation areas and 
omitted 745 acres of timber development lands.
    The current bill that I reintroduced in March 2011, (S. 730) has 
removed 206 additional acres to protect fishery anchorages at Halibut 
Harbor, at Cape Pole and north of Cape Pole on Koscuisko Island, 
removed one Future site and added other provisions detailed below.

                     ON ECONOMIC DEVELOPMENT LANDS

    Specifically the current bill calls for Sealaska to give up rights 
to select lands in the Red Bay, Buster Creek and Labouchere Bay 
drainages on northern Prince of Wales. The reduction of those 22,402 
acres protects several old-growth preserves, protects beach fringe, 
karst formations, subsistence hunting drainages and fishery areas of 
importance to the island's northern communities. The bill seeks to meet 
the economic concerns of Thorne Bay residents by maintaining the amount 
of public lands available for logging in the Thorne Bay ranger 
district, while it meets the need of Hydaburg residents by allowing 
some additional logging on the central portion of the island to protect 
existing Hydaburg jobs. It attempts to meet the concerns of Kake 
residents by maintaining the potential for economic development on 
northern Kuiu Island. The bill also addresses Koscuisko Islanders 
concerns by reducing the timber harvest for Sealaska on the island by 
6,079 acres, removing old-growth closest to Edna Bay to protect 
subsistence hunting, removing lands on the southern island south of 
Cape Pole and along the western coast to protect fishermen anchorages, 
and on the northern island to protect Shipley Bay and Mount Francis 
old-growth timber and karst formations. The change protects the town's 
spring needed for potable water in dry weather, guarantees beach fringe 
for personal use firewood and should protect areas used by nearby 
Naukati residents.
    The bill also removes two of five proposed harvest areas at Keete 
on the central Prince of Wales Island, protecting 3,070 acres at Mabel 
Bay and Kassa. In order to allow Sealaska to complete its entitlement 
of commercial forest land, the bill increases harvesting on Tuxekan 
Island, but reduces it by 745 acres by protecting lands near Karheen 
Lakes on the island's southwest side. It increases selections in areas 
south and west of Polk Inlet, at McKenzie Inlet to the east and in an 
area south of 12 Mile Arm, all on the central part of the Prince of 
Wales. The revised bill also calls for 13,000 plus acres of new land to 
be permitted for logging on northern Kuiu Island between Saginaw and 
Security Bays and allows selections to continue at Calder and North 
Election Creek. In all, the bill will allow Sealaska to select from 
80,852 acres of development lands to fulfill their likely entitlement 
of about 72,000 acres of timber/development lands, when the final 
reserve land pool acreage estimates are finished.
    In all of the timber lands, the bill bars Sealaska from any logging 
within generally 100 feet of major low-elevation fish streams (Class 1-
A streams), imposing a standard similar to the Forest Service's current 
100-foot buffer standard. The prohibition, following a precedent in 
ANCSA, however, runs for only five years to give sufficient time to the 
State of Alaska to consider whether any change is needed in the Alaska 
State Forest Practices Act standards governing timber operations on 
state lands which generally requires only a 66-foot buffer.

                           CONSERVATION AREAS

    The bill, in return for these changes in timber lands, creates 
conservation areas to prevent logging on 151,565 acres on Kuiu, 
Koscuisko, Prince of Wales Island and on Sukkwan and Goat Islands. The 
bill specifically protects the 25,403-acre Sarkar Lakes area from 
logging on Prince of Wales, protects the Honker Divide canoe route 
along the Thorne River (15,586 acres), protects coho salmon habitat 
near Eek Lake near Hydaburg, and protects key areas on Goat and Sukkwan 
Islands (all totaling 34,644 acres). The bill protects 21,146 acres on 
the south shore of the Bay of Pillars on Kuiu Island and 36,703 acres 
in the Kushneahin Lake (Lovelace Creek) areas on southwest Kupreanof 
Island. The Sarkar Lakes, Honker Divide, Kushneahin Lake and Lovelace 
Creek areas all are highest rated for protection by fishermen and 
environmental groups in the State. The bill also protects 12,543 acres 
of karst formations on Prince of Wales and Koscuisko Islands--meaning 
the revised bill protects nearly 18,000 more acres of karst compared to 
the original legislation, and it impacts only a few hundred acres of 
high value karst in the various selection areas.

                            ON FUTURE SITES
 
   The amended bill deletes a host of sites to satisfy local and 
fishery concerns: Lacy's Cove in Icy Straits, Crab Bay near Tenakee, 
Bock Bight near Petersburg, Big Bay south of Sitka, Young Bay near 
Juneau, False Island and Upper Tenakee Inlet near Tenakee, Behm Narrows 
near Ketchikan, Tlevak Narrows/Turn Point, Port Refugio Village, Ridge 
Island Village, Tonowek Narrows/Arena Cove, and Cordova Bay near Prince 
of Wales Island, Port Houghton and Walter Island, Pybus Bay south of 
Juneau, and in the current bill, Dog Cove near Ketchikan. These 
deletions are in addition to previous ones at Kalinin Bay, Poison Bay, 
Ellis Point Bay, Halibut Harbor, Security Cove, and William Henry Bay.
    The bill leaves only the remaining sites open for Sealaska's 
selection: Chicago Harbor near Yakutat, 258 acres; Khantaak Island 
Group near Yakutat, 1,054 acres; Redfield Lake near Yakutat, 276 acres; 
Cannon Beach near Yakutat, 280 acres; Upper River, south of Yakutat 
near the Situk, 81 acres; Ahrnklin River, south of Yakutat, 81 acres; 
Harlequin Lake, south of Yakutat, 128 acres; Dry Bay Village, north of 
Glacier Bay, 59 acres; Eleanor Island, north of Yakutat, 48 acres; Crab 
Island Village at Yakutat, 4 acres; Keku Island near North Kuiu Island, 
806 acres; Coho Cove, southeast of Ketchikan, 29 acres; Turnabout 
Island Village, south of Admiralty Island, 74 acres.
    The bill includes several tidal, small hydro and geothermal sites: 
South Inian Pass, Point Lavina side, 20 acres; South Inian Pass, Inian 
East, 20 acres; Josephine Lake, near Keete, 40 acres; Spring Creek Hot 
Springs on Cleveland Peninsula, 40 acres; and Pegmatite Mountain near 
Pelican, 40 acres. This site is unique, in that in response to pleas by 
Hoonah residents, Sealaska is being permitted to select the site, but 
will be barred from its development for 15 years to give Hoonah, 
Pelican and Tenakee time to develop alternative renewable energy power 
sources, potentially negating its reason for development, and for there 
to be time to determine permitted land uses in ``roadless'' areas of 
the forest. For transportation it includes: Whitestone Harbor, NE 
Chichagof Island near Hoonah, 315 acres. And for eco-tourism it 
includes: Burnett Inlet, South Etolin Island near Wrangell, 16 acres; 
Blake Channel near Petersburg, 23 acres; Rodman Bay, west of Angoon on 
Baranof Island, 31 acres; Sinitsin Cove, south of Sitka, 46 acres; 
Shrimp Bay, north of Ketchikan near Misty Fjords, 229 acres; Port 
Camden Village on Kuiu Island, 104 acres; Jackson Island Seasons 
Village on S. Sukkwan Island, 20 acres; Aston Island Village on north 
Dall Island, 29 acres; Seagull Creek Village, south of Hoonah, 47 
acres; Holkam Bay Village, near entrance to Tracy Arm, 44 acres; and 
Saginaw Village on northern Kuiu Island, 89 acres. No commercial timber 
or mineral development is permitted by the bill in any Future site 
areas.

    ON SACRED, TRADITIONAL, CULTURAL, EDUCATIONAL AND CEMETERY SITES

    The revised bill deletes all legislatively-mandated presumptions of 
approval for any sacred sites, returning the selection process to 
exactly the nomination-approval process created by the 1971 claims 
settlement act regulations. The bill does alter the definition of such 
sites to allow selection and uses of cultural and educational sites. 
Another provision, however, restricts any use of the sacred sites to 
historic or educational purposes and requires that they be managed in 
the same way as surrounding lands. The bill also includes language to 
guarantee that the use limitations for the sites in the bill aren't 
permissive, but mandatory.

                                 ACCESS

    The bill always required Sealaska to provide the public access for 
subsistence and recreational hunting, fishing and hiking across its new 
economic development/timber lands, and to guarantee public access to 
all roads and trails within its selection areas. The revised bill, 
besides requiring public access on all existing (Section 17(b) and 14 
(g) easements) also guarantees access across Future and migratory 
trails for any legal purpose. The bill provides for access for utility 
corridors on and across customary trade and migration routes. And the 
bill provides additional access to sacred sites, not following an 
existing trail or easement, when there is ``no reasonable alternative'' 
for access across the property without a new trail. It also clarifies 
17(b) easements.

                             INDIAN COUNTRY

    It removes the additional ability for Sealaska to gain grants from 
the National Historic Preservation Act and from the Tribal Forest 
Protection Act to manage its lands since the concern had been expressed 
that making a Native corporation eligible for such grants could impact 
the legal issues surrounding the definition of ``Indian Country'' in 
Alaska. Sealaska likely will continue to receive NHPA grants for 
educational purposes on its sacred and traditional sites, but not for 
maintenance of the sites. The definition removes any possibility of the 
bill making a change in how Indian Country and tribal sovereign rights 
are currently interpreted in the State.

                                 GUIDES

    The revised bill guarantees that existing tour/boat, bear, fish and 
other outdoor guiding services will receive an additional extension on 
their current Forest Service permits to conduct commercial activities 
on forest lands after Sealaska receives the lands--provided the 
operator meets all current Forest Service requirements. That will 
prevent commercial interests from facing the loss of business income 
for up to two decades.

                              CONVEYANCES

    To address concerns that Sealaska's conveyances might interrupt the 
process for completing Alaska Statehood and ANCSA conveyances of other 
corporations, the bill requires that Sealaska largely obtain its timber 
land conveyances within two years, but subjects all of the Future and 
sacred sites to a ``mutually agreeable'' timetable for government 
conveyance between the corporation and the BLM.
    Another amendment limits to 15 years the time for Sealaska to make 
its final sacred site selections to use up the remainder of the 3,600 
acres of such selections it is promised by the bill, except it will 
retain selection rights for up to 10 percent of the lands in case of 
future archeological finds. That gives the corporation time for future 
work in the region to prove the location of currently unknown sites. 
The bill requires that only sites that meet the historic definition of 
sacred sites under ANCSA be conveyed to the corporation and that the 
size of the conveyances be the smallest possible to protect the 
historic nature of the sites.
    Under the bill Sealaska will be selecting about 29,000 acres of 
second-growth timber, which, in conjunction with sacred and Futures 
sites, means that it will receive about 38,000 fewer acres of old-
growth forest lands, than if it had selected all of its remaining lands 
from within the original ANCSA selection withdrawal ``boxes.'' The bill 
protects all public road and trail easements (section 4(d)(1)(A) and 
4(d)(1)(B) of the proposed Act. Sealaska will continue to share its 
timber revenues with all Alaska Natives, regardless of where they live, 
in accordance with the 7(i) revenue sharing provisions of ANCSA. 
Sealaska already has shared more than $315 million with other 
corporations under terms of the 7(i) requirements.
    The final bill also adopts a number of suggestions to language made 
by Southeast groups to clarify terms in the text. Those changes 
include:

  <bullet> Acceptance of a comment that a conservation system unit 
        should be defined, and use of the group's suggestion of Section 
        102(4) of ANILCA as its meaning.
  <bullet> Acceptance that the bill should define a LUD II and use of 
        the definition in place when the most recent 14 LUD IIs were 
        created by the Tongass Timber Reform Act in 1990.
  <bullet> Correction of the references to sites with traditional and 
        recreational use values, changing the titles to sites with 
        traditional, recreational and renewable energy use value to 
        provide clarity.
  <bullet> Acceptance of a group's language to clarify that the right 
        of Sealaska to regulate public access for various reasons 
        specified in the language is limited to the right of Sealaska 
        to limit access granted by the legislation above and beyond 
        public access rights that would otherwise be granted under 
        ANCSA.
  <bullet> Removal of an incorrect reference to LUD I, since the term 
        is no longer valid under the Forest Service policy expressed in 
        the 2008 revision of the Tongass Land Management Plan.
  <bullet> And acceptance of a change by a resident clarifying language 
        on sacred site access in Section 4.

    I have continued to work for passage of this legislation because I 
am absolutely convinced that it is in the interest of all Alaskans to 
see this bill approved to expedite the completion of land conveyances 
in the Panhandle.
    First, almost no one in the region says that Sealaska should not 
promptly receive its final conveyances. Sealaska's more than 20,000 
Native shareholders settled their aboriginal claims to their part of 
the more than 325 million acres of Alaska in 1971 based on the promise 
that the government would give them clear ``fee-simple'' title to lands 
that they could use to better the lives of Natives, while protecting 
their Native heritage. But many opponents of the legislation have 
argued that Sealaska should be forced to select within the 10 selection 
``boxes.'' The problem with that is that Congress has made that largely 
impossible. Under the 1976 amendments to the settlement act, if 
Sealaska presses to finalize its selection of 32,000 acres in the 
Yakutat area, and if the Governor of Alaska opposes the selection as 
past governors have said they would, then Sealaska will have to return 
to Congress to seek new selections to offset that denial of conveyance. 
That is especially the case after passage of the Alaska Land Conveyance 
Acceleration Act in 2004 that required all corporations to finalize 
their selections three years ago, the corporation now having no means 
to replace the Yakutat selections should the prohibition against 
ownership along the Situk River--America's premium Steelhead fishing 
stream--be invoked.
    Some have dismissed the importance of protecting acreages in the 
selection boxes on environmental grounds. But that ignores that the 
Forest Service has placed 63,484 of those acres into old-growth 
Reserves for wildlife habitat protection, perhaps to deal with 
Endangered Species Act concerns over the wolf and goshawk. And it 
ignores that the fishing community has listed two of the drainages 
inside the selection boxes among their top 100 priorities for fish 
drainage protection: the Situk River corridor and Bostwick on Gravina 
Island. Since it is literally impossible for Sealaska to select any 
acreage in the Tongass to fulfill its land settlement that will not 
impact any existing old-growth preserves, on net this bill is good for 
the environment, especially when the eight new fishery conservation 
areas created by the act are considered. If the bill passes Sealaska 
will be selecting timber lands in just five of the top drainages as 
listed by the Nature Conservancy and in four listed by Trout Unlimited, 
but six of the top 100 drainages will be protected permanently by the 
newly created conservation areas.
    Some have complained that the bill breaks ``precedence'' and 
perhaps allows the other 11 Native regional corporations to seek 
revised land selections. But that ignores several facts. First, all of 
the other corporation chief executive officers have acknowledged that 
passage of this bill will not set a precedent for them, since none of 
them have faced the land selection problems of Sealaska. While the 
corporations still are awaiting tentative conveyance of more than 4 
million acres, only Sealaska, which selected under Section 14, not 
Section 12 of ANCSA, is awaiting such a relatively large percentage of 
conveyance to complete its entitlement. While Sealaska may be waiting 
to gain nearly 30 percent of its final land conveyance, most every 
other corporation is awaiting conveyance of a tiny fraction of their 
lands, since the reserve conveyance pool represents a far smaller 
percentage of their overall selections. Secondly, land patterns in the 
Interior of the state in 1971 were not nearly as complex as found in 
Southeast (with the exception of the Anchorage Bowl) because there were 
no long-term timber sale contracts and few national parks, largely only 
Denali National Park, in place outside of Southeast, prior to passage 
of the Alaska National Interest Lands Conservation Act in 1980. The 
timber contracts substantially complicated Sealaska's task of selecting 
only 5,000-acre or larger tracts, while other corporations had less 
difficulty with the 5,000-acre requirement given the greater size of 
their selection areas.
    Some have complained that the bill will complicate land management 
in the Tongass. But there is no reason that conveyance of any of the 
future, sacred or trail sites will do anything but lessen Forest 
Service enforcement responsibilities in the Tongass, just as the 
relinquishment of the 86 sacred sites that Sealaska has already taken 
title to based on the 1971 act has freed the Forest Service from 
responsibility for protecting cultural artifacts on those sites.
    There have been complaints that conveyance of land to Sealaska will 
damage the public's access to the land. But that ignores that for the 
vast bulk of Sealaska's selections, all of the development/timber 
lands, that Sealaska as part of this legislation has accepted firm 
requirements to permit unfettered access for subsistence hunting and 
fishing and recreation--something not required of any other regional or 
village corporations by the 1971 act. Even on Future sites and sacred 
sites, the public has access on all pre-existing trails as required by 
the 17 (b) and 14(g) easement requirements of ANCSA. By the bill 
Sealaska must permit access to any lands where access might be 
``blocked'' by its selections. While there have been complaints that 
Sealaska may try to close access unfairly--invoking the clause that 
allows it to close access should public safety be impacted by active 
logging operations--the bill likely will result in Sealaska not logging 
more than about 2,500 acres a year on average since the corporation is 
committed to putting these lands and its existing 189,000 acres of 
previously logged lands (only 81,000 acres of which have been clear-
cut) onto a sustainable management regime that will allow annual 
sustainable harvest in perpetuity, while protecting the forest 
resources through the use of modern best-management practices. That 
means that no more than one-hundredth of a percent of the Tongass could 
ever be closed at any given time to public access. While there were 
complaints that personal use firewood collections needed in villages 
such as Edna Bay, Point Baker and Port Protection could have been 
impacted, the timber boundaries have been rearranged to remove the 
prime collection areas for each village from possible Sealaska control.
    Opponents have argued that the bill has allowed Sealaska to 
``cherrypick'' the best timber tracts, or conversely that the 
corporation has selected the best second-growth tracts that could harm 
the Forest Service's ability to transition to a ``young-growth'' 
strategy in the rest of the forest. While the bill is allowing Sealaska 
to select from about 44,000 acres of old-growth timber, that is far 
less than the 112,000 acres of old growth contained on the lands inside 
of their selection areas. More importantly, should Sealaska harvest all 
44,000 acres, it will be harvesting just 3 percent of the 1.13 million 
acres of ``old-growth'' in the Tongass suitable for harvest under the 
most recent Tongass Land Management Plan (2008), preferred alternative 
11. Under the existing TLMP, while 2.5 million acres of the forest are 
in the commercial timber base, only far less than 700,000 acres are 
ever scheduled to be impacted (before consideration of implementation 
of a roadless rule), while 10.8 million acres of the forest are already 
fully protected.
    Concerning the fear that Sealaska might be taking too much second-
growth, there are 428,972 acres of second growth of all age classes in 
the Tongass, logged since the start of World War II. Under current 
Forest Service land standards only 243,922 are ``suitable''/available 
for timber harvest (57% of them), and of those only 65,518 acres are in 
suitable areas for harvest and older than 40 years, and thus closest to 
second-growth potential. Under this bill Sealaska will gain 28,576 
acres of second growth and 17,536 acres of ``suitable'' second growth 
that is more than 40 years in age. That means Sealaska is receiving 
just 7 percent of all second-growth in the forest and just 9 percent of 
the suitable second-growth that is over 40 years of age. That means the 
Forest Service still has 91 percent of all of the suitable older 
second-growth to use for its transition to a young-growth strategy.
    There have been a host of concerns that the ability of Sealaska to 
select Future sites will spoil the ability of Alaskans to access 
cherished recreation sites. For years one of the leading complaints of 
groups was that Sealaska was focusing on its timber operations. This 
bill was specifically crafted with the goal of allowing Sealaska to 
diversify and move into non-timber business ventures, such as eco-
tourism or renewable energy development, to reduce logging pressures on 
the forest. But the ability of Alaskans to enjoy the forest should not 
be impacted by the bill. The bill requires Sealaska to permit some 
access across Future sites under terms of the 17(b) and 14(g) easements 
guaranteed by ANCSA. More importantly, Sealaska's selections outside of 
the original selection box areas are relatively small in size. While 
more than 36 such sites have been deleted from the bill in response to 
public concerns, of the 30 that remain only three at Whitestone Harbor, 
Shrimp Bay and Port Houghton Village are larger than 100 acres in size. 
All others are small enough not to impact public access to any of the 
recreational features that Southeasterners have grown to love, and 
there are seldom more than one site near any population center in the 
region. Access for fishing up creeks should be protected.
    Others have expressed concerns that the bill will harm the local 
economies of smaller communities, generally on Prince of Wales Island 
and the one town on Koscuisko Island. I truly do not believe that to be 
the case. Admittedly the original version of the bill introduced in the 
Senate in 2008 and 2009 did call for Sealaska to take private ownership 
of more than 22,000 acres of timber on northern Prince of Wales Island. 
The proposed logging in Lab Bay, Buster Creek and Red Bay might have 
affected subsistence hunting and personal use firewood collection that 
could have affected Point Baker and Port Protection residents. To meet 
the concerns of those small communities the bill was revised last year 
to leave those tracts in Forest Service control. With those lands still 
open to Forest Service commercial logging efforts, the bill should have 
little impact on Forest Service timber sale preparation jobs based in 
the Thorne Bay ranger district. While there were concerns about the 
bill's impacts on the economy of Thorne Bay, and it taking timber away 
from Forest Service sales to the Viking mill at Klawock, the current 
legislation should have minimal impacts on the community and numerous 
small saw operations located there and no impacts on Klawock's mill, in 
that many of the Sealaska selection areas are now located to the south 
in the boundaries of the Craig ranger district.
    Clearly there have been concerns about the bill voiced by residents 
of Edna Bay, the tiny community on east Koscuisko Island that grew out 
of its history as a logging camp. While most of the lands contained in 
the bill are classified as LUD III's and open to logging by the U.S. 
Forest Service and its timber program, at least under the terms of the 
2008 Tongass Land Management Plan, Edna Bay residents feel that it far 
more likely that the lands will be harvested by Sealaska than by 
federal timber sale operators. To meet their concerns this bill dropped 
more than 6,000 acres of potential selections by Sealaska, including 
several thousand closest to the village's western and northern 
boundary. While the bill does allow Sealaska to potentially select just 
over 19,000 acres on the island, it only includes less than 7,500 acres 
of old growth timber. The bill was adjusted to protect anchorages at 
Shipley Bay, Halibut Harbor and at Cape Pole and the trolling grounds 
at Hardscrabble and Trout Creek used by Edna Bay fishermen, and the 
bill dropped lands north and east of the community to protect 
subsistence hunting areas used by residents and the location of a 
spring needed to provide potable water to the village's residents 
during dry periods. The bill also provides for an alternate log 
transfer facility north of Edna Bay at Van Sant Cove as alternatives to 
the log transfer facility in Edna Bay reserved for future use by the 
Forest Service. The bill affords Sealaska that same use and use of the 
roads to access that facility as well. It is hard to understand how 
timber operations by Sealaska could destroy the village's way of life 
given that the community was the result of logging that occurred on 
south end of the island in 1945, 46, 55, 56, 60, 62, 63, 70, 73, 75, 
76, 77, 78, and as recently as 1997.
    Some have argued that the bill should require primary manufacturing 
of wood, rather than permit ``round-log'' export of timber, as allowed 
from all private lands in the state. Given current timber market 
conditions, some round-log export, is necessary for sales to be 
economic from Alaska. And Sealaska has shown that the amount of total 
timber jobs are nearly identical between an export operation and a 
primary manufacturing industry format--the only difference being the 
location of jobs, and perhaps how many jobs are held by Alaska Natives.
    Now the bill has triggered new debate over the wisdom in 1971 of 
Congress giving the Native corporations control over sacred sites, 
compared to allowing tribes to control those lands. That decision was 
made by Congress, apparently out of the believe that since the claims 
act largely extinguished Indian Country in Alaska that the corporations 
would have the greater economic ability to care for the sites than 
tribes--especially given that the bill was specifically aimed at 
lessening reservation status for Alaska Natives. This bill is simply 
trying to fulfill the promise and spirit of the 1971 act. While it is 
always possible that Alaskans will reach a new consensus on Native land 
ownership and tribal authority and resources in the future, until that 
crystallizes, it is only right that Sealaska have the ability that the 
other 11 state Native corporations have had to select sacred sites 
within their overall land conveyance allocations. The corporation has 
offered to jointly manage such sites with all local tribes through 
memorandums of understanding, but for Congress to mandate such an 
action would violate the original aboriginal land settlement terms 
where Native corporations received their lands ``fee-simple'' without 
additional federal strings being attached. Given that Alaskans normally 
do not like federal regulation, I have tried to follow the principles 
of the original claims act in the drafting of this bill.
    I have, however, required Sealaska to permit far greater public 
access than required of all other Native regional and village 
corporations on the new lands they will claim, have required them to 
keep all roads and trails open for public access (except when safety is 
a legal consideration during logging operations) and have followed a 
precedent from ANCSA, requiring Sealaska to observe an 100-foot buffer 
against logging along major salmon streams for five years. Admittedly 
fishermen are concerned that a five-year limitation is contrary to 
ongoing effectiveness monitoring nearly continuously since 1992, and 
nearly 20 years of data that shows that the Alaska Forest Resources and 
Protection Act is effective in protecting anadromous fish habitat and 
is a violation of their freedom to utilize their lands promised in the 
claims act and another sign of the federal government imposing 
patronizing requirements. My hope is that the five-year prohibition 
will give the public time to encourage the state's Board of Forestry to 
review state standards and change those standards, if any new forest 
research shows that changes are needed to protect the environment and 
fish habitat. Clearly there is still unhappiness over past logging 
practices in Southeast Alaska, many of the problems occurring more than 
20 years ago, that continue to color perceptions over the ability of 
timber harvesting to coexist without damage to fishery resources.
    The bill, in my view, is required to allow Sealaska shareholders to 
gain access to their lands in a timely manner. It is also vital for the 
survival of a diversified forest products industry in Southeast, which 
is vital for continuation of a diversified economy in the Panhandle. 
Right now, Sealaska's existing timber operations are supporting more 
than 40 percent of the support industries and infrastructure needed by 
the rest of the private timber industry in the region, and some of the 
non-timber industry. If Sealaska is forced to shutter its operations 
over the next two years, there may not be sufficient economies of scale 
left to permit Viking Lumber at Klawock or Icy Straits Timber at Hoonah 
to be able to afford to continue operations given their need for 
support services, from loggers and equipment operators and repair firms 
to transportation and road construction workers.
    Clearly the current timber industry is a shadow of its former self. 
Where the industry once fueled 3,500 direct jobs, it now fuels a few 
hundred from federal lands. But Sealaska's presence is vital not only 
because it provides more than 360 direct jobs with a payroll of more 
than $15 million from it operations--nearly 500 jobs and $21 million in 
payroll when indirect employment is added--but because it funds the 
very infrastructure that will be vital for the Forest Service to 
attempt to transition to a series of habitat restoration and young-
growth timber sales in the future. Federal sales will be cost-effective 
only if Sealaska is present to share road and support facility costs--
and the bill requires Sealaska to provide access to all log transfer 
facilities and roads that it acquires as a result of the legislation.
    Some have argued that the bill ``gives away'' the roads and the 
timber infrastructure that federal taxpayers have paid to install. But 
given the provisions for road easements in the bill and the current 
Forest Service plans to cut timber harvests in the region from the up 
to 267 mmbf a year called for the Tongass Land Management Plan in 2008 
to a rumored level of perhaps just 50 mmbf, it is far more likely that 
the roads will be better maintained for public access in private/state 
hands than federal hands, especially given the proposed road closure 
plans, where the Forest Service has proposed to close and decommission 
hundreds of miles of logging roads in Southeast Alaska. In all 
probability the State of Alaska will be more involved in maintaining 
road standards in the Tongass regardless of the bill's conveyances.
    And recently complaints have surfaced that renewable energy sites: 
hydroelectric, geothermal or marine hydrokinetic sites should not be 
transferred to private hands from federal ownership. While it is true 
that holders of such sites on federal lands do have to pay a small 
lease payment to the federal treasury, in general, it is more likely 
that utilities and renewable energy developers will be able to raise 
capital to build non-carbon emitting geothermal, hydroelectric and 
ocean energy power sites if the lands are in private ownership than on 
leased federal property, where development may require lengthy 
permitting and approval processes. But such a transfer to Sealaska does 
not lessen the environmental standards that such projects will still 
have to meet under Federal Energy Regulatory Commission requirements.
    As I have often said the Sealaska bill has been controversial in 
the region since every acre of the Tongass is precious to someone. But 
Sealaska by law has the right to select additional acreage in the 
Tongass for the benefit of its shareholders. And this bill completes 
the settlement act conveyance process that has had major benefits for 
all Alaskans. By settlement of aboriginal land claims, ANCSA paved the 
way to construction of the Trans-Alaska Oil Pipeline and the roughly 
$160 billion that the State of Alaska has received in petroleum 
revenues since 1977. According to the Institute for Social and Economic 
Research, the average Alaska family of four between the Alaska 
Permanent Fund Dividend, wage boosts and public spending fueled by 
petroleum, gains about $50,000 in added revenues yearly. None of that 
would have occurred without the claims act having settled aboriginal 
land claims. It is ironic that without passage of this legislation, the 
Trans Alaska Pipeline could run out of oil before completion of 
Sealaska's ANCSA land entitlement.
    It is long past time that Sealaska shareholders get the lands they 
were promised nearly 40 years ago. I am supporting this bill as a way 
to do that in the least environmentally and socially damaging way and 
in the way to best protect the region's economy and the lifestyle of 
all Alaskans who live, work and play in the Tongass National Forest.
    If this bill doesn't pass--and soon--we, this Congress and this 
Administration, will have set up a system that will impoverish 
Southeast Alaska Natives and the region's economy as a whole for a long 
time. Perhaps with the best of intentions: of trying to speed the 
diversification of the Panhandle's economy, or of trying to protect our 
artificially created old-growth preserves--when 96 percent of the 
forest already is fully protected--we will have harmed the chances for 
renewable energy development, or of a shift to a small-diameter second-
growth timber industry, since Sealaska is clearly in the best position 
to lead such a dream to reality.
    And if this bill doesn't pass we definitely will have proven, once 
more, that this government should not be trusted to do what is right by 
Native peoples. That is why I have stuck with this bill, and why I 
continue to work for and urge its speedy passage.

    Senator Wyden. Senator Barrasso, welcome.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    Thank you for scheduling this hearing today. One of the 
bills on the agenda, specifically S. 375, the Good Neighbor 
Forestry Act, is legislation that we've considered during the 
last three sessions of Congress. It's a bipartisan bill, a 
common sense bill, bipartisan that our co-sponsors are Senator 
Tim Johnson, as well as Orrin Hatch, Mike Enzi, Mike Lee and 
John Thune.
    S. 375 authorizes the Secretary of Agriculture and the 
Secretary of Interior to enter into cooperative agreements with 
State foresters. The bill authorizes State foresters to provide 
certain forest, rangeland and watershed restoration and 
protection services. They do it in collaboration with Federal 
agencies. I call it the Good Neighbor Forestry Act because it 
brings together State and Federal agencies to work 
cooperatively.
    We need to work together as neighbors to address land 
management challenges. There are clearly challenges out there. 
Wyoming forests, like those of all Western States are facing 
unprecedented challenges. These challenges such as preventing 
wildfires, removing invasive species, improving watersheds and 
conserving habitat require cooperation across boundary lines.
    The bill is very simple. The Good Neighbor Forestry Act 
allows the Forest Service or BLM to work with Western States to 
complete work that crosses ownership boundaries. This bill will 
provide an on the ground management tool that our Federal, 
State and private lands desperately need. Good Neighbor 
authority has been enjoyed by the States of Colorado and Utah 
for most of the decade and it works.
    Good Neighbor projects have worked well in those States. 
They've met environmental goals. They've provided benefits to 
the local communities.
    I'll just give you a brief example, Mr. Chairman. Leafy 
Spurge has overtaken an entire drainage. The State owns the 
land on one side of the creek. The Forest Service owns land on 
the other side. We can't effectively manage this invasive weed 
unless we cooperatively treat the whole landscape.
    If the State clears out all the Spurge on its side of the 
creek 1 year, but the Forest Service doesn't address the 
problem that same year. Then the Leafy Spurge continues to 
spread. So the State's work and money and resources will have 
gone to waste. A year or two later then the Spurge will have 
reclaimed the State land and many more acres further down the 
mountain drainage, causing more and more problems.
    So we need to have a coordinated effort. The problem can be 
solved with this basic Good Neighbor authority. The Forest 
Service could prepare a cooperative agreement with the State 
for invasive species control. They should.
    The State could then send workers to clear the entire 
drainage area of Spurge. Good Neighbor authority allows us to 
effectively address the problem and use management funds 
efficiently. Both the State and Federal land management goals 
are met. It's a win/win situation.
    And I'm sure we're going to hear some concerns, though, 
that this Good Neighbor authority could run astray. I believe 
the concerns are overblown. This Good Neighbor authority simply 
provides Federal agencies with the ability to enter into 
cooperative agreements.
    It doesn't cede decisionmaking authorities to the State. S. 
375 does nothing more, nothing less than the authority already 
in place in Utah as well as in Colorado. It would simply expand 
the use of that authority to other States west of the 100th 
meridian.
    You know, last Congress, Mr. Harris Sherman, USDA 
Undersecretary for Natural Resources and Environment, was very 
supportive of this authority in his testimony. In responding to 
a question for the record he wrote, ``I further believe 
national Good Neighbor authority is warranted to help address 
forest health issues, that challenge Eastern forests across 
diverse land ownerships.'' He went on to say, ``In these times 
of limited resources, it's important to leverage work force and 
technical capacities all within existing environmental laws and 
regulations.'' That's the end of the quote.
    So I'm pleased to see the USDA's support. I appreciate 
Secretary of Interior Salazar's leadership in supporting Good 
Neighbor authority. The Administration has the right idea here. 
We're eager to work with them.
    I'd like to welcome each of the witnesses. I look forward 
to the questions. Thank you very much, Mr. Chairman.
    Senator Wyden. I thank my colleague. I know a lot of time 
has been put in on this Good Neighbor forestry issue. We'll 
continue to work with you and see what we can do to get this 
worked out.
    We want to welcome both of our colleagues, Senator Tester, 
Senator Begich. I understand both of you have an interest in 
perhaps sitting with the panel after you're done or at some 
point in the afternoon. You're welcome to do that.
    I guess Senator Tester, by virtue of seniority gets to go 
first. Although Senator Begich may be under the gun in terms of 
his schedule. Senator Tester, you're being a gracious soul, 
would it be acceptable to you to let Senator Begich go first?
    Senator Begich, welcome. We'll make your prepared remarks 
part of the record. You go forth as you choose.

          STATEMENT OF HON. MARK BEGICH, U.S. SENATOR 
                          FROM ALASKA

    Senator Begich. Thank you very much. Thank you, Senator 
Tester, for allowing me to go first. Thank you, Chairman Wyden, 
Ranking Member Barrasso and my colleague Senator Murkowski.
    I appreciate the opportunity to address the committee today 
on a bill important to Alaska. As you mentioned I have a 
committee I have to chair at three o'clock in the Capitol, so I 
will be brief.
    I'm a co-sponsor of S. 730, the Sealaska Lands Entitlement 
Act and support it and its speedy passage. Nearly 2 years ago I 
appeared before you on behalf on an earlier version of the 
bill. As you likely know, Sealaska Corporation, the national--
the native regional corporation for the native people of 
Southeast Alaska has not completed its land claims. We made a 
promise, as mentioned by my colleague, more than 40 years ago 
to ensure that the Alaska Native Land Claims Act and Settlement 
Act and we are far past due in keeping that promise.
    The bill before you is an attempt by Sealaska to rebalance 
their remaining land selections. It attempts to better balance 
their responsibility as stewards of their lands with their 
economic responsibility to shareholders and the communities of 
Southeast, where their shareholders live. Over the past 2 years 
Sealaska has done much of what I hope they would. They have 
engaged Federal agencies, interest groups and local 
communities.
    I also want to recognize the hard work that Senator 
Murkowski and her staff have put into this bill. They have met 
with Alaskans all over Southeast to hear from folks on all 
sides of the bill. The bill before you today, S. 730, reflects 
a significant compromise and accommodation of those interests.
    I will leave it to those with more time to catalog the list 
of those changes as Senator Murkowski did in her statement. I 
have no doubt you will hear testimony today suggesting it is 
not perfect. It may not be. But it does reflect Sealaska's two 
solid years of listening and working to make it better.
    I hope you will respect Sealaska's efforts to resolve these 
outstanding issues of land entitlements. Likewise, as the 
Forest Service reshapes its management of the Tongass National 
Forest, our Nation's largest at 17 million acres, the size of 
West Virginia. I hope you will hear today the same level of 
interest and compromise and working through their differences.
    This region of Southeast Alaska faces enormous challenges. 
Again, as mentioned by my colleagues, 16 percent unemployment, 
little infrastructure and sky high energy costs. If we are 
serious about the region's economy that effort has to come from 
both the Forest Service, which owns most of the land and 
Sealaska, the largest private landowner, working together. This 
legislation can be an important piece to reinvigorate the 
Southeast Alaska economy. It can aid in the transition of an 
important industry and the management of a forest that serves 
as the backbone for all the drivers of our Southeast economy, 
wood products, tourism, commercial and sport fishing, mining 
and subsistence.
    Again, Mr. Chairman, I want to thank you for this 
opportunity to give you brief comments on my support for the 
legislation in the hope that the subcommittee and the committee 
in total will move the legislation in a speedy manner. Again, 
thank you for allowing the record, my statement to be also in 
the record.
    Senator Wyden. Senator Begich, thank you. A very helpful 
statement. I don't have any questions. Colleagues, any 
questions?
    We'll excuse you then at this time.
    Senator Begich. OK, thank you, Mr. Chairman.
    Senator Wyden. Alright. We're joined by the chairman of the 
Senate Finance Committee. We are always glad to have the 
chairman of the Senate Finance Committee here.
    I would just point out to colleagues, one of the most 
important measures that started in this committee was the 
County Payments legislation. That law simply would not be on 
the books today if it wasn't for the extraordinarily helpful 
efforts of Chairman Baucus. So with it coming up again, he 
knows we're going to be having another mountain to climb. I 
just want to appreciate all his help and he is always welcome 
in this subcommittee.
    Chairman Baucus, please proceed as you'd like.

          STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR 
                          FROM MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman. Thank 
you for that effort, frankly that was a joint Western States 
effort, helping to get, explain, convince, some of our 
colleagues in other parts of the country the importance of that 
legislation. Thank you for your hard work to help make that 
happen.
    Mr. Chairman, I'm here to speak on behalf of S. 233. What's 
that?
    S. 233 is the North Fork Watershed Protection Act of 2011. 
I'm very pleased to be joined here by my good friend, Senator 
Tester, who is also a co-sponsor in this legislation with me. I 
might diverge slightly and say, I also strongly support the 
bill that Senator Tester's going to be testifying on later 
today. It's good for Montana, especially it's good for our 
State's economy.
    Jon has worked very hard on this legislation, spent a lot 
of time all around Montana talking to all the groups. It's a 
good step forward. I hope this subcommittee can look favorably 
upon that bill because it's good for Montana and for the 
country.
    I might begin on this bill, S. 233, by explaining that when 
the Glacier National Park was created back in 1910, Americans 
enshrined an incredible natural resource in Montana and a 
little bit up into Canada. I mean, it is incredible. Frankly, a 
lot of people know about Yosemite. They know about Yellowstone. 
They don't know a lot about Glacier.
    I think Glacier is really the great treasure. In fact our 
State, we call ourselves the Treasure State. It's always meant 
more that gold and silver and forest products. When the 
Waterton National Glacier National Peace Park was created in 
1932 Canadians and Americans alike endorsed the further 
principle of partnering to protect our outdoor heritage.
    We are so lucky to be Americans. Other countries don't do 
this. We have our national parks. We have our National Forest 
Service. It is BLM lands and public lands which we protect and 
manage in a way that makes most sense for our people. So we're 
incredibly lucky to have these resources.
    It's important, especially for our kids and for our 
grandkids to be able to share all that too, in the same way 
that we do. Properly, some of it has to be managed in a way to 
produce. But some of it is managed in a way just to protect for 
future generations.
    Like many pioneering conservation efforts, all these 
initial actions, that is, Glacier Park, were not the end of the 
story. In the many decades since, this principle of endorsing 
the outdoors has been tested. But it's been reaffirmed, but 
risks remain. Today it falls to us once more to protect the 
lands around Glacier National Park.
    In this case I'm talking about the Western border. It's 
called the North Fork of the Flathead River. It flows down from 
Canada, one of the three forks into the Flathead Lake. This 
North Fork as well as the Middle Fork and South Fork are just 
as special.
    You can't believe the number of people in Montana and 
around the country, especially in the summer come to raft and 
fish and hike, ride horseback in these tributaries and also 
into the Flathead, main Flathead River and into Flathead Lake. 
So it falls upon us once again to make sure that this is 
properly protected. The million acres drained by the North Fork 
of the Flathead River are simply magnificent.
    It's very hard for me, Mr. Chairman and Ranking Member 
Murkowski, to really explain just how beautiful and special 
this place is. We all know a lot of rivers. We see a lot of 
rivers. But, you know, there are rivers and there are rivers. 
This is really a special river. You have to almost be there to 
understand what I'm trying to convey.
    I sometimes float it myself and I'm amazed. It's a fast 
flowing river. It reminds me a little bit of, Senator 
Murkowski, of the Yukon.
    Once I was on the Yukon. Just stunned by how fast flowing 
it was. How cold and clear and deep it was. It's an amazing 
river. The North Fork of the Flathead is very, very similar.
    Snow and ice of the Northwest Glacier National Park melt 
into it. The watershed, to this day, remains the way it was 
centuries ago. Montanans and others from around the country 
continually have enjoyed hunting and fishing and just 
recreating in the area.
    Back in 1975 I was a green behind the ears, mere Member of 
Congress. I introduced a bill to designate the Flathead River 
as a wild and scenic river. That's kind of where I cut my teeth 
on the North Fork. There were some folks, to be honest, 
landowners, who didn't like that designation, wild and scenic.
    I guarantee you, dollars to donuts, today they're very 
happy we produced that legislation because it has helped 
preserve that river. I began along that year to protect the 
North Fork and the larger watershed of the Flathead that I 
think it's among the most protected on the continent. No energy 
development has reached production stages in either the U.S. or 
in Canada along this watershed. It just hasn't happened.
    And despite that tradition of conservation the North Fork 
has remained vulnerable, especially as coal prices have been 
high. It's across the border up into Canada. The temptation to 
mine all that coal which was mined, I might say, years ago. As 
recently as 2004, there's roadwork in exploration for coal 
deposits in headwaters of the watershed in British Columbia.
    But today we have a rare opportunity. Based on consensus 
there's agreement here. All groups favor this. This is not a 
controversial piece of legislation, the consensus about the 
wisdom of keeping the North Fork pristine.
    The challenge of doing so is twofold.
    First, meaningful conservation requires parallel and 
commiserate actions by Canada. Canada has done that. They're 
protecting their portion up in British Columbia.
    The Premier made a throne statement. That just means it's 
pretty significant. That means it's serious. It means it's like 
legislation, not just administrative action to be repealed. 
This is, in effect, legislation, to preserve their portion of 
the river that is in British Columbia.
    Second, the complex history of Federal management requires 
a lot of independent steps. They've all been taken. I've flown 
up there, been up there, our Governor, to Vancouver, State, 
province.
    I've talked to Secretary Clinton about this. They've acted. 
Secretary Salazar, all the relevant Federal and State and 
provincial organizations have come together in agreement. In 
fact an MOU was signed between British Columbia and Montana to 
protect their side which is parallel with the Federal efforts 
in Canada, the United States to protect our side.
    Part of this really is working with the oil and gas 
industry. Early this year oil and gas--and last year too, oil 
and gas companies voluntarily relinquished 4 out of 5 leased 
acres in the U.S. section of the watershed. That is, they just 
volunteered without compensation. They volunteered.
    It's important because we are then showing the Canadians, 
we, on our side of the border are protecting. So we're ask you 
on the Canadian side to protect. These are leases that energy 
companies would never utilize. They leased the land up a long 
time ago. But they knew there would be no production. That's 
why they're relinquished.
    I commend a couple of companies who took the lead. Conoco 
Phillips, Chevron are two which owned--had most of the lease 
acreage. There are a couple minor companies and individuals 
left who haven't given up their leases yet. But for the most 
part I think it's 80 percent of the leased acreage has been 
voluntarily relinquished on the North Fork. I commend them.
    Montanans of all stripes, from business owners, local 
Chamber of Commerce, birdwatchers, hunters, anglers, all have 
endorsed this bill. Given often contentious politics of public 
lands, particularly the private endorsement of the bill by 
businesses like Pole Bridge Mercantile on the historic KM 
Building in Kalispell and energy companies, I mentioned Conoco 
Phillips and Chevron, who could otherwise stand to benefit from 
selling fossil fuels in the North Fork. The fact is this bill 
is not controversial.
    It is, to repeat, just all group supported. I don't know of 
a single person or a single group that opposes it. Why? Because 
this area is just so special. I mean, it's a no brainer.
    So we're trying to get this legislation passed in 
conjunction with the private actions just to show Canada and 
others that by withdrawing, by prohibiting future leases on the 
Federal land it does not stop energy involvement. There will be 
no energy development. No company in its right mind would want 
to develop along the North Fork of the Flathead whether it's 
private acreage or whether it's leased in public lands. It 
would just be opposed so much. It would just be such an 
outrage.
    A small anecdote. I was speaking in Montana a couple years 
ago about environmental efforts. But taking just the other side 
of the Rocky Mountains over in the East, we call it the Eastern 
Front. I was speaking at a location near Kalispell. A lot of 
people in Montana there, a lot of out of staters were there. I 
talked about the Eastern Front. Nobody seemed to care.
    I said, by the way, we're also going to protect the North 
Fork River. Just an eruption of applause. People so want to 
protect the North Fork of the Flathead River. It's that 
important to them.
    So, Mr. Chairman, the ranking member, thank you so much. 
This is just one special thing that we could do for ourselves, 
more importantly for our kids and grandkids. I just urge 
favorable treatment. I thank you.
    [The prepared statement of Senator Baucus follows:]

    Prepared Statement of Hon. Max Baucus, U.S. Senator From Montana

    Thank you, Chairman Wyden, for the opportunity to testify in 
support of S. 233, the North Fork Watershed Protection Act of 2011. I 
am pleased to be joined here by my good friend Senator Jon Tester, who 
is co-sponsoring this important bill with me.
    When Glacier National Park was created in 1910, Americans enshrined 
an incredible natural treasure in Montana. The ``Treasure State'' has 
always meant much more than mere gold or silver. When the Waterton-
Glacier International Peace Park was created in 1932, Canadians and 
Americans alike endorsed the further principal of partnering to protect 
our outdoor heritage. Yet like so many pioneering conservation efforts, 
these initial actions were not the end of the story. In the many 
decades since, this endorsement has been tested often--and re-affirmed 
each time. But risks remain. Today, it falls to us once more to protect 
the lands around Glacier National Park. The North Fork Watershed 
Protection Act of 2011 is the next and necessary step.
    The million acres drained by the North Fork of the Flathead River 
are simply a magnificent place. The snow and ice of northwest Glacier 
National Park melt into the North Fork. The watershed to this day 
remains the way it was centuries ago. And Montanans have always enjoyed 
hiking, rafting, fishing, and hunting in it.
    In 1975, I introduced the bill to designate the Flathead River as a 
Wild and Scenic River--it took one year, and I began a lifelong effort 
to protect the North Fork. The larger watershed of the Flathead River 
system is among the most protected on the continent. No energy 
development project has reached production stages in either the U.S. or 
Canadian portions of the watershed. Despite that tradition of 
conservation, the North Fork in particular has remained vulnerable at 
key points to energy development. As recently as 2004, roadwork and 
exploration for coal deposits was undertaken in the headwaters of the 
watershed in British Columbia.
    Today, we have a rare opportunity to act based on a consensus about 
the wisdom of keeping the North Fork pristine. The challenge of doing 
so is two-fold: first, meaningful conservation requires parallel and 
commensurate actions by Canada; second, the complex history of federal 
management requires several independent steps to protect the watershed.
    We are at historic moment on both fronts. First: as of last year, 
at both the state-provincial level and the national level, Americans 
and Canadians have committed to reciprocal conservation of the North 
Fork. This level of international agreement is in keeping with the 
grand history of cooperation in Glacier and Waterton. Second: as of 
early this year, oil and gas companies have voluntarily relinquished 
four out of five leased acres in the U.S. section of the watershed. I 
commend these companies, whose testimony is in the record, for leading 
the way. It is time for Congress to follow suit and withdraw these 
lands from future leasing for all energy development.
    Montanans of all stripes--business owners, birdwatchers, hunters, 
anglers, and others--have endorsed this bill. Given the often 
contentious politics of public lands, I note with particular pride the 
endorsement of this bill by local businesses and chambers of commerce, 
including the Polebridge Mercantile and the Historic KM Building in 
Kalispell, as well as energy companies like ConocoPhillips and Chevron 
who could otherwise stand to benefit from selling the fossil fuels in 
the North Fork. Some places are simply too special.
    On a continent rich in natural resources--whose extraction affords 
us a high quality of life--Americans have retained the wisdom of self-
restraint. The North Fork of the Flathead River is the beneficiary of 
that restraint. All Americans--we in this room as much as anyone--are 
the beneficiaries of that wisdom. We are rich in more than just 
resources. The North Fork is a testament to that. It is a treasured 
landscape, and this bill would keep it that way.

    Senator Wyden. Chairman Baucus, I strongly support your 
legislation. When we had our markup previously I spoke out in 
favor of it strongly. I will continue to do so. You have 
convinced me that the Glacier and the North Fork are true 
jewels of the West. We're going to get it done this time.
    As a member of your committee, I know how busy you are this 
time of year. What's your pleasure? I don't know if colleagues 
have questions.
    Senator Baucus. Oh, I'm here. I'm at your disposal, Mr. 
Chairman.
    Senator Wyden. Whatever is your pleasure? We can hear from 
Senator Tester. I don't have any questions. I am strongly in 
support of your legislation. We're going to pass it.
    Would you like to be part of the discussion with Senator 
Tester on his measure? What's your pleasure?
    Senator Baucus. This is Senator Tester's bill. I'll let 
Senator Tester handle his bill. I mentioned I strongly support 
it.
    Senator Wyden. OK.
    Senator Baucus. I don't think any Senator has worked as 
hard for good solid balanced legislation as he has.
    Senator Wyden. Very good.
    Senator Baucus. Thank you.
    Senator Wyden. Do colleagues have questions for Chairman 
Baucus?
    Alright, Mr. Chairman, thank you. Thank you, again. We're 
going to get your bill out of this committee and get it on the 
President's desk.
    Senator Baucus. But if any of you have any individual 
questions you want to ask me. I mentioned Senator, we talked 
privately about this a little bit. If you have any follow up 
questions, you know.
    Senator Murkowski. OK.
    Senator Baucus. I'm available. Thank you.
    Senator Wyden. Alright. Thank you, Chairman Baucus.
    Senator Baucus. Thank you.
    Senator Wyden. Senator Tester, welcome.
    Before you begin your presentation I just want you to know 
how much I appreciate your effort to try to bring everybody in 
Montana together on this issue. I think we are very much 
kindred spirits. We've talked about this often because I think 
Montana and Oregon are very much linked in our efforts to 
really help forge a new path with respect to forestry, you 
know, in the West.
    In our States, people just cannot afford to wait any 
longer. I mean, you have so many of these overstocked stands. 
If you don't go in there and send them out they're just magnets 
for fire.
    I want you to know how committed I am to working with you 
as you try to fine tune the legislation, work with the Obama 
administration. Because I think Oregon and Montana have an 
opportunity to pave a path to new forestry in the West. 
Forestry that is going to help show that a healthy forest 
equals a healthy economy that works for the mills that we have 
left that we want to have a promising future in areas like 
biomass.
    It also helps us protect our treasures. So please proceed 
as you like. Know that I am very much watching, you know, your 
effort which resembles what we went through on the Eastside of 
Oregon where for the first time we had timber industry and 
environmental folks standing side by side.
    So please proceed. We'll be working closely with you.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Thank you, Chairman Wyden. Chairman Wyden 
and members of the committee, I very much appreciate the honor 
to be able to present the Forest Jobs and Recreation Act with 
you today under the full scrutiny of Congress. Who knows, 
Chairman Wyden, maybe we can get even more mills established if 
we start thinking about how we can manage our forests in a way 
that's more sustainable and better for our people.
    I would like to welcome, first of all Mr. Sherm Anderson 
and Mr. Wally Congdon, to the Senate, as well as Brian Sibert, 
who is the Director of the Montana Wilderness Association. 
Brian traveled here to stand by one of his partners in this 
effort, Sherm Anderson. I'd also like to welcome Sherm's wife 
and business partner, Bonnie. I want to thank you all for 
making the journey.
    I also want to thank Mr. Harris Sherman for coming here 
today to testify on behalf of the Administration. Again, I 
don't want to preempt his testimony. But I want to thank him 
and Secretary Vilsack for their support of this jobs bill. I'd 
like to request consent to enter a letter* affirming their 
support from October 11, 2010, into the record.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    Senator Wyden. Without objection, so ordered.
    Senator Tester. Above all I would like to thank my friend, 
Senator Max Baucus, for being here earlier and his support of 
this bill. Senator Baucus knows firsthand the long history of 
the timber battles in Montana. He has seen it all. I'm glad to 
have him here today to talk about his support of this bill.
    The Forest Jobs and Recreation Act is an incredibly popular 
bill getting more supporters by the day. Just in the last month 
we've had the Chamber of Commerce of Missoula and the Montana 
AFL-CIO sign on as supporters.
    This bill was brought to me by Montanans who were tired of 
fighting over forest management, recreation and wilderness 
designation. For decades these folks, the mill owners, the 
loggers, the conservationist and the outdoorsmen, have fought 
one another. They fought and no one ever won. In fact, everyone 
lost.
    So a few years ago a few brave Montanans decided to sit at 
the same table. Anyone willing to negotiate was welcome. 
Working together they literally and figuratively mapped their 
common ground. I am very, very proud to support their effort.
    This is not a bill made by Democrats or Republicans. This 
is a bill made by Democrats and Republicans. It is product of 
three different collaborative efforts.
    One from the Northwest corner of the State in the Yaak.
    One from the Seeley District of the Lolo Forest.
    The other from the Beaverhead-Deerlodge Forest.
    These groups brought me their ideas. I talked to a lot of 
Montanans to help shape those ideas. In the summer of 2009 I 
introduced the Forest Jobs and Recreation Act.
    I said then that the bill was in its beginning phase. That 
I wanted to hear from people about the bill and incorporate 
their ideas. I heard feedback from thousands of Montanans. I 
received thousands of letters, met for hours and hours with the 
Forest Service staff and worked hard with the members of the 
staff of this committee.
    Secretary Vilsack was kind enough to visit Montana to 
discuss the bill. He toured our mills and our forests. He held 
a crowded community meeting.
    Mr. Chairman, when you add all this up, I can see that no 
bill from Montana has ever enjoyed the transparency of this 
effort. It hasn't always been an easy process. But the bill 
before this committee today is stronger as a result of all that 
work. I'm proud of the bill that we shaped by working together.
    Let me quickly recap what this bill does.
    It will put people to work in the woods creating jobs for 
the timber and restoration industry.
    It will make our beetle killed forests healthier lowering 
the risk of catastrophic wildfire.
    It will help protect our communities from catastrophic 
wildfires.
    It will improve trout and big game habitat.
    It will secure places for people and our kids and grandkids 
to enjoy the land that they own.
    The Forestry and Restoration components of the bill are 
pretty straight forward. They reflect hours and hours of 
thoughtful input that I have received since introducing this 
bill. The Forest Service will kick off one large watershed 
project per year using authorities and processes outlined in 
the Healthy Forest Restoration Act. The agency will work with 
collaborative groups to assess what is needed, what culverts or 
roads need fixing, what weeds need to be treated, what trees 
need to be harvested.
    This will go on for 15 years. Over those 15 years the 
Forest Service is required to mechanically treat 100,000 acres. 
As Secretary Vilsack said, this goal is, and I quote, 
``ambitious, but sustainable and achievable.''
    The Congress often tells the agency what it cannot do. This 
bill which is really a pilot project tells the agency what it 
should--must do. I know that the mandate in this bill has made 
some of my colleagues uncomfortable. But I can't see why 
Congress wouldn't want to give the agency the full backing of 
what the American people to say, we want you to go do good 
work, go forth and do good work creating jobs and restoring our 
National Forests because the status quo is not allowing that to 
happen. This bill is a measure of our commitment to our rural 
communities, our workers, our forests and the Forest Service 
itself.
    I'd like to take a moment to touch on what this bill will 
not do.
    It will not take away grazing permits in wilderness areas.
    It will not impact existing water rights.
    My bill clearly incorporates regulations ensuring that 
ranchers continue--can continue to operate their businesses in 
wilderness. Congress has been clear on this topic in the past. 
My bill is clear on this now.
    I not only listened to general concerns. I listened to 
specific concerns when considering ranching issues. For example 
there's language in the bill that ensures ranchers who graze in 
the Snowcress will continue to have adequate access to their 
off river watering facilities. Some of those ranchers still 
don't support this bill. That's OK. I put the language in 
because it's the right thing to do.
    This bill will not shut down motorized recreation. There 
are 6,600 miles of roads and trails on the Beaverhead-Deerlodge 
Forest alone. This bill closes fewer than 50 miles of them. Let 
me repeat that. Out of 6,600 miles of roads and trails, this 
bill closes less than 1 percent.
    For the first time in Montana's history this bill creates 
permanent recreation areas in places that have long been 
enjoyed by snowmobilers. Up in Lincoln County, for example, 
conservationists in the Troy and Libby Snowmobiling Clubs found 
their zone of agreement, which is reflected on the maps that 
accompany my bill. I'm proud of their work.
    Let me, for a moment, touch on what the bill does once 
more. I'm more interested in that.
    It creates jobs.
    It launches an important forest and watershed restoration 
program.
    It sets aside some lands for recreation.
    For the first time in 28 years, the bill protects some of 
Montana's wildest back country areas as wilderness.
    We are blessed to have wild country in Montana with clean 
water and great habitat. We should protect some of it. Not only 
for today, but for future generations.
    Mr. Chairman, this bill sets aside in transpositions and 
bitter feelings that have crippled Montana for decades. 
Montanans put down their fists and with great humility worked 
together to create something big for my State.
    It will put people to work in the woods.
    It will make our forests healthier and more resilient to 
fire.
    It will protect our finest hunting and fishing lands.
    Everyone gave a little and we'll get a lot. It deserves a 
vote. It deserves to pass. It deserves to be signed into law.
    There are two other bills before this subcommittee that are 
important to Montana also. Senator Baucus' bill, in the 
Northwest corner of Montana is the North Fork of the Flathead 
River, one of the last untouched areas in the lower 48 States. 
You know, there are just some places that we shouldn't develop. 
The watershed next to Glacier National Park is one of them.
    It's an honor to work with Senator Baucus to assure that 
the North Fork of the Flathead is protected for future 
generations by prohibiting future oil, gas and mineral leasing. 
Senator Baucus has worked for literally four decades to protect 
this watershed by stopping each new proposed mine from coal bed 
methane to gold. In February 2010, this effort got a boost when 
Montana and British Columbia signed an MOU to protect this 
watershed. I applaud Governor Schweitzer for securing this 
agreement.
    We continue to work with the Governor, the Department of 
Interior, business interests, mining interests and the Canadian 
government to make the protection permanent. We've had some 
great success. Since Senator Baucus and I last testified, over 
80 percent of the leases have been retired in the North Fork of 
the Flathead, at no cost to American taxpayers. I very much 
appreciate the efforts of the companies that have agreed to 
relinquish their leases and who support this bill.
    This spring, Senator Baucus and I have nurtured an 
agreement codifying permanent protection for this world famous 
area between the Department of Interior, the governments of 
British Columbia, Montana, Canada, as well as the Nature 
Conservancy to retire, again at no cost to the taxpayer, the 
mining claims on the Canadian side of the border. By the end of 
the year the BC government will pass a statute restricting 
development in the Canadian North Fork of the Flathead 
watershed. Now it is time to codify those good steps by 
upholding our commitment to prevent future leasing in an area 
on the U.S. side of the border.
    Protecting the crown of the continent just doesn't make 
environmental sense, it makes economic sense. The Glacier 
National Park is the core of Montana's 3.4 billion dollar 
tourism industry, an economic engine, second only to 
agriculture in our State. All kinds of businesses recognize 
this from Conoco Phillips to the Kalispell Chamber of Commerce, 
over 40 groups support this bill. I'm unaware of any who oppose 
it.
    People from all stripes support protecting this remote and 
wild landscape. Now it is our turn to solidify our commitment 
to these lands. The first step is by passing this bill.
    Finally I'd just like to say a few words about the Federal 
Land Transaction Facilitation Act, another bill on the agenda 
today that I have co-sponsored. FLTFA allows land agencies to 
dispose of low priority land and acquire in holdings from 
willing sellers. This helps the agency consolidate and manage 
their lands more effectively increasing access for sportsmen 
and protecting wildlife habitat.
    FLTFA has had a number of success stories in my State of 
Montana. This is common sense. It's good government. I urge the 
committee to permanently extend this important administrative 
tool.
    Mr. Chairman, I want to thank you for the chance to testify 
on these important bills. I look forward to working with the 
committee on their passage.
    Senator Wyden. Senator Tester, thank you very much. That's 
very helpful to get, particularly on the major bill that you've 
worked on and the effort to try to bring folks together. Your 
assessment of how it's going.
    As I say, we're going to work very closely with you so that 
we can really look to the future. Say that right now, a couple 
of States are willing to step out and show the way. Even though 
we weren't rewriting all the forestry laws in America, a couple 
States were able to break out, bring people together and show 
the way to what I call, the new forestry of the West.
    Colleagues, Senator Tester asked to sit in. I think that 
was acceptable to both sides. Would colleagues like to ask 
Senator Tester any questions about his measures?
    Senator Risch. Jon, you know what's coming. Where are we on 
Mount Jefferson? Is the Southern half of Mount Jefferson out?
    As you know the only access to it is through Idaho and it's 
very important to people snowmobiling in the wintertime in 
Idaho.
    Senator Tester. Yes. I appreciate the impact on your State 
of the Mount Jefferson issue. We have talked as well as Senator 
Crapo several times on the issue. I think that if you'd agree 
to support the bill I think we'll agree to drop Jefferson.
    Senator Risch. I can't go quite that far. However. However.
    Senator Tester. All you've got to do----
    Senator Risch. If Mount Jefferson is in, I have no choice 
but to oppose the bill.
    Senator Tester. Right. We intend on taking Mount Jefferson 
out with--due to our conversations with you and Senator Crapo.
    Senator Risch. Thank you.
    Senator Tester. I would love to have your support on this 
bill. I think----
    Senator Risch. We'll talk some.
    Senator Tester. A simple yes vote when the clerk calls the 
roll will work.
    [Laughter.]
    Senator Risch. We'll talk some more, Senator.
    Thank you.
    Mr. Chair.
    Senator Wyden. Thank you, Senator Risch. Senator Tester, 
please feel free to come on up at the dais. With that let's 
bring forward Harris Sherman and Ms. Burke, representing the 
Department of Agriculture and the Department of Interior.
    We're glad to have folks from the Administration here. We 
welcome you.
    Why don't you begin, Mr. Sherman?

   STATEMENT OF HARRIS SHERMAN, UNDER SECRETARY FOR NATURAL 
      RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Sherman. Thank you, Chairman Wyden. It's a pleasure to 
be here. My name is Harris Sherman. I'm Under Secretary at USDA 
for Natural Resources and the Environment. I understand that 
our written statements will be included for the record.
    Let me, with your permission, briefly comment on three 
bills. Then focus the majority of my time on the Sealaska 
legislation.
    First, S. 233, the North Fork Watershed Protection Act. 
USDA supports this bill and we would be happy to take any 
questions later on it.
    As to S. 375, the Good Neighbor bill, USDA generally 
supports this bill. We wish to work with the sponsors on a few 
modifications regarding contracting procedures, worker safety 
and labor law issues, but overwhelmingly we believe that it is 
an excellent program for my home State of Colorado. I've seen 
how it works. We think it is a very helpful tool overall to 
deal with these issues.
    As to S. 286, Senator Tester's Forest Jobs and Recreation 
Act, I want to initially thank Senator Tester for his 
outstanding leadership in preparing this legislation and 
bringing the parties together. Much progress has been made on 
this bill. The bill will bring important jobs to Montana. It 
will allow significant mechanical and restoration work to be 
done. It will bring new land into our National Wilderness 
systems.
    The legislation also promotes landscape scale restoration, 
stewardship contracts. It is supportive of integrated resource 
restoration. It fosters local collaboration.
    We have a few concerns with the bill which are largely 
technical which are set forth in my written testimony. We look 
forward to working with Senator Tester and the committee on 
language to address these issues.
    Now turning my attention to S. 730, the Sealaska bill. At 
the outset, we fully support Sealaska's finalization of all of 
its land entitlements. To finalize all of the associated issues 
that come with that.
    This process has gone on too long. It needs to be brought 
to closure. We believe closure will be helpful to virtually 
everyone.
    Want to thank Senator Murkowski for her leadership and her 
resolve to solve a number of these issues from prior 
legislative efforts. We appreciate that. We appreciate your 
leadership in keeping the parties talking about this, along 
with Senator Begich.
    There remain a number of very important issues where we 
need to find a common solution. A solution which will allow 
Sealaska to pursue future opportunities and one which will 
allow other important priorities to succeed, particularly the 
transition away from old growth and road less forest to second 
growth forest and restoration projects and the transition to a 
more diversified, vibrant economy for Southeast Alaska 
involving not only timber, but commercial fishing, recreation 
and tourism and renewable energy. We're pleased that the 
parties have been working together, all the parties, including 
Sealaska on addressing these more diversified economic 
opportunities.
    All of these efforts will provide jobs, jobs both native 
and non-native communities going forward. In that context our 
concern with the bill are the following.
    No. 1, the lands identified by Sealaska for timber 
development overlap to a considerable extent with lands that 
are critical to the success of the Forest Service's transition 
strategy in the next 10 to 15 years. These lands are central to 
providing local mills with sustainable, dependable wood for the 
foreseeable future. These are lands that the Forest Service has 
invested in the neighborhood of 50 million dollars to prepare 
for second growth opportunities. Since Sealaska's intention as 
we understand it, is to export most of the logs abroad, we are 
genuinely concerned about how we will meet the needs of 
Southeast Alaska's remaining mills and the value added products 
that they contribute.
    No. 2, a portion of the lands targeted by Sealaska for 
development outside of the withdrawal areas are old growth 
reserves which provide essential habitat to the goshawk and the 
grey wolf, both species of concern. The Forest Service in its 
Tongass land management plan committed to protecting these 
areas. This commitment was an important factor in the Fish and 
Wildlife Service support of the plan.
    If these lands are developed by Sealaska, we are concerned 
about the impact of the goshawk and to the grey wolf. We're 
concerned about whether this would trigger new petitions for a 
listing of the species. We're concerned about what the response 
of the Fish and Wildlife Service would be.
    No. 3, the Forest Service remains very concerned about the 
possibility of 30 new in holdings, the so called future sites 
within the National Forest. We know from experience nationally 
that in holdings are often problematic. They present 
significant access issues, boundary issues. They present 
challenges to handling and controlling impacts on and off the 
Federal lands as well as general management issues.
    No. 4, we believe that the legislation will likely 
necessitate amendments to the Tongass Land Management plan, a 
process that has proved difficult in the past. Only recently 
did the Forest Service complete the recent planning amendments 
which we were very gratified was not challenged.
    With all of this said, we are prepared to work with the 
committee, with Sealaska, with all of the stakeholders to find 
appropriate solutions to these challenges.
    Thank you very much.
    [The prepared statement of Mr. Sherman follows:]

   Prepared Statement of Harris Sherman, Under Secretary for Natural 
          Resources and Environment, Department of Agriculture

                           S. 233 AND S. 375

    Mr. Chairman, Honorable Ranking Member and members of the 
Committee, thank you for the opportunity to present the views of the 
Department of Agriculture on S. 233 to withdrawal land and mining 
interests from the Flathead River Watershed in Montana and S. 375 to 
enter into cooperative agreements with state foresters, also known as 
the Good Neighbor Forestry Act. I will open my testimony by addressing 
S. 233, followed by S. 375.
S.233: The North Fork Watershed Protection Act of 2011
    S. 233 would, subject to valid existing rights, withdraw National 
Forest System (NFS) lands located in the North Fork and Middle Fork of 
Flathead River watersheds in Montana which are primarily managed as 
part of the Flathead National Forest from location, entry and patent 
under the mining laws and from disposition under the mineral and 
geothermal leasing laws. S. 233 would also withdrawal a small amount of 
land in the Kootenai National Forest. Currently there are 39 existing 
leases or claims in the North Fork comprising 56,117 acres and 18 
existing leases or claims in the Middle Fork comprising 8,595 acres. 
The Department supports S. 233, however, I would like to clarify that 
although the Department has surface management authority concerning 
mineral operations, the management of the federal mineral estate falls 
within the jurisdiction of the Secretary of the Interior. We defer to 
the Department of the Interior on issues related to the status of the 
existing claims and leases.

                               BACKGROUND

    The Forest Service administers surface resources on nearly 193 
million acres of NFS lands located in forty-two states and the 
Commonwealth of Puerto Rico. The Forest Plan for the Flathead National 
Forest blends areas of multiple uses in the North Fork and Middle Fork 
with areas of specific or limited uses elsewhere on the Forest. Under 
current law, NFS lands reserved from the public domain pursuant to the 
Creative Act of 1891, including those in S. 233, are open to location, 
entry and patent under the United States Mining Laws unless those lands 
have subsequently been withdrawn from the application of the mining 
laws. This bill would withdraw approximately 362,000 acres from the 
operation of the locatable and leasable mineral laws subject to valid 
existing rights. This includes approximately 291,000 acres on the 
Flathead National Forest and approximately 5,000 acres on the Kootenai 
National Forest in the North Fork watershed and 66,000 acres in the 
Middle Fork watershed on the Flathead National Forest.
    The majority of North Fork and Middle Fork of the Flathead has low 
to moderate potential for the occurrence of locatable and leasable 
minerals. A portion of the Middle Fork does have an area of high 
potential for oil and gas occurrence. Much of the North Fork and Middle 
Fork was leased for oil and gas in the early 1980s. Subsequently, the 
Bureau of Land Management (BLM) and Forest Service were sued and BLM 
suspended the leases in 1985 to comply with a District Court ruling 
(Conner v. Burford, 605 F. Supp. 107 (D.Mont.1985)). Presently, there 
are no active locatable or leasable operations, including oil and gas, 
in the North Fork or Middle Fork.

                           COMMENTS ON S. 233

    We recognize the bill would not affect the existing oil and gas 
leases because they would constitute valid existing rights. We also 
recognize the bill would not change the court's order in Conner v. 
Burford requiring the BLM and Forest Service to prepare an 
environmental impact statement (EIS) under the National Environmental 
Policy Act before authorizing any surface disturbing activities on the 
affected leases.
    The Flathead National Forest and Flathead County rely on the close 
proximity of local sources of aggregate to maintain roads economically 
and as a source of building materials. We are pleased this bill would 
not preclude the removal and use of mineral materials, such as 
aggregate. The ability to continue using those local mineral materials 
would allow us to more easily maintain local roads, thus reduce erosion 
related impacts to streams and lakes in the North Fork and Middle Fork 
drainages. We appreciate Senators Baucus and Tester's strong commitment 
to protecting Montana's natural resources.
S. 375: Good Neighbor Forestry Act
    I'll now discuss S.375, which would authorize the Secretary of 
Agriculture and the Secretary of the Interior to enter into cooperative 
agreements or contracts with State foresters authorizing State 
foresters to provide certain forest, rangeland and watershed 
restoration and protection services in states west of the 100th 
meridian. Activities that could be undertaken using this authority 
include: (1) activities to treat insect infected trees; (2) activities 
to reduce hazardous fuels; and (3) any other activities to restore or 
improve forest, rangeland and watershed health, including fish and 
wildlife habitat. The bill would authorize the states to act as agents 
for the Secretary and would provide that states could subcontract for 
services authorized under this bill. The bill would require federal 
retention of decision making under the National Environmental Policy 
Act (NEPA) of 1969 (42 U.S.C. 4321et seq.). The authority to enter into 
contracts or agreements under the bill would expire on September 30, 
2019.
    We support Good Neighbor Authority (GNA) and believe our Nation's 
forests face forest health challenges, which must be addressed across 
diverse land ownerships. In these times of limited resources, it is 
important to leverage workforce and technical capacities and develop 
partnerships for forest restoration across all lands. We believe 
further study and analysis is needed to better understand the interplay 
of needs, state and federal contracting and labor law and regulation 
before expansion of the authority is authorized. Further, it is 
important to recognize that all environmental safeguards, policies and 
laws remain in place. To that end, we look forward to continuing our 
work with the committee, States, and federal agencies to develop a 
better understanding of the issues and make suggestions to improve the 
bill in a manner that meets the needs of key stakeholders.

             HOW WE USE THE CURRENT GOOD NEIGHBOR AUTHORITY

    The Forest Service has gained valuable experience using GNA in 
Colorado and Utah pilot programs over the past several years. In 
Colorado, the authority has been successfully used on 37 projects 
focused on fuel reduction activities, such as tree thinning, resulting 
in the treatment of approximately 3,900 acres on the Arapaho-Roosevelt 
and Pike-San Isabel National. Almost all of the projects in Colorado 
included some form of hazardous fuels reduction within the wildland-
urban interface, including the creation of defensible space around 
subdivisions and private residences, the creation of shaded fuelbreaks, 
treatment and salvage of insect-infested trees, the creation of 
evacuation routes and thinning. In Utah on the Dixie National Forest 
the authority has enhanced, protected and restored watersheds, 
particularly focused on rehabilitation and recovery of a burned area. 
In all, we have completed 60 projects in both Colorado and Utah.
    For example, in Colorado, Shadow Mountain Estates is a large 
subdivision (several hundred acres) that directly borders National 
Forest System (NFS) lands on the Arapaho National Forest in Colorado. 
In 2006, Shadow Mountain Estates contracted the Colorado State Forest 
Service (CSFS) to remove dead trees from within the neighborhood to 
reduce fire risk and in 2007 the subdivision requested the Forest 
Service to treat the adjoining public lands to enhance its fire 
prevention efforts. As a result of this request, the Forest Service 
entered into the Green Ridge Good Neighbor Agreement with the CSFS to 
remove hazardous fuels and create a defensible space on federal lands 
in this wildland urban interface.
    The contract to remove the trees from both private and federal 
lands was prepared, advertised and administered by the CSFS, and 
resulted in the treatment of 135 acres of NFS land. The project was 
completed in June of 2008. Shadow Mountain Estates is satisfied with 
the result, as the treated area contributes to reduced wildfire damage 
risk to the neighborhood and is aesthetically pleasing.

                 BENEFITS TO THE LAND AND RELATIONSHIPS

    The GNA was the subject of a Government Accounting Office report in 
February of 2009 (GAO-09-277). The report summarizes our experiences 
and makes suggestions for improving use of the authority. The GAO 
report found that the GNA has facilitated cross boundary watershed 
restoration and hazardous fuel removal activities.
    The GAO report notes the Forest Service's experience that the 
authority has resulted in the accomplishment of more restoration and 
protection treatments than would have otherwise been accomplished, 
particularly within the wildland urban interface. On the ground 
experience from Colorado and Utah indicates there is increased 
efficiency for both state and federal agencies, because all project 
work is done at one time, with one contract, making implementation more 
consistent. Further, the authority enhances our ability to work with 
private landowners through the State Forester to remove hazardous fuels 
on adjacent NFS lands and, perhaps most importantly, it builds greater 
cooperation among stakeholders.
    The Forest Service will continue its review of the findings and 
recommendations from the GAO and continue to improve its use of the 
Good Neighbor Authority. The Good Neighbor Authority has produced great 
results in Colorado and Utah. Its further expansion to states west of 
the 100th meridian will help meet the department's ``All Hands-All 
Lands'' approach. The USDA believes this bill has broader applicability 
to all national forests, especially in dealing with mixed federal-
private lands as long as we are maintaining existing environmental 
safeguards, polices and laws.
    We look forward to working with the Committee, States and federal 
agencies to continue to be a good neighbor and make suggestions to 
improve the bill in a manner that meets the needs of key stakeholders 
and all national forests.
    This concludes my testimony on S. 233 and S. 375. I am happy to 
answer any questions you may have on any of the bills.

                                 S. 268

    Mr. Chairman, Members of the Committee, I am Harris Sherman, Under 
Secretary of Agriculture for Natural Resources and Environment. Thank 
you for the opportunity to share the Department's views on S. 268, the 
Forest Jobs and Recreation Act of 2011.
    S. 268 directs the Secretary of Agriculture to develop and 
implement forest and watershed restoration projects on 70,000 acres of 
the Beaverhead-Deerlodge National Forest and 30,000 acres of the 
Kootenai National Forest within 15 years of enactment. The bill 
prescribes treatment methods, annual acreage targets, and standardized 
criteria to prioritize areas for restoration projects. It also requires 
consultation with an advisory committee or collaborative group for each 
restoration project implemented by the Secretary, and calls for a 
monitoring report every five years. The bill designates twenty-four 
wilderness areas totaling approximately 666,260 acres, six recreation 
areas totaling approximately 288,780 acres, and three special 
management areas totaling approximately 80,720 acres. Some of the 
designations apply to lands managed by the Bureau of Land Management 
and we defer to the Department of the Interior on those provisions.
    We appreciate the close work of the Senator's staff with the Forest 
Service to refine legislation that would provide a full suite of 
significant benefits for the people, economy, and forests of Montana 
and the nation. The continuing commitment to bring diverse interests 
together to find solutions that provide a context for restoration, 
renewal, and sustainability of public landscapes is evident in the 
legislation being considered by this Committee today.
    The Department supports the concepts embodied in this legislation, 
including collaboratively developed landscape scale projects, increased 
use of stewardship contracting, the designation of wilderness areas, 
and the importance of a viable forest products industry in restoring 
ecosystems and economies. In fact, we are currently engaged in numerous 
programs and activities on the National Forests of Montana and around 
the nation that embrace the concepts in this bill. While we support the 
concepts of the legislation, the Department has concerns regarding 
Title I which I will address later in my testimony.
    The President's FY 12 budget proposal includes an $854 million 
Integrated Resource Restoration (IRR) line-item. This integrated 
approach, similar to the landscape scale efforts envisioned in this 
bill, will allow the Forest Service to apply the landscape scale 
concept across the entire National Forest System.
    Three examples of the work we are carrying out in the spirit of 
this legislation, which IRR is intended to help us replicate, are 
underway as large-scale restoration projects on the National Forests of 
Montana: the East Deerlodge Stewardship project on the Beaverhead-
Deerlodge, developed with a local collaborative group, which is 
expected to substantially increase treated acres and harvested volumes 
based on the President's FY12 budget request; a Region-wide Long-Term 
Stewardship Contract, which will accomplish a wide range of restoration 
priorities throughout the State; and the Southwestern Crown of the 
Continent project, which will treat close to 200,000 acres on the Lolo, 
Flathead and Helena National Forests with funding provided under the 
Collaborative Forest Landscape Restoration Program.
    Efforts such as these have helped the agency and stakeholders gain 
experience in identifying the factors necessary for the success of 
large-scale restoration projects, and I acknowledge the Senator's 
incorporation of their input into this legislation. I offer our 
continued support for further collaboration on addressing remaining 
concerns to ensure that it can serve as a model for similar efforts 
elsewhere.
    Regarding the input from the Department that the Senator has 
incorporated, there are three items in the new legislation for which I 
would like to express the Department's appreciation in particular: (1) 
the incorporation of the administrative review procedures in Section 
103(d), which promote transparency and encourage proactive 
collaboration, thus resulting in better decisions and more work done on 
the ground; (2) the adjustments to wilderness area designations in 
Title II, which now more closely reflect the extensive collaboration, 
analysis and resulting recommendations of the Beaverhead-Deerlodge 2009 
Forest Plan and other forest plans; and (3) the removal of the previous 
bill's prescriptions for how the agency would meet requirements of the 
National Environmental Policy Act (NEPA), which would have likely 
resulted in greater controversy and complicated the agency's approach 
to environmental review.

                      COMMENTS ON THE LEGISLATION

    In general, and as the Department has testified to this 
Subcommittee in the last Congress, we have reservations about 
legislating forest management direction or specific treatment levels on 
a site-specific basis because it could establish a precedent leading to 
multiple site-specific laws in the future. We also recognize the 
importance of collaborative efforts such as the one which helped 
produce this legislation. These efforts are critically important to 
increasing public support for needed forest management activities, 
particularly in light of the bark beetle crisis facing Montana and 
other western states. We believe these efforts can significantly 
advance forest restoration, reduce litigation risk for these 
activities, and make it easier to provide jobs and opportunities in the 
forest industry for rural communities.
    I will now point out several specific concerns that the Department 
would like to work with the Committee and Senator Tester to address.
    One concern is the definition of mechanical treatment in Section 
102(6). The Department acknowledges the inclusion of language that 
allows fiber to be left on the forest floor after treatment only if an 
option for removal of the fiber was provided. However, while we 
acknowledge the importance of encouraging the development of woody 
biomass and other small-diameter timber markets, requiring that an 
option be provided for removing the fiber creates a barrier to using 
certain contracting methods that may be more effective in achieving the 
objectives of the bill.
    Another concern arises in Section 103(b). While the Department 
believes the acreage targets for mechanical treatments are achievable 
and sustainable, we are concerned about the precedent set by 
legislating these targets given constrained Federal resources. Further, 
the Department would not want to draw resources from priority work on 
other units of the National Forest System in order to accomplish the 
goals in this legislation. Finally, we do not want to create 
unrealistic expectations by communities and stakeholders about the 
quantity of treatments that the agency would accomplish.
    The reporting requirements in Section 103(f) raise two concerns. 
First, the requirements overlook an important opportunity to evaluate 
whether the Act's prescriptions continue to provide optimal performance 
in light of potential changes in budget trends, wood markets and forest 
health conditions. Second, the analyses prescribed by this subsection 
may be duplicative of reports required by other laws and regulations.
    Regarding Section 103(g), we very much appreciate the Senator's 
recognition of the need to maintain the agency's financial capacity to 
carry out critical forest management activities elsewhere in the 
National Forest System. We look forward to working with the Senator to 
further refine this subsection in order to achieve that outcome. 
Specifically, we are concerned that the provision as written could give 
rise to potential litigation about the appropriate allocation of funds 
among the Regions.
    Finally, the Department is concerned about several prescriptions in 
the legislation that codify scientific assumptions and value 
determinations that, while consistent with our shared vision today, may 
come to be recognized as undesirable or ineffective as new data and 
circumstances arise in the future. These include the road-density 
standards in Sections 104(a)(4) and 104(b)(3), and the INFISH 
compliance requirement in Section 104(b)(1).
    Regarding the land designations in Title II that pertain to lands 
under the jurisdiction of the Forest Service, we support the wilderness 
recommendations made in each Forest's land and resource management plan 
given the depth of analysis and public collaboration that goes into 
them. Therefore we are pleased that many of the bill's wilderness 
designations are generally consistent with those plans, and I 
acknowledge the Senator's work with the Forest Service to resolve many 
important issues that arose in this respect with the previously 
introduced legislation. We would like to address some remaining 
inconsistencies, however, particularly concerning the Mount Jefferson 
Wilderness designation in Section 203(a)(11).
    In closing, I want to thank Senator Tester once again for his 
strong commitment to Montana's communities and natural resources. We 
want to underscore our commitment to the continuing collaboration with 
the Senator and his staff, the committee, and all interested 
stakeholders in an open, inclusive and transparent manner to provide 
the best land stewardship for our National Forests.
    This concludes my prepared statement, and I would be pleased to 
answer any questions you may have.

                                 S. 730

    Mr. Chairman, Honorable Ranking Member and distinguished members of 
the Committee, thank you for the opportunity to speak with you today 
about Native land claims in Southeast Alaska. I will open my testimony 
by addressing the direction in which the Department of Agriculture 
(USDA) and the Forest Service are heading regarding economic 
sustainability in Southeast Alaska and how our vision for economic 
diversification ties into S. 730, the Southeast Alaska Native Land 
Entitlement Finalization and Jobs Protection Act.
    The USDA recognizes and supports the timely, equitable and final 
distribution of land entitlement to Alaska Native Corporations, 
including Sealaska, under the Alaska Native Claims Settlement Act 
(ANCSA). The USDA understands Sealaska's interest in acquiring lands, 
which have economic and cultural value. The USDA also recognizes and 
appreciates the improvements made as a result of work on a similar bill 
introduced last Congress. I wish to express our continued interest in 
working collaboratively with Sealaska, the Alaska Congressional 
delegation, this committee and other community partners to find an 
equitable solution that is in the public interest.
    While the USDA supports a number of the goals of this legislation, 
we continue to have a number of concerns we wish to work through with 
the involved parties. This will be the focus of my testimony.

                               BACKGROUND

    When enacting ANCSA in 1971, Congress balanced the need for a fair 
and just settlement of Alaska Native aboriginal land claims with the 
need for use of the public lands in Alaska. The approach to resolve 
Alaska Native claims in ANCSA is unique in its reliance on the creation 
of Alaska Native Village and Regional Corporations, which generally 
receive entitlement from lands located within the original Native 
village withdrawal areas. Congress defined the land entitlements of 
both village and regional corporations, but provided for some 
differentiation among corporations to consider individual village or 
region circumstances.
    One such consideration was the reduction of land entitlement to the 
village and regional corporations representing Alaska Natives in 
Southeast Alaska. The Tlingit and Haida Tribes of Southeast Alaska 
brought a ``taking'' lawsuit against the United States for land claims 
and the U.S. Court of Claims awarded damages to the tribes shortly 
before ANCSA was enacted. Recognizing this prior award, Congress 
reduced the entitlement of village and regional corporations in 
Southeast Alaska, with Sealaska receiving its entitlement only under 
Section 14(h) of ANCSA.
    Sealaska has thus far received more than 290,000 acres of 14(h) 
entitlement, with approximately 63,605 acres of ANCSA entitlement yet 
to be conveyed, based on the Bureau of Land Management's (BLM) 
estimates. Sealaska has prioritized its selections within the original 
withdrawal areas as required by the 2004 Acceleration Act, with 
approximately 138,000 acres of prioritized selections identified. The 
selections identified by Sealaska within the original withdrawal areas 
are more than sufficient to meet Sealaska's remaining ANCSA 
entitlement, but were put on hold at Sealaska's request to pursue a 
legislative alternative to select outside the ANCSA withdrawl area to 
settle their remaining entitlements.

                  SOUTHEAST ALASKA TRANSITION STRATEGY

    Since testifying last before this committee, the USDA has made 
great strides in developing approaches to diversify and sustain the 
economy in Southeast Alaska. Through a coordinated interagency effort, 
USDA is focusing with local interests on ways to provide long-term, 
sustainable support for a wide array of economic opportunities for 
Southeast Alaska communities, including Alaska Natives around second-
growth timber production, ecosystem restoration, bio-energy, ocean 
products and tourism and recreation. Tourism and recreation, as a 
whole, has been the fastest growing industry in Southeast Alaska, 
employing over 3,200 people and accounting for $109 million in wages 
and benefits. Ocean products, including fisheries and mariculture, are 
providing in excess of $234 million in wages and benefits. Furthermore, 
we see an ecosystem restoration job sector providing more than 100 jobs 
in Southeast Alaskan communities. Beyond traditional opportunities, the 
Forest Service and other partner USDA agencies are working to 
facilitate future opportunities and growth in job sectors beyond 
forestry and forest products.
    To support the communities and people of Southeast Alaska, the 
Forest Service has developed a comprehensive 5-year plan focused on a 
suite of integrated projects including timber projects in the roaded 
base, pre-commercial thinning, integrated stewardship, road and 
watershed restoration and fish and wildlife habitat improvements, all 
designed to allow managers to mix and match and meet the local needs of 
Alaska Native villages and Southeast Alaskan communities. Furthermore, 
the agency issued a contract for asset mapping to identify economic 
strengths, weaknesses, opportunities and threats to diversification 
focused on the different economic clusters identified in our contract 
with the Juneau Economic Development Council. The USDA agencies just 
completed several months of meetings with working groups comprised of 
key industry leaders, including participation by Sealaska 
representatives. The groups addressed the integration of forest 
restoration and broad economic development in the areas of forest, 
ocean, visitor and energy products. Additionally, USDA has announced 
and distributed more than $55 million last year in funding to 
communities in Southeast Alaska for an array of projects and activities 
that demonstrates our commitment to Southeast Alaska. I am optimistic 
that the USDA can promote new economic opportunities for Southeast 
communities, including Alaska Natives, beyond the traditional focus of 
roadless old growth timber harvests.
    In this broad context, the USDA has determined its stance on S. 730 
and evaluated whether it facilitates or hinders the Administration's 
goals for promoting job protection, creation, and economic 
diversification in Southeast Alaska.
    Conflict on the Tongass National Forest pertaining to the 
harvesting of old growth in roadless areas has intensified over the 
last 10-15 years. The forest has faced 18 lawsuits during this period, 
many of which were resolved through settlements or adverse judgments, 
but all of which cost valuable time and taxpayer dollars. The 
Administration recognizes a balance must be struck between many diverse 
and competing needs and we need to chart a course of action that moves 
us away from old growth and roadless area harvests sooner rather than 
later. To move us away from this conflict, we must operate on three 
primary principles 1) provide timber for local value added products; 2) 
keep the conservation strategy in the Tongas Land Management Plan and 
environmental values intact and 3) stay clear of roadless areas.
    We understand that Sealaska is interested in maintaining export of 
round logs, using a local workforce generally found in the rural 
communities of Southeast Alaska to do the harvesting and hauling. The 
Forest Service's primary interest is maintaining adequate supply of 
timber for local processing by existing mills and the jobs associated 
with those mills. This is a central aim of the transition strategy that 
the Forest Service has developed and one that is achievable if the 
Forest Service has access to a sufficient quantity of timber available 
on lands that have existing roads. The Forest Service and Sealaska have 
an interest in maintaining the loggers and other forestry 
infrastructure to support a local forest economy and both the Forest 
Service and Sealaska have an interest in moving away from the 
dependency on old growth and moving to harvesting young growth stands.
    The lands identified in S.730 represent a significant part of the 
Forest Service's roaded land base for Southeast Alaska identified in 
the Tongass Land Management Plan as suitable for timber harvest. The 
majority of the lands identified in S.730 are close to the only 
remaining medium sized mill and several smaller, local mills in the 
Tongass National Forest. The Forest Service has determined that 
approximately 64-percent of the land withdrawn and available for 
selection in section 3(b)(1) of S. 730 is within the project area for 
projects listed on the Tongass' 5-year plan. Specifically, the 
selections would impact six projects, which represent potential 
profitable sales to the medium sized mill and smaller local mills in 
the next five years. Additionally, the Forest Service has made 
substantive investments in lands identified in S. 730 through 
environmental analysis, stand management, roads, log transfer 
facilities, maintenance, trails, fish habitat restoration and others 
activities, totaling more than $50 million.
    Approximately 6,900 acres of land identified for selection in 
section 3(b)(1) support an older age class of second growth forests (50 
years and older, on productive soils). These lands include more than 
5,000 acres on Kozciusco Island and another 1,275 acres on Kuiu. These 
selections cover areas that represent the Forest Service's best, first 
entry into commercial second growth, including projects currently 
listed on the Tongass' 5-year plan.
    Ultimately, the transfer of these of these older second growth 
stands from the Forest Service to Sealaska will reduce the available 
timber supply for local mills and hamper the Forest Service transition 
to second growth in Southeast Alaska. Removing these stands also means 
that more old growth areas would be harvested longer, because it will 
take more time for the second growth stands to mature into legally 
harvestable ages. The Forest Service believes this will increase the 
potential for litigation around timber sales and thereby create 
significant uncertainty for the forest industry.
    There are a number of ways this issue could be addressed, and USDA 
is willing to work with Sealaska to find a solution that meets the 
needs of all the affected parties and is in the public interest in 
Alaska.

          CONSERVATION STRATEGY AND OLD GROWTH RESERVES (OGR)

    The Tongass Land Management Plan's conservation strategy was 
formulated around Sealaska's selections within the original ANCSA 
withdrawal areas. Old growth reserves found within the land pool 
identified in S. 730 are central to the Tongass National Forest's 
conservation strategy as outlined in its land management plan. The land 
management plan includes a comprehensive, science-based conservation 
strategy to address wildlife sustainability and viability. This 
strategy includes a network of variable sized old growth reserves 
across the forest designed to provide for connectivity and maintain the 
composition, structure and function of the old growth ecosystem.
    In 1997, the US Fish and Wildlife Service (USFWS) decided not to 
list Queen Charlotte goshawk and Alexander Archipelago wolf under the 
Endangered Species Act, based on the protective measures incorporated 
in the conservation strategy of the 1997 Tongass Forest Plan, primarily 
the network of old growth reserves and the positioning of the reserves 
across the landscape, and the existence of forested corridors between 
the reserves. The USFWS reaffirmed this finding regarding the goshawk 
in 2007, and the Department of the Interior asked the Forest Service to 
retain the Conservation Strategy in the 2008 Tongass Forest Plan 
Amendment (TLMP). These were among the main reasons why the 2008 TLMP 
Amendment kept all the major components of the conservation strategy.
    Conveyance of land selections as proposed in S. 730 will decrease 
the effectiveness of the Tongass' conservation strategy and could 
hamper the plan's ability to maintain viable populations of plant and 
wildlife species. This could lead to the need for USFWS to reconsider 
its previous determinations regarding the goshawk and gray wolf. 
Replacing the old growth reserve areas with an equal number of acres 
from somewhere else within the forest does not resolve the effects on 
the land management plan's conservation strategy; the location and 
design of the old growth reserve network is critical to the success of 
the conservation strategy. Distribution of the reserves across the 
landscape and composition of the habitat within each reserve, were 
carefully considered. Because of the potential Endangered Species Act 
issues, the Forest Service is concerned that S. 730 could increase the 
chances for litigation, which would increase uncertainty for all 
parties, including Sealaska and local mills. The USDA is willing to 
discuss mechanisms for maintaining these old growth reserves to ensure 
they remain whole.
    Although S. 730 provides that implementation of this legislation 
will not require an amendment or revision to the Tongass Land 
Management Plan (TLMP), this language would not prevent issues from 
arising during TLMP implementation. If the significant management 
assumptions and strategies that formed the basis of the plan are 
modified through enactment of S. 730, the TLMP cannot be implemented as 
currently intended.

                    FINALIZING SEALASKA ENTITLEMENT

    As the title of this legislation suggests, any legislated solution 
finalizing Sealaska's entitlement must actually resolve all of Sealaska 
entitlement issues upon enactment, such as remaining entitlement acres, 
resolve outstanding split estate issues, relinquish existing Sealaska 
ANCSA selections and removal of the original ANCSA withdrawal areas. 
This issue is significant to the Forest Service because without closure 
the agency cannot identify a stable land base and ensure that 
investments made today can be capitalized in the future.
    In that context, we also have concerns about in-holdings. Selection 
from the land categories in section 3(b)(2) (``Sites with Traditional, 
Recreational, and Renewable Energy Use Value''), in section 3 (b)(3) 
(``Traditional and Customary Trade and Migration Routes'') and in 
section 3(c) (``Sites with Sacred, Cultural, Traditional, or Historic 
Significance,'') will result in a significant number of sites and 
routes scattered throughout the forest, creating in-holdings that cause 
significant management issues including access and boundary management 
problems. It is agency policy to avoid the creation of in-holdings. 
Likewise, the elimination of such in-holdings is, and has historically 
been, one of the agency's foremost land acquisition priorities. The 
Forest Service has extended considerable public resources to acquire 
the types of in-holdings that S 730 would create. We have concern over 
the 33 in-holdings created by the new land categories in S. 730. The 
Forest Service estimates that surveying and boundary management for new 
Sealaska land selections under S. 730.
    Additionally, the escrow provision included in the legislation does 
not address the relinquishment of any rights Sealaska may have to 
escrow funds from lands within the original withdrawal area. In 
addition, S.730 is also not clear on what right Sealaska may have to 
claim escrow on the new parcels identified, which have previously been 
harvested. The USDA advocates clearly articulating the escrow account 
provisions to relinquish Sealaska's right to escrow within the original 
ANCSA identified withdrawal areas.

                 ALASKA LAND TRANSFER ACCELERATION ACT

    In line with the Alaska Land Transfer Acceleration Act of 2004, the 
USDA supports a reduced conveyance timeline. S. 730, however, only 
provides for selections under section 3(b)(1) and would penalize 
Sealaska only if it had not made its selection under section 3(c)(2) 
within 15 years. Sealaska has previously provided copies of maps, which 
identify their sites of preference. Settling on those land selections 
prior to passage of S. 730, could resolve one of USDA's primary 
concerns with S. 730.

                             PUBLIC ACCESS

    We continue to believe S. 730 will affect the Forest Service's 
ability to provide for continuous public access for subsistence uses 
and recreation on the Tongass National Forest. The legislation provides 
Sealaska the right to regulate access on certain lands where the public 
use is incompatible with Sealaska's natural resource development, as 
determined by Sealaska. The ability of the Forest Service to provide 
for access, subsistence activities and public and commercial recreation 
and tourism and will be limited by enactment of the legislation.

           SPECIAL USE PERMITS: LIABILITY AND RESPONSIBILITY

    The USDA supports Sealaska's willingness to continue to allow 
outfitting and guiding permits on lands identified in section 3(b)(2) 
(``Sites with Traditional, Recreational, and Renewable Energy Use 
Value'') for the remaining term of the existing authorizations and for 
a subsequent 10 year renewal. However, the legislation should clearly 
specify that the existing Forest Service permits authorizing these uses 
would be revoked upon conveyance of the land, that Sealaska would allow 
continued use under the same terms and conditions as provided in the 
Forest Service permits, and that the United States would not be liable 
for the actions of these permittees. As it currently stands, the 
legislation specifically exempts Sealaska from liability, but provides 
for Sealaska to negotiate terms of the permit.

            ENVIRONMENTAL MITIGATION, INCENTIVES AND CREDITS

    Section 5(b) of S.730 would expressly authorize environmental 
mitigation and incentives for land conveyed to Sealaska. The USDA 
supports these provisions, which would allow any land conveyed to be 
eligible for participation in carbon markets or other similar programs, 
incentives or markets established by the federal government.

                               CONCLUSION

    In conclusion, while USDA supports the goals of this legislation, 
we remain concerned about the consequences of the legislation, 
including its ability to actually finalize the entitlement and current 
outstanding split estate issues and the potential for the legislation 
to bring to closure the question of Sealaska's entitlement under ANCSA. 
More broadly, USDA is concerned about the impact of S. 730 on the 
supply of timber for local mills; the transition to a sustainable 
timber harvest regime focused on second-growth forests; and the 
overarching conservation strategy outlined in the Tongass Land 
Management Plan.
    However, the Department will continue to work with Sealaska and all 
the parties involved resolving these concerns and finding solutions 
that work for everyone.
    This concludes my testimony and I am happy to answer any questions 
you may have.

    Senator Wyden. Mr. Sherman, thank you. We'll have some 
questions I know in a moment.
    Ms. Burke.

 STATEMENT OF MARCILYNN BURKE, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Ms. Burke. Good afternoon. thank you for the opportunity to 
testify on behalf of the Department of the Interior and the 
Bureau of Land Management. I will provide a brief summary of 
our written testimony on each of the five pieces of 
legislation.
    S. 233, the North Fork Watershed Protection Act of 2011 
withdraws approximately 430,000 acres within the North and 
Middle Fork watersheds of the Flathead River from all forms of 
location, entry and patent under the mining laws and from 
disposition under all laws related to mineral and geothermal 
leasing. The Department of the Interior supports this 
legislation and is committed to maintaining the ecological 
integrity of Glacier National Park, one of the most noteworthy 
national and cultural treasures of our Nation. This legislation 
will help protect and preserve the important resources of the 
greater Crown of the Continent ecosystem.
    S. 268, the Forest Jobs and Recreation Act designates five 
wilderness areas on lands administered by the BLM in 
Southwestern Montana. The BLM supports these designations, and 
we appreciate the sponsor and the committee working with us 
over the last year to refine boundaries. Title I and the 
majority of title II of this legislation apply solely to 
National Forest System Lands. Accordingly, we defer to the 
Department of Agriculture on those provisions.
    S. 375 authorizes the Secretary of the Interior to enter 
into cooperative agreements or contracts with a State forester 
to provide forest, rangeland and watershed restoration and 
protection services on lands managed by the BLM. We welcome the 
opportunity to engage in efforts that can advance cooperation 
across all landowners, improve the effectiveness of 
restoration, fuels treatments and provide cost effective tools 
for managing natural resources. To date the BLM has used this 
Good Neighbor Authority to help us meet our mission on some BLM 
parcels in Colorado where we had fuels treatment work across 
the BLM, U.S. forest service lands, and private lands all under 
a single contract. The Department supports Good Neighbor 
authority and would like to continue to work with Senator 
Barrasso and the committee on the bill.
    S. 714, which would reauthorize and amend FLTFA, the 
Federal Land Transaction Facilitation Act. The Administration 
strongly supports this legislation. Over the past decade the 
Department of the Interior has used the provisions of FLTFA to 
sell lands through a process that is anchored in public 
participation and sound land use planning. Using the FLTFA 
proceeds, the BLM, the National Park Service, the U.S. Fish and 
Wildlife Service and the U.S. Forest Service have acquired 
significant inholdings and adjacent lands from willing sellers, 
which enhance and preserve America's special places.
    For example, in November 2009, the BLM used funds from this 
program to acquire approximately 4,500 acres within the Canyon 
of the Ancients National Monument in southwest Colorado. These 
in holdings encompass 25 documented cultural sites, and 
archeologists expect to record an additional 700 significant 
finds. At Zion National Park in Utah, FLTFA and LWCF moneys 
were used to acquire two, five-acre inholdings that overlook 
outstanding geologic formations that make for some of the most 
striking viewsheds in the park. These two parcels have been 
previously considered for private development.
    Finally, S. 730 would amend the Alaska Natives Claims 
Settlement Act, ANCSA, to allow the Southeast Alaska Native 
Corporations, Sealaska, to select and receive conveyance of 
Federal lands from areas of Alaska outside of the originally 
designated withdrawal areas. The Department supports the goals 
of completing ANCSA entitlements as soon as possible so that 
Alaska Native Corporations, including Sealaska, may each have 
the full economic benefits of the lands that they're entitled 
to under ANCSA.
    On behalf of the Department I'd like to thank Senator 
Murkowski and Senator Begich for their continued dedication and 
commitment on this complex issue. While the legislation 
currently as is drafted addresses several concerns that the 
Department raised during consideration of earlier legislation, 
the Administration continues to have some concerns. We look 
forward to continuing to work with Congress, Sealaska, 
community partners and all other stakeholders in order to 
fulfill the ANCSA entitlement on this very important issue. We 
defer to the Department of Agriculture on the important policy 
issues affecting the management of the National Forest lands.
    Thank you for the opportunity to testify today. I'll answer 
any questions.
    [The prepared statements of Ms. Burke follow:]

 Prepared Statements of Marcilynn A. Burke, Deputy Director, Bureau of 
              Land Management, Department of the Interior

                                 S. 233

    Thank you for the invitation to testify on S. 233, the North Fork 
Watershed Protection Act of 2011. The Department of the Interior 
supports S. 233, which would withdraw Federal lands within the North 
Fork watershed of Montana's Flathead River from all forms of location, 
entry, and patent under the mining laws and from disposition under all 
laws related to mineral or geothermal leasing. Enactment of S. 233 
would mark an important milestone in the work occurring across multiple 
jurisdictions to help preserve the remarkable resources in the Crown of 
the Continent ecosystem.

Background
    The Flathead River Basin, a key portion of an area known as the 
Crown of the Continent ecosystem, spans the boundaries of the United 
States and Canada. It includes part of the United States' Glacier 
National Park and borders Canada's Waterton Lakes National Park. These 
two parks comprise the world's first International Peace Park as well 
as a World Heritage Site. The U.S. Forest Service's Flathead National 
Forest is also located within the Flathead River watershed. The Bureau 
of Land Management manages the Federal mineral estate underlying the 
Flathead National Forest.
    Running along the west side of the Continental Divide, the North 
Fork of the Flathead River enters the United States at the Canadian 
border and forms the western border of Glacier National Park until its 
confluence with the Middle Fork of the Flathead River near the southern 
end of Glacier National Park. The North Fork watershed, a sub-basin of 
the Flathead River watershed, includes areas currently managed by the 
National Park Service, the State of Montana, the U.S. Forest Service, 
and some private landowners.
    The Flathead River Basin is recognized for its natural resource 
values, including wildlife corridors for large and medium-sized 
carnivores, aquatic habitat, and plant species diversity. The area is 
rich in cultural heritage resources, with archeological evidence of 
human habitation starting 10,000 years ago. Several Indian tribes, 
including the Blackfeet, the Salish, and the Kootenai, have a well-
established presence in the area. The area also has celebrated 
recreational opportunities, including hunting, fishing, and backcountry 
hiking and camping.
    There has been interest in protecting the Crown of the Continent 
resources for some time. On February 18, 2010, the State of Montana and 
the Province of British Columbia executed a Memorandum of Understanding 
which addresses a myriad of issues related to the Flathead River Basin 
on both sides of the U.S.--Canada border. The intention of Part I.A. of 
that memorandum is to ``[r]emove mining, oil and gas, and coal 
development as permissible land uses in the Flathead River Basin.''
    The Flathead River Basin contains Federally-owned subsurface 
mineral estate under National Forest System lands that the Federal 
government has leased for oil and gas development. At the time 
legislation was proposed in 2010, there were 115 oil and gas leases in 
the North Fork watershed that the BLM issued between 1982 and 1985. The 
leases, which cover over 238,000 acres, are inactive and under 
suspension as part of the 1985 court case Conner v. Burford. At the 
request of Montana Senators Max Baucus and John Tester, leaseholders 
have voluntarily relinquished 76 leases consisting of almost 182,000 
acres. The BLM has not offered any other leases in the Flathead 
National Forest since the Conner v. Burford litigation suspended the 
existing leases in 1985.
    The U.S. Forest Service is responsible for the surface management 
of National Forest System land; however, as noted earlier, the 
Secretary of the Interior and the BLM are responsible for administering 
the Federal subsurface mineral estate under the Mining Law of 1872, the 
Mineral Leasing Act of 1920, and various mineral leasing acts. With 
respect to locatable minerals and oil and gas resources, the Forest 
Service has authority to regulate the effects of mineral operations 
upon National Forest System resources. The BLM only issues mineral 
leases for locatable minerals and oil and gas resources upon 
concurrence of the surface management agency and always works 
cooperatively with the agency to ensure that management goals and 
objectives for mineral exploration and development activities are 
achieved, that operations are conducted to minimize effects on natural 
resources, and that the land affected by operations is reclaimed.

                                 S. 233

    S. 233 withdraws all Federal lands or interest in lands, comprised 
of approximately 430,000 acres of the Flathead National Forest, within 
the North and Middle Fork watersheds of the Flathead River from all 
forms of location, entry, and patent under the mining laws and from 
disposition under all laws related to mineral or geothermal leasing. We 
note that National Park acreage within the watershed is already 
unavailable for mineral entry. S. 233 does not affect valid, existing 
rights, including the 39 leases in the North Fork watershed that are 
suspended under the Conner v. Burford litigation. The Department fully 
supports S. 233 as it furthers the goal of preserving the important 
resources of this region.
    The Waterton-Glacier International Peace Park, which extends from 
Canada into the United States, is one of the great protected ecosystems 
on the North American continent. A 2010 World Heritage Center/
International Union for the Conservation of Nature Report noted that 
the International Peace Park is ``one of the largest, most pristine, 
intact, and best protected expanses of natural terrain in North 
America. It provides the wide range of non-fragmented habitats and key 
ecological connections that are vital for the survival and security of 
wildlife and plants in the Waterton-Glacier property and the Flathead 
watershed.'' Retaining this expanse of natural landscape in the Crown 
of the Continent ecosystem is of vital importance for providing 
ecosystem connectivity, which is essential for the growth and survival 
of plants and animals in the region. S. 233 will help accomplish this 
goal.
    The Department of the Interior is also committed to maintaining the 
ecological integrity of Glacier National Park, one of the most 
noteworthy natural and cultural treasures of our Nation. Preserving the 
region's and the park's water resources is also critical. The rich 
aquatic ecosystems provide breeding and feeding habitats for a variety 
of important species, and the Department recognizes the importance of 
maintaining critical habitat corridors when planning for resources 
uses. S. 233 will help protect and preserve the important resources of 
the greater Crown of the Continent ecosystem, including those within 
Glacier National Park.

Conclusion
    The Department supports S. 233 and commends the many parties 
involved in protecting the North Fork of the Flathead River and the 
important resources shared by the United States and Canada. We hope 
that this legislation and the efforts of the federal and state/
provincial governments add to the important legacy of conservation in 
the Glacier/Waterton Lakes area and Flathead River basin.

                                 S. 268

    Thank you for inviting the Department of the Interior to testify on 
S. 268, the Forest Jobs and Recreation Act of 2011. The Bureau of Land 
Management (BLM) supports the wilderness designations on BLM-managed 
lands included in S. 268.
    The vast majority of the designations and other substantive 
provisions of S. 268 apply to activities on National Forest System 
lands. We defer to the Department of Agriculture on those provisions.

Background
    The southwestern corner of Montana is a critically important 
biological region. Linking the Greater Yellowstone Area and the 
Bitterroot Mountains of Idaho and Montana, these areas include 
important wildlife corridors that allow natural migrations of wildlife 
and help prevent species isolation. The Centennial Mountains are 
particularly noteworthy in this regard. The diversity of wildlife 
throughout this area is a strong indicator of its importance. Elk, mule 
deer, bighorn sheep, and moose, as well as their predators, such as 
bears, mountain lions and wolves, travel through this corner of 
Montana.
    Outstanding dispersed recreational opportunities abound in this 
region as well. A day's hunting, hiking or fishing may be pursued in 
the splendid isolation of the steeply forested Ruby Mountains or in the 
foothill prairies of the Blacktail Mountains, areas largely untouched 
and pristine. For the more adventurous, Humbug Spires offers 65 million 
year-old rocks now eroded into fanciful spires, appreciated both for 
their climbing challenges as well as their scientific value.

                                 S. 268

    Title I of S. 268, applies solely to National Forest System Lands. 
Accordingly the Department of the Interior defers to the Department of 
Agriculture on those provisions. The majority of the designations in 
Title II of the bill are also on National Forest System Lands, and 
again we defer to the Department of Agriculture.
    Section 203(b) of S. 268 designates five wilderness areas on lands 
administered by the BLM in southwestern Montana: the Blacktail 
Mountains Wilderness (10,675 acres), Centennial Mountains Wilderness 
(23,700 acres), Humbug Spires Wilderness (8,900 acres), East Fork 
Blacktail Wilderness (6,125 acres), and Ruby Mountains Wilderness 
(16,300 acres). The BLM supports these designations and we appreciate 
the Sponsor and the Committee working with us over the last year to 
refine these boundaries. All of these areas meet the definitions of 
wilderness in that they are areas where the land and its community of 
life are untrammeled. These areas have retained their primeval 
character and have been influenced primarily by the forces of nature, 
with outstanding opportunities for primitive recreation or solitude. We 
continue to encourage the Sponsor and the Committee to consider 
expanding the boundaries of the Centennial Mountains Wilderness in 
order to protect this area as a single coherent corridor, thereby 
providing enhanced benefit for the genetic diversity of the fauna 
inhabiting the Greater Yellowstone Area and the Bitterroot Range.
    Furthermore, we support the transfer of administrative jurisdiction 
over the 660-acre Farlin Creek area to the Forest Service for inclusion 
in the adjoining 77,000 acre East Pioneers Wilderness Area.
    Section 205 of S. 268 proposes to fully release four BLM-managed 
wilderness study areas (WSAs) in Beaverhead and Madison counties from 
WSA management thereby allowing the consideration of a full range of 
multiple uses. In addition, in five other WSAs, some areas would be 
released from WSA status and other areas would be partially designated 
as wilderness, as noted above. In all, over 66,000 acres of WSAs are 
proposed for release, and nearly 66,000 acres are proposed for 
wilderness designation; we support these provisions.

Conclusion
    Thank you for the opportunity to testify. We look forward to 
working cooperatively with the Congress to designate these special and 
biologically significant areas in this dramatic corner of Montana as 
wilderness.

                                 S. 375

    Thank you for inviting the Department of the Interior to testify on 
S. 375, the Good Neighbor Forestry Act. The bill authorizes the 
Secretary of the Interior to enter into cooperative agreements or 
contracts with a state forester to provide forest, rangeland, and 
watershed restoration and protection services on lands managed by the 
Bureau of Land Management (BLM). The Administration supports Good 
Neighbor Authority, but we believe further study and analysis are 
needed to better understand the interplay of state and federal 
contracting and labor law and regulation before expansion of the 
authority is authorized. We look forward to working with the committee, 
States, and federal agencies to develop a better understanding of the 
issues and to improve the bill in a manner that meets the needs of key 
stakeholders. We welcome opportunities to enhance our capability to 
manage our natural resources through a landscape-scale approach that 
crosses a diverse spectrum of land ownerships.

Background
    The BLM is increasingly taking a landscape-scale approach to 
managing natural resources on the public lands. Recent drought cycles, 
catastrophic fires, large-scale insect and disease outbreaks, the 
impacts of global climate change, and invasions of harmful non-native 
species all threaten the health of the public lands. They also tax a 
land manager's ability to ensure ecological integrity, while 
accommodating increased demands for public land uses across the 
landscape. The BLM engages in land restoration and hazardous fuels 
reduction activities with interagency partners and affected landowners 
to expand and accelerate forest ecosystem restoration. The ``Good 
Neighbor'' concept provides a mechanism to facilitate treatments across 
the landscape, inclusive of all ownerships, and enhances relationships 
between Federal, state, and private land managers.
    In Fiscal Year (FY) 2001, Congress authorized the U.S. Forest 
Service to allow the Colorado State Forest Service (CSFS) to conduct 
activities such as hazardous fuels reduction on U.S. Forest Service 
lands when performing similar activities on adjacent state or private 
lands. The BLM received similar authority in Colorado in FY 2004, as 
did the U.S. Forest Service in Utah.
    The BLM used this ``Good Neighbor'' authority beginning in 2006 in 
the agency's Royal Gorge Field Office. Through an assistance agreement 
with the CSFS, the BLM accomplished a fuels reduction and mitigation 
project within and adjacent to the Gold Hill Subdivision of Boulder 
County. The Gold Hill Project treated a total of 372 acres of wildland 
urban interface consisting of 122 acres of BLM land, 27 acres of U.S. 
Forest Service land, and 223 acres of private land. All of these acres 
were identified as priorities within the Gold Hill Community Wildfire 
Protection Plan. Through the assistance agreement, the CSFS delineated 
the areas to be treated within the Gold Hill Project, managed the 
project, administered contracts, monitored firewood removal, and 
monitored forestry and fuels projects on BLM and U.S. Forest Service 
lands. No timber was harvested or sold from the BLM lands. The BLM and 
the U.S. Forest Service conducted the project planning and fulfilled 
NEPA requirements on their respective lands.
    The project area consisted of small parcels of Federal lands 
interspersed with state and private lands. Since all the landowners 
used the same State contract, treatments were accomplished concurrently 
and with consistency in treatment methods, thereby achieving hazardous 
fuels reductions across a larger area to reduce the risk of wildfire. 
Efficiencies were also realized by utilizing a single contractor to 
treat one large project area. The BLM also realized savings in 
personnel resources. Although the project area was located nearly 200 
miles from the BLM field office, CSFS personnel were in the immediate 
vicinity and were able to conduct the field work for the BLM. In 
addition, the CSFS regularly worked with private landowners in the area 
and easily gained access through the private lands to conduct work on 
the Federal lands, which allowed the work to begin quickly. Simplified 
state contracting procedures also expedited the project. The project 
was completed in 2008.
    A February 2009 GAO report examined state service contracting 
procedures regarding transparency, competitiveness, and oversight, and 
found that the state requirements generally addressed each of these 
areas. (GAO-09-277). The GAO issued two recommendations to the BLM: 1) 
To develop written procedures for Good Neighbor timber sales in 
collaboration with each state to better ensure accountability for 
federal timber; and 2) To document how prior experiences with Good 
Neighbor projects offer ways to enhance the use of the authority in the 
future and make such information available to current and prospective 
users of the authority. The BLM's Forest and Woodlands Division 
completed the final corrective action plan incorporating these 
suggestions in September of 2010.

                                 S. 375

    S. 375 provides for the Secretaries of Agriculture and Interior to 
enter into cooperative agreements and contracts with state foresters in 
any state west of the 100th meridian, to provide forest, rangeland, and 
watershed restoration and protection services on National Forest System 
land or BLM land. The success that the BLM experienced in using the 
Good Neighbor authority in Colorado as a cross-boundary management tool 
would be available under S. 375 to all BLM-managed lands throughout the 
west. The authority provided by the bill is discretionary; each BLM 
office could determine on a case-by-case basis whether or not the Good 
Neighbor authority is a desirable option. All Good Neighbor projects 
would be undertaken in conformance with land use plans and comply with 
the National Environmental Policy Act, if applicable.
    Section 3(a) of the bill would authorize the Secretary to enter 
into a cooperative agreement or contract with a state Forester. For 
clarification, the BLM suggests an amendment to the language to add 
``notwithstanding the Federal Grants and Cooperative Agreements Act.''
    The provisions in section 3(b) authorize services to include 
activities that treat insect-infected trees; reduce hazardous fuels; 
and any other activities to restore or improve forest, rangeland, and 
watershed health, including fish and wildlife habitat. There is no 
requirement that the BLM-managed lands be adjacent to state or private 
lands to be eligible for services. This expansion of authority could be 
beneficial in watershed restoration projects where state and Federal 
lands might not be immediately adjacent to one another, but are within 
the same watershed. Accordingly, this expanded authority could enhance 
the effectiveness of landscape-scale treatment.

Conclusion
    Thank you for the opportunity to testify about Good Neighbor 
Authority and S. 375. The Department of the Interior and the BLM 
welcome opportunities to engage in efforts that can advance cooperation 
of all landowners, improve the effectiveness of restoration and fuels 
treatments, and provide cost-effective tools for managing natural 
resources. I would be happy to answer any questions.

                                 S. 714

    Thank you for the opportunity to testify on S. 714, the Federal 
Land Transaction Facilitation Act (FLTFA) Reauthorization of 2011. The 
Administration strongly supports S. 714 and encourages the Congress to 
move swiftly to reauthorize the FLTFA. Over the past decade, the 
Department of the Interior has made a number of important acquisitions 
using the FLTFA's provisions. Reauthorization of the FLTFA will allow 
us to continue to use this critical tool for enhancing our Nation's 
treasured landscapes.

Background
    Congress enacted the FLTFA in July of 2000 as Title II of Public 
Law 106-248 (formerly referred to as the ``Baca Bill''). FLTFA expired 
on July 25, 2010. At that time, the balance in the FLTFA account 
(approximately $50 million) was transferred to the Land and Water 
Conservation Fund. FLTFA was reauthorized through July 25, 2011, by the 
2010 Supplemental Appropriations Act (PL 111-212). Since the one-year 
extension became law, approximately $3 million from the sale of 800 
acres of public lands has been deposited into the FLTFA account.
    Under the FLTFA, the Bureau of Land Management (BLM) may sell 
public lands identified for disposal through the land use planning 
process prior to July 2000, and retain the proceeds from those sales in 
a special account in the Treasury. The BLM may then use those funds to 
acquire, from willing sellers, inholdings within certain Federally 
designated areas and lands that are adjacent to those areas that 
contain exceptional resources. Lands may be acquired within and/or 
adjacent to areas managed by the National Park Service (NPS), the U.S. 
Fish and Wildlife Service (FWS), the U.S. Forest Service (FS), and the 
BLM. To date, approximately 26,600 acres have been sold under this 
authority and approximately 18,000 acres of high resource value lands 
have been acquired.
    The 2012 Budget includes a proposal to eliminate FLTFA's July 2011 
sunset date and allow lands identified as suitable for disposal in 
recent land use plans to be sold using the FLTFA authority. FLTFA sales 
revenues would continue to be used to fund the acquisition of 
environmentally sensitive lands and the administrative costs associated 
with conducting sales.
    The 1976 Federal Land Policy and Management Act (FLPMA) provides 
clear policy direction to the BLM that public lands should generally be 
retained in public ownership. However, section 203 of FLPMA allows the 
BLM to identify lands as potentially available for disposal if they 
meet one or more of the following criteria:

  <bullet> Lands consisting of scattered, isolated tracts that are 
        difficult or uneconomic to manage; or
  <bullet> Lands that were acquired for a specific purpose and are no 
        longer needed for that purpose; or
  <bullet> Lands that could serve important public objectives, such as 
        community expansion and economic development, which outweigh 
        other public objectives and values that could be served by 
        retaining the land in Federal ownership.

    The BLM identifies lands that may be suitable for disposal through 
its land use planning process, which involves full public 
participation. Before the BLM can sell, exchange, or otherwise dispose 
of these lands, however, it must undertake extensive environmental 
impact analyses, clearances, surveys, and appraisals for the individual 
parcels.
    Before the enactment of the FLTFA, the BLM had the authority under 
FLPMA to sell lands identified for disposal. The proceeds from those 
sales were deposited into the General Fund of the Treasury. However, 
because of the costs associated with those sales (including 
environmental and cultural clearances, appraisals, and surveys), few 
sales were undertaken. Rather, the BLM relied largely on land exchanges 
to adjust land tenure. This can often be a less efficient process.
    Once the FLTFA was enacted, the BLM developed guidance, processes, 
and tools to complete the FLTFA land sales. Working cooperatively, the 
BLM, NPS, FWS, and FS then developed guidance, processes, and tools for 
subsequent FLTFA land acquisitions. The BLM markedly increased sales 
under the program over the last few years. Recent market conditions, 
however, have led to less robust sales than earlier in the life of the 
program.
    Since it was enacted, the BLM utilized FLTFA to sell 327 parcels 
previously identified for disposal totaling 26,437 acres, with a total 
value of approximately $116.3 million. Over the same time period, the 
Federal government acquired 36 parcels totaling 18,135 acres, with a 
total value of approximately $49.2 million using FLTFA authority.
    Some lands identified for disposal and sold through the FLTFA 
process are high-value lands in the urban interface. For example, in 
2007 the BLM in Arizona sold at auction a 282-acre parcel in the 
suburban Phoenix area for $7 million. However, many of the lands the 
BLM identified for disposal prior to July 2000 that are eligible under 
FLTFA are isolated or scattered parcels in remote areas with relatively 
low value. Frequently, there is limited interest in acquiring these 
lands, and the costs of preparing them for sale may exceed their market 
value.
    Since the inception of the FLTFA, the BLM has deposited $111.7 
million into the Federal Land Disposal Account. That figure represents 
96% of the total revenues from these sales. Approximately $4.6 million 
has been transferred to the states in which the sales originated, as 
provided for in individual Statehood Acts (typically 4% of the sale 
price).
    Using the FLTFA proceeds, the BLM, NPS, FWS, and FS have acquired 
significant inholdings and adjacent lands from willing sellers, 
consistent with the provisions of the Act. For example, in November 
2009 the BLM used FLTFA funds to complete the acquisition of 4,573 
acres within the BLM's Canyons of the Ancients National Monument in 
southwest Colorado. These inholdings encompass 25 documented cultural 
sites, and archaeologists expect to record an additional 700 
significant finds. The acquisition also included two particularly 
important areas: ``Jackson's Castle,'' which is archaeologically 
significant; and the ``Skywatcher Site,'' a one-of-a-kind, 1,000-year-
old solstice marker. The following are a few additional examples of 
important FLTFA acquisitions:

  <bullet> Elk Springs Area of Critical Environmental Concern (ACEC), 
        New Mexico/BLM.--This 2,280-acre acquisition protects critical 
        elk wintering habitat.
  <bullet> Hells Canyon Wilderness, Arizona/BLM.--A 640-acre parcel 
        constituting the last inholding within the Hells Canyon 
        Wilderness, located just 25 miles northwest of Phoenix.
  <bullet> Grand Teton National Park, Wyoming/NPS.--This small (1.38 
        acres), but critical inholding within the Park was acquired and 
        protected from development.
  <bullet> Zion National Park, Utah/NPS.--A combination of FLTFA and 
        Land and Water Conservation Fund monies were used to acquire 
        two 5-acre inholdings that overlook some of the Park's 
        outstanding geologic formations. These areas were previously 
        target for development.
  <bullet> Nestucca Bay National Wildlife Refuge, Oregon/FWS.--This 92-
        acre dairy farm on the outskirts of Pacific City, Oregon, was 
        slated for residential development and was acquired to protect 
        a significant portion of the world's population of the Semidi 
        Islands Aleutian Cackling Goose.
  <bullet> Six Rivers National Forest, California/FS.--Over 4,400 acres 
        were acquired within the Goose Creek National Wild and Scenic 
        River corridor, preserving 4 miles of the river known for dense 
        stands of Douglas fir, redwoods, and Port Orford cedar.

                                 S. 714

    S. 714 would both extend and enhance the original FLTFA through 
four major changes.
    First, the bill extends the program for 10 years to July 2021. This 
change would enable the BLM to plan for and implement this program on a 
long-term basis.
    Second, under the original FLTFA, only lands identified for 
disposal prior to July 25, 2000, were eligible to be sold. S. 714 
modifies that restriction by allowing any lands identified for disposal 
through the BLM's land use planning process by the date of enactment of 
S. 714 to be sold through the FLTFA process. The Department supports 
this change, which recognizes the usefulness and importance of the 
BLM's land use planning process. However, we would recommend 
eliminating this restriction rather than simply moving the date 
forward.
    The BLM currently oversees the public lands through 159 Resource 
Management Plans (RMPs). Since 2000, the BLM has completed 75 RMP 
revisions and major plan amendments. Additionally, the BLM is currently 
involved in planning efforts on 45 new RMPs, all of which the agency 
expects to complete within the next three to four years. Planning 
updates are an ongoing part of the BLM's mandate under FLPMA. In this 
process, the BLM often makes incremental modifications to the plans, 
and identifies lands that may be suitable for disposal. All of these 
planning modifications or revisions are made in compliance with the 
National Environmental Policy Act, and are undertaken through a process 
that invites full public participation. If the enactment date is again 
utilized as the cut-off date, the BLM may, in a few years, face the 
same challenges it does with the program today. Many of the high-valued 
lands have been sold and the remaining eligible lands are isolated or 
scattered parcels in remote areas with relatively low value. 
Eliminating the restriction to provide more flexibility on the lands 
eligible for FLTFA will allow the BLM to maintain a more consistent 
program over time.
    Third, the original FLTFA allows acquisitions of inholdings within, 
or special lands adjacent to Federal units only if those units existed 
prior to July 25, 2000. S. 714 eliminates this limitation as well, and 
we support this change. In March of 2009, President Obama signed the 
Omnibus Public Land Management Act of 2009 (Public Law 111-11) into 
law, which designates or expands numerous wilderness areas, wild and 
scenic rivers, national park units, and other units of the BLM's 
National Landscape Conservation System. S. 714 will allow the use of 
FLTFA funds to acquire inholdings within these areas and areas 
designated by other legislation enacted after July 2000.
    Finally, S. 714 adds exceptions to the FLTFA in recognition of 
specific laws that modify the FLTFA with respect to some particular 
locations. The FLTFA does not apply to lands available for sale under 
the Santini-Burton Act (P.L. 96-586) and the Southern Nevada Public 
Land Management Act (P.L 105-263). S. 714 additionally exempts lands 
included in the White Pine County Conservation, Recreation, and 
Development Act (P.L. 109-432) and the Lincoln County Conservation, 
Recreation and Development Act (P.L. 108-424). Finally, a number of 
provisions of the Omnibus Public Land Management Act of 2009 (P.L. 111-
11) modify FLTFA at specific sites or for specific purposes. These 
exceptions are also captured by S. 714.

Conclusion
    Thank you for the opportunity to testify in strong support of S. 
714, the Federal Land Transaction Facilitation Act Reauthorization of 
2011. By extending the FLTFA, the Congress will allow the BLM to 
continue a rational process of land disposal that is anchored in public 
participation and sound land use planning, while providing for land 
acquisitions to augment and strengthen our Nation's treasured 
landscapes.

                                 S. 730

    Thank you for the opportunity to provide the views of the 
Department of the Interior (Department) on S. 730, the Southeast Alaska 
Native Land Entitlement Finalization and Jobs Protection Act. My 
comments are limited to the programs administered by agencies of the 
Department, including the administration of the Alaska Land Conveyance 
Program by the Bureau of Land Management (BLM). The Department defers 
to the U.S. Forest Service on the important policy issues affecting the 
management of National Forest System lands.
    S.730 would amend the Alaska Native Claims Settlement Act (ANCSA) 
to allow the Southeast Alaska Native Corporation (Sealaska) to select 
and receive conveyance of federal lands from areas of Alaska outside of 
originally designated withdrawal areas. The Department supports the 
goals of completing ANCSA entitlements as soon as possible so that 
Alaska Native corporations, including Sealaska, may each have the full 
economic benefits of completed land entitlements. While the legislation 
addresses several concerns the Department raised during consideration 
of earlier legislation, the Administration continues to have concerns. 
We look forward to working with the Congress, Sealaska, and community 
partners and interests to fulfill entitlements. Over the past year, the 
BLM has maintained an accelerated pace in administering the ANCSA land 
conveyance program; at mid-Fiscal Year 2011, the BLM has surveyed and 
patented to Native corporations 61 percent of ANCSA entitlements and 
has granted interim conveyance (all right, title, and interest of the 
federal government) on an additional 34 percent of entitlements.

Background
    The BLM is responsible for expediting federal land conveyances to 
individual Alaska Natives, Native corporations, and the State of Alaska 
under four major statutes: the Alaska Native Allotment Act of 1906, the 
Alaska Statehood Act of 1958, the Alaska Native Veterans Allotment Act 
of 1998, and ANCSA. When these land conveyances are completed, about 
150 million acres, or approximately 42 percent of the land area of 
Alaska, will have been transferred from federal to State and private 
(Native) ownership.
    ANCSA established a framework under which Alaska Natives formed 
private corporations to select and receive title to 44 million acres of 
public land in Alaska and receive payment of $962.5 million in 
settlement of aboriginal claims to land in the State. Sealaska is one 
of 12 regional corporations formed under ANCSA.

                                 S. 730

    S. 730 would amend ANCSA to allow Sealaska to select and receive 
conveyance of lands outside of the original withdrawal areas 
established by the Act in 1971; specifically, to select and receive 
conveyance of lands in the Tongass National Forest other than those 
that were originally available for selection.
    The legislation also establishes timeframes for Sealaska to 
identify and select the lands it desires and for the Department to 
substantially complete the conveyance. The Department interprets this 
as meaning an interim conveyance of the lands could be issued. Section 
4(a) of S. 730 directs the Secretary of the Interior to work with 
Sealaska to develop a ``mutually agreeable'' schedule to finalize 
conveyance.
    The Department notes that S. 730, if enacted, may set a precedent 
for other corporations to seek similar legislation for the substitution 
of new lands. We also note that the if S. 730 is enacted as proposed 
and the Tongass Forest Management Plan is modified, the U.S. Fish and 
Wildlife Service may have to review its findings not to list the 
southeast Alaska distinct population segment (DPS) of Queen Charlotte 
goshawk and the Alexander Archipelago wolf.

Conclusion
    The BLM in Alaska has made significant progress since the enactment 
of the Alaska Land Transfer Acceleration Act, which gave the BLM tools 
to expedite land conveyances. We look forward to continuing to work 
with all of the Alaska Native corporations, other agencies and 
interests to fulfill the ANCSA entitlements. Thank you for the 
opportunity to testify. I will be glad to answer any questions.

    Senator Wyden. Ms. Burke, thank you. Let's begin with 
Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Thank both of 
you for your testimony here this afternoon.
    Mr. Sherman, let me start with you. Before I begin the 
question I appreciate that both of you have committed clearly 
to finally and fully resolving the issue of the entitlement of 
Sealaska lands. I think we all recognize that this must happen.
    You state, Ms. Burke, that it is complex. We appreciate 
that. We know that full well, as do many of the folks from 
Sealaska that are seated behind you today. But I think it is 
important to recognize that it is in everyone's best interest 
that we finally come to closure on this issue and move these 
entitlements forward.
    Mr. Sherman, let me ask you. Because you have stated in 
your testimony and in your written testimony that you're 
concerned that the bill as drafted is going to take away too 
much second growth timber, that timber that is age 50 and older 
and thus, somehow or other hamper the Forest Service ability to 
transition to this young growth harvesting strategy that we're 
certainly working toward. You maintain that these lands are 
critical to this.
    If you look at the suitability standards that are out 
there, if Sealaska were able to select every single acre within 
the 80,000 acres of selection area that's outlined in the bill 
currently and we recognize that they're not going to have that 
ability because we've got acreage that is set aside for future 
sites, sacred sites and the like. But even if they were to have 
access to the full 80,000, Sealaska will still get just 13,266 
acres of old second growth which is about 9 percent of the 
149,000 acres of age 40 and older second growth that's 
currently in the forest. So in other words, the Forest Service 
retains about 91 percent of the old second growth.
    So the question is how does your plan, this transition 
plan, not have enough timber remaining to support this 
transition to the second growth strategy?
    Mr. Sherman. Senator Murkowski, just for clarification. 
You're talking about the selection outside of the withdrawal 
areas, is that correct? You're talking about Sealaska.
    Senator Murkowski. That is correct. As outlined in the 
draft that we have before us today.
    Mr. Sherman. In my discussions with the Forest Service, the 
lands that they have been targeting, targeting for suitability 
for the next 10 to 15 years for the current milling 
opportunities in Southeast Alaska are certain forests. These 
are forests which, from an older growth standpoint, may be 
older than 40 to 50 years. They may be in a range beyond 50 
years. These are the best areas for older second growth that we 
were trying to make available to local mills. They also contain 
areas of productive old growth that they were targeting for the 
next 10 to 15 years.
    These areas that they were targeting to meet the needs of 
local mills significantly overlap with those areas and what 
Sealaska has identified. So you have to be very careful in 
looking at which old growth areas and which productive--excuse 
me, which older, young growth areas you're talking about and 
the ages within that, because typically trees that are 80 to 
100 years old under the CMAI index are capable of being 
harvested. So if a tree is 40 to 50 years old that may not be 
an area that we are yet looking at. That may be an area that 
would be targeted 20 or 30 years from now.
    Senator Murkowski. What I'm still struggling with is the 
reality that under this proposal even if Sealaska were able to 
harvest the full 80,000 acres that we are talking about, which 
again, we concede we are not because we're taking off the table 
a fair amount of acreage due to the future site and the sacred 
sites. Again, it still leaves the Forest Service with 91 
percent, 91 percent of the older, second growth.
    You say, you know, I need to appreciate the overlap. 
Believe me, we appreciate the overlap because we've been 
pouring over these maps for months, if not years at this point. 
I understand the position that the Forest Service has taken 
that we want to try to transition to this second growth.
    But again, in just understanding what the Forest Service 
will have available to them even after this legislation moves 
forward and Sealaska is able to select within these areas. It 
stuns me to think that we're still in a position where you are 
saying you can't implement your plan. It causes me to wonder 
whether or not your plan is feasible in the first place.
    Let me ask you about the old growth preserves. Because you 
bring up the commitment to protect the land and mention the old 
growth preserve areas to protect the habitat for the goshawk 
and for the Alexander Archipelago wolf. The question that I 
have here, again, it seems almost basic to me when we're 
talking about protection of habitat. Within the proposal that 
we have before us now, if Sealaska selects inside their 
existing box, they're going to be disturbing about 34,000 acres 
of existing old growth, reserve habitat LUDs.
    Now you've got 34,000 acres there. But under the bill that 
we're proposing now and working through, the timber development 
areas that are open to Sealaska selection is just over 10,500 
acres contained in the old growth LUDs. So the question is, 
isn't it better from an environmental perspective and certainly 
for the critical habitat perspective to allow the proposal that 
we have before us?
    Because if Sealaska were limited to selecting within the 
box there would be more critical habitat that would potentially 
be disturbed than under the scenario that we are putting 
forward with this legislation. Would you agree?
    Mr. Sherman. Senator Murkowski, all old growth reserve 
areas are not necessarily the same. It's important that we 
first emphasize that the old growth areas within the box were 
reviewed very carefully by a team of wildlife specialists, 
State, Federal, and so forth, to anticipate if those areas were 
developed what would be the impact on these species. That was 
evaluated very carefully.
    In the meantime, with the Tongass Land Management plan, the 
areas outside of the box which were chosen for old growth 
reserve were also evaluated very carefully. Now the problem is 
within the box, as I understand it, if you develop certain old 
growth reserve areas there, there are alternate sites to which 
you could go to designate as old growth reserve which would 
help to protect the species. When you go outside of the box, 
you have very key parcels of habitat and connectivity of 
habitat which the Fish and Wildlife service have placed great 
importance on. In many of these areas we do not have 
alternative locations that we can go to, to provide comparable 
habitat that would work for the purposes that are intended.
    So we have to look very carefully at what parcels were 
focused on. What those parcels do in terms of protecting the 
species or not. Again, I think this is a subject that needs 
greater attention. It's a subject that we need to sit down and 
review very carefully with Sealaska and with wildlife experts 
because the worst thing that could happen here is that the 
species would be listed or we would have litigation over this 
issue.
    Senator Murkowski. We would certainly agree. I would have 
hoped that you would have had those full discussions as I 
believe we absolutely have this issue. I take it back toyou. 
You've got a situation where you're either disturbing 10,000 
acres or 35,000 acres.
    It would seem to me that the compromise that Sealaska has 
put forward in an effort to protect these old growth preserves, 
the proposal that Sealaska is advancing is one that, in fact, 
would provide for greater habitat protection. Thus, that should 
keep the lawsuits at bay or the listings at bay, which of 
course, is something that we would all hope that we're going to 
do.
    Mr. Sherman. If I could just respond briefly. I again would 
just urge this committee to look at this issue carefully 
because I do not believe this question of the development of 
old growth reserves outside of the box, the sites that have 
selected, there could be very significant consequences from 
doing this. We need to study this carefully with Sealaska and 
with this committee to understand what the effect of that would 
be.
    Senator Murkowski. Again, I'd like to go into the extent 
that the studies have already been conducted. It's my 
understanding that there has been significant time and effort 
to do just that. You also mention, if I may with your 
indulgence, Mr. Chairman, just a couple more questions. Because 
I know that others want to speak as well.
    The impact on the existing mills. It is one of the concerns 
as we talk about this transition from second growth to the 
young growth strategy. It is an issue that has come up. I have 
brought it up with the Secretary of Agriculture. We have had 
discussions about it.
    But our reality is that if, in fact, we are not able to 
come to a resolve with this Sealaska legislation the existing 
remnants of the timber industry in Southeast Alaska are just 
not going to survive. They won't be able to transition to this 
new strategy that we are talking about putting in place. This 
is why I think you hear the continued plea for urgency in 
resolving this because as I mentioned in my opening, the timber 
industry in Southeast Alaska is hanging on a thread.
    It's imperative that we figure out how we allow for 
Sealaska to keep working because as they keep working, they 
keep all of the other operators working too, whether it's the 
folks that are putting the explosives in or building the road 
or milling the logs. I mean, there is an effort there that is 
very, very tenuous right now. I think we all appreciate that. 
So we talk a lot about transitioning but the reality is we 
might not have anybody who makes it through that transition.
    I want to ask one last question for you. This is about the 
in holdings. This is apparently the first time that the Forest 
Service has expressed some concerns about the increase of in 
holdings within the forest. But given that the Forest Service, 
as I understand it, controls four-fifths of the Tongass, the 
Park Service has most of the remaining fifth.
    You've got 1 percent then that essentially is in private 
holdings. You've got 1 percent in native corporation holdings. 
How can Sealaska get any remaining lands under ANCSA without 
producing in holdings?
    Then, again, to take it back to either the proposal before 
us or what you would have if they were just limited to 
selecting within the existing selection boxes, if they stay 
within the existing box they've identified more than 53 tracts 
to take. But under this bill it would be 33 tracts to take.
    You bring up the issue of in holdings and yes, there are 
going to be in holdings. But there would be more if we don't 
resolve this through the suggestion that we have with this 
legislation. Again, when you're dealing with almost 100 percent 
of the area that is owned by the Federal Government, one way, 
shape or form or another, it's pretty difficult to provide for 
these entitlements without creating an in holding.
    Mr. Sherman. Senator, I think it is very important for 
Sealaska and the Forest Service to continue their dialog on 
these issues. They have been talking about these issues.
    Senator Murkowski. When you say that we continue the 
dialog, how long do we need to dialog?
    Mr. Sherman. We need to continue this. I can't set a time 
but I do think we are prepared to actively work on these issues 
with Sealaska. These inholdings typically around the country 
have proven very problematic to the Forest Service. We try to 
discourage inholdings rather than creating inholdings.
    I do think that within the box there were earlier 
evaluations of those sites, to some extent, that were 
undertaken. The Forest Service has done certain planning around 
that. I'm not an expert on which sites were selected or not.
    But we need to have a ongoing dialog with Sealaska about 
which of these sites could work or not work. Where do we have 
access issues? Where do we have boundary and liability issues?
    There's a range of questions that do come up when you 
consider in holdings. Again, I think it's important to do this 
correctly. Because if we don't we will face certain 
consequences down the road.
    Senator Murkowski. I would just suggest to you--and I have 
taken twice my time, I appreciate the indulgence of the 
chairman and the ranking member here--that we have been working 
aggressively on this legislation for the past year. It's kind 
of you to say that we need to continue the dialog. But at some 
point in time there has to be a resolve to this issue.
    You have acknowledged that. Ms. Burke has acknowledged 
that. We cannot keep just talking this to death because 40 
years have passed. Sealaska has not been able to deal with 
their entitlement issue.
    So I think the time for talking was this past year when we 
were out there seeking comment, not only from within the 
communities but from within the agencies themselves. So if 
you're truly committed to resolving this as an issue let's make 
this happen. But let's not allow this to drag out because I'm 
not going to be here 40 years from now. It's not the direction 
that we need to take.
    Mr. Chairman, thank you for letting me continue.
    Senator Wyden. Thank you, Senator Murkowski. We will be 
working with you on your legislation.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Sherman, I stated in my opening comments that I 
appreciate your support of the Good Neighbor authority. In your 
testimony you said the Good Neighbor authority has produced 
great results in Colorado and Utah. The GAO report you spoke 
about identifies numerous good things happen on the ground in 
those two States.
    You had the qualifier. You said that you believe further 
study and analysis is needed to better understand the interplay 
of needs, State and Federal contracting, labor law regulation 
before expansion of the authority is authorized. So, I mean, 
I'm puzzled here.
    Given the proven, positive results what specific, 
additional analysis is really needed and what don't we know 
that we need to find out?
    Mr. Sherman. Senator Barrasso, I don't think this will 
involve an extensive analysis. But I think there needs to be 
some further discussion. These are Federal lands. They're 
Federal contracts. They're Federal agencies that are involved.
    Yypically when we do work on Federal land we utilize 
Federal labor and wage and safety mechanisms and regulations 
and so forth. So the question arises as to how we would apply 
those in these types of cases. We need to review.
    As we take a pilot program and move it from two States to 
16 States, this question comes up. We need to sit down with you 
and others and talk about how we would incorporate these laws 
and regulations into whatever work we do with State foresters.
    Senator Barrasso. Is that analysis being done now? There 
are things happening on the ground in Wyoming. We would like to 
get this addressed immediately. It just seems that delay after 
delay with the pine beetle and other issues that----
    Mr. Sherman. I think it's incumbent upon us to work 
actively with you in the immediate future to address these 
questions.
    Senator Barrasso. We'd appreciate that. Because I don't--do 
you know of any labor law violations or contractual concerns 
that have taken place in either Utah or Colorado?
    Mr. Sherman. I am not aware of any specific situations that 
have come up. I haven't contrasted their State laws with 
Federal laws. But I think we can get to the heart of this 
quickly and come up with a solution.
    Senator Barrasso. I'd appreciate that so we can move ahead 
in a quick way. I don't want to be in the same situation as 
Senator Murkowski, talks about the years of delay even though 
that the discussion continues.
    So I'd have the same question for you Deputy Director 
Burke. Your testimony, I kind of came to the same conclusion. 
You were very positive about the program but you said further 
study and analysis is needed to better understand the interplay 
of some of these things.
    I'm trying to find out why we're keeping a successful 
program from being a useful tool in landscape management today. 
So any additional thoughts on what your time would be and it 
would all work together on this?
    Ms. Burke. Senator Barrasso, it is not our intent to delay. 
What we do believe is a very useful tool. I mean, our ability 
to manage the landscape effectively.
    While we echo the concerns that the Department of 
Agriculture has noted, we are eager to work with you to move 
this Authority forward.
    Senator Barrasso. This is, kind of, the third Congress that 
I brought this piece of legislation. So I'd hope that we could 
truly move ahead in an expeditious manner.
    Some of the bills that we're looking at today and looked at 
last time we considered previously, in previous Congress, and 
so most of the testimony we heard last week or this week is 
somewhat repeated. Could both of you just provide me with some 
analysis of each of today's bills showing how they may have 
changed from the last session? Because there have been some 
changes in the bills from the last session.
    Not right now, but get some written response on that.
    I wanted to ask also about the issue of wilderness 
designation. That has a significant impact on local economies 
and the way of life in Western communities. So, Mr. Sherman, I 
want to talk to you about S. 268, based on a collaboration.
    It was written in a collaboration between the timber 
industry, environmentalists. You know, I always have concerns 
that there may be other groups out there. Such as snowmobilers, 
ranchers, who may have strong reservations about S. 268 and the 
impact that it will have on the local economy.
    I know in the third panel we're going to hear testimony. I 
was reading through the testimony of Walter Congdon from 
Montana Cattlemen's Association in Southwestern Montana. It's 
interesting testimony because he actually goes through the bill 
line by line and said, you know, add these words or take these 
words. It was very impressive work done.
    He has some suggested changes. I'm wondering if the agency 
sees a need to reach greater consensus before the bill moves 
forward?
    Mr. Sherman. I think it's important to try to find 
consensus and collaboration where we can. My understanding is 
that progress has been made on that. This exchange between 
Senator Tester and Senator Risch seems to indicate that there 
has been progress there. Hopefully that eliminates some of 
these ongoing concerns.
    Senator Barrasso. Then a final question has to do with 
costs of implementing both S. 268 and S. 220, which was the 
chairman's bill from last week. The impact that may have on 
other National Forests because both of these bills include 
large authorizations to pay for the timber sales to be produced 
by the Forest Service. The bills also include language stating 
the funding can't be taken from other forest regions to pay for 
the new timber to be produced.
    So last week Mary Wagner testified that the Forest Service 
had budgeted approximately 13 million dollars a year, I think, 
for the timber sale program in Eastern Oregon. But S. 220 
called for a $50 million authorization to pay for the timber 
sales. Then S. 268 calls for, I think, 7,000 acres of 
harvesting a year for 15 years.
    So I'm trying to picture this and figure out how much 
funding does the region receive for the current timber sale 
program on the forests involved? In these bills, if they're 
signed into law as currently written, how is the agency going 
to meet commitments it's making by testifying in favor of this 
bill verses that bill? How is the money going to work, you 
know, are there other non timber programs which will be used to 
fund this new timber sale commitment that you're agency has 
testified in favor of?
    I'm just trying to see if you've, kind of, pictured the 
whole thing together?
    Mr. Sherman. We obviously will need to have appropriate 
budgetary allotments to do the work that is intended in these 
bills. In the case of 268, it does provide that the resources 
are not going to be taken from other regions. But it is our 
hope that through the President's 2012 budget with the Forest 
Service that we will get sufficient resources to do good work 
under both of these bills.
    But it is dependent upon our receiving sufficient budgetary 
allocations to make this work happen.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague. Just so we're clear on 
this point. We got into it with respect to my legislation as 
well, the Eastside Forest bill has exactly the same language 
that we're talking about with Senator Tester.
    What I think is particularly important as we try to go 
forward with a couple of these major demonstration efforts. 
Mary Wagner outlined this, I think, very clearly, very 
succinctly. We are going to be building on work that is already 
being done.
    In other words this is not an effort to somehow unravel a 
variety of projects that are already taking place in a 
collaborative area. This is an effort to in effect build on 
what is already taking place. I know you share that view, Mr. 
Sherman. Mary Wagner laid it out very well.
    We'll be working very closely with Senator Barrasso on that 
point. It's an important one for the West.
    We've got Senator Tester here. We welcome him. Please go 
ahead with the questions that you'd like to ask, Senator 
Tester.
    Senator Tester. Thank you, Mr. Chairman. I appreciate your 
flexibility. Before I ask, Mr. Sherman, a question I would just 
to respond to Senator Barrasso's concerns.
    It's been a session or two since I was on this committee, 
but the last time I was on this committee the Forest Service 
spent about half their budget fighting fires. I would submit 
that this bill, enacted properly, could actually save money. 
Not only from a management standpoint, but also we have gone in 
the last 20 years from 26 mills, down to seven. That's a loss 
of an economic base that's critical for an area that's between 
15 and 25 percent unemployment. So we've got some opportunities 
to move the ball forward.
    Mr. Sherman, appreciate both of you and Ms. Burke being 
here today. Appreciate your testimony from both of you.
    Mr. Sherman, from what I've heard in your testimony from 
the Secretary's letter that I talked about in my opening 
statement. From the Secretary's visit to Montana last year 
would it be fair to say that the USDA is supportive of my 
effort in Senate bill 268, the Forest Jobs and Recreation Act?
    Mr. Sherman. Senator, we are very supportive of the 
concepts and the goals in this bill. We are excited about 
moving forward on a number of these projects, as we are doing. 
A lot of the work that we're doing in 2011/2012 is in the 
spirit of what you're talking about in this legislation. We 
want to continue to complete our work with you on these few 
remaining issues that there are.
    Senator Tester. I appreciate that. Just kind of a follow up 
because you brought up a follow in to my next, a lead to my 
next question and that is, is it the Forest Service is starting 
to work toward some of the goals of this bill as we speak. Can 
you give me a little more information about what kind of region 
wide, long term stewardship contracting you folks are moving 
toward as we speak?
    Mr. Sherman. Yes. For example, in the Beaverhead-Deerlodge 
area during FY 2012 we are projecting work on a 5,200 acre 
parcel which is a 42 percent increase in restoration acreage on 
the forest and a 67 percent increase resulting in the volume 
that would be coming off that forest. With the Southwest Crown 
of the Continent we would be, through the CFLRA moneys that 
have been allocated, we would be more than tripling the 
restoration acreage and resulting volumes.
    So that's the scale and the scope of work that we are 
hoping to do under the President's FY 2012 budget.
    Senator Tester. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman. As I said in my opening remarks I hope we can get 
this bill through this committee. I know you have a bill with 
some of the same goals.
    Hopefully we can get that through at the same time. Get it 
to the Senate floor. Get a good solid vote on both of them. 
Hopefully get them to the President's desk and give the Forest 
Service some tools by which to manage our forests in a more 
realistic way.
    Thank you.
    Mr. Sherman. Thank you.
    Senator Wyden. Thank you, Senator Tester. Mr. Sherman, I 
would only say and we've discussed this that there is no 
question that the challenges of new forestry are going to be 
nationwide. There's no question about that.
    If we were starting from scratch, if we were sitting there 
with a fresh slate. There wasn't anything on the books one 
would look at the organic, you know, statute and one would seek 
to write a bill with sufficient flexibility so that Montana 
could go forward with its approach and Oregon could go forward 
with its approach. The challenge, of course, is we don't have 
that kind of time.
    You look at the Eastside of Oregon. I think Senator Tester 
feels the same way. We have a handful of mills left on the 
Eastside of Oregon.
    If we lose that infrastructure it is lights out on much of 
the rural economy of my State. We won't have the 
infrastructure, for example, to go forward with the ground 
breaking opportunities we have in terms of environmental 
protection. I said this morning it was a program on alternative 
fuels. People wanted to talk mostly about vehicles. But I'm not 
going to go to any program on alternative fuels and not talk 
about biomass.
    Oregon is part of this project. We're looking to be the 
Saudi Arabia of biomass. We're going to have some opportunities 
by, in effect, bringing forward this new, sort of, approach. I 
call it a healthy forest can equal a healthy, you know, economy 
that I think is going to be very, very helpful for the agency 
in the years ahead.
    So we'll be following up with you on that, both the Montana 
bill and the Oregon bill. We've appreciated your working with 
us. Let's let you have the last word on these issues should you 
choose to.
    Mr. Sherman. Senator, I think all of us at USDA and the 
Forest Service share your feeling about the urgency of moving 
forward in the areas that we're talking about. So we look 
forward to working with you. I'm sure we'll be discussing many 
of these issues in the near future with the committee and 
moving these bills forward in a way that works for everyone.
    Thank you.
    Senator Wyden. Very good. Ms. Burke, did you have anything 
you wanted to add?
    Ms. Burke. No, thank you.
    Senator Wyden. Alright. We thank you both. We'll excuse you 
both at this time.
    Let's see. We have one panel of folks from Alaska and 
Montana. We want to welcome them.
    Mr. Mallott, Ms. Poelstra, I hope I'm pronouncing that 
right, Mr. Sherman Anderson and Mr. Wally Congdon.
    We're glad all of you are here. Folks from other parts of 
the country often don't understand what a long trek it is to 
make it from the West to the Capitol. I was home last weekend 
and I was counting it up on Monday. I spent almost as much time 
in the air as I was able to spend on the ground at home. so we 
really appreciate everybody coming out.
    We're going to make your prepared remarks a part of the 
hearing record in their entirety. So if you could summarize 
your principle views. I know my colleague from Alaska and my 
colleague from Montana are going to have questions for folks. 
We'll make your prepared statements a part of the record.
    So why don't we begin with you, Mr. Mallott.

STATEMENT OF BYRON MALLOTT, BOARD MEMBER, SEALASKA CORPORATION, 
  JUNEAU, AK; ACCOMPANIED BY JAELEEN ARAUJO, SEALASKA GENERAL 
                            COUNSEL

    Mr. Mallott. Thank you, Mr. Chairman. I'd like to mention 
joining me at the table is Jaeleen Araujo, who is Sealaska's 
General Counsel, who is also a tribal member shareholder and 
she'll be able to assist me.
    Senator Wyden. Very good.
    Mr. Mallott. OK. You can't help but be influenced by what 
one hears during a hearing already like this that has mentioned 
legislation that is truly important to you. So my remarks are 
going to be a bit different than I had originally planned.
    I attended, this past weekend, the gathering at the mouth 
of the Alsek River in the Tongass National Forest and the 
Glacier Bay National Park. The river essentially bisects Forest 
Service and National Park lands. The purpose of the gathering 
and I must say, hosted by the National Park Service and the 
U.S. Forest Service, who are very gracious and supportive and 
provided significant assistance, was to celebrate the finding 
after a century of loss of a clan village, the people of Dry 
Bay, the Delta of the Alsek River.
    In the past 5 years, five tribal houses, clan houses, were 
found, at least the archeological remains. The houses were 
identified by name. The stories that relate to them are still 
extant within our oral tradition, our oral history. The 
celebration was to recognize that something hugely important 
had been brought back.
    I mention that because in past hearings I have had the 
opportunity to appear and I have worn, for example, this vest 
and this pendant which is indicative, which represents my clan 
symbol. Some have jeered at that and said why is that done in 
this day and age and done so in the press in relation to the 
Sealaska bill.
    There was a time, Mr. Chairman, when in 1908 the U.S. 
Government created the Tongass National Forest. Just this 
Sunday, we had one of our revered leaders, Walter Soboleff, who 
was born in 1908 pass away. He lived that entire span.
    I've had the opportunity to sit with him many, many times 
and discuss the history of our people on this land. We say that 
the Tongass is native land. When we say that, we do not say 
that it is exclusively native land. We would not say that.
    We are citizens of the United States. We recognize that. We 
take that obligation very seriously. We have a huge sense of 
responsibility to our place and our commitment to this Nation. 
We know that we share the Tongass.
    But at a powerful fundamental level the Tongass is a native 
place. Centuries and generations and literally millennia of the 
history of our people live in that land. We have seen our 
people, particularly from 1900 on, literally ripped from that 
land, the creation of the Tongass National Forest, the passage 
of a territorial, much ballyhooed, citizenship bill for Alaska 
native people relating largely to Southeast in which a native 
could become a citizen of the United States only if he or she 
gave up, consciously, all vestiges of who they were as native 
people.
    That has been replete in our history. Mr. Chairman, I was 
there during the 1970s when ANCSA was created. It is no 
accident that Sealaska has only received some 300,000 acres 
available for selection within the Tongass National Forest 
because at the time there was a thriving timber industry which 
I wish that we had today. But there was no room for native 
interests other than that very miniscule, modest, less than 1 
percent, at the time.
    Over the years the circumstances have changed. They've been 
modified. What we seek today is lands that are in recognition 
of a current reality. To be responsive, not just to our own 
needs, but to the needs of this country when we talk about 
transitioning to second growth, when we talk about meeting the 
needs of the timber industry which very soon could disappear 
without an infusion of timber. To us, as native peoples, the 
Tongass is a native place in which our true worth, the 
fundamental respect, the fundamental recognition of the fact 
that we were there first. It's not by way of saying do 
something special for us, but just a simple recognition, a 
sense of respect.
    I was at a gathering in Hawaii very recently. In every 
instance, principle speakers, Mr. Chairman, recognized and 
acknowledged and thanked the host culture.
    Senator Wyden. I don't want to interrupt you at this point.
    Mr. Mallott. Right.
    Senator Wyden. But I know you're over time. We've got these 
other witnesses.
    Mr. Mallott. Then I'm going to close very quickly.
    Senator Wyden. Wonderful.
    Mr. Mallott. OK.
    Recognize that host culture and thank them. A fundamental 
sense of respect and recognition that I believe is powerfully 
involved in this legislation. If passed will allow us to move 
on in ways that we never, thus far, been able to do. Thank you.
    [The prepared statement of Mr. Mallott follows:]

      Prepared Statement of Byron Mallott, Board Member, Sealaska 
                   Corporation, Juneau, AK, on S. 730

    Chairman Wyden and Members of the Subcommittee:
    My name is Byron Mallott, and I am a Board Member for Sealaska 
Corporation, as well as a former President and CEO of Sealaska. I am 
from Yakutat, an Alaska Native village, and I am Shaa-dei-ha-ni (Clan 
Leader) of the Kwaashk'i Kwaan. My Tlingit name is K'oo deel taa.a.
    I want to thank you for the opportunity to testify on behalf of 
Sealaska, the regional Alaska Native Corporation for Southeast Alaska, 
regarding S. 730, the ``Southeast Alaska Native Land Entitlement 
Finalization Act,'' a bill that we refer to as Haa Aani in Tlingit, 
which roughly translates into ``Our Land'' or ``Our Place''. ``Haa 
Aani'' is the Tlingit way of referring to our ancestral and traditional 
homeland and the foundation of our history and culture.
    Sealaska is the Alaska Native Regional Corporation for Southeast 
Alaska--one of 12 Regional Corporations established pursuant to the 
Alaska Native Claims Settlement Act (``ANCSA'') of 1971. Our 
shareholders are descendants of the original Native inhabitants of 
Southeast Alaska--the Tlingit, Haida and Tsimshian people. Our 
ancestors once used and occupied every corner of Southeast Alaska and 
our cultural and burial sites can be found throughout the region. This 
legislation is a reflection of the significance of Our Land to our 
people and its importance in meeting our cultural, social and economic 
needs.
    Forty years ago, as a young man, I traveled to Washington, DC as an 
advocate for the land claims of Alaska's Native people. Here I am 
again, forty years later, advocating for the equitable completion of 
Sealaska's land entitlement.
    This legislation involves less than 85,000 acres from the Southeast 
Alaska region, a region with almost 23 million acres of land; 85% of 
that land is already in some form of conservation, wilderness or other 
protected status. Putting the Sealaska legislation in perspective, 
Sealaska's remaining land entitlement represents about one third of one 
percent of the total land mass in Southeast Alaska.
    Yet this legislation also represents a significant opportunity for 
the public, Congress, the Administration, communities, environmental 
organizations and others to get it right for once in the Tongass. S. 
730 achieves environmental balance, sustains jobs, ensures that Native 
people are viable participants in our economy, and returns important 
cultural and economic lands to Southeast Alaska's Native people.
    S. 730 fulfills the promise of ANCSA because it:

  <bullet> allows Sealaska to finalize its ANCSA land entitlement in a 
        fair, meaningful way;
  <bullet> redresses inequitable legal limitations on Sealaska's land 
        selections by allowing it to select remaining entitlement lands 
        from outside of withdrawal areas that, among the regional 
        Alaska Native Corporations, uniquely constrained Sealaska;
  <bullet> allows for Alaska Native ownership of sites with sacred, 
        cultural, traditional and historic significance to the Alaska 
        Natives of Southeast Alaska;
  <bullet> creates the opportunity for Sealaska to support a 
        sustainable rural economy and to support economic and job 
        opportunities throughout Southeast Alaska;
  <bullet> results in environmental benefits to the public because high 
        conservation value lands important for sport and commercial 
        fisheries, old growth wildlife reserves, areas important for 
        local subsistence use and municipal watersheds will remain in 
        public ownership; and
  <bullet> provides a platform for Sealaska to continue to contribute 
        to the Southeast Alaska economy, a region that is struggling 
        overall, especially in our rural Native villages.

    As discussed in detail in my testimony below, there is a 
compelling, equitable basis for supporting this legislation. There is 
no dispute that Sealaska has a remaining land entitlement, and this 
legislation does not give Sealaska one acre of land beyond that already 
promised by Congress. Sealaska has worked closely with the timber 
industry, conservation organizations, tribes and Native institutions, 
local communities, the State of Alaska, and federal land management 
agencies to craft legislation that provides the best possible result 
for the people, communities and environment of Southeast Alaska.
    One thing has become extremely clear in our effort to resolve 
Sealaska's land entitlement--that every acre of Southeast Alaska is 
precious to someone. With the vast array of interests in Southeast 
Alaska, there is simply no way to achieve an absolute consensus on 
where and how Sealaska should select its remaining entitlement. 
However, we truly believe that this legislation offers a balanced 
solution as a result of our engagement with all regional stakeholders.

                              OUR DILEMMA

    Alaska Native Corporations were tasked by Congress in 1971 with 
supporting the economic future of the Alaska Native community, in part 
by utilizing lands returned by the United States to Native people to 
develop resources that would advance the social, economic and cultural 
well-being of our tribal member shareholders.
    We believe that Congress' core promise to Alaska Natives in ANCSA 
was that Alaska Natives would be able to develop sustainable economies 
so that we could work to achieve, for ourselves, economic parity with 
the rest of America. Socio-economic parity was a focal point of Alaska 
Natives and the Land, a congressionally-mandated study published in 
1968, which was a foundational predicate for Congress to act on Alaska 
Native land claims.
    Sealaska has utilized some of its land base to develop timber 
resources. Of the 290,000 acres Sealaska has received under ANCSA, 
Sealaska has harvested timber on 189,000 acres in accordance with 
modern forestry and forest engineering best management practices that 
protect water quality, anadromous fish habitat, wildlife habitat, 
forest soils, and the long term productivity of the forest. Selective 
harvesting and even-aged harvesting has been employed. Less than half 
(81,000 acres) of managed forest lands have been clear cut (even-aged 
harvest). Sealaska's timber business has been a powerful economic 
engine that has helped to support the regional economy for 30 years, 
and seventy percent of Sealaska's timber revenues have been shared with 
more than 200 Alaska Native Corporations, as required under sections 
7(i) and 7(j) of ANCSA. Sealaska and its subsidiaries and affiliates 
expended over $45 million in 2008 in Southeast Alaska. Over 350 
businesses and organizations in 16 Southeast communities benefit from 
spending resulting from Sealaska activities. Sealaska provides over 363 
full and part-time jobs with a payroll of over $15 million. Including 
direct and indirect employment and payroll, Sealaska in 2008 supported 
490 jobs and approximately $21 million in payroll. Wherever it selects 
the land, Sealaska may choose to utilize some of its remaining 
entitlement to support sustainable forestry with a timber rotation that 
could sustain hundreds of jobs in our region, in perpetuity, while 
protecting important forest resources.
    Unlike the other eleven Regional Native Corporations, Sealaska was 
directed to select the entirety of its entitlement lands only from 
within boxes drawn around just ten of the Native villages in Southeast 
Alaska. Forty-four percent of the ten withdrawal areas is comprised of 
salt water, and multiple other factors limit the ability of Sealaska to 
select land within the boxes. This has made it difficult to make 
equitable selections. No other Regional Corporation was treated in this 
manner under ANCSA.
    To date, Sealaska has selected 290,000 acres of land under ANCSA 
from within the withdrawal boxes. Based on Bureau of Land Management 
(``BLM'') projections for completion of the Section 14(h)(8) 
selections, and our own estimates, the remaining entitlement to be 
conveyed to Sealaska is between 65,000 and 85,000 acres of land. The 
only remaining issue is where this land will come from. Of the lands 
available to Sealaska today within the ANCSA withdrawal boxes:

  <bullet> 270,000 are included in the current U.S. Forest Service 
        inventory of roadless forestland;
  <bullet> 112,000 acres are comprised of productive old growth;
  <bullet> 60,000 acres are included in the Forest Service's inventory 
        of old growth reserves; and
  <bullet> much of the land is comprised of important community 
        watersheds, high conservation value areas important for sport 
        and commercial fisheries and/or areas important for subsistence 
        uses.

    The Sealaska legislation allows Sealaska to move away from 
sensitive watersheds and roadless areas, to select a balanced inventory 
of second growth and old growth, and to select most of its remaining 
ANCSA lands on the existing road system, preserving on balance as much 
as 40,000 acres of productive old growth, much of which is inventoried 
``roadless old growth''.

                 WHY IS SEALASKA CORPORATION DIFFERENT?

    A common misperception of the Sealaska bill is that Sealaska is 
required to select its Native lands from within the 10 withdrawal areas 
in Southeast Alaska because Sealaska ``asked for it''. This perception 
is reflected in opinion pieces in Alaska newspapers and has been shared 
with Members of the House and Senate Committees of jurisdiction. We 
therefore believe this misconception should be addressed here.
    ANCSA authorized the distribution of approximately $1,000,000,000 
and 44,000,000 acres of land to Alaska Natives and provided for the 
establishment of 12 Regional Native Corporations and more than 200 
Village Corporations to receive and manage the funds and land to meet 
the cultural, social, and economic needs of Native shareholders.
    Under section 12 of ANCSA, each Regional Corporation, other than 
Sealaska, was authorized to receive a share of land based on the 
proportion that the number of Alaska Native shareholders residing in 
the region of the Regional Corporation bore to the total number of 
Alaska Native shareholders, or the relative size of the area to which 
the Regional Corporation had an aboriginal land claim bore to the size 
of the area to which all Regional Corporations had aboriginal land 
claims. While each other Regional Corporation received a significant 
quantity of land under section 12 of ANCSA, Sealaska received land only 
under section 14(h) of that Act.
    Sealaska did not receive land in proportion to the number of Alaska 
Native shareholders, or in proportion to the size of the area to which 
Sealaska had an aboriginal land claim, in part because, in 1968, some 
compensation was provided to the Tlingit and Haida Indians by the U.S. 
Court of Claims, which determined that the Tlingit and Haida Indians 
were entitled to recover $7.5 million for the taking of the 17 million 
acre Tongass National Forest and 3.3 million acre Glacier Bay National 
Park.
    The 1968 Court of Claims payment should be viewed in context with 
the universal settlement reached by Congress just three years later 
that allowed for the return of 44 million acres to Alaska's Native 
people. With a population that represented more than 20 percent of 
Alaska's Native population in 1971, Southeast Alaska Natives ultimately 
will receive title to only 1 percent of lands returned to Alaska 
Natives under ANCSA.
    Moreover, the 1968 settlement provided by the Court of Claims did 
not compensate the Tlingit and Haida for 2,628,207 acres of land in 
Southeast Alaska also subject to aboriginal title. These lands became 
an important basis for the participation of the Southeast Alaska 
Natives in the settlement in 1971. The court also determined the value 
of the lost Indian fishing rights at $8,388,315, but did not provide 
compensation for those rights. These rights were pursued through a 
property claims action before the Indian Claims Commission, originally 
filed in 1954, but there was no decision on the merits when ANCSA 
passed in 1971. The Commission subsequently ruled that ANCSA 
extinguished such claims and the proceeding became a moot.
    Sealaska ultimately would be entitled to recover as much as 375,000 
acres of land under ANCSA. However, under the terms of ANCSA, and 
because the homeland of the Tlingit, Haida and Tsimshian people had 
been reserved by the U.S. government as a national forest, the 
Secretary of the Interior was not able to withdraw any land in the 
Tongass for selection by and conveyance to Sealaska. The only lands 
available for selection by Sealaska in 1971 were slated to become part 
of the Wrangell-St. Elias National Park or consisted essentially of 
mountain tops.
    For this reason, in the early 1970s, Sealaska requested that 
Congress amend ANCSA to permit Sealaska to select lands in Southeast 
Alaska, particularly located near its villages. Congress accomplished 
this by offering to Sealaska and the Southeast villages the opportunity 
to make its selections from within 10 withdrawal boxes established 
under ANCSA for the 10 Southeast Native villages recognized under that 
Act. In 1976, Congress granted that right.
    In short, in the 1970s Sealaska sought areas from which to make 
selections because, at that time, Southeast Alaska's Native people had 
no other place to go in the Tongass, the very homeland of Southeast 
Alaska's Native people. The suggestion that Alaska's Native people 
invited their own exclusion from their Native homeland is an idea that 
any compassionate witness to our history should find repugnant. It was 
a choice between something limited or nothing at all. Hardly a choice.
    S. 730 addresses problems associated with the unique treatment of 
Sealaska under ANCSA and the unintended public policy consequences of 
forcing Sealaska to select within the existing ANCSA withdrawals. The 
legislation presents to Congress and to this Administration a 
legislative package that will result in public policy benefits on many 
levels. S. 730 allows Sealaska to select from alternative, well defined 
withdrawals areas in Southeast Alaska. The legislation enables the 
conveyance of the final acres to which Sealaska is entitled--and not 
one acre more.
    Historic pressures resulted in the political marginalization and 
spatial confinement of Native people in Southeast Alaska, documented in 
``A New Frontier'' (discussed directly below), including federal 
pressures to prevent Native claims from impacting the timber industry. 
These pressures no longer (we hope) restrict the decisions of either 
the Congress or the Forest Service in pursuing a legislative solution 
that will enable Sealaska to finalize its Native entitlement in a 
manner that is both equitable and results in minimal impacts to other 
interests in the Tongass.
    Observers unfamiliar with ANCSA sometimes suggest that the Sealaska 
legislation might somehow create a negative precedent with respect to 
Alaska Native land claims. This seems odd in the context of the history 
of the Tongass and its impact on the Southeast settlement. Moreover, 
ANCSA has been amended more than 30 times. ANCSA was and remains a 
congressional undertaking, and as a statute, it is organic. As observed 
by Senator Mark Begich at a hearing on this bill before the Senate 
Subcommittee on Public Lands and Forests in October 2009, Congress has, 
on multiple occasions, deemed it appropriate to amend ANCSA to address 
in an equitable manner issues that were not anticipated by Congress 
when ANCSA passed.

   ADDITIONAL OBSERVATIONS: WHY NATIVE LAND CLAIMS ARE UNIQUE IN THE 
                                TONGASS

    Two documents attached to this written testimony present an 
historical perspective on the long struggle to return lands in the 
Tongass to Native people: (1) the draft document funded by the Forest 
Service and authored by Dr. Charles W. Smythe, ``A New Frontier: 
Managing the National Forests in Alaska, 1970-1995'' (1995) (``A New 
Frontier''); and (2) a paper by Walter R. Echo-Hawk, ``A Context for 
Setting Modern Congressional Indian Policy in Native Southeast Alaska 
(``Indian Policy in Southeast Alaska'').*
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    The findings and observations summarized below are to be attributed 
to the work of Dr. Smythe and Mr. Echo-Hawk. For the sake of brevity, 
we have summarized or paraphrased these findings and observations. We 
encourage people with an interest in the history of the Tongass 
generally, or in this legislation specifically, to take the time to 
read these documents in full.
    Dr. Smythe's research, compiled in ``A New Frontier'', found, among 
other things:

  <bullet> By the time the Tongass National Forest was created in 1908, 
        the Tlingit and Haida Indians had been marginalized. As white 
        settlers and commercial interests moved into the Alaska 
        territory, they utilized the resources as they found them, 
        often taking over key areas for cannery sites, fish traps, 
        logging, and mining.
  <bullet> The Act of 1884, which created civil government in the 
        Alaska territory, also extended the first land laws to the 
        region, and in combination with legislation in 1903, settlers 
        were given the ability to claim exclusively areas for 
        canneries, mining claims, townsites, and homesteads, and to 
        obtain legal title to such tracts. Since the Indians were not 
        recognized as citizens, they did not have corresponding rights 
        (to hold title to land, to vote, etc.) to protect their 
        interests.
  <bullet> For decades prior to the passage of ANCSA, the Forest 
        Service opposed the recognition of traditional Indian use and 
        aboriginal title in the Tongass National Forest. As late as 
        1954, the Forest Service formally recommended that all Indian 
        claims to the Tongass be extinguished because of continuing 
        uncertainty affecting the timber industry in Southeast Alaska.
  <bullet> On October 7, 1959, the U.S. Court of Claims held that the 
        Tlingit and Haida Indians had established their claims of 
        aboriginal Indian title to the land in Southeast Alaska and 
        were entitled to recover compensation for the uncompensated 
        taking of their lands, and for the failure to protect their 
        hunting and fishing rights.
  <bullet> The efforts by the Interior Department in the 1930s and 
        1940s to establish reservations in Southeast Alaska greatly 
        alarmed the Forest Service--which at the time opposed the 
        principle of aboriginal rights and its serious conflict with 
        Forest Service plans for a pulpwood industry in Alaska.
  <bullet> The policy of the Roosevelt Administration, with Harold 
        Ickes as Interior Secretary, was to recognize aboriginal rights 
        to land and fisheries in Alaska and to support efforts to 
        provide a land and resource base to Native communities for 
        their economic benefit. Following hearings on the aboriginal 
        claims related to the protection of fisheries in the 
        communities of Hydaburg, Klawock and Kake, Secretary Ickes 
        established an amount of land to be set aside for the three 
        village reservations: Hydaburg--101,000 acres; Klawock--95,000; 
        acres Kake--77,000 acres.
  <bullet> The judgments of the Department of the Interior were 
        troubling to the Forest Service. If realized, the whole timber 
        industry in southeast Alaska would be jeopardized. The Forest 
        Service's ability to make timber sales would be in doubt.
  <bullet> The Department of Agriculture later expressed its agreement 
        with the efforts of the U.S. Senate to substantially repeal the 
        Interior Secretary's authority to establish the proposed 
        reservations in Southeast Alaska.

    Walter Echo Hawk's paper, ``Indian Policy in Southeast Alaska'', 
observes, in part:

  <bullet> The creation of the Tongass National Forest was done 
        unilaterally, more than likely unbeknownst to the Indian 
        inhabitants.
  <bullet> The Tongass National Forest was actually established subject 
        to existing property rights, as it stated that nothing shall be 
        construed ``to deprive any persons of any valid rights'' 
        secured by the Treaty with Russia or by any federal law 
        pertaining to Alaska. This limitation was essentially ignored.
  <bullet> A Tlingit leader and attorney William Paul won a short-lived 
        legal victory in the Ninth Circuit Court of Appeals in Miller 
        v. United States, 159 F. 2d 997 (9th Cir. 1947), which ruled 
        that lands could not be seized by the government without the 
        consent of the Tlingit landowners and without paying just 
        compensation.
  <bullet> To combat this decision, federal lawmakers passed a Joint 
        Resolution authorizing the Secretary of Agriculture to sell 
        timber and land within the Tongass National Forest, 
        ``notwithstanding any claim of possessory rights'' based upon 
        ``aboriginal occupancy or title.'' This action ultimately 
        resulted in the Tee-Hit-Ton Indians v. United States decision, 
        in which the U.S. Supreme Court held that Indian land rights 
        are subject to the doctrines of discovery and conquest, and 
        ``conquest gives a title which the Courts of the Conqueror 
        cannot deny.'' 348 U.S. 272, 280 (1955). The Court concluded 
        that Indians do not have 5th Amendment rights to aboriginal 
        property. The Congress, in its sole discretion, would decide if 
        there was to be any compensation whatsoever for lands stolen.

 S. 730: A LEGISLATIVE SOLUTION WITH SIGNIFICANT PUBLIC POLICY BENEFITS

    Alaska's congressional delegation has worked hard to ensure that 
the fair settlement of Sealaska's Native land claims is accomplished in 
a manner that may have the greatest benefit to all of Southeast Alaska 
with the least possible impact on individuals, communities, federal and 
state land management agencies, and other interested stakeholders.
    Thanks to the hard work of Alaska's congressional delegation, this 
legislation largely is in symmetry with the goals of the Obama 
Administration for the Tongass, which has worked to protect roadless 
areas and accelerate the transition away from forest management that 
relied on old growth harvesting. The Administration has been clear that 
it wants to help struggling communities in rural Alaska. The 
Administration also has dedicated unprecedented resources to working 
with American Indian and Alaska Native communities nationwide. This 
legislation helps to finalize Sealaska's Native entitlement in an 
equitable way, while supporting a transition by Sealaska to second 
growth harvesting and maintaining rural Southeast Alaska jobs.
    Without legislation to amend ANCSA, Sealaska will be forced either 
to select and develop roadless old growth areas within the existing 
withdrawals or shut down all Native timber operations, with significant 
negative impacts to rural communities, the economy of Southeast Alaska, 
and our tribal member shareholders. This legislation proposes an 
alternative: S. 730 would permit Sealaska to select its remaining 
entitlement lands from outside of the ANCSA withdrawal boxes. The 
alternative land pool from which Sealaska could select under S. 730 
includes forestland suitable for timber development, but commits 
Sealaska to select a great deal of second growth in lieu of the old 
growth available to Sealaska today. In fact, the legislation ultimately 
would preserve as much as 40,000 acres of old growth, and even more 
inventoried roadless acres.
    S. 730 would permit Sealaska to select 3,600 acres of land as 
sacred and cultural sites, and 5,000 acres of small parcels of land 
sometimes referred to as ``Native futures sites''. Under the terms of 
the legislation, no timber or mineral development would be permitted on 
sacred sites or Native futures sites. Because Sealaska would be 
permitted to select these sites in lieu of timberlands, these 
provisions reduce overall timber acres available to Sealaska by 8,600 
acres.
    Although Sealaska would thus give up ``economic'' assets under the 
proposed legislation, we believe the Southeast Alaska Native community 
will benefit because 3,600 acres of sacred sites will be returned to 
Native ownership. The community will also benefit from the 30 smaller 
selections (Native futures sites) that would be made available for 
development as green energy (tidal, geothermal, or run-of-river hydro) 
sites, bases for ecotourism or cultural tourism, or simply to exist as 
sites in Native ownership; in fact, several futures sites are 
traditional village sites. By permitting Sealaska to select a handful 
of small parcels for such alternative uses, S. 730 helps to preserve 
Native culture in perpetuity, ensures that the Tongass remains a Native 
place, and provides the catalyst for creating new sustainable economies 
within the Tongass.
    The public benefits of this legislation also extend far beyond 
Sealaska Corporation and its shareholders. Pursuant to a revenue 
sharing provision in ANCSA, Sealaska distributes 70 percent of all 
revenues derived from the development of its timber resources--more 
than $315 million since 1971--among all of the more than 200 Alaska 
Native Corporations.
    As discussed throughout this legislation, Sealaska's land 
legislation strategy was driven in large part by conservation 
organizations' stated public goals of ``protecting roadless areas'', 
``protecting old growth reserves'', ``accelerating the transition to 
second growth'' and creating alternate economies for Southeast Alaska.
    Finally, movement toward completion of Sealaska's ANCSA land 
entitlement conveyances will benefit the federal government. This 
legislation allows Sealaska to move forward with its selections, which 
ultimately will give the BLM and the Forest Service some finality and 
closure with respect to ANCSA selections in the region.
the forest service's plans for the tongass: impact of s. 730 on tongass 

                               MANAGEMENT

    The U.S. Forest Service has, in the past, expressed concern that S. 
730 could impact its ability to harvest second growth to support 
Southeast Alaska mills, and could impact other goals laid out in the 
2008 Amendment to the Tongass Land Use Management Plan.
    We believe Sealaska's offer to leave behind roadless old growth 
timber in the Tongass is significant; it is a proposal we believe this 
Administration should support based on its goals to protect these types 
of forest lands. We also believe that the lands proposed for conveyance 
under S. 730 conflict minimally with and may ultimately benefit the 
Forest Service's Transition Framework for the Tongass.
    The Forest Service uses various classifications to define the 
condition of its second growth. The term ``suitable'' means that 
forestland is available for harvest. The term ``unsuitable'' refers to 
lands that are not available for harvest under normal harvest 
prescriptions. For purposes of our calculations, unsuitable lands 
exclude second growth in conservation designations, but include second 
growth available for restoration and stewardship contracting. Based 
upon our calculations, the following conclusions can be made:

  <bullet> There are 428,972 acres of second growth on the Tongass 
        National Forest.

    --57% is available for harvest--suitable acres
    --43% is not available for harvest, except through restoration and 
            stewardship contracts--unsuitable acres

  <bullet> Of the oldest second growth (over 40+ years):

    --44% is suitable for harvest
    --56% is unsuitable

  <bullet> Sealaska selection of second growth would include 
        approximately (an approximation is made due to differences 
        between the bills introduced in the Senate and the House):

    --7% of the total second growth
    --9% of the suitable second growth
    --4% of the unsuitable second growth

  <bullet> Sealaska selections of age 40+ second growth include (an 
        approximation is made due to differences between the bills 
        introduced in the Senate and the House):

    --12% of the total 40+ second growth
    --9% of the 40+ second growth is from suitable acres
    --4% of the 40+ second growth is from unsuitable acres

    For the Forest Service, the most significant limitation to an 
accelerated transition to second growth is the large number of acres of 
older second growth that is in restricted timber use status. If these 
restrictions were modified or removed, there could be an acceleration 
to exclusive second growth harvesting.
    If S. 730 were to pass today, under current standards and 
guidelines, the Forest Service would retain at least 223,000 acres of 
suitable second growth. In addition, it retains 177,000 acres of 
unsuitable second growth that is available for stewardship and 
restoration. We believe the total pool of lands available to the Forest 
Service is more than sufficient to support log demand for the Forest 
Service's Transition Framework.
    We also believe that Sealaska and the Forest Service agree that, to 
achieve a successful transition to second growth, the Forest Service 
needs Sealaska to remain active in the timber industry in the Tongass, 
because Sealaska's operations support regional infrastructure 
(including roads and key contractors), development of markets 
(including second growth markets), and development of efficient and 
sustainable second growth harvesting techniques. In short, the likely 
success of the Forest Service's transition to second growth is 
significantly improved if Sealaska second growth operations are in 
close physical proximity to Forest Service second growth operations.
    Sealaska has 30 years of experience developing and distributing 
Southeast Alaska wood to new and existing markets around the world. 
Sealaska recently has pioneered second growth harvesting techniques in 
Southeast Alaska and is active in this market. Partnership between 
Sealaska and the Forest Service, collaborating to build new markets 
based on second growth, will have a better chance of success.
    This legislation, which moves Sealaska into some older second 
growth, ensures that Sealaska will engage as an early partner with the 
Forest Service in second growth market development, while continuing to 
provide local jobs and supporting the local economy.
    It is also important to note that regardless of whether Sealaska 
selects within the existing ANCSA withdrawal boxes or outside of those 
boxes, Sealaska must select its remaining entitlement lands from within 
the Tongass National Forest. In other words, by selecting Native 
entitlement lands, whether under existing law or the proposed 
legislation (S. 730), Sealaska's land selections will incorporate lands 
suitable for timber development and may require the Forest Service to 
adjust land management plans to account for such selections. However, 
the ability to make minor management adjustments is built into the 
revised Tongass Land Management Plan.

     LOCAL IMPACT OF S. 730: SAVING JOBS IN RURAL SOUTHEAST ALASKA

    The Southeast Alaska region lost about 750 jobs in 2009, the 
largest drop in at least 35 years. In January 2011, the Alaska 
Department of Labor and Workforce Development reported the unemployment 
rate for the Prince of Wales--Outer Ketchikan census area at 
approximately 16.2 percent. In October 2007, the Alaska Department of 
Labor and Workforce Development projected population losses between 
1996 and 2030 for the Prince of Wales--Outer Ketchikan census area at 
56.6 percent. Official unemployment rates severely underreport the 
actual level of regional unemployment, particularly in our Native 
communities.
    While jobs in Southeast Alaska are up over the last 30 years, many 
of those jobs can be attributed to industrial tourism, which creates 
seasonal jobs in urban centers and does not translate to population 
growth. In fact, the post-timber economy has not supported populations 
in traditional Native villages, where unemployment among Alaska Natives 
ranges above Great Depression levels and populations are shrinking 
rapidly.
    We consider this legislation to be the most important and immediate 
``economic stimulus package'' that Congress can implement for Southeast 
Alaska. Sealaska provides significant economic opportunities for our 
tribal member shareholders and for residents of all of Southeast Alaska 
through the development of our primary natural resource--timber. 
Sealaska and its subsidiaries and affiliates expended over $45 million 
in 2008 in Southeast Alaska. Over 350 businesses and organizations in 
16 Southeast communities benefit from spending resulting from Sealaska 
activities. We provide over 363 full and part-time jobs with a payroll 
of over $15 million. Including direct and indirect employment and 
payroll, Sealaska in 2008 supported 490 jobs and approximately $21 
million in payroll.
    We are proud of our collaborative efforts to build and support 
sustainable and viable communities and cultures in our region. We face 
continuing economic challenges with commercial electricity rates 
reaching $0.61/kwh and heating fuel costs sometimes ranging above $6.00 
per gallon. To help offset these extraordinary costs, we work with our 
logging contractors and seven of our local communities to run a 
community firewood program. We contribute cedar logs for the carving of 
totems and cedar carving planks to schools and tribal organizations. We 
are collaborating with our village corporations and villages to develop 
hydroelectric projects. We do all of these collaborative activities 
because we are not a typical American corporation. We are a Native 
institution with a vested interest in our communities.
    Our shareholders are Alaska Natives. The profits we make from 
timber support causes that strengthen Native pride and awareness of who 
we are as Native people and where we came from, and further our 
contribution in a positive way to the cultural richness of American 
society. The proceeds from timber operations allow us to make 
substantial investments in cultural preservation, educational 
scholarships, and internships for our shareholders and shareholder 
descendants. Through these efforts we have seen a resurgence of Native 
pride in our culture and language, most noticeably in our youth. Our 
scholarships, internships and mentoring efforts have resulted in Native 
shareholder employment above 80% in our corporate headquarters, and 
significant Native employment in our logging operations. To create 
jobs, Sealaska has sponsored new initiatives in Southeast Alaska like 
mariculture farming.
    ANCSA authorized the return of land to Alaska Natives and 
established Native Corporations to receive and manage that land so that 
Native people would be empowered to meet their own cultural, social, 
and economic needs. S. 730 is critically important to Sealaska, which 
is charged with meeting these goals in Southeast Alaska.
local impact of s. 730: diversification of the southeast alaska economy
    The proposed conveyance of sacred and cultural sites and the Native 
Futures sites offers new economic, cultural, and educational 
opportunities for our region. Our legislation would allow Sealaska to 
pursue a more diversified economic strategy and would support new jobs 
by empowering Sealaska to preserve and share with others the richness 
of Southeast Alaska's natural and cultural history. Both the forest 
ecosystem and the people it supports define the Tongass. The Tongass 
has supported Alaska Native people for 10,000 years.
    Sealaska is embracing a healthy, alternative paradigm for the 
cultural and economic revitalization of our Native and rural 
communities by selecting sacred and cultural and Native Futures sites 
as part of this legislation. As part of our commitment, Sealaska has 
established the following principles for the use and management of 
these sites:

  <bullet> Sacred sites.--These sites will be selected and managed to 
        ensure an active Native role in the preservation and 
        celebration of the rich Native fabric and history of Southeast 
        Alaska. The sites are purely for sacred, cultural, historic and 
        anthropologic preservation, research and education. Any site 
        improvements would be in alignment with the historic and 
        cultural purpose for which a site was selected, and such 
        improvements must be consistent with the management plans for 
        adjacent public lands. Public access would be preserved under 
        sections 17(b) and 14(g) of ANCSA and the provisions of S. 730.
  <bullet> Native Futures sites.--These sites will be selected and 
        managed to promote activities with minimal land use impacts. A 
        few of these sites could be developed for their tidal, 
        geothermal, or small hydroelectric potential, as sources of 
        much needed alternative energy for the region. Some may simply 
        be preserved as Native places, supporting children's cultural 
        camps or traditional subsistence activities. Some sites might 
        be used as a base for ecotourism and cultural tourism 
        activities. Public access would be preserved under sections 
        17(b) and 14(g) of ANCSA and the provisions of S. 730.

                      CONSERVATION CONSIDERATIONS

    We were disheartened last year when a handful of environmental 
groups disseminated blatant misinformation about this legislation. We 
think these groups must view this legislation as a part of a larger 
compromise between development and conservation, and by publishing 
statements like ``Stop the Corporate takeover of the Tongass'', these 
groups chose to ignore the Native equitable and other public benefits 
of this legislation. This only hurts our communities and the people who 
live there, including those who survive on jobs created by Sealaska.
    This legislation is fundamentally about the ancestral and 
traditional homeland of a people who have lived for 10,000 years in 
Southeast Alaska. For 145 years, people from across the western world 
have traveled to Southeast Alaska with an interest in the rich natural 
resources of the region--an area the size of Indiana. In the mid-1800s, 
Americans came to Southeast Alaska to hunt for whales. In the late-
1800s, gold miners arrived. In the first half of the Twentieth century, 
the fishing industry built traps at the river entrances, depleting 
salmon populations. In the 1950s and 1960s, two pulp mills signed 
contracts with the United States that gave the mills virtually 
unlimited access to Tongass timber. In the meantime, Natives from the 
late-1800's through the 1930's often were being moved from their 
traditional villages and territory to central locations, in part for 
BIA schooling.
    Some conservation groups represent the latest influx of people with 
an idea about what best serves the public interest in the Tongass. In 
fairness, the conservation community writ large has long fought to 
preserve the Tongass for its wilderness and ecological values, and 
often I have appreciated the balance that the conservation community 
seeks for the forest.
    What I do not appreciate is environmentalism that does not 
recognize the human element--that people have to live in this forest. I 
do not accept environmentalism that does not recognize that the Tongass 
is a Native place. We welcome people to our homeland--but we do not 
appreciate the assault by some on our right to exist and subsist in the 
Tongass.
    There are groups that consistently agree with us that we should 
have our land, but wish to decide--to the smallest detail--where that 
land should be. We have been asked to place as much as two million 
acres of conservation on the back of our legislation as the price for 
selecting lands that make cultural and economic sense to our people. 
Native people have always been asked to go second. Let's not forget 
that S. 730 addresses the existing land entitlement of the Native 
people of Southeast Alaska.
    In attempting to resolve Sealaska's unfortunate dilemma in an 
equitable manner, the Alaska Congressional delegation has been careful 
to draft legislation to be in alignment with the current 
Administration's stated objectives for the Tongass and other national 
forests; specifically, to protect roadless areas, reduce harvesting of 
old growth, and accelerate transition to second growth management.
    Moreover, while original withdrawal limitations make it difficult 
for Sealaska to meet its traditional, cultural, historic and--
certainly--economic needs, these original withdrawn lands are not 
without significant and important public interest value. For example, 
approximately 85 percent of those lands now designated for withdrawal 
by Sealaska are classified by the Forest Service as designated roadless 
areas. A significant portion is Productive Old-Growth forest (some 
112,000 acres), with over half of that being Old Growth Reserves as 
classified under the 2008 Amendment to the Tongass Land Use Management 
Plan. S. 730 allows these roadless old growth lands to return to public 
ownership, to be managed as the federal government and general public 
sees fit. On the other hand, if forced to select from the existing 
withdrawals, Sealaska will find itself in the insensible position of 
possibly building expensive roads into sensitive watersheds and 
pristine areas in order to continue even limited timber operations, an 
action contrary to our principles.
    Some groups claim that ``the lands that Sealaska proposes to select 
. . . are located within watersheds that have extremely important 
public interest fishery and wildlife habitat values.'' They are correct 
in a general sense. We agree that all lands in our region are valuable; 
our federal lands and our Native lands should be managed responsibly. 
We acknowledge the need for conservation areas and conservation 
practices in the Tongass. This bill meets those goals.
    More fundamentally, this is not a bill about timber. This is not a 
bill about how much land Congress chose to give to the Native people of 
Southeast Alaska. This legislation fundamentally recognizes that the 
Tongass National Forest is a Native place--that it can support our 
Native community.

ECONOMIC DEVELOPMENT ON NATIVE LANDS AND SEALASKA'S SUSTAINABLE FOREST 
                           MANAGEMENT PROGRAM

    Sealaska has a responsibility to ensure the cultural and economic 
survival of our communities, shareholders and future generations of 
shareholders. Sealaska also remains fully committed to responsible 
management of the forestlands for their value as part of the larger 
forest ecosystem. At the core of Sealaska's land management ethic is 
the perpetuation of a sustainable, well-managed forest, which supports 
timber production while preserving forest ecological functions. 
Significant portions of Sealaska's classified forest lands are set 
aside for the protection of fish habitat and water quality; entire 
watersheds are designated for protection to provide municipal drinking 
water; and there are zones for the protection of bald eagle nesting 
habitat. To be very clear, Sealaska has harvested 189,000 of the 
290,000 acres of land it owns; of which 81,000 acres have been clear 
cut over the last 30 years. The decision to clear cut or partial cut is 
not taken lightly, and is always based on the best science and best 
forest practices.
    Sealaska re-plants, thins and prunes native spruce and hemlock 
trees on its lands, thereby maintaining a new-growth environment that 
better sustains plant and wildlife populations, and better serves the 
subsistence needs of our communities. In fact, Sealaska has invested a 
great deal of resources in improving its forest sustainability program, 
including investing in ongoing silviculture research, and reaching out 
to organizations like the Forest Stewardship Council to ensure best 
possible management practices. All of Sealaska's even aged second-
growth forest that is ripe for precommercial thinning is managed 
accordingly, creating healthy young forests that provide wildlife 
habitat. Sealaska maintains a silviculture program that rivals the best 
of programs implemented by the Forest Service or private landowners. 
Our harvesting program as well as thinning and planting investments 
provide jobs for our shareholders and others in the region, and help 
maintain the ecological value of our forests.
    In asking for your support for this legislation, we implicitly 
agree to assume a major economic risk by foregoing assured revenue from 
the harvesting of old growth timber on original withdrawal lands. We 
are also removing 8,600 acres from our timber base by selecting 
cultural sites and Native futures sites subject to timber harvest 
restrictions. We are committed to investing the time, money and hard 
work in progressive management of second growth stands, to capture 
alternative economies from forest management and to ensure that our 
place in the timber industry remains a sustainable, although realigned, 
component of the region's economy.
    Finally, Sealaska is committed to using its land base to create 
alternative economies, revenues, and jobs through forest management 
strategies that include engagement in markets for the purchase of 
ecological services. To that end, we are monitoring developments 
related to carbon sequestration and incorporating this effort into our 
forest management and strategic plans.

                         TIME IS OF THE ESSENCE

    Timing is critical to the success of the legislative proposal 
before you today. Without a legislative solution, we are faced with 
choosing between two scenarios that ultimately will result in dire 
public policy consequences for our region. If S. 730 is stalled during 
the 112th Congress, either Sealaska will be forced to terminate all of 
its timber operations within approximately one year for lack of timber 
availability on existing land holdings, resulting in job losses in a 
region experiencing severe economic depression, or Sealaska must select 
lands that are currently available to it in existing withdrawal areas. 
This legislation is consistent with President Obama's commitment to 
preserving more roadless areas, while immediately stimulating the rural 
economy in a severely impacted region.

        SEALASKA RECOGNIZES THE IMPORTANCE OF THE PUBLIC PROCESS

    The alternative selection pool identified in the Sealaska bill is a 
product of an exceptional public process, including three previous 
Congressional hearings, more than a dozen meetings held by Senator 
Murkowski's staff in Southeast communities, and hundreds of community 
meetings held by Sealaska with the State of Alaska, mill owners and 
industry representatives, conservation groups, the Forest Service, the 
BLM, and Members of Congress and staff.
    The Sealaska bill has the support of the full Alaska delegation and 
many residents, communities and tribes throughout Southeast Alaska and 
statewide:

  <bullet> The legislation is supported by the National Congress of 
        American Indians, the Intertribal Timber Council, the Alaska 
        Federation of Natives, the ANCSA Regional Presidents & CEOs, 
        the Central Council of Tlingit and Haida Indian Tribes of 
        Alaska, and numerous local tribes throughout Southeast Alaska.
  <bullet> The Alaska Forest Association--which works with and 
        represents Southeast Alaska's remaining timber mills--fully 
        supports the Sealaska legislation.
  <bullet> The Sealaska bill represents a net gain to the U.S. Forest 
        Service of roadless and old growth timber in the Tongass 
        National Forest. The legislation is fundamentally aligned with 
        the goals of the Obama Administration.
  <bullet> In autumn 2010, Davis, Hibbitts & Midghall, Inc. (DHM 
        Research) conducted two telephone benchmark surveys to assess 
        the values and beliefs of Southeast Alaska residents, and 
        measure awareness of and support for Sealaska's land bill. 90 
        percent of Southeast residents describe the economic health of 
        Southeast Alaska as either poor, very poor or in a crisis. 88 
        percent of Southeast residents agree that the Tongass should be 
        managed in a way that balances job creation and the protection 
        of fish and wildlife habitats. Support for Sealaska's land 
        legislation significantly outweighed opposition, with Southeast 
        resident responding in support outweighing those opposed by 58 
        percent.

    Some critics of this bill want to shut down this legislation 
because it might mean that Sealaska selects lands on ``their'' islands, 
in ``their'' backyard, near ``their'' favorite spots. At some level, 
this is understandable. But every acre of the Tongass is precious to 
someone and we need somewhere to go to fulfill our entitlement. 
Sealaska has been careful to select lands that are part of the Forest 
Service's timber base. Sealaska has compromised and adjusted its 
legislation several times on the basis of community and even individual 
concerns.

SENATORS LISA MURKOWSKI AND MARK BEGICH HAVE WORKED TO RESOLVE FEDERAL, 
                       STATE, AND LOCAL CONCERNS

    As discussed above, this legislation has been subject to an 
exhaustive public process over the course of many years. To address 
federal, state and local community concerns, Senator Lisa Murkowski and 
Senator Mark Begich have re-introduced revised legislation in the 112th 
Congress that includes significant amendments to legislation introduced 
in the 111th Congress:

  <bullet> Economic lands.--The land selection pool on northern POW has 
        been removed. The land pool on Koscuisko Island will be reduced 
        by 6,079 acres. Selections at Keete/Kassa/Mabel will be reduced 
        by 3,070 acres. A new selection area has been added on Kuiu 
        Island, and the Polk Inlet and Tuxekan withdrawal areas have 
        been expanded. Commercial guides are granted an extended right 
        of access--specifically, one additional permit term of ten 
        years--to economic lands.
  <bullet> Conservation Package.--The revised bill designates more than 
        150,000 acres of forestland, much of which is roadless old 
        growth, for new conservation in the Tongass.
  <bullet> Native futures sites.--The revised legislation removes 
        several Native futures sites, leaving 30 futures sites in the 
        legislation. Sites removed include those for which specific 
        concerns were raised in community meetings. The legislation has 
        been amended to clarify that public access ``across'' futures 
        sits is permitted, and that commercial guides are granted an 
        extended right of access to the sites.
  <bullet> Sacred sites.--The revised legislation authorizes Sealaska 
        to select 3,600 acres of new sacred sites, 90 percent of which 
        must be selected within 15 years after passage of the bill. The 
        revised legislation clarifies that these conveyance are subject 
        to the procedures applicable to the selection of such sites 
        under ANCSA.
  <bullet> Public access across sacred sites.--The legislation has been 
        amended to provide that public access across sacred sites is 
        permitted if ``no reasonable alternative access'' to adjacent 
        public lands is available.
  <bullet> Use of sacred sites by Sealaska.--The legislation has been 
        amended to clarify that, although Sealaska may utilize sacred 
        sites for a broad array of reasons listed in the bill, Sealaska 
        is limited to ``site improvement activities'' that are 
        consistent with the sacred, cultural, traditional, or historic 
        nature of the site and are not inconsistent with the management 
        plans for adjacent public lands.
  <bullet> Glacier Bay.--The revised bill drops language that would 
        require the National Park Service to enter into a memorandum of 
        agreement with Sealaska and other Native entities in Southeast 
        Alaska for the management of cultural resources in Glacier Bay.
  <bullet> Technical amendments.--The revised bill drops the Tribal 
        Forest Protection Act and National Historic Preservation Act 
        amendments.

                     OUR FUTURE IN SOUTHEAST ALASKA

    Our people have lived in the area that is now the Tongass National 
Forest since time immemorial. The Tongass is the heart and soul of our 
history and culture. We agree that areas of the region should be 
preserved in perpetuity, but we also believe that our people have a 
right to reasonably pursue economic opportunity so that we can continue 
to live here. S. 730 represents a sincere and open effort to meet the 
interests of the Alaska Native community, regional communities, and the 
public at large.
    It is important for all of us who live in the Tongass, as well as 
those who value the Tongass from afar, to recognize that the Tlingit, 
Haida and Tsimshian are committed to maintaining both the natural 
ecology of the Tongass and the Tongass as our home. We therefore ask 
for a reasoned, open, and respectful process as we attempt to finalize 
the land entitlement promised to our community 40 years ago. We ask for 
your support for S. 730.
    Gunalcheesh. Thank you.

    Senator Wyden. You've given a very eloquent statement. 
We're going to work closely with you and the tribe.
    Ms. Poelstra.

  STATEMENT OF MYLA POELSTRA, REPRESENTING NINE ALASKA TOWNS, 
                          EDNA BAY, AK

    Ms. Poelstra. I'd like to thank the committee members for 
allowing me to be here today. I really appreciate the 
opportunity and I hope you accept my testimony.
    Senator Wyden. Without objection, it will be entered into 
the record in full.
    Ms. Poelstra. Thank you.
    Senator Wyden. As will happen with all of you.
    Ms. Poelstra. My family moved to Alaska because of one 
creature, the Spotted Owl. My father and uncles worked as 
loggers in the woods of Oregon, Washington, Idaho, and Montana 
as did my grandfather, whose father came to this country to 
farm and work in the woods in Idaho. When we moved to Edna Bay 
my family put our savings into the lodge and general store that 
I run where I am, in my spare time, the Post Mistress and also 
known as mom to my sons.
    Today, I represent the nine Alaska towns. Here's their 
perspective.
    Most of the residents of the nine towns are salt of the 
Earth, folks who built their lives around the forest. Our 
people log, run small mills or lodges, like the one my family 
owns, some guide or fish commercially for salmon which return 
by the millions to our islands. Almost everyone puts meat on 
the table in the winter by hunting deer or fishing. Many cut 
wood from the forest to build the structures we use.
    Our towns range from Hollis in the South, Point Baker and 
Port Protection to the North and Southwest to my community of 
Edna Bay. Whale Pass is an old logging camp, as is Thorne Bay, 
the largest in the country at one time. So too is Naukati, Cape 
Pole and Edna Bay, then there's Kupreanof. Many in the towns 
feel like an endangered species, threatened to the core by S. 
730 which we view as a land grab by Sealaska Corporation.
    Our business investments in varied communities are 
imperiled by this legislation. For us to survive we have to end 
the cycle of boom and bust. Sealaska created a boom when they 
decided to liquidate almost all of the 290,000 acres acquired 
from Congress via ANCSA without a thought for future jobs.
    It took them 30 years to cut from mountain top to the sea. 
Now facing a bust, Sealaska returns to Congress asking for the 
best forest lands, never contemplated by ANCSA. If Sealaska 
represents the worst logging practices in the country, there 
must also be a line between pure preservation and Sealaska's 
devastation.
    Sustainable logging is the answer. Logging small enough to 
support families who rely on the woods without creating the 
crisis we see coming if this bill passes. Over many years the 
Forest Service created a rational plan which balances uses of 
the forest as required by law. S. 730 will destroy that plan.
    Not long ago a Federal judge was asked to list the 
Alexander Archipelago wolf as an endangered species, but 
decided the listing was not necessary. Why? Because of the 
Tongass Land Management Plan. This plan recognized that old 
growth reserves was vital, old growth forests was vital for 
deer to survive long winters. So it wisely set aside old growth 
reserves containing very large trees.
    The judge refused to list the wolf as endangered because he 
recognized OGRs adequately protect deer, the food source for 
the wolf. So what land do you suppose Sealaska wants in this 
bill? They want OGRs, big stands of timber and the most 
productive second growth stands too.
    This reduces winter range for deer. The wolf population 
plunges. Then the door opens for a lawsuit.
    S. 730 will trigger the Endangered Species Act by giving 
Sealaska old growth reserves. We know there are organizations 
who will sue the Forest Service immediately to get the wolf 
listed as endangered if these OGRs are given to Sealaska. And 
they will very likely win.
    Any ESA listing will occur soon after passage of S. 730 
followed by a cascade of dire consequences.
    No meat on the table when hunting season closes.
    Empty hunting and fishing lodges.
    Reduced government support staff.
    Sawmills out of timber.
    Closed schools.
    Abandoned towns.
    Moreover, this bill will affect the whole State. This will 
set a precedent. It's unprecedented to get economic development 
sites outside ANCSA boundaries. If Sealaska can do this, so can 
the other 12 native corporations.
    The access issues raised by this bill for sportsmen will 
become a huge statewide issue. The cultural sites are a red 
herring. Sealaska refuses to commit in writing that cultural 
sites will not be commercialized. We believe cultural sites 
will be exploited for exclusive economic gain when all users 
now enjoy them.
    Since Federal law now protects these sites there is no 
justification for a new category which could be used to modify 
ANCSA statewide. Another category called future sites, will 
affect the whole State, unjustly giving native corporations far 
more than was bargained for 40 years ago. One future site is an 
incredible grab of a rich resource.
    Icy Straits, according to the Electrical Power Research 
Institute, has the potential to produce as much power as all 
the Columbia River dams, 28,000 megawatts. Icy Straits is far 
removed from Sealaska's remaining allotments. This one site 
could be worth more money than all of Sealaska's selections.
    Sealaska is absolutely opposed to inclusion in this bill, a 
permanent, federally mandated, 100 foot bumper strips on Salmon 
Creeks so the streams they log, like around Calder will be 
irreparably harmed. Sealaska should not be getting the roads, 
bridges and log dumps to taxpayers built for hundreds of 
millions of dollars. We have a logical solution. S. 730 should 
be torn up.
    Three years ago----
    Senator Wyden. Ms. Poelstra, excuse me again. Just to be 
fair to all the panel members and----
    Ms. Poelstra. I just need a few more seconds, sir. I'm 
almost to the end.
    Senator Wyden. That would be great. Thank you.
    Ms. Poelstra. Three years ago Sealaska submitted selections 
to the BLM requested by their President in 1975. BLM needs to 
finalize the 2008 submissions. The towns asked BLM to do so 
last year, but were brushed off.
    BLM cannot act until Congress, as it should, washes it 
hands of trying to enable a land grab. Please, do not let our 
towns become ghost towns. Tear up this bill.
    [The prepared statement of Ms. Poelstra follows:]

 Prepared Statement of Myla Poelstra, Representing Nine Alaska Towns, 
                              Edna Bay, AK

    Senators Wyden and Bingaman, thank you for inviting me here today 
to testify on a bill the towns I represent view as a threat. I also 
appreciate the opportunity to see Senator Murkowski and communicate 
with her face to face for the first time in the four years since this 
legislation surfaced.

                I HAVE EXPERIENCED UNSUSTAINABLE LOGGING

    My name is Myla Poelstra.
    I have the honor today of representing Nine Towns in Alaska.
    Nearly all of these towns are on Prince of Wales Island, our 
nation's third largest.
    All but one of the huge chunks of land in this bill are located on 
the Prince of Wales Archipelago, which include the islands immediately 
off shore the long coast of Prince of Wales, such as Tuxekan and 
Kosciusko Islands. I live on the latter island.
    In the 1790's, Captain George Vancouver named our Archipelago after 
the Prince of Wales, so striking an impression did our islands make 
upon him.
    I personally know full well what happens when more trees are taken 
than can maintain sustainable long term employment.
    Boom turns to bust.
    And then issues like the spotted owl are raised and tear 
communities apart.
    I know because my family going back three generations worked as 
loggers in every state in the Pacific Northwest. And we are in Alaska 
because of the spotted owl.
    When we moved to Edna Bay, my family put our savings into the lodge 
and general store that I run, where I am, in my spare time, the Post 
Mistress--and also known as mom to my sons.

                         NINE TOWNS--WHO WE ARE

    Even though I have never been east of Montana, the towns had faith 
I would represent their views and so passed the hat to get me here.
    Here's their perspective.
    Most of the residents of the Nine Towns are salt of the earth; 
folks who build their lives around the forest. In our towns, people 
log, run small mills, or lodges like the one my family owns. In Thorne 
Bay alone there are at least five small lumber mills producing between 
one half to a million board feet of lumber a year each. (Personal 
communication)
    Other small mills are scattered in many of the towns. Some people 
guide, or fish commercially for salmon which return by the millions to 
our islands. And there are employees of the agencies who manage the 
forest. (See Letter May 18, 2011-City of Thorne Bay, attached)* As well 
as postmasters and store owners, while others are loggers. We also put 
meat on the table that comes from the forest.
---------------------------------------------------------------------------
    * See Appendix II for attachments to this testimony.
---------------------------------------------------------------------------
    Our towns range from Hollis to the south, Point Baker and Port 
Protection to the north, and southwest to my community of Edna Bay. 
Whale Pass is an old logging camp, as is Thorne Bay, the largest in the 
country at one time. So too, is Naukati, Cape Pole and Edna Bay. Then 
there is Kupreanof.
    Since the forest is our provider, many in the towns avow cut and 
run practices of former days, in favor of a rate of cut that can 
maintain a reasonable work force in the mills and woods. (See Letter--
City of Thorne Bay--May 18, 2011, attached)
    S. 730 is a bill the towns regard as an unprecedented land grab for 
the benefit of one Native Corporation, Sealaska. (See numerous letters 
and clippings in committee files for S. 881 (2009-10), and S.730.)
    Looking at this legislation, we feel like deer staring into 
headlights. Our business investments and very communities are in 
danger. We made business decisions based upon the land around us 
remaining in the National Forest. No one could have anticipated the 
land being transferred to a private party for boom and bust style 
logging.

               EACH PROVISION DRAWS PASSIONATE OPPOSITION

    Each provision has its opponents.
    As I write this, I imagine myself for the first time packed on a 
Washington subway jammed like a sardine with nowhere to turn. Sealaska, 
of course, is no sardine locked into a can. It had and has other 
options than this legislation.
    I will shortly show the cause of why we are here, and then go into 
the options Sealaska has rejected to avoid their ``crisis''. I will 
also suggest the solution to the ``crisis''. But first I want to 
outline the key provisions which are drawing opposition.
Buffers
    The Alaska Trollers Association (and numerous other fishermen) 
thinks the proposed five year 100 foot buffer strip protection must be 
permanent. As do we. There is no way the State Legislature is going to 
make buffer strips 100 feet wide on private land, when Sealaska spent 
huge sums defeating this provision in 1990. Five years could expire, 
and lower state standards be applied, before the market recovers enough 
for logging to resume at the pace of other booms. (Letter May 18, 2011 
ATA; opinion piece by Paul Olson, Juneau Empire May 21, 2011: Murkowski 
Bill Bad for Fish.)
    Moreover, Sealaska refuses to put in writing or endorse permanent 
100 foot buffers. 100 foot buffers prevent irreparable harm to salmon 
streams. This finding of irreparable harm without 100 foot buffers was 
a basis for the decision in Stein v Barton (Alaska, FD Court) 1990.
    With the width of stream buffers firmly established on federal 
land, it is hard to understand the refusal of Sealaska to agree to this 
provision in writing.
    It is important to note that even if the proposed 100-ft. buffers 
in S.730 were permanent, they still would fall far short of standards 
on Federal lands in Alaska, because federal regulations protect not 
only salmon streams, but upstream resident fish habitat, and headwaters 
important to downstream fish water quality.
    The five year buffer in the bill is therefore a net loss to fish, 
streams, and those who enjoy them.
    (See also letters from Mickey Knight, 35 year Petersburg resident 
as well as letters from the United Fishermen of Alaska, and Petersburg 
Vessel Owners Association, already in the committee files.)
Access across Cultural Sites and Future Sites
    The Guides, Eco Tour Boat Operators, and Sportsmen, and frankly 
many ordinary Alaskans who enjoy the great outdoors, worry about access 
across the mysterious trail corridors, through as unidentified Cultural 
Sites, and in and across Future Sites. We share their concerns.
    (See letters from Territorial Sportsmen, Alaska Outdoor Council, 
and Eco Tour Boat Operators already in the committee files on both S. 
730 (2011) and S 881 (2009-10).
    One 30 year Sitka resident, Bart Hamburg, wrote this committee, 
``Sealaska has 10 years to claim 3,600 acres. . .to be a cultural site 
with no right of protest by the public.'' ``The law actually precludes 
public access for the harvest of fish and game, and only allows for 
public access easements ``across'' and not ``on'' the property. The 
public's access would be at the whim of the corporation.'' ``Nor shall 
public easements be reserved to hunt or fish. . .'' 2011 in the 
committee file, 42 CFR 2650.4-7
    Our take is people can walk across but not hunt or fish should this 
bill pass.
    Taxpayers wondering how the Federal Budget is going to be reduced 
will notice an additional loss of nearly ten square miles of highly 
valuable public land to a private corporation in this one unique 
provision alone.
    Apparently, Sealaska rejects the Koniag language which allows for 
hunting and fishing.
    In short this language provides:

          (5) The lands on Afognak Island required to be conveyed 
        pursuant Afognak Island to paragraph (1) of this subsection 
        shall remain open and available to recreational and sport 
        hunting and fishing and other recreational uses by the public 
        commercial uses. under applicable law (but without liability on 
        the part of Koniag Incorporated or any Koniag Village 
        Corporation, except for willful acts, to any user by reason of 
        such use), subject only to such reasonable restrictions which 
        may be imposed by Koniag, Incorporated and the affected Koniag 
        Village Corporations for the purposes of limiting or 
        prohibiting such public uses in the immediate vicinity of 
        logging or other commercial operations which may be undertaken 
        by the corporations upon the affected lands. Such restrictions 
        shall comprise only those restrictions necessary to insure 
        public safety and to minimize conflicts between recreational 
        and commercial uses. Koniag, Incorporated and the affected 
        Koniag Village Corporations shall permit access to the lands on 
        Afognak Island conveyed to them by employees of the State for 
        purposes of managing fish and wildlife and by other State 
        officers and employees, and employees of political subdivisions 
        of the State, for the purposes of carrying out this subsection.

    In other words, only during dangerous activity could access be 
denied. Dangerous is the only grounds for denial and it is clearly 
limited to logging activity. Commercial activity would not include an 
eco-tour or a lecture.
    Finally, Trail Corridors are unnecessary. They are protected under 
federal management. Possible purposes for them could be to stop energy 
power corridors, for which the tariff over Sealaska land could be quite 
high, or block individuals from walking from one side of an island to 
the other.
    Everyone I know thinks it is unfair and unjust to bail out Sealaska 
by giving them better land that they bargained for in 1971 and 1975.
Give away: public infrastructure--hundreds of millions of dollars
    A quick look at the maps shows many existing roads and log dumps 
will be available that were developed by the US Forest Service at a 
cost to taxpayers that we estimate to be in the hundreds of millions of 
dollars. Will there be an accounting for this loss of public property 
that will be available to the committee prior to consideration?
    No other ANCSA corporation got the benefit of expensive public 
infrastructure. We do not believe public property should be taken 
without just compensation.

Location of land selections
    Sealaska land requests are like throwing a can of sardines against 
a wall. The one hundred square miles now consolidated within the 
confines of one area becomes well over a hundred square miles, but now 
affecting far more users throughout the Tongass National Forest.
    It wants square mile after square mile of long, wide tracks 
stretching over many shoreline miles from the upper mountain slopes of 
many ocean bays to the sea.
    The Tuxekan selection is as long as Lake Shore Drive on the North 
Side of Chicago, or the distance from Ronald Regan Airport in Virginia 
to Silver Springs, Maryland.
    The Polk and McKenzie Bay request follows the shoreline of these 
sausage shaped bays for seven and five miles, or from Arlington, 
Virgina to Catholic University (according to Google maps).
    Kosciusko is eleven miles long, a little shy of the length of 
Manhattan Island.
    There are eight of these mega grabs in all. (See attached maps 1-6 
for some parcels).*
---------------------------------------------------------------------------
    * Maps have been retained in subcommittee files.
---------------------------------------------------------------------------
    Regarding these maps, we are disappointed that the boundaries 
superimposed upon the value of the timber in the areas reserved for 
wildlife were not made available on Senator Murkowski's web site, 
although they were created by the Forest Service in February. We trust 
this was an oversight and the attachments we provided will be made 
available to the public on her web site soon.
    What is obvious is that Sealaska chose the best remaining trees.

Cultural sites a red herring
    Sealaska refuses to commit in writing that cultural sites will not 
be commercialized. We believe cultural sites will be exploited for 
exclusive economic gain by Sealaska, when all users currently enjoy 
them.
    Since federal law now protects these sites, there is no 
justification for a new category, which could be used to modify ANCSA 
statewide.

Future Sites conflict with existing users
    Another category called future sites will undermine ANCSA 
throughout the state, unjustly giving native corporations far more than 
was bargained for 40 years ago.
    One future site is an incredible grab of a rich public resource.
    Icy Straits, according to the Electrical Power Research Institute, 
has the potential to produce as much power as all the Columbia River 
Dams, 28,000 megawatts. (Ocean Renewables Coalition--May 20, 2011, 
estimates world tidal power at 63,000 megawatts)
    This one site could be worth more money than all of Sealaska's 
selections. There are other hydro land grabs. Why should the public 
loose this benefit to a private corporation?
    These sites, spread throughout SE Alaska, are highly controversial, 
affect diverse communities, and are not in ANCSA but will be unwelcome 
precedent Before we look at how these provisions affect us, let us look 
at a key assumption: Sealaska's past actions are a predictor of future 
behavior.
                            HOONAH'S LEGACY

              NATIVE MOVIE PICTURES UNSUSTAINABLE LOGGING

    We know sustainability was an old Native value. But the Board of 
Directors of Sealaska valued profit over job retention.
    Thus square mile after square mile was cut from mountain top to the 
sea.
    Boom has now become bust. The reason appears simple.
    Sealaska never intended to sustain jobs, but used its land as a 
cash cow, when it liquidated its most valuable trees to start 
profitable subsidiaries; such as a plastics and environmental cleanup 
businesses.
    If you want to see the face of unsustainable logging, you have to 
see the movie that Alaska Natives made about how Sealaska logged land 
near their community.
    When Natives condemn the Board of Directors of Sealaska themselves 
for short term profits vs. long term employment and use of local 
resources, you know there are huge problems.
    Please watch Hoonah's Legacy: http://www.youtube.com/
watch?v=oRQre80IVj4
    While Sealaska claims they will not repeat cutting every tree in 
vast swaths in the future, no law bars them from doing so. Just as no 
law prevented them from letting many of the trees they cut rot in the 
woods.

                 SEALASKA ADMITS LOGGING UNSUSTAINABLE

    See Chris McNiel's presentation to Natives in which he makes 
contradictory claims, ``We cannot sustain our current level of harvest 
and jobs.'' And, ``We have managed our lands sustainably.'' (p.2 
(November 14, 2005) attached)
    In 2006, the year after McNiel's statement that they were cutting 
too much, the rate of private logging increased.
    The following chart* illustrates the rate of private logging in SE 
Alaska--the vast majority of which was Native logging.
---------------------------------------------------------------------------
    * Chart has been retained in subcommittee files.
---------------------------------------------------------------------------
    Note the rate of logging sky-rocketed upward after 2001, even 
though Sealaska admitted the rate could not maintain jobs. Some of this 
logging was village logging and some Sealaska logging.
    It appears Sealaska increased its logging after 2005 even after 
telling its shareholders the rate of logging was not sustainable.
    Why worry about sustainability when their intent in 2005 was to put 
the land in the Tongass National Forest into a ``Native Stewardship 
Trust'', led by Sealaska, so they could manage it ``better.''
    In the editorial, McNiel claims, ``Sealaska has demonstrated the 
commitment and ability to properly manage our forests.'' (McNiel 
editorial: A New Vision For Our Forests and Our Future, November 21, 
2005.)
    This in the same year he told his shareholders their operation was 
not sustainable.
    If over the first 20 years of operation, management of Sealaska was 
unaware their operations were ``unsustainable'', should the public bear 
the cost of bailing them out now with some of the most valuable lands 
in the Tongass?
    We argue the public should not bail out another mismanaged 
corporation.
    We have been unable to find a public audit of how many square miles 
has been cut. Is it approximately 200 square miles as the tables in 
appendix E of TLMP suggest or 450 square miles, which is their land 
base per McNiel's 2005 statement? Will the committee request from 
Sealaska, the State, or the FS numbers to evaluate how many square 
miles there are for Sealaska to cut at this time within their present 
holdings and requested selections.
    The committee also could direct the FS to analyze--for Sealaska's 
present ownership, the 100 square mile remaining uncut 1975 ANCSA acres 
conveyed, and the proposed selections in S-730--the same breakdown used 
by the FS in TLMP EIS 2008; that is, how many acres are in the seven 
size density classes (using the SDM methodology-model) or strata. In 
addition, the FS should analyze proportions between POG, unproductive 
old-growth,non-forest, second growth (or ``young growth,'' which also 
includes natural even-aged stands), and freshwater per TLMP FEIS page 
3-134 or thereabouts . McNiel stated in 2005 that they would request 
another hundred square miles or 64,000 acres to complete their 
entitlement in this bill. The current legislation appears to exceed 
McNiel's 2005 figure by 25 square miles assuming future site acerage is 
5000 and 11,000 acres more in S 730 than McNiel's 64,000 figure in 
2005. Ibid.
    We argue that if Sealaska cannot sustain jobs on around 200 square 
miles, why should the public now give it 100 square miles from the 
Tongass National Forest?
    It is better that Sealaska should reap what it sows, and log the 
1975 lands which John Borbridge, its president, told Congress he 
wanted.

                           UNJUST ENRICHMENT

    S. 730 modifies the Alaska Native Claims Settlement Act in an 
unprecedented way to give Sealaska much more valuable resource land 
than it bargained for at the time ANCSA was negotiated in 1971--when 
Native Corporations were blocking oil development in Alaska--and S. 730 
nullifies 100 square miles Sealaska directed Congress to grant to them 
in 1975 when they asked for amendments to ANCSA.
    It is the unharvested land they directed Congress to grant them in 
1975 that they no longer want in 2011.
    Now they ask Congress for a far richer 100 square miles.
    What is unjust with that?
    Plenty--
    First, Southeast Alaska Natives got a seven million dollar 
settlement for all their land claims before ANCSA (1971). That was when 
a millionaire was kinda a billionaire.
    Second, Congress in ANCSA (1971) then granted them approximately 
554 square miles more of the Tongass in areas that had good timber and 
a share of a roughly billion dollar settlement with all Natives--a 1971 
billion to benefit about 70,000 Natives.
    A third settlement is S. 730--adding more than the 100 sq miles 
granted in 1975 into catagories unique to Sealaska (like the Icy 
Straights hydro site), more valuable acreage, and granting several 
hundred million dollars in the public's roads and bridges.
    It is bad policy to give Sealaska three bites at the public's apple 
each bigger than the last.
    S. 730 breaks Sealaska's acceptance of ANCSA and its 1975 amendment 
to finally and forever settle all land claims.
    The cause of this legislation is bad business decisions by 
Sealaska's management team and Board of Directors who chose to maintain 
levels of harvest which they knew, or should have known, would exhaust 
their timber before new trees could attain commercial size.
    McNeil argued in 2005 he just learned it would be more than 50 
years before new trees could be cut again. Didn't the FS know way 
before then that the rotation was longer?*
---------------------------------------------------------------------------
    * See addendum.
---------------------------------------------------------------------------
    We urge you not to allow yet another for profit corporation to seek 
a government bail out that rewards management for their mistakes.
    Consider the consequences of passing any modification to Sealaska's 
1975 ANSCA lands areas, which the Corporation requested BLM convey in 
2008, but then put a hold on--pending the attempts to get a better deal 
in Congress.

                       S. 730 WILL BE DISASTEROUS

    Not long ago a federal judge was asked to list the Alexander 
Archipelago Wolf as an endangered species, but decided a listing was 
not necessary.
    Three high officials in the Alaska Department of Fish and Game who 
have over 75 years collective experience in the Department, and 50 
years of experience dealing with the Endangered Species Act, sent a 
letter to Senator Murkowski warning of serious consequences of 
proceeding with S. 881, last year's version of the bill before you.
    They wrote:

          The referenced legislation would allow the Sealaska 
        Corporation to select several of the old-growth reserves in 
        southern Southeast Alaska and the corporation's representatives 
        have stated that they intend to log the-lands selected for 
        economic development. If these reserves are conveyed to 
        Sealaska by Congress it will almost certainly lead to a new 
        petition to list the goshawk and wolf as endangered species and 
        the distinct possibility that they will be so designated. (Page 
        1 Letter Reglin, Somerville, Robus--April 28, 2010, attached.) 
        Emphasis added.

    They added:

          We have concluded that the proposed land ``exchanges'' being 
        proposed in S. 881 have huge endangered species ramifications 
        for the Alexander Archipelago wolf and the Queen Charlotte 
        goshawk. (Page 2)
          They cited the testimony of Under Secretary of Agriculture, 
        Jay Jensen, before this committee on October 8,2009 who found 
        that the land in the proposed selections ``contained 12 old 
        growth reserves'' and represent a ``significant component of 
        the TLMP conservation strategy'' three out of four we believe 
        are still targeted on my island. (Page 2 Reglin)
          If the S 881 selections proceeded, Reglin et al noted that 
        ``radical environmental groups will once again file petitions 
        to list both wolf and northern goshawk as endangered.''(Page 3 
        Reglin)
          Finally, the Fish and Game officials noted that in fact the 
        wolf and deer had ``experienced significant declines'' on 
        Prince of Wales Island(s). (Page 3) They requested a thorough 
        analysis and evaluation of the proposed selections be conducted 
        by the US Fish and Wildlife Service and the ADFG. (Page 3 
        Reglin)

    We are unaware if their recommendation was followed. But we do wish 
to concur in their alarm. ``If either species is listed as threatened 
or endangered the effect will be the elimination of any logging 
industry in the region. . .Remember when Weyerhauser Corporation said 
`the spotted owl' will never affect us.'' (Page 4 Reglin)
    When these experts cite the Albert Study comparing the value of the 
timber in the 1975 ANCSA sardine can to the S. 881 bill selections for 
the finding that the proposed selections had the highest wildlife 
habitat in SE Alaska, I can't help wondering whether my family fled 
fallout from the owl only to be nuked by the wolf and goshawk.
    If a judge is ready to list these species as soon as this bill 
passes--because passing the bill will pull the rug out from the Forest 
Service Plan called TLMP, which he said had Old Growth Reserves to 
protect them--I can tell you there would be a lot of townspeople sent 
packing.
    These OGR's are big stands of timber. Satellite studies show some 
of the deer spend whole storms protected from deep snow under the limbs 
of the trees of the OGR's. S.730, it is clear targets many of them--
three out of four on my island alone.
    Wolves, as I hope people on the East Coast know, prey on deer. 
Lower deer numbers mean lower wolf numbers.
    If this bill passes, our lodges close, saw mills run out of lumber, 
support staff move, schools close, and meat on the table will be 
scarce. In the end, towns could be abandoned.

                           OPPORTUNITIES LOST

    After 2005, Sealaska attempted to negotiate with the Forest Service 
for an alternative to its ANCSA 1975 allotment. The Forest Service 
offered numerous parcels, many of them off of Prince of Wales 
Archipelago.
    One of these sites was in Yakutat, home to the President of 
Sealaska at the time.
    That site contained high volume timber that was profitable and near 
Yakutat, a sea anchorage for transport of round logs to Asia, and would 
create new employment for Mr. Mallot's townsmen.
    Even with a one mile buffer on the Situk River, there was almost 
enough timber to fill the remaining hundred square mile land needed to 
complete its entitlement.
    Sealaska withdrew from the negotiations rejecting every parcel that 
was offered to them by the Forest Service.
    Shortly thereafter, Sealaska approached Senator Murkowski, and a 
four year battle began.

                                SOLUTION

    We have a logical solution; 730 should be torn up.
    Three years ago, Sealaska submitted selections to BLM requested by 
their President in 1975. BLM needs to finalize the 2008 submissions.
    The towns asked BLM to do so last year, but were brushed off. BLM 
cannot act until Congress, as it should, washes its hands of trying to 
enable a land grab.
    Please do not let our towns become ghost towns. Kill this bill.

                                ADDENDUM

    At page 10, after the third to last paragraph, insert:
    It surprising McNiel claims the corporation assumed a 50-75 year 
rotation between logging the trees when there was substantial published 
material suggesting longer.
    Management agencies long considered the time period to be at least 
a 75 year plus
    In 1979, for instance, the US Forest Service used a 100 or more 
rotation, which my family, with their three generations in the woods, 
thinks is more reasonable.
    A 100-year rotation was used for site indexes of 100 or more; 120-
year rotation for site indexes of 90 or less. On sites with indexes 
greater than 100 (or greater than 90 at Yakutat) and slopes less than 
40 percent, one commercial thinning was programmed for stands between 
the ages of 70 and 90 years.'' (1979 TLMP DEIS at 37).
    In 1928 Frank Heintzleman estimated an 85-100 year rotation.
    In 1934 the Department of Agriculture's ``Yield of Second-Growth 
Western Hemlock-Sitka Spruce Stands in Southeastern Alaska'' stated 
that rotation periods had not yet been determined for the region, but 
suggested 75 years for pulpwood.
    The 1937 ``Report of the Alaska Resources Committee,'' cited 
studies that indicated a rotation period ``which should be about 75 to 
80 years.''
    In 1949 Heintzleman estimated an 80-85 year rotation.
    Source Jim Makovjak's book http://www.adn.com/2006/06/24/187046/in-
tongass-timber-writer-sorts.html

    Senator Wyden. Thank you. We will be working closely with 
you. I can see that there are strong and differing views. 
That's our job is to find a way to bring folks together.
    Mr. Anderson.

    STATEMENT OF SHERMAN ANDERSON, PRESIDENT AND OWNER, SUN 
 MOUNTAIN LUMBER, INC. & SUN MOUNTAIN LOGGING LLC, DEER LODGE, 
                               MT

    Mr. Anderson. Thank you, Mr. Chairman.
    Senators, I'm very pleased to have been able to have been 
invited and made the trip here to testify on behalf of S. 268. 
My name is Sherm Anderson and I'm accompanied by my wife, 
Bonnie, who is here today with me. We live in a small town in 
Deer Lodge, Montana, located in Southwestern Montana.
    We own and operate a small family business of logging and 
saw milling. All of our family members are involved in the 
business along with 350 direct and contracting jobs. Our 
survival will depend on a more reliable supply of timber from 
our National Forest.
    Our business utilizes approximately 50 million board feet 
or 12,500 truckloads of logs per year. Currently we acquire 80 
percent of those off of private lands, 10 percent off of State 
lands from Montana as well as Idaho and only 10 percent off of 
National Forest. In Montana over 60 percent of our forested 
land is on National Forest.
    In Montana we now have five to six million acres of dead 
and dying timber on our National Forest. Our industry is 
shrinking in Montana. We've lost 40 mills, the last one being 
Smurfitt-Stone, our paper facility in Missoula that employed 
600 employees. We only have ten remaining.
    Still we are 17 percent of the total economy of Montana. 
Ten years ago we were 35 percent. Twenty years, we were 50 
percent of the economy of our State. Other States have lost all 
of their infrastructure, Wyoming, Colorado, New Mexico, Arizona 
and Utah.
    A year ago Secretary Vilsack visited our mill and saw the 
dead timber surrounding our valley within 15 miles of our 
facility. He looked straight at me and asked, why can't we use 
this dead timber for lumber and biomass? Why don't you have a 
co-generation facility on your site?
    The answer is very simple, poor forest management for a 
variety of reasons. One being, as you have stated, Mr. 
Chairman, moving at a snail's pace. If you look at the anatomy 
of a snail, they move not only very slowly, but they're able to 
sleep for years at a time. That's what's happening here.
    Creating no reliable long term timber supply we have been 
working with industry, conservationist and other partners, one 
of which is I'd like to acknowledge here in the room from the 
Montana Wilderness Association, Brian Sibert. We have spent six 
long years of collaboration, collaborative efforts, to help 
develop solutions. The very thing that now the Forest Service, 
now advocates must happen.
    We firmly believe that Senator Tester is proposing with 
this bill attempts to resolve gridlock on some of the National 
Forest. Bringing together very diverse groups with many 
different interests to resolve problems and to create and 
retain jobs through managing our net forest resources in a more 
responsible way by performing needed restoration work, 
preserving our high mountain back countries, guaranteeing 
recreational opportunities, protecting our clean water, 
hunting, fishing, grazing for livestock, protecting our 
communities from catastrophic wildfires, while preserving the 
wood products infrastructure that still remains. We see this as 
a win/win for all Americans who believe in the wise use of our 
National Forests.
    I thank Senator Tester for his undying support and his 
effort, his willingness to give it all for the betterment of 
Americans. I ask the members of the subcommittee to support him 
and to move this forward.
    [The prepared statement of Mr. Anderson follows:]

   Prepared Statement of Sherman Anderson, President and Owner, Sun 
    Mountain Lumber, Inc. & Sun Mountain Logging LLC, Deer Lodge, MT

    Senators, Chairman Wyden, Members of the Sub-committee on Public 
Lands and Forests of the Senate Committee on Energy and Natural 
Resources:
    I would like to submit written testimony in support of the Forest 
Jobs and Recreation Act, S268, sponsored by Senator Jon Tester and co-
sponsor Senator Max Baucus from our state of Montana
    I live in the small community of Deer Lodge, MT with a population 
of 3,500 people, located in southwestern Montana. My wife Bonnie and I 
own and operate Sun Mountain Lumber and Sun Mountain Logging, small 
wood products manufacturing businesses in Deer Lodge. When in full 
operation prior to the recession, we employed 275 full-time employees 
and another 50 to 75 subcontractors.
    We have been working with others in our industry and also the 
conservation community for the past six years in a collaborative effort 
to develop solutions that would resolve our differences and promote 
better forest management on our national forests. In our state where 
over 60% of our forested land is owned and managed by the U.S. Forest 
Service, it is crucial to all Americans that we find ways to give the 
forest service the necessary tools they need to better manage our 
forests.
    We have been watching our forests each year die from insects and 
disease, creating a serious threat of catastrophic wildfires that are 
sure to come. When these fires do occur they not only destroy the 
timber that we rely on for our businesses but also the habitat that is 
connected to it: wildlife, fisheries, recreation, livestock grazing, 
domestic water supplies, energy supply (power, gas and oil transmission 
lines), homes, communities and people's lives, not only those who live 
in and around the forest but the many who are put at risk as they fight 
the fires, in their efforts to protect the communities and resources.
    We believe that this bill that Senator Tester is proposing gives 
the Forest Service additional tools they need to help them manage our 
forests. Management of our national forests currently is driven by two 
factors: controversy and budgets. These two factors often times are 
overlapping each other as we see project after project tied up in 
appeals and litigation, which in turn causes a drain on the budgets. 
Fire also is playing a major role in budgets as 50% of the Forest 
Service budgets are now being utilized for wildfire suppression.
    We now in Montana alone have between 5 to 6 million acres of dead 
and dying timber, timber that is vitally needed to maintain our 
remaining industry infrastructure, timber that still has a useful value 
to all Americans but stands waiting for the fires that are sure to 
come, while we as an industry continue to shrink from lack of timber 
supply. Montana has lost over 40 of our wood products manufacturing 
facilities, which employed over 15,000 workers, with only 10 facilities 
remaining, which utilize 10 million board feet or more annually, 
employing 5,000 workers. The latest closure was Smurfitt-Stone 
Container in Missoula, which employed 600 workers. The wood products 
manufacturing industry now comprises 17% of Montana's total economy, 
second only to Petroleum at 20%. Ten years ago wood products were at 
35% and 20 years ago we were at 50% of Montana's economy. So it is easy 
for to see where the industry is headed. We in the wood-products 
industry as well as our conservation partners know of the need for our 
infrastructure to remain viable as a management tool for healthy 
forests. We have witnessed in other states what happened when the 
infrastructure left. We need only to look at Colorado, New Mexico, 
Arizona, Utah and Wyoming who have all lost their basic system of 
harvesting timber and manufacturing wood products. Now they are faced 
with massive wildfires that destroy the resources that the forests had 
provided. When the wood products infrastructure is gone you lose all 
the trained work force and the facilities that can provide the needed 
restoration work. This has and will continue to cause a need for higher 
budgets as more money from the U.S. taxpayers goes to pay for fire 
suppression and forest restoration.
    We all know that weather events are uncontrollable, as we are 
witnessing the massive destruction caused by hurricanes, tornadoes, 
floods and more. Wildfires are no different; however, with proper 
forest management, we can have an effect on the severity and results of 
these wildfire events.
    Let me share a few statistics with you: Our facility of Sun 
Mountain utilizes 50 million board feet or 12,500 truckloads of logs 
per year. We currently acquire 80% of those logs from private land-
owners, 10% from State Lands both Idaho and Montana, and 10% national 
forests both U.S. Forest Service and BLM lands (Bureau of Land 
Management). In Montana, remember, over 60% of the forested lands are 
located on U.S. Forest Service lands. Our private and state lands 
cannot continue to sustain us and all other wood products manufacturing 
in Montana.
    In Montana, we are also beginning to feel the pressure from the 
Chinese and Japanese export markets occurring on the Pacific Coast. As 
that giant need continues, companies have been reaching further inland 
to secure the wood fiber from private and state timberlands; thus the 
growing demand for our national forests to provide for our domestic 
markets. We are certain that as our economy rebounds, as it is 
beginning to do, that our domestic markets' demands for wood fiber will 
far exceed the supply capabilities of both our domestic manufacturers 
as well as the Canadian suppliers. But the infrastructure we currently 
have cannot grow without some form of secure timber supply.
    This bill attempts to resolve gridlock on some of our national 
forests, bringing together very diverse groups, with many different 
interest, to resolve problems and to create and retain jobs through 
managing our forest resources in a more responsible way: by performing 
needed restoration work, preserving our high-mountain backcountry, 
guaranteeing recreation opportunities, protecting our clean water, 
hunting, fishing, grazing for livestock, protecting our communities 
from catastrophic wildfires, while preserving the wood products 
infrastructure that still remains.
    We see this as a win/win for all Americans who believe in the wise 
use of our national forests.
    I thank Senator Tester for his undying support of this effort and 
his willingness to give it his ``all'' for the betterment of all 
Americans. I ask the members of this sub-committee to support him and 
to move this bill forward.

    Senator Wyden. Thank you very much, Mr. Anderson. We'll be 
working with you as well.
    Mr. Congdon.

      STATEMENT OF WALTER E. CONGDON, MONTANA CATTLEMEN'S 
                     ASSOCIATION, DELL, MT

    Mr. Congdon. Good day. It is nice to be in Washington, DC, 
and to see people who have gene of cattle pools. I buy cattle 
and sell cattle too. Your cattle in indirect in Sand Point are 
one of the closest there is. We send cattle to Oregon on 
Saturday, the gentleman from Oregon and the gentleman from 
Idaho as well.
    It's fun. So the West is the same.
    Senator Wyden. Right.
    Mr. Congdon. There's no doubt about it, a simple thing.
    Thank you for the chance to be here. What I would say is 
this.
    First, to Senator Tester and all of you who have the same 
problem with the ruralism in mass. The whole rural economy is a 
mess. Thank you for looking at this bill. Thank you for 
addressing a problem and doing something that incorporates 
multiple use and at the same time it protects and saves and 
preserves all the lands we value a lot which is really 
significant to all of us.
    Part of what's in the bill is out the front window of my 
house. Other parts of it are not. I've walked through a lot of 
it. We've seen it and there it sits.
    My family originally set chokers and farmed in Idaho and 
Montana and Wisconsin. There they go. So we come by it 
honestly. There it says.
    The things I put in the bill that I wish. My suggestions 
are simple and I wish Senator Barrasso were here.
    One I ask that you add the preparatory language from 
numerous acts that I put in the first sentence. Those things 
read as follows.
    Very simply, what they say is the policy of the Federal 
Government and it says that in the law, it is the policy of the 
United States that arrangements with local government, 
conservation districts, etcetera and similar cooperative 
agreements should be utilized to the fullest extent 
practicable. Local has a vote. Local makes a choice. Local 
should do it with Forest Service and BLM. This bill will 
succeed a lot better if you have a local incentive for success.
    So the S. 375 arrangement that Barrasso was talking about 
implements exactly what the existing policy is. We really would 
like you to add it to this bill in those languages in the 
beginning because local gives us a vested interest in having 
success. The more we care on the ground about it working, 
whether it's Oregon, Idaho, Alaska, the better it's going to 
do. Frankly we have a vested interest in all of it. So that 
would be very good if you could make those sorts of changes.
    Second, we thought the bill should acknowledge simply, 
multiple use, which is what Mr. Anderson talked about. Frankly 
multiple use is wilderness. It is cows grazing. It is forestry. 
It is fisheries. It is wildlife. It is hunting. It is all of 
those.
    So putting the multiple use language in does a little 
better job of adding that and what we ask for there simply is 
in terms of monitoring we ask for a list, not just a talk about 
economic impact, not talk about social impact. They're nice 
words that give us a warm feeling. But frankly what are they?
    So what we ask for was simply this. Talk about things like 
RVDs which is Recreational Visitor Days, fish and wildlife 
population, grazing AUMs, forest products productions, i.e. 
numbers, 52 million board feet verses 47 million whatever they 
are. Those mean a great deal to yourself in Alaska.
    Those would mean a lot in Eastern Oregon etcetera. So give 
us a number that on the ground, for those of us that are using 
it, know what an AUM is, what an RVD is, what a million board 
feet is or what a log truck load is. Simple changes we ask for 
them for a specific reason. You see why.
    The crisis of the whole bill is the one that you've all 
talked about today. It's delightful to be here and hear this. 
All of you have said, our infrastructure is in trouble. And 
frankly our infrastructure is gone.
    I am only 53. In the first grade there were 9 sawmills in 
Missoula, Montana. Today there are none.
    There was one in Victor. Today there is none.
    There were two in Stevensville. Today there are none.
    There were two in Hamilton. Today there are none.
    There were two in Darby. Today there are none.
    There was one in Conner. Today there's none.
    There were two in Ronan. Today there are none.
    There were two in Superior. Today there's none.
    There were two in St. Regis. Now there's a small one. 
That's it.
    There were two in Thompson Falls. Now there's one.
    Two in Plains, there's none.
    Hot Springs, there's none.
    Go through the list.
    The infrastructure is basically gone. A lot of it is. So 
aside from saying we need to restore. The other thing we need 
to probably add is a language that says, add, restore, to 
preserve. Because having SBA loan money, having whatever money 
available to say, look, we are restoring our infrastructure.
    Whether it's a mechanic shop. Whether it's a mill that 
works on log trucks. Whether it's material or plants that build 
logging equipment, fine. But the company that built the mills 
in Oregon and the company that built the mills in Alaska was 
Mill Supply Company in Missoula, Montana until 1972.
    I remember it well. It is now under a mall. It is gone, 
hasn't been there for 30 years. If you look at your old 
planners, stamped there is Mill Supply Company, Missoula, 
Montana. The infrastructure is gone. So to restore it, it 
really means a lot.
    So I would conclude simply with this. I would read you 
three sentences.
    It is the continuing responsibility of the Federal 
Government to use all practicable, important, historic, 
cultural and natural aspects of our national heritage and 
maintain wherever possible an environment which supports 
diversity and a variety of individual choice.
    Those three sentences say a great deal. This bill does 
that. It is the best chance I've ever seen after 30 years of 
somebody doing wilderness, doing multiple use and that's three 
sentences is the prefatory language to the National 
Environmental Policy Act.
    It is Section 16 USC, 43/31. This bill does precisely that. 
I would ask that you please support Senator Tester because a 
great deal of work went into this. It's 30 years after NEPA got 
adopted. It's a heck of a deal. It took 30 years to get that 
language in something that looks like this bill.
    Thank you very much.
    [The prepared statement of Mr. Congdon follows:]

     Prepared Statement of Walter E. Congdon, Montana Cattlemen's 
                    Association, Dell, MT, on S. 268

    Ladies and Gentlemen;
    This testimony is submitted on behalf of myself, numerous other 
southwest Montana persons and the Montana Cattlemen's Association.
    The suggested changes are minimal in text but are substantial in 
issue and effect.

          (1) Section 101, 3--add ``while incorporating the policies 
        set forth in 16 USC Section 2003 (b), 16 USC, Section 2008, 16 
        USC, Section 1508, and 16 USC, Section 3411(5)''. This 
        recognizes and encourages local participation and a vested 
        interest in success, locally. (see attached)
          (2) Section 101, 5--add ``in a manner incorporating multiple 
        use strategies where practicable''. This acknowledges the 
        planning-management mandate that applies to USFS lands. 
        Multiple use is very important on the ground and seems 
        consistent with forest jobs and sustainable management.
          (3) Section 105 (c), Biomass--add ``firewood'' after ``small 
        diameter materials''. Rural communities depend on this biomass. 
        Of 92 households in Lima, Montana, 78 heat with wood--not oil, 
        gas or electric. This is important environmentally and 
        economically, as much of the community is very low income.
          (4) Section 204 (i), page 31, Livestock--add ``(4) to 
        facilitate the purposes set forth in this Section and Act, 
        grazing may be allowed as a management tool.''
          This may be goats or sheep grazing for weed control, cattle 
        grazing for fuel reduction, or livestock for wildlife habitat 
        improvement, like the Fleecer Mountain project of Montana Fish, 
        Wildlife and Parks and the Wisconsin Oak Savannah Restoration 
        project--Wisconsin DNR.
          This tool may eliminate the need for mechanical or chemical 
        control or activities to achieve the purposes of this Act.
          (5) Section204 (L), page 33, (1) before water storage, add 
        ``water rights'' A ditch with no water right is not useful, 
        just as a water right with no ditch is not useful. This 
        addition seeks to remedy this problem.
          (6) Section 204 (L)(1)(B) (i)--delete ``on the non-Federal 
        land'', as the water rights and structures are often for use on 
        both private and public lands, for grazing, fire protection, 
        etc. The land use and management are integrated, and the water 
        that facilitates this should be recognized and used and managed 
        similarly.
          (7) Section 103 (f) (2) (B) inclusions, IV, add ``resources 
        produced , maintained, and reduced or increased, including 
        RVDs, Fish and Wildlife populations, grazing aum's, forest 
        products production and other quantifiable commodities or 
        products''.
          This provides users, the agency and all participants with an 
        inventory of how and what was produced--not produced, or 
        impacted by the activities conducted hereunder. These numbers 
        are very real to persons on the ground and should facilitate a 
        commitment to success. They will also facilitate a broader 
        evaluation of the total impact of this bill and related 
        management activities.
          (8) Section 101 (1)--add ``restore'' after ``preserve'', 
        Management is a needed activity to accomplish the benefits 
        contemplated by this Act and other Federal laws. Utilization of 
        the forest products produced requires infrastructure. Much of 
        the infrastructure needs to be rebuilt, and recognizing this 
        should help facilitate doing so. This may be rebuilding small 
        sawmills that no longer exist machine shops that manufacture 
        equipment for processing forest products, or machine shops to 
        maintain rolling stock.

    I appreciate, on behalf of myself, Montana Cattlemen's Association 
and others, the opportunity to comment. We also appreciate the changes 
you have made on this bill since last year, and believe that you have 
all responded to many of the concerns we expressed. With these or 
similar changes, we support this act and hope that this will facilitate 
a local, on the ground commitment to success. We believe this is the 
first effort to address Wilderness issues with consideration of 
multiple uses and hope for the success of this management strategy.

                               ATTACHMENT

16 U.S.C. Section 2003 (b)
    ``Recognizing that the arrangements under which the federal 
government cooperates through conservation districts with other local 
units of government and land users have effectively aided in the 
protection and improvement of the nation's basic resources, it is 
declared to be the policy of the United States that these arrangements 
and similar cooperative arrangements should be utilized to the fullest 
extent practicable''

16 U.S.C. Section 1508
    ``The Secretary [of Agriculture] shall, in addition to appropriate 
coordination with other interested federal, state, and local agencies, 
utilize the services of local, county, and state soil conservation 
committees.''

16 U.S.C. Section 3411 (5)
    Congress finds solutions to ``chronic erosion-related problems 
should be designed to address the local social, economic, environmental 
and other conditions unique to the area involved to ensure that the 
goals and policies of the federal government are effectively integrated 
with the concerns of the local community . . .''
16 U.S.C. Section 2008
    ``In the implementation of the Act, the Secretary [of Agriculture] 
shall utilize information and data available from other federal, state 
and local governments.''

    Senator Wyden. Thank you, Mr. Congdon. You make a number of 
very important points. A big, big part of our challenge is now 
as we look to this fresh approach in forestry in trying to deal 
with the remaining infrastructure.
    What a presentation to go town by town by town to describe 
what it was like before. What it's like now in terms of mills 
is to get some of the references that you are making in those 
last three points. That in effect touch on this new approach in 
forestry and link it to some of the issues of the future. So 
very helpful.
    I want to let my colleagues ask questions. All of you have 
been an excellent panel. I thank you for making the long trek.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I want to 
follow on the chairman's comments here in noting your remarks, 
Mr. Congdon. Having gone to school as a young girl in Wrangell 
and remembering the mill there and knowing what our situation 
is now.
    Again, I think we look back on what we had and where we are 
now and wonder what is it that we can do to make a difference. 
Senator Tester, you clearly have done a lot of work in this 
area. I appreciate your efforts there, but to take it back to 
our situation in Alaska, in Southeast where we did once have a 
vibrant timber economy, an economy that sustained our 
communities and our families.
    We are, again, approaching that place where those Alaska 
communities that once hosted mills and operations and jobs for 
our families will be victims of where we are. What we're trying 
to do with this Sealaska bill is to try to keep the timber 
industry hanging on. From all accounts, whether it's through 
the Alaska Forest Association and I note that Mr. Owen Graham 
is with us today listening. I mean, we recognize that what we 
have with the Sealaska legislation is one way that can help us, 
perhaps the only way that can help us maintain a small movement 
forward to retain some of this industry.
    Mr. Mallott, I'd like you to address the issue of urgency. 
You hit upon it just very briefly in your comments. I mentioned 
it in my opening statements that the economy right now in 
Southeast is difficult.
    We've been working on this bill now for several years. It 
was urgent at that time to address how Sealaska can not only 
help its shareholders, but help the regional economy. We're 3 
years beyond that time when we introduced this bill.
    Can you speak to the impact that this legislation will have 
on the private timber industry and the other economic 
activities within Southeast and why it is that we need to move 
on this sooner than later? Not taking Mr. Sherman's approach 
and keep talking about this.
    Mr. Mallott. The industry just this past January lost one 
of its final, the timber industry, lost one of its final 
players with the closure of the Seeley mill near Ketchikan. To 
my knowledge there is just one significant mill remaining. That 
mill has continued to have a very difficult time with timber 
supply.
    Sealaska's harvest is diminishing. We had hoped that with 
the bill that was introduced three Congresses ago that we would 
be at a point now where we could be at a harvest level that 
would allow the regional timber industry to continue if at 
least to survive, if not prosper. Virtually all of, as has been 
mentioned by a prior speaker on another bill, but certainly 
germane to this topic, all of the infrastructure is, to a large 
degree, gone.
    Sealaska, itself, in the past several years has had a 
difficult time retaining contractors, retaining the materials, 
the supplies, the expertise necessary to sustain even a small 
harvest level at this time. If a bill is not passed soon, if 
the Forest Service in conjunction with Sealaska does not move 
more vigorously, we could well see the last mill in the Tongass 
close within the next year or so.
    Senator Murkowski. Let me ask you a question that has been 
raised by the opponents to this bill. It has been suggested 
that Sealaska is essentially cherry picking, that they're 
taking the best areas, the best timber lands through this bill. 
I guess I look at this differently. I recognize that within the 
legislation with the future sites, with the sacred sites, 
you're barred from timber development, mineral development on 
there. You have essentially, as my count, about 39,000 fewer 
acres of old growth timber that you would otherwise be entitled 
to.
    Can you speak to the assertion that somehow or other you 
are cherry picking the best lands?
    Mr. Mallott. One of the reasons, Senator Murkowski, that I 
made the opening statement that I did and did not speak 
directly to the elements of the legislation is based upon some 
of those comments. It seems like when it comes to dealing with 
the kinds of issues with the ownership by natives that we're 
talking about that somehow there's always another impediment. 
Somehow you have to take second place, that somehow there are 
other intervening and overriding public policy circumstances 
that inhibit any meaningful action on your behalf.
    But we were part of what is called the Tongass Futures 
Roundtable, a gathering of all of the many interests in the 
Tongass National Forest, convened for the purpose of trying to 
wrestle with all of the issues that we have talked about here 
and in the past. One of the clear early discussions was about 
the need to begin thinking about second growth harvest and 
management in the Tongass. Sealaska has already been managing 
its harvest areas. We could well have selected old growth 
within our current withdrawal areas and had quite large 
harvests of that growth.
    But we, wide eyed, said let's become involved with this 
larger public effort to create a sustainable, long term, second 
growth industry. We knew that it would cause Sealaska to give 
up early profitability for long term sustainability. We were 
willing to do that.
    We have no desire to be old growth harvesters. We want to 
have a sustainable industry over time. I'd just like to make a 
quick comment on the notion about export----
    Senator Wyden. Let me interrupt only to say I've been 
called to the Capitol for a meeting. Senator Murkowski has 
graciously said that she is going to stay with it now until she 
has her questions answered. Then Senator Tester I know has some 
questions as well.
    So let me hand this to Senator Murkowski. Just tell our 
witnesses again, our thanks for making the trip. We're going to 
follow up with all of you.
    It's our objective to try to bring folks together. 
Certainly there is a wide divergence of views on some of these 
questions. But this committee has a good track record of trying 
to find common ground on contentious natural resources issues. 
That's what we're going to try to do again.
    So, Senator Murkowski, thank you for taking it at this 
point. My apologies to witnesses, but Senator Murkowski will 
ask her questions and Senator Tester will have some as well. I 
thank my colleague.
    Mr. Mallott. Thank you, Mr. Chairman.
    So the movement to select second growth was not about 
cherry picking it was trying to be responsive to what we 
believe was an appropriate public policy imperative. With 
respect to sacred sites there had been concern within the 
native community about public management of sites that are 
identified and understood then recognized by all to be sacred 
in the truest sense of the word. We were wanting, moving into 
the long term future, to have the ability to manage those sites 
in a way that was appropriate to our ownership as native 
peoples.
    We have made it clear and in writing, not necessarily in 
the legislation, but in writing, that sacred sites would not be 
used for any purposes other than for those identified in the 
designation. It was not cherry picking. It was consciously 
looking at specific sites that were of utmost importance to the 
native community by way of history, by way of tradition, by way 
of culture, by way of past occupancy. Ultimately it was 
serendipitous, even for us to some degree, to find and to 
identify some of those sites.
    With respect to future sites, there were multiple reasons. 
One of the critical ones for me was having lived in the forest 
for all of the years that I have and seen long term forest 
management, short term forest management, was to try to create 
the way for local residents, local citizens, who lived in the 
region, to have a seat at the table of Federal management 
decisionmaking over time. We believe that those sites could 
help us gain that.
    Also, our presence in the Tongass National Forest is 
pervasive. It extends from Yakutat to South of Saxman, in the 
South, Yakutat, on the North. There is not a single place in 
the forest that has not, at one time, been ours and impacted by 
our presence and hugely important to us.
    So the notion of future sites was built around that basic 
value structure. That philosophy and the idea then in addition, 
was to how can we, when we have villages scattered throughout 
the region, have sites that were relatively close to each of 
them that could impact them in a positive way either 
culturally, through the development of energy sites, through 
the use for cultural and traditional and recreational purposes. 
But it was that simple and that straightforward.
    If looking at the region and saying these sites are 
important to us and they would meet these values, is called 
cherry picking, then we're guilty. But to us it was not that at 
all. It was trying to create the opportunities that we've 
discussed clearly in the bill.
    We also have Sealaska has met time and again with every 
single community, every single interest that has voiced a 
concern within the region, as has your staff, virtually. Much 
modification has been made to the full range of future sites. 
The number has decreased since the first bill was introduced. 
Even some of the sacred sites have been moved.
    So it has been a very iterative to, in my judgment, a very 
responsible effort to try to gain what we believe is important 
to us while still being responsive to the other interest within 
the forest.
    Senator Murkowski. I have more questions that I would like 
to direct to you all. But recognizing Senator Tester that we've 
got a series of votes coming up shortly, I'd like to defer to 
you for your questions. Then I'll come back, but----
    Senator Tester. You're way kind, Senator Murkowski.
    Senator Murkowski. No.
    Senator Tester. I'll add 5 minutes from the clock there if 
I'm not done on time.
    Senator Murkowski. No, no. Please, you get double time 
because I have taken twice mine. So it's all yours.
    Senator Tester. Thank you very much. Thank you all for your 
testimony. I very much appreciate everybody who testified today 
on different bills.
    Sherm, Mr. Anderson, we've talked before about how some 20 
years ago that you hauled around anti-wilderness signs at 
various rallies. I know emotions run high when people look at 
you and they're trying to proceed and take away your business, 
your livelihood. But then here 6 years ago you sat down with 
the very folks you had been fighting with.
    Could you tell me what it was like to try and find common 
ground? What made you do it?
    Mr. Anderson. OK, Senator Tester.
    What it was like was very tense, very tense. Obviously I do 
remember those 15 to 20 years ago when we had fierce 
discussions. Our unwillingness to bend and the conservation 
group's unwillingness to bend has brought us to where we are 
today. That's nowhere for any of us.
    Our forests are not being managed. Our conservation 
partners see that as well as we see that. We see the potential 
of what is sure to come. That's catastrophic fires that no one 
can control.
    With that then we were able to sit down and inch by inch 
per say, come to agreement on certain areas on our National 
Forests. As you stated, this is somewhat of a pilot. We picked 
the Beaverhead-Deerlodge and the other two forests that in 
Montana to see what we could do by working together verses 
pulling at each other apart and getting nowhere.
    Senator Tester. You know one of the objections that when 
this bill was here 2 years ago, one of the objections was why 
you doing this? There's no market for the wood anyway. Could 
you give me kind of a state of the landscape as far as 
marketability of your wood?
    Mr. Anderson. I can. You know, that is often quoted--
misquoted, I would say that there is no market for the wood. 
Even in these distressed times where everyone knows the housing 
market is as bad as it gets. We, ourselves, never have any 
problems moving the wood.
    There's always a demand for lumber up to a certain point, 
obviously. With the current situation with the Chinese exports 
especially, but with also the Japanese exports coming on to 
meet their needs, it is spreading inland and is affecting us 
directly. Because anything that is not tied to the National 
Forest, is going on the water and going overseas, if possible.
    So there are markets that are developed. When that happens 
and where we're located in the inland area of Montana. Then 
what small domestic market is here, even in the recessed times, 
we don't have any problems moving our wood.
    The problem is obtaining a resource, timber, at affordable 
prices that we can obviously continue to operate in distressed 
times.
    Senator Tester. Supply.
    Mr. Anderson. Supply.
    Senator Tester. Wally Congdon, I've read your testimony. I 
very much appreciate your suggestions. As Senator Barrasso 
said, great testimony. I'll take a close look at them.
    Could you give me your general overall thoughts on the bill 
just as you see it, just as a cattleman?
    Mr. Congdon. My thoughts are this.
    One, it's not just about the infrastructure for trees. It's 
the infrastructure for outfitters and guides. It's the 
infrastructure for grazing. It's the infrastructure for 
recreation. It's the infrastructure for local economies who 
have tourists, etcetera.
    So what the bill overall does for the first time is it 
truly takes all the things from multiple use that NFMA/FLPMA 
talk about and you plug them all into a package. There were 
times I was on the other side of the table from Sherm Anderson 
25 or 30 years ago as well. He doesn't know it. But I do.
    Be that as it may, what it did for the first time is it put 
together that way. So my thoughts on the bill in some senses a 
camel is a horse designed by a committee. At the other time, 
this does not look like a camel. This looks like a very good 
horse.
    That being the case, I think overall, you couldn't have 
done a better job. It does set up to preserve grazing, preserve 
agriculture, preserve recreation, preserve outfitters and 
guides. What that to me is is agriculture which is silviculture 
and logging, Senator, are the same.
    It is five letters that everyone forgets. It is the 
practice, the process, the procedure, the science and the art 
of producing something whether it's a substance, a food, a 
fiber, a piece of wood, for use by society and people. The 
problem is the guys who can drop a tree on a stake 70 foot away 
are quickly falling by the wayside because that culture, that 
ability is quickly going.
    The people who can rope a cow are quickly becoming fewer in 
numbers. The guys who can pack a mule to haul salt become lower 
in numbers if we don't preserve, protect and provide the 
opportunity for what your bill does. So my observation overall 
is well done after 30 years. It took us a long time to get 
here. I'm really happy to be here for it.
    Senator Tester. We're happy to have you here.
    One more question for you, Mr. Congdon. There have been a 
number of accusations this bill was formed in secret. Some will 
even claim that this hearing is not public. Can you talk about 
the transparency this bill has experienced in Montana inclusion 
of suggestions and even by the folks who oppose it?
    Mr. Congdon. Yes.
    No. 1, there were a number of meetings locally, etcetera. 
County commissioners, city officials attended them, MWA, 
etcetera. People all attended them and did drafts and comments 
early on. It was public.
    When the first drafts were done a year and a half ago, I 
did comment on them. Frankly, your staff and you, did listen. 
You made the changes we requested like save grazing, save water 
rights, make an effort, unload some lands from the REPA, 
etcetera. The need to be released for public use now, etcetera.
    So it has been an open policy, an open thing. What I tell a 
lot of those people who are complaining is very simply this: 
there's a ball game. If you're going to play, bring a team. If 
you don't show up, don't be surprised at the end score.
    All the people I know of who complained and said, this is 
private, this is not public, that you did this through back 
doors, I ask every one of them show me your comments on the 
first draft. Guess what I got back from every person. Nothing, 
because they made no comments, Senator.
    Those of us who did, it was public. It was open. Job well 
done. I think that's really important.
    Senator Tester. I want to thank, you know, we've got folks 
from Alaska here. We know how far they travel to get here. 
Montana is not exactly a hike across, well it's a pretty big 
park, let's put it that way.
    I thank you coming the 2,000 miles to Washington, DC, to 
testify, both of you. I appreciate your being here, Bonnie. But 
I really appreciate Senator Murkowski's openness in allowing me 
to be a part of this committee when I don't sit on it. So thank 
you.
    Senator Murkowski. Thank you, Senator Tester. I appreciate 
your comments. To both gentlemen I would echo the comments of 
Senator Tester.
    We know what it takes coming from Alaska to haul yourself 
across country to be here for a very brief period of time. We 
appreciate your appearance here today as well as the work that 
you clearly have done on this. So thank you.
    I just have a few more minutes. As I mentioned we've got a 
series of votes that are starting in just less than 10 minutes 
now. But I just wanted to follow up.
    Ms. Poelstra, I convey to you the same appreciation. I know 
it's not easy getting in and out of Edna Bay. So thank you for 
your efforts in being here.
    You have stated in your testimony and in your written as 
well, the assertion that somehow or other Sealaska is unjustly 
enriched. I think it is important to recognize that with this 
legislation Sealaska doesn't get one more acre than they are 
entitled to under the agreement in ANCSA 1971. So I guess I 
would ask you to explain why you feel it is unjust?
    You've also used the term ``land grab'' that assumes that 
there is more that is made available to Sealaska than they 
would otherwise be entitled to. Can you just clarify for me 
what you mean when you say it is unjust that Sealaska should 
receive this entitlement?
    Ms. Poelstra. When I say it's unjust I'm referring not to 
the total number of acres. I don't think anyone has ever 
challenged the acreage that they still have due them. I know 
that the amount is yet to be determined. But I've never seen 
anyone really challenge that.
    What I consider unjust is the acreage that they're taking. 
What I use to base that opinion off of, I don't know if you're 
familiar with the Albert Report. It was published in March of 
last year.
    In that report it was based off of Senate bill 881 at that 
time. You know, at that time all ten parcels that Sealaska was 
selecting were ranked in the top 10 percent of trees on the 
Tongass. Those selection areas have large tree forests. It was 
ten times more than the average on the Tongass.
    They had tar spores that were 31 times more than the 
average on the forest. Deer habitat that was 3.5 times more 
than average and salmon habitat that was 1.2 times more than 
average. Those are the things that I'm referring to that are 
unjust.
    The problem----
    Senator Murkowski. But in fact we worked quite aggressively 
to address many of those concerns that were raised in making 
the changes between the legislation from the prior Congress to 
this. Would you agree?
    Ms. Poelstra. You know, I haven't seen any updated reports 
in regards to this bill. It's only recently been introduced. 
There's not a lot of information or details out yet. So, you 
know, I would be interested in seeing just what those 
adjustments did to change those figures.
    In regards to the future sites I used Icy Straits as an 
example. That is something that none of the other regional 
corporations were given the opportunity for. That's one of the 
things that makes people believe across Southeast Alaska and 
even in other parts of the State that it has the potential for 
people to ask to reopen ANCSA and to readdress a balance in the 
difference in what Sealaska is being allowed to select.
    Senator Murkowski. Let me ask, and I will direct this 
probably to you, Jaeleen, as counsel for Sealaska because this 
is an issue that has been presented before that somehow or 
other with this legislation and Sealaska being allowed to 
select outside of the original entitlement areas that this 
opens the door under ANCSA for the other 11 Alaska Native 
Corporations to come back in and basically reselect. Can you 
speak to that, please?
    Ms. Araujo. Yes, Senator Murkowski. Thank you for the 
opportunity to provide an answer to that question.
    I guess I would have to point to the fact that Sealaska 
region, the region that we are in, was treated very differently 
in ANCSA. As was testified to before, there were very strong 
political interests restricting us to small areas from which to 
make our selections. We had 10 boxes drawn around 10 of our 
villages. Congress said that is where you make your selection.
    That is not the same limitation that was put on the other 
regions. In fact, I know that other regions were basically 
told--I mean, their villages were restricted, but not their 
regions. They could select basically any unappropriated, any 
unreserved areas in their region.
    If they couldn't find land they could actually 
administratively petition the Secretary to help them find 
alternative lands. We don't have that same right in Southeast 
Alaska. We were limited to certain boxes. So I don't think 
allowing us to go outside of those withdrawal areas opens up 
some box for other communities.
    But I would also----
    Senator Murkowski. That is correct to note then that 
Sealaska is the only corporation situated that way.
    Ms. Araujo. Yes. But I would also note that ANCSA has been 
amended more than 30 times since it was enacted. It was, as we 
all know, a Congressional experiment to not create more 
reservations. But to do something different to promote economic 
development so that native people could provide for themselves.
    But, you know, with this legislation being so different 
there have been a number of inequities and problems that have 
been identified over the years and corrected. We think that 
this is one of those. I also would submit that if other regions 
have similar inequities or problems in their region, then they 
should present those to Congress and have the similar public 
process that we're going through to have their issues, I guess, 
judged and identified and to determine if they have a right to 
have some congressional action as well.
    Senator Murkowski. Is it not accurate though that Sealaska 
is the last native corporation to finalize their selections?
    Ms. Araujo. I don't know about the exact situation of all 
the others. But I think we are one of the last. I know that all 
the other regions support us in getting our remaining 
selections.
    I haven't heard from any other regions, and I've met with 
them many times, that they have similar circumstance and need 
to come to Congress. So based on the information I have now I 
don't think any others are similarly situated.
    Senator Murkowski. OK.
    I wish that we could spend more time here this afternoon 
just in putting out on the record the information that I think 
has been critical in developing this legislation as we have 
advanced. As I mentioned and as has been mentioned by several 
of you, this has been years in the making and an 
extraordinarily open process throughout. I wish that I had been 
able to be in every of the affected communities but I simply 
was not able to do that. I was fortunate enough to be able to 
have staff that went and listened to the concerns.
    We have earnestly tried to address as much of the competing 
concerns and issues as we possibly can. But at the end of it 
you recognize that you cannot make every interest 100 percent 
happy. So in an effort to get to where I was suggesting to Mr. 
Sherman that at some point in time you've got to get to the end 
of the talking process and actually resolve the issue, bring 
closure, finalize the entitlements, work to address the 
situation with the Sealaska shareholders while at the same time 
doing it in a prompt manner so that we can help a struggling 
Southeastern economy.
    So it's not something that I think can continue to drag on 
for additional years. Because I think then, you get yourself in 
a situation where these gentlemen are talking about where there 
is no infrastructure within the industry to hang on to, to 
rebuild. It is gone.
    So I heard the chairman of the subcommittee indicate that 
he is interested in working with us. We will continue in this 
process. But it is my hope that we will be able to move the 
bill, this Sealaska legislation, through the committee, move it 
to the Floor.
    I would anticipate at that time the process is what the 
process is. But it is important that we finally get to that 
point where we are able to bring a resolution to this issue. It 
is one that I admit has brought controversy between neighbors. 
That is unfortunate.
    But at the end of the day, we are all still neighbors 
there. We need to figure out how we remain in our communities. 
I'm hopeful that with passage of this legislation the strength 
of the Southeastern economy can continue in an upwards 
trajectory. We can move on in a way that's good and healthy for 
all of us.
    So I thank you for your efforts. I thank you for your 
testimony. I thank you for coming all this way. For those of 
you that have joined from Alaska, I also thank you for your 
efforts.
    Mr. Mallott. Thank you, Senator.
    Senator Murkowski. Thank you. With that, ladies and 
gentlemen, we stand adjourned.
    [Whereupon, at 5 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Responses of Marcilynn Burke to Questions From Senator Murkowski

                                 S. 233

    I understand there are approximately 300,000 acres involved that 
are currently leased. Some of the companies have indicated a 
willingness to relinquish their leases without any compensation. Other 
leaseholders have not reached that agreement. These are valid, existing 
lease rights.
    Question 1. Can you help me understand what percent of the leased 
acreage is held by companies who are willing to give up their leases 
without compensation?
    Answer. The BLM processes relinquishments when the leaseholders 
submit them to the BLM. The Department has not requested any 
relinquishments. To date, the BLM has processed voluntary 
relinquishments on 79 leases in the withdrawal area covering 
approximately 184,000 acres (76 of those leases are in the North Fork 
Watershed of the Flathead National Forest). This amount represents 
about 75 percent of the acreage leased for oil and gas development in 
the withdrawal area.
    Question 2. How much money has the government received in bonus 
bids and rents on these leases?
    Answer. The Federal government received about $911,000 for the 
leases within the withdrawal area. These leases are all simultaneous 
and over-the-counter (no bonus bids). Additionally, leaseholders do not 
pay rent while leases are under suspension. The Federal government 
received almost $708,000 for the 79 leases that have been relinquished.
    Question 3. Are there steps that could be taken to ensure the 
government is not liable for a takings claim?
    Answer. Because the relinquishments that are voluntary and 
processed at the request of the leaseholder under procedures set forth 
in 43 CFR 3108.1, there is no basis for a takings claim.

                                 S. 268

    As written, this legislative proposal includes releasing some 
Bureau of Land Management Wilderness Study Areas (WSA) from Wilderness 
Study Area status.
    Question 4. Other than the moratoria imposed in the recent 
Continuing Resolution preventing any funds being spent on implementing 
Secretarial Order 3310; what would prevent the released Wilderness 
Study Areas from being administratively protected under the Wild Land 
Policy?
    Answer. Secretary of the Interior Ken Salazar confirmed that, 
pursuant to the 2011 Continuing Resolution, the BLM will not designate 
any lands as ``Wild Lands.'' The Department will work in collaboration 
with Members of Congress, states, tribes, and local communities to 
identify public lands that may be appropriate candidates for 
congressional protection under the Wilderness Act.
    The BLM's open, public land use planning process determines how 
lands with wilderness characteristics (LWCs) are to be managed. Through 
this process, LWCs may be managed to protect their wilderness 
characteristics or for other multiple uses.
    Question 5. Have there been any meetings at the Council for 
Environmental Quality or the White House attended by any Department of 
the Interior or Bureau of Land Management personnel regarding the Wild 
Land Policy, or Secretarial Order 3310 since the Continuing Resolution 
was signed into law on March 15, 2011?
    Answer. I am not aware of any such meetings.
    Question 6. Have there been any internal meetings in the Department 
of the Interior or within the Bureau of Land Management to discuss 
where the Secretarial Order 3310 was discussed or how to move forward 
with the Wild Land Policy once the moratorium is lifted?
    Answer. There have been a number of discussions within the BLM and 
the Department about Secretarial Order 3310 and Section 1769 of Public 
Law 112-10 prohibiting the use of funds during fiscal year 2011 ``to 
implement, administer, or enforce that order.''

    (If yes)

    Question 7. What was the nature of the meetings?
    Answer. The meetings and discussions in which I participated 
involved how the Department would comply with applicable law, including 
both P.L. 112-10 and the Federal Land Policy and Management Act 
(FLPMA).
    Question 8. Please also provide a list of the names of the 
individuals in those meetings and what agency or organizations they 
represented.
    Answer. These internal meetings included representatives from the 
Department of the Interior. I did not keep any lists of participants in 
these discussions.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    [Due to the large amount of materials received, only a 
representative sample of statements follow. Additional documents and 
statements have been retained in subcommittee files.]

                            U.S. Department of Agriculture,
                                  Washington, DC, October 11, 2010.
Hon. Jon Tester,
U.S. Senate, 724 Hart Senate Office Building, Washington, DC.
    Dear Senator Tester: The Obama Administration and the U.S. 
Department of Agriculture (USDA) have laid out a vision for forests in 
the United States that emphasizes the importance of restoring our 
forests to conserve water; to ensure our forests are resilient in the 
face of insects, disease and climatechange; and to provide for vibrant 
local economies. Over the last several months, your staff has worked 
closely with the Forest Service to refine legislation to manage and 
restore forests on three National Forests in Montana that, if enacted 
and adequately funded, would not only be consistent with our vision, 
but would provide significant benefits, including a full suite 
ofrestoration activities for the people, economy, and forests of your 
state.
    When I visited Montana with you last winter, I was impressed by the 
challenges facing Montana's forests as a result of the mountain pine 
beetle epidemic and by the need to maintain forestry jobs and 
infrastructure in order to restore our forests. I was also greatly 
impressed with the partnership among former adversaries 
nvironmentalists, members of the forest industry,recreationists, county 
commissioners, and others-who have joined forces to address the threats 
facing Montana's forests, to support local communities, and to promote 
the designation of new wilderness areas in Montana for the first time 
in 27 years.
    With a limited number of legislative days remaining in this 
Congress, I know you are considering a number of approaches to enacting 
legislation that would codify the work of this partnership into a 
region-specific pilot project. No matter which approach is taken, I 
understand the legislation would establish performance standards for 
70,000 acres of mechanical treatment on the Beaverhead Deeriodge 
National Forest and 30,000 acres on the Kootenai National Forest over 
the next 15 years. I believe these goals are ambitious, but sustainable 
and achievable. As with any new program or pilot, providing sufficient 
funding will be critical to allowing the Forest Service to prepare and 
implement mechanical treatments using stewardship contracts, 
timbersales contracts, and other means, Since there are many high-
priority programs throughout the National Forest System, we cannot 
shift funding from other regions to fund these treatments. Thus, I 
support the inclusion of language in this proposed legislation that 
states it will not impactfunds from other regions.
    Our nation's forests are changing due to forest health issues, 
effects of climate change, and other influences. These changes require 
that we develop and implement proactive measures for land management. 
Further, USDA and Congress must work together to help industries 
explore viable wood power generation and other biomass facilities so 
that we can maintain viable wood marketsfor the future. Markets for 
woody biomass could be critical in financing treatments in areas with 
beetle-killed timber. Since timber impacted by beetles will deteriorate 
over time, I believe an ambitious ramp up to perform mechanical 
treatment would be beneficial. I also believe legislation needs to 
allow for an evaluation of the treatments in light of the development 
of woodmarkets and the continuing budgetary requirements after 5 years 
to ensure that the purposes and vision of the bill can be successfully 
implemented.
    As the Administration expressed in testimony on S. 1470, we have 
reservations about legislating specific treatment levels and other 
aspects of our forest plans. However, the holistic package of 
mechanical treatments, wilderness designations, and job creation, along 
with the collaborativeapproach and hard work of the stakeholders in 
Montana, and your work directly with the Forest Service, ensure that 
this legislation can serve as a model for similar efforts elsewhere.
    Let me conclude by thanking you for your leadership in forest 
management issues and I, my staff at USDA, and Chief Tidwell stand 
ready to assist you in moving this legislation forward.
            Sincerely,
                                         Thomas J. Vilsack,
                                                         Secretary.
                                 ______
                                 
                                    The Wilderness Society,
                                      Washington, DC, June 3, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Office Building, U.S. Senate, Washington, DC.
    Dear Chairman Bingaman: On behalf of The Wilderness Society, I am 
writing to offer our views on the bills indicated below that were the 
subject of the Committee's hearing on May 25, 2011. The Wilderness 
Society is the leading public-lands conservation organization working 
to protect wilderness and inspire Americans to care for our wild 
places. Founded in 1935, and now with more than 500,000 members and 
supporters, TWS has led the effort to permanently protect 110 million 
acres of wilderness and to ensure sound management of our shared 
national lands. I ask that this letter be made a part of the hearing 
record.

          S. 233--NORTH FORK WATERSHED PROTECTION ACT OF 2011

    The Wilderness Society (TWS) supports without qualification S. 233 
and urges its speedy passage. Glacier National Park, the North Fork 
Flathead River, as well as much of the national forest land addressed 
in this bill, are of national significance and generate substantial and 
renewable economic benefits to both local communities and the state of 
Montana. In addition, passage of this bill ensures that the United 
States ``acts by example'' and fully engages in the coordinated, 
partnership approach requested by the province of British Columbia when 
they agreed in early 2010 to take action to protect the Canadian side 
of the North Fork Flathead from coal, oil and gas, and mining 
development.
    First introduced last Congress, this bill has received significant 
public review and media coverage. Yet, there is almost no active 
opposition in Montana to this legislation, as to our knowledge, no 
organized group, relevant elected official, Montana newspaper, or 
affected constituency has spoken out against the North Fork Watershed 
Protection Act. Instead, there has been an impressive outpouring of 
diverse and formal support from local businesses, civic groups, 
Chambers of Commerce, City Councils, sportsmen and conservation groups, 
and others. Consider that in a 4/5/2010 letter to the Montana 
delegation, the Kalispell Chamber of Commerce praised this legislation 
as ``being good for business'' further stating, ``The Chamber wishes to 
ensure that Glacier Park, the North Fork River Valley, and Flathead 
Lake remain as economically productive as they are today. We think that 
oil and gas development in the Whitefish Range would be inconsistent 
with our interest to see the entire watershed protected from upstream 
(Canadian) pollution.''
    Indeed, passing S. 233 would not only help protect the United 
States side of this trans boundary and ecologically rich watershed but 
also help ensure resolution of the threats on the upstream, side. Swift 
passage of this bill is a critical step toward implementing the 
International Flathead agreement that was signed in 2010 by Montana 
Governor Brian Schweitzer and British Columbia Premier Gordon Campbell. 
It banned all types of mining and oil and gas extraction in the entire 
Transboundary Flathead and committed each country to take action to 
protect its respective portion of the watershed. It should be noted 
that since signing of this agreement, over 80% of the federal leases in 
the area covered by S.233 have been voluntarily donated back to the 
government in recognition that this is an inappropriate place for oil 
and gas development.
    TWS enthusiastically supports S. 233 and sincerely thank Senators 
Baucus and Tester for their leadership on this issue and their ongoing 
dedication to protecting this nationally important portion of the Crown 
of the Continent Ecosystem.

                   S. 375--GOOD NEIGHBOR FORESTRY ACT

Summary of Legislation
    S. 375, the ``Good Neighbor Forestry Act,'' would allow State 
foresters to undertake a variety of forest and rangeland management 
activities on U.S. Forest Service and Bureau of Land Management lands 
in the West through ``Good Neighbor'' contracts and cooperative 
agreements. Good Neighbor authority could be used for a variety of 
``restoration and protection services'' such as removing insect-
infested trees and reducing hazardous fuels. The bill would permit the 
State foresters to subcontract those services to private companies and 
would exempt Good Neighbor projects from certain timber sale 
contracting requirements of the National Forest Management Act. 
Projects implemented by the States through cooperative agreements would 
also be exempt from federal contracting laws, including federal wage 
and liability requirements. However, the Forest Service and BLM would 
still be responsible for making project decisions under the National 
Environmental Policy Act. Under S. 375, the Good Neighbor authority 
would apply to National Forest System and BLM lands in all of the 
western states and would last for 10 years.

GAO Report
    In February 2009, the U.S. Government Accountability Office issued 
a detailed report evaluating the use of the Good Neighbor authority. 
The GAO concluded that the authority can help land managers efforts to 
improve forest conditions and help prevent severe fires by allowing 
federal and state agencies to work more closely together to treat lands 
across ownership boundaries. However, the GAO raised concerns about 
potential problems with ``timber accountability,'' especially if the 
Good Neighbor authority is extended to additional states. The GAO 
recommended that the Forest Service and BLM ``first develop written 
procedures for Good Neighbor timber sales . . . to better ensure 
accountability for federal timber.''

Analysis
    The timber accountability problem with the Good Neighbor authority 
provided by S. 375 stems largely from the legislative exemption from 
important requirements in the National Forest Management Act (NFMA) 
that are aimed at avoiding fraud and conflicts of interest in federal 
timber sales.
    First, the legislation exempts Good Neighbor projects from Section 
14(g) of the NFMA, which requires that Forest Service employees conduct 
the designation, marking, and supervision of timber sales and that 
those employees ``shall have no personal interest in the purchase or 
harvest of such products and shall not be directly or indirectly in the 
employment of the [timber sale] purchaser.'' This exemption is 
especially problematic because S. 375 also allows state foresters to 
subcontract the timber sale preparation to private companies. 
Therefore, unless prohibited by state or local laws, the legislation 
could allow subcontracting timber industry employees to select what 
trees are cut from federal lands.
    Second, the legislation exempts Good Neighbor timber sales from 
Section 14(d) of NFMA, which requires the Forest Service to advertise 
timber sales before awarding contracts. Thus, a Good Neighbor timber 
sale could be awarded at minimum appraised value to the same timber 
company that laid out the sale.
    A third significant concern with S. 375 is that it vastly expands 
the potential use of Good Neighbor authority. The original Colorado 
legislation only allowed Good Neighbor authority to be used ``when 
similar and complementary watershed restoration and protection services 
are being performed by the State Forest Service on adjacent State or 
private land.'' This limitation makes good sense, since the legislation 
is intended to benefit the ``neighbors'' that are adjacent to federal 
lands. In contrast, S. 375 would allow ``Good Neighbor'' authorities to 
be used anywhere on Forest Service and BLM lands, irrespective of 
proximity to non-federal lands. This vast geographic expansion of the 
Good Neighbor policy raises serious questions about the potential for 
excessive control of federal land management by State foresters and 
private industry subcontractors throughout the West.
    In addition to the concerns over environmental impacts of expanding 
this authority, some have questioned whether forestry worker rights, 
including protective federal wage and overtime standards and 
requirements would be undermined by ceding contracting authority to 
states. The specter of non-competitive sole-source contracting is seen 
as particularly disconcerting.
    S. 375 proposes a vast and unwarranted expansion of the potential 
use of that authority beyond its original purpose. Furthermore, the 
legislation lacks important safeguard against timber sale abuse which 
would become increasingly likely if the Good Neighbor authority were 
extended to other states. The Wilderness Society opposes S. 375 as 
currently drafted.

S. 714--Federal Land Transaction Facilitation Act
    The Wilderness Society supports S. 714, which is authored by 
Senator Jeff Bingaman and co-sponsored by Senators Tester, Wyden, 
M.Udall, and T.Udall. It would reauthorize the Federal Land Transaction 
Facilitation Act for 10 years before it expires in July 2011. The 
Federal Land Transaction Facilitation Act (FLTFA) of 2000 authorizes 
Department of Interior (DOI) and the U.S. Forest Service to use the 
proceeds from sales of BLM lands to acquire inholdings in federally 
designated areas such as BLM areas, national forests, national parks 
and national wildlife refuges. FLTFA provides federal agencies in the 
eleven Western states and Alaska with an important new funding source 
to complement the Land and Water Conservation Fund, land exchanges, 
other federal grant programs, and state and private funds.
    Reauthorization of the Federal Land Transaction Facilitation Act 
(FLTFA) will provide opportunities for economic growth, sportsmen's 
access and wildlife protection in the western states. FLTFA is a 
fiscally responsible land tenure tool for the West. Through a ``land 
for land'' approach, the BLM can sell land to private land owners, 
counties, companies and others for ranching, community development and 
various projects. These sales create jobs and generate funding for BLM, 
USFS, NPS and USFWS to acquire critical inholdings and edgeholdings 
from willing sellers. The sales revenue allows agencies to acquire 
high-priority lands with important wildlife habitat value, recreational 
access for hunting and fishing and other agency priorities. Because of 
FLTFA's great benefits for local communities and the outdoors, we hope 
to see this important western program reauthorized before it expires in 
July 2011.

 S. 730--THE SOUTHEAST ALASKA NATIVE LAND ENTITLEMENT FINALIZATION AND 
                          JOBS PROTECTION ACT

    The Southeast Alaska Native Land Entitlement Finalization and Jobs 
Protection Act (S. 730), commonly called the Sealaska Bill, would 
destabilize southeast Alaska's economy, frustrate the U.S. Forest 
Service's transition away from the old boom-and-bust old-growth 
dependent logging economy to one based on sustainable land management 
and healthy local communities, and threaten many of the most popular 
and productive areas of the Tongass National Forest. For these reasons, 
The Wilderness Society opposes the Sealaska Bill.
    Sealaska Corp.'s land entitlements can be settled without new 
legislation. The Alaska Native Claims Settlement Act (ANCSA) granted 
355,000 acres of land from specific areas to Sealaska Corp. in 1971 
while providing certain protections, in the form of '14(h)(1) 
covenants, for areas of cultural and historical values. While The 
Wilderness Society recognizes and supports Sealaska Corp.'s right to 
claim its outstanding entitlement, Sealaska Corp. should not be allowed 
to rewrite the rules to seek land that was not allotted to it in the 
original agreement and undue important protections for cultural and 
historic sites.
    The Sealaska Bill targets some of the most important and productive 
lands in southeast Alaska. It would transfer 79,000 acres of the best 
forestlands in the Tongass to Sealaska Corp. Additionally, many of the 
futures sites slated for privatization under the bill are on the edge 
of designated Wilderness areas, or are hunting and fishing hotspots 
utilized by local outfitters and subsistence and recreational users. 
The Tongass is one of the last remaining intact temperate rainforests 
in the world, supporting all five of North America's Pacific salmon, 
steelhead and resident trout, brown and black bear, Sitka black-tailed 
deer, bald eagles, wolves and various other fish and wildlife species. 
The lands targeted in this bill comprise many of the most important and 
popular forestlands in the Tongass, and would threaten important fish, 
wildlife and forestland resources for the benefit of a select few at 
the expense of the majority of southeast Alaska's residents and 
families.
    The Sealaska Bill would destabilize southeast Alaska's economy and 
lead to a significant loss of local jobs in the fishing, tourism and 
recreation industries--the real economic drivers of the region. 
Multiple recent economic studies have shown that stable and diverse 
local economies in southeast Alaska depend upon the long-term 
productivity and sound management of forestlands and fish and wildlife. 
Fishing, one of the region's most valuable industries, accounts for 
more than 10% of local jobs and contributes an estimated $986 million 
annually to the local economy. In contrast, the Tongass timber industry 
currently provides less than one percent of local jobs and ``has cost 
U.S. taxpayers a quarter billion dollars over the last eight years and 
over a billion dollars since its inception.'' If the bill passed, 
current protections--such as permanent stream buffers and the 
requirement for sustained yield management--will no longer apply and 
the transferred lands would be logged for foreign export while long-
term sustainable jobs and economic security for the region would be cut 
from southeast Alaska communities.
    The Sealaska Bill would frustrate the Forest Service's efforts to 
transition away from the old boom-and-bust old-growth dependent logging 
economy to one based on restoration and renewable resources. The long-
term economic viability of southeast Alaska communities depends on 
sustainable management of the region's renewable natural resources and 
a shift away from short-term old-growth dependent clearcutting. 
Recognizing this, in May 2010 local Forest Service leadership announced 
that it was working to develop a program to ``help communities 
transition to a more diversified economy by providing jobs around 
renewable energy, forest restoration, timber, tourism, subsistence, and 
fisheries and mariculture.'' The Sealaska Bill is a giant step 
backwards in terms of stabilizing southeast Alaska's economy. It cherry 
picks the most productive remaining timber lands, taking advantage of a 
U.S. taxpayer-funded road system for the gain of a select few. Without 
these accessible forest lands, the Forest Service does not have the 
resources necessary to follow through on its goal of transitioning the 
region to a stable, restoration-based economy. This bill would undercut 
the agency's efforts to create dependable, good-paying jobs and 
economic stability in the region.
    The future of southeast Alaska's forest-dependent rural 
communities, and the Tongass' unique temperate rainforest, lies in 
moving away from intensive boom-and-bust logging practices of the past 
to an economy based on fishing, recreation, tourism and sustainable 
management of forestlands. If passed, the Sealaska Bill would threaten 
the region's long-term economic stability, make it impossible for the 
Forest Service to establish a restoration-based industry through its 
transition framework, and clearcut much of the most productive and 
important remaining forestlands in southeast Alaska at the expense of 
southeast Alaska's major job-producing industries: fishing, tourism and 
recreation. Because the Sealaska Bill is not in the interest of local 
jobs and families, and undercuts regional economic stability, The 
Wilderness Society opposes the Sealaska Bill.
            Sincerely,
                                        William A. Meadows.
                                 ______
                                 
                                           Trout Unlimited,
                                       Arlington, VA, May 25, 2011.
Hon. Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
RE: Trout Unlimited Supports the Forest Jobs and Recreation Act and 
North Fork Watershed Protection Act

    Dear Chairman Bingaman, On behalf of Trout Unlimited (TU) and its 
140,000 members, I write in support of S. 268, the Forest Jobs and 
Recreation Act and S. 233, the North Fork Watershed Protection Act. 
These two bills are subjects of your hearing on Wednesday, May 25th. S. 
268 will permanently protect nearly one million acres of Montana's 
spectacular backcountry and establish 670,000 acres of wilderness, the 
first new wilderness designations in Montana in over twenty-five years. 
The forest restoration projects created by this bill will focus on 
restoration of degraded forest lands and reduction of overall road 
density and the legislation strives to protect the integrity of 
roadless areas while complying with all existing laws, policies, 
regulations, and forest plans.
    More than 2,000 TU members live and work in communities around the 
National Forest and BLM areas in S. 268, including Butte, Anaconda, 
Deer Lodge, Sheridan, Twin Bridges, Silver Star, Philipsburg, West 
Yellowstone, Cameron, Dillon, Ennis, Bozeman, Missoula, Drummond, 
Ovando, Bonner, Whitehall, Libby and Troy. Most members in these areas 
are long-time or native Montanans and they fish, hunt, hike, camp, 
drive, snowmobile, ski, ride horses, and collect firewood, berries and 
Christmas trees from these lands. A number have livelihoods directly 
tied to these lands, working as guides and outfitters, loggers, ranch 
hands, staffers in natural resource agencies or operators of small 
businesses.
    More than five years ago, spurred by the recognition that National 
Forests in western Montana were not living up to their potential to 
support healthy fish and wildlife and provide jobs and recreational 
opportunities for local communities, TU and other local stakeholders 
came together to develop a shared vision for forest management. The 
resulting compromises provided the basis for an important part of S. 
268, which would protect fish and wildlife habitat through the 
designation of 670,000 acres of new wilderness and more than 300,000 
acres of special management and national recreation areas, restore 
degraded habitat through the removal of old roads and blocked culverts, 
reduce the risk of wildfire through targeted fuel reduction projects, 
and create jobs for local communities through stewardship contracting. 
If implemented, the bill could yield significant benefits to fish and 
wildlife, water resources, and nearby communities.
    TU has a long record of working with farmers, ranchers, industries, 
and government agencies to protect and restore trout and salmon 
watersheds nationwide. In recent years, TU has bought gas leases in 
Montana to help protect the Rocky Mountain Front, helped to establish a 
successful roadless area plan for the National Forests of Idaho, and 
helped to establish and fund historic, broadly-supported dam removal 
projects from the Penobscot River in Maine to the Klamath in California 
and Oregon. Finding solutions to vexing resource problems is a hallmark 
of what we do.
    Drawing on these cooperative experiences, we have worked to develop 
the solutions contained in S. 268 with a diverse group of stakeholders 
in Montana. Bruce Farling, Montana TU's Executive Director, has led 
TU's efforts on the Beaverhead-Deerlodge, and TU volunteer Tim Linehan 
has been a leader in the Kootenai initiative. The partners in the 
region have done courageous, outstanding work. TU strongly supports S. 
268, we deeply appreciate the work of Senator Tester and his staff for 
introducing it, and we urge the Subcommittee to support it.
    We realize that some people have concerns about some of the 
provisions of this bill. We do not claim to have all the answers and 
look forward to working with the Subcommittee, the Forest Service, the 
Obama Administration, and all others who share the goals of the bill. 
We urge others with criticisms to provide alternatives that will 
achieve the goals of the bill, namely protecting vital fish and 
wildlife habitat, restoring forests, and sustaining local communities.

                BACKGROUND ON THE DEVELOPMENT OF S. 268

    In an August 14, 2009 speech in Seattle, Agriculture Secretary Tom 
Vilsack stated that Americans must move away from polarization and ``. 
. .work towards a shared vision--a vision that conserves our forests 
and the vital resources important to our survival while wisely 
respecting the need for a forest economy that creates jobs and vibrant 
rural communities.'' Through a collaborative grassroots effort dating 
back more than four years, a broad range of partners has done just 
that, and the resulting vision has provided the basis for the 
legislation introduced by Senator Tester.
    Prior to this collaborative process the forests were mired in 
stalemate that failed to protect and restore fish and wildlife. 
Wilderness has not been designated in the state of Montana in over 25 
years, despite the broad recognition of the need to protect quality 
fish and wildlife habitat and public support to do so. There are 
hundreds of impassible culverts on the forests that fragment trout 
habitat. Dense networks of obsolete roads restrict elk security and 
movement, and contribute heavy loads of sediment to streams.
    Due in part to these impacts, native salmonids, some of which are 
listed or candidates for listing under the Endangered Species Act, 
occupy but a small fraction of their historic range. Decades of fire 
suppression has produced homogenous even-aged stands of forests, which 
along with climate change and the pine bark beetle infestation increase 
the risk of unnaturally intense fire. The Forest Jobs and Recreation 
Act will enable the Forest Service to address these long-neglected 
needs.
    The Forest Jobs and Recreation Act results from three grassroots 
efforts in which TU in Montana was a principal in two efforts 
(Beaverhead-Deerlodge and Three Rivers) and a supporter in the third 
(Blackfoot-Clearwater). The bill is Montana-made, and it has generated 
unprecedented consensus among many Montanans of different stripes that 
validates the notion that collaboration is vital to developing long-
term popular support of public lands management.

  THE FISH AND WILDLIFE BENEFITS OF THE FOREST JOBS AND RECREATION ACT

    Now more than ever, as changes in climate increase the challenges 
faced by forest managers and ecosystems, it is imperative that national 
forests are managed in ways that promote resiliency. At its heart, S. 
268 is a climate change adaptation strategy. By federally protecting 
the highest quality landscapes and then reconnecting them to adjacent 
areas through watershed restoration, S. 268 will help to maintain 
abundant fish and wildlife populations while providing multiple 
benefits to human communities through good paying jobs. This can be 
done through the following actions:

1. Protect the highest quality lands and waters
    The Forest Jobs and Recreation Act would protect as federal 
wilderness 670,000 acres of undeveloped country in 25 areas, as well as 
create over 300,000 acres of special management and national recreation 
areas. By doing so, it will protect crucial sources of clean, cold 
water as well as essential habitats for wild and native trout in the 
headwaters of some of the nation's most storied trout waters, including 
Rock Creek and the Madison, Beaverhead, Ruby, Jefferson, Big Blackfoot, 
Clark Fork and Kootenai rivers. Protection of wilderness and special 
management areas in the bill will also help secure habitats for Canada 
lynx, a listed species, as well as wolverines and mountain goats--all 
species that need undisturbed habitats. Finally, it will provide vital 
habitat for elk security.
    The protection of high quality habitat, along with the reconnection 
and restoration projects described below, will help secure populations 
of one ESA listed fish species, bull trout, and three additional fish 
species that are candidates for listing: westslope cutthroat trout, 
arctic grayling, and interior redband trout. All of these species now 
inhabit only a small portion of their historical ranges on the lands in 
the bill. The wilderness and special area designations serve as 
critical sources for fish that are necessary for re-populating restored 
habitats downstream.

2. Reconnect landscapes so that fish and wildlife can survive habitat 
        disturbances
    Restoration projects will be focused on areas of high road density. 
Obsolete road networks in Montana forests cause habitat fragmentation 
that prevents fish and wildlife from dispersing to intact habitats when 
faced with disturbances such as fire, drought or intense storms. The 
Forest Jobs and Recreation Act would address the problems caused by 
these road networks by (1) prohibiting the construction of new, 
permanent roads; and (2) requiring that road densities be reduced. (For 
example, in the Beaverhead-Deerlodge National Forest, the road standard 
is to leave post-project landscapes with a road density that averages 
no more than 1.5 linear road mile per square-mile.) The scientifically 
based standard recommended by the Montana Department of Fish, Wildlife 
and Parks for elk security is no more than 1.5 linear miles of road per 
square-mile, which is the minimum needed to provide enough security for 
elk so that Montana can maintain its annual 5-week general big game 
hunting season. The Beaverhead-Deerlodge National Forest and the Seeley 
Lake Ranger District include some of the most productive lands anywhere 
in Montana for large, trophy elk.
    The road standards in S. 268 will also protect high quality habitat 
and improve wildlife security for a host of popular game and non-game 
species, including mule deer, black and grizzly bears and mountain 
goats. The road standards will also greatly benefit fish by reducing 
erosion-prone road surfaces and road crossing structures such as 
culverts that are currently harming habitat and impeding movement of 
fish into and out of important habitats. Agency surveys indicate, for 
example, that at least 240 road culverts on the Beaverhead-Deerlodge 
National Forest are currently complete or partial barriers to fish 
movement, and the frequency of road crossing barriers on the Seeley 
Lake and Three Rivers Districts are even more severe. The result is 
reduced habitat availability for species such as bull trout and 
cutthroat trout. The restoration projects called for in this 
legislation will improve habitat connectivity by removing roads and 
replacing or removing blocked culverts.

3. Engage communities in restoration
    The Forest Jobs and Recreation Act directs the Forest Service to 
use stewardship contracting to meet vegetation management goals, which 
ensures that the value of trees removed is invested back onto the same 
landscape in habitat restoration, elimination of pollution sources, 
protection of key habitats from livestock, or suppression of weeds on 
winter ranges, as well as improvement of recreational features such as 
trails used by hunters, anglers and other recreationists.
    By focusing stewardship projects on previously developed landscapes 
with high densities of roads, the Forest Jobs and Recreation Act will 
help address impairments on landscapes that are prone to unnatural 
rates of erosion, and related effects such as exotic weed invasion, 
after fires. When large fires sweep through developed landscapes such 
as those on the Beaverhead-Deerlodge National Forest or the Three 
Rivers Ranger District, they significantly increase the risk of erosion 
from road systems after snowmelt or severe rainstorms, and subsequent 
colonization by exotic weeds. Similarly, post-fire storms can block 
road culverts with debris and mud, causing these structures to fail and 
resulting in channel scouring and large amounts of sediment entering 
into trout streams. Fire is a natural part of these forest systems. In 
fact, on undeveloped landscapes it can play a beneficial role, one that 
fish and wildlife have adapted to for eons. On densely roaded forests, 
the effects of fire can cause intense erosion, water quality 
degradation, and extirpation of local populations of fish and 
wildlife--not to mention the risk to nearby human communities.

            S. 233, THE NORTH FORK WATERSHED PROTECTION ACT

    The North Fork Flathead watershed in Montana provides habitat for 
two native trout species that have been eliminated from much of their 
historic range: westslope cutthroat trout and bull trout. TU strongly 
supports the North Fork Watershed Protection Act (S. 233), which would 
protect the watershed from negative impacts of mining on federal lands 
in the area.

                               CONCLUSION

    The collaborative effort undertaken by local Montana groups is on 
the verge of overcoming years of controversy and delay to protect and 
restore Montana forests in ways that benefit fish and wildlife 
resources and local communities. There are challenges ahead, but S. 268 
represents a new way of doing business for the Forest Service, and we 
urge the committee to pass it.
    TU supports S. 268 and S. 233, and urges the Committee to approve 
the bills and to send them on to the floor for consideration by the 
Senate.
            Sincerely,
                                               Steve Moyer,
                             Vice President for Government Affairs.
                                 ______
                                 
                                       Office of the Mayor,
                                        Missoula, MT, June 8, 2011.
Hon. Max Baucus,
Senator, 219 Dirksen Senate Office Building, Washington, DC.
Hon. Jon Tester,
Senator, 724 Hart Senate Office Building, Washington, DC.
    Dear Senator Baucus and Senator Tester, Thank you for introducing 
S. 233, the North Fork Watershed Protection Act of 2011. The City of 
Missoula supports this important piece of legislation and its goal of 
protecting public lands and water quality by withdrawing future mining, 
oil and gas drilling, and geothermal development on U.S. Forest Service 
land. However, we urge you to expand the scope of the legislation 
beyond the North Fork to include all lands in the Flathead National 
Forest.
    A significant portion of property owners in the Flathead region are 
residents of and voters in Missoula. These citizens own cabins, second 
homes, or land along the lakes and streams and in the forests and 
mountains of the Flathead watershed. Like the North Fork watershed, the 
public lands throughout the Flathead also contain oil and gas leases 
that have been suspended since the mid-1980s.
    We believe that the irreplaceable lands within the Middle and South 
Forks of the Flathead River watersheds that are now unprotected from 
mineral development would also benefit from this legislation. The land 
and water resources in the Flathead National Forest provide vital 
economic benefits and ecological services for Montanans, including 
drinking water for several communities, as well as unparalleled public 
recreational opportunities beloved by Missoula residents and cherished 
by people nationwide.
    Please consider protecting all of the headwaters of the Flathead 
River--the North, Middle, and South Fork drainages--by expanding the 
scope of S. 233. By passing a ``complete package,'' this legislation 
will ensure that the headwaters of the Flathead River can sustain our 
communities for future generations of Montanans.
    Thank you again for introducing S. 233. We fully support this 
legislation, and appreciate all of your work on behalf of Missoula's 
residents and natural resources.
            Respectfully,
                                                John Engen,
                                                             Mayor.
                                 ______
                                 
                                Polson Chamber of Commerce,
                                                      June 4, 2011.
Hon. Max Baucus,
511 Hart Senate Office Bldg., Washington, DC.
Hon. Jon Tester,
724 Hart Senate Office Building, Washington, DC.
    Dear Senators Baucus and Tester: Thank you for introducing Senate 
Bill 233, to withdraw Federal land and Interests in that land from 
loca-tion, entry, and patent under the mining laws and disposition 
under the mineral and geothermal leasing laws. The Polson Chamber of 
Commerce supports this legislation which withdraws future mining, oil 
and gas drilling, and geothermal development on U.S. Forest Service 
land in Montana's North Fork Flat-head River watershed.
    We also support slightly expanding the boundary of S. 233 to 
incorporate the remainder of the Middle Fork of the Flathead River 
corridor to complete the protection of Glacier Park, the south flank of 
the Whi-tefish Range and Haskill Basin to protect recreation assets and 
Whitefish City's water supply, and the Co-ram Canyon area to protect 
the Flathead River and recreation. The attached map shows the proposed 
boundary.
    Flathead Lake is an important asset to Polson, its economy and our 
businesses. S 233 will help protect Flathead Lake water quality and the 
economic health of our city from upstream threats of industrial ener-gy 
development. S. 233 is a critical step towards implementing the 
Montana--British Columbia agree-ment signed by Governor Schweitzer and 
Premier Campbell that bans mining and oil and gas extraction in the 
trans-boundary North Fork Flathead Valley.
    The United States and Canada have a historic opportunity to protect 
the North Fork of the Flathead River, Glacier National Park, and 
Flathead Lake for future generations. S. 233 represents a crucial 
component of this legacy. Thank you for your efforts to protect 
Flathead waters.
            Sincerely,
                                              Jackie Cripe,
                                                         President.
                                 ______
                                 
                        Board of Lake County Commissioners,
                                          Polson, MT, May 24, 2011.
Hon. Max Baucus,
511 Hart Senate Office Bldg., Washington, DC.
Hon. Jon Tester,
724 Hart Senate Office Building, Washington, DC.
    Dear Senators Baucus and Tester: The Lake County Commission 
supports Senate Bill 233, the North Fork Watershed Protection Act of 
2011, which withdraws future mining, oil and gas drilling, and 
geothermal development on U.S. Forest Service land in Montana's North 
Fork Flathead River watershed.
    We also support slightly modifying the boundary of S. 233 to 
incorporate the remainder of the Middle Fork of the Flathead River 
corridor to complete the protection of Glacier Park, the south flank of 
the Whitefish Range and Haskill Basin to protect recreation assets and 
Whitefish City's water supply, and the Coram Canyon area to protect the 
Flathead River and recreation. The attached map shows the proposed 
boundary.
    The Flathead Watershed is a unique and special place, and Flathead 
Lake is an important asset to Lake County, our communities, our economy 
and our local businesses, as well as to the greater Flathead region, 
the state of Montana and beyond. The quality of Flathead Lake is 
dependent on the quality of the waters that feed it. The headwaters of 
this unique resource are inappropriate for mining and oil and gas 
development, which could significantly degrade its quality. S. 233 will 
help protect Flathead Lake water quality and the economic health of our 
communities from these upstream threats. S. 233 is an important step 
towards implementing the Montana--British Columbia agreement signed by 
Governor Schweitzer and Premier Campbell that bans mining and oil and 
gas extraction in the transboundary North Fork Flathead Valley.
    The United States and Canada have a historic opportunity to protect 
the North Fork of the Flathead River, Glacier National Park, and 
Flathead Lake for future generations. S.233 represents a crucial 
component of this legacy. Thank you for your work to protect Flathead 
waters.
            Sincerely,
                                         William D. Barron,
                                                          Chairman.
                                             Paddy Trusler,
                                                            Member.
                                                Ann Brower,
                                                            Member.
                                 ______
                                 
                                                      May 24, 2011.

Hon. Max Baucus,
511 Hart Senate Office Bldg., Washington, DC.
Hon. Jon Tester,
724 Hart Senate Office Building, Washington, DC.
    Dear Senators Baucus and Tester: On behalf of our millions of 
members who cherish America's national parks, public lands and wild and 
scenic rivers, we are writing to express our enthusiastic support for 
S. 233, the North Fork Watershed Protection Act of 2011. Your bill 
helps protect the North Fork of the Flathead River Valley by 
withdrawing U.S. Forest Service land from future mining and energy 
development.
    As a UNESCO World Heritage site and the world's first International 
Peace Park, Waterton-Glacier is regarded around the world as the 
premier example for international collaboration in protecting 
outstanding transboundary natural resources. With its headwaters in 
British Columbia and its downstream reaches in Montana, the Flathead 
River Valley encompasses much of Glacier National Park and forms the 
core of the Crown of the Continent Ecosystem. This ecosystem supports 
an unmatched diversity of wildlife including the greatest density of 
grizzly bears in interior North America and some of the continent's 
healthiest runs of native bull trout and cutthroat trout.
    Since your legislation would keep the U.S. portion of the Flathead 
Valley pristine and preserve the region's vibrant tourism industry, it 
enjoys strong support from local businesses and chambers of commerce, 
Montanans, and the broader American public. It is also supported by 
ConocoPhilips and other companies who have already voluntarily 
relinquished more than 233,000 acres of oil and gas leases.
    Enactment of your legislation would complement the law passed 
recently in British Columbia (B.C.) prohibiting mining in the Canadian 
portion of the Flathead Valley as well as the memorandum of 
understanding signed by Montana and B.C. agreeing to ``remove mining, 
oil and gas, and coal development as permissible land uses in the 
Flathead River Basin.'' All of these successes are due in large part to 
your shared leadership and passion for preserving one of America's last 
great wild places.
    Our organizations look forward to working with you to pass this 
important legislation. You have our commitment to assist you however we 
can in forever protecting this incredible place.
            Sincerely,
                    Thomas C. Kiernan, President, National Parks 
                            Conservation Association; Margie Alt, 
                            Executive Director, Environment America; 
                            Karen Berky, Western Division Director, 
                            North America, The Nature Conservancy; 
                            William Meadows, President, The Wilderness 
                            Society; Trip Van Noppen, President, 
                            Earthjustice; Rebecca Wodder, President, 
                            American Rivers; Gene Karpinski, President, 
                            League of Conservation Voters; Will Rogers, 
                            President, The Trust for Public Land; David 
                            W. Hoskins, Executive Director, Izaak 
                            Walton League of America.
                                 ______
                                 
                                                      May 24, 2011.

Hon. Max Baucus,
511 Hart Senate Office Bldg., Washington, DC.
Hon. Jon Tester,
724 Hart Senate Office Building, Washington, DC.
    Dear Senators Baucus & Tester, We the undersigned organizations 
represent hundreds of thousands of hunters and anglers from across the 
country and right here in Montana are writing to express our full and 
strong support for S. 233 the North Fork Watershed Protection Act of 
2011, to withdraw US Forest Service land in the North Fork Watershed 
from future oil and gas leasing activities. Our memberships represent a 
diverse group of the American public for who hunting, fishing and 
outdoor recreation is a way of life.
    The North Fork of the Flathead is one of Montana's most special 
places to hunt and fish. Public lands in this valley provide unique and 
unparalleled opportunities to access our nation's rich natural 
heritage. The watershed provides critical habitat for bull and 
cutthroat trout and since the days of Theodore Roosevelt, hunters have 
been coming to the valley to pursue world class mule deer, elk and 
moose opportunities. This valley truly is one of the wildest valleys in 
the continental United States, and we believe the next generation 
should have the same opportunity we have to experience this special 
place.
    The North Fork Watershed Protection Act is an important step in 
ensuring that traditional land-uses, such as timber and outdoor 
recreation are protected in this valley. Oil, gas and hard rock mineral 
extraction in the North Fork would forever change this special place 
and cause serious harm to water and air quality, native trout, and big 
game populations. That means big business in Montana, where hunters and 
anglers contribute $1 billion annually to the state economy.
    In addition to impacting sportsmen and women, oil and gas 
extraction would have negative impacts on the regional economy--as 
millions of tourists spend over $150 million dollars each year to 
experience the clean water and wildlife of Glacier National Park.
    We understand our need for fossil fuels and hard rock minerals, and 
we believe that part of responsible development is recognizing that 
some places are too special to be industrialized. The North Fork of the 
Flathead is one of these places.
    A final reason we support S. 233 is to be a good neighbor. British 
Columbia has now banned mining in the Canadian Flathead and asked us to 
do the same. For decades, proposals for massive coal strip-mines in the 
Canadian headwaters of the North Fork have threatened the water quality 
of the Flathead River, Flathead Lake, and Glacier National Park.
    Today there is a unique and special opportunity to protect the 
North Fork of the Flathead and Glacier National Park forever, 
preserving our sporting traditions for those unborn generations. S. 233 
is a necessary and essential piece of legislation to complete this 
legacy. Our organizations look forward to working with you to pass this 
important legislation.
            Sincerely,
                    Backcountry Hunters and Anglers, Big Blackfoot 
                            Chapter Trout Unlimited, Bitter Root 
                            Chapter of Trout Unlimited, Flathead Valley 
                            Chapter Trout Unlimited, George Grant 
                            Chapter Trout Unlimited, Hellgate Hunters 
                            and Anglers, Izaak Walton League of 
                            America, Joe Brooks Chapter Trout 
                            Unlimited, Kootenai Valley Trout Club, 
                            Lewis and Clark Chapter Trout Unlimited, 
                            Madison-Gallatin Chapter Trout Unlimited, 
                            Magic City Fly Fishers, Medicine River 
                            Canoe Club, Montana Backcountry Hunters and 
                            Anglers, Montana River Action Network, 
                            Montana Trout Unlimited, Montana Wildlife 
                            Federation, National Wildlife Federation, 
                            Pat Barnes Missouri River Chapter Trout 
                            Unlimited, Snowy Mountain Chapter Trout 
                            Unlimited, Theodore Roosevelt Conservation 
                            Partnership, Trout Unlimited, West Slope 
                            Chapter Trout Unlimited, Wild Sheep 
                            Foundation.
                                 ______
                                 
                            ConocoPhillips Company,
                        Federal & State Government Affairs,
                                      Washington, DC, May 20, 2011.
Hon. Max Baucus,
U.S. Senate, Washington, DC.
    Dear Senator Baucus: I am writing to express ConocoPhillips' 
support for S. 233, the North Fork Watershed Protection Act, which 
would withdraw from development an area of Montana that has important 
economic and recreational qualities and is a gateway to Glacier 
National Park.
    ConocoPhillips was pleased last year to voluntarily give up its 
interest in 108 federal oil and natural gas leases, covering 169,000 
acres in the watershed. ConocoPhillips is confident that it could have 
developed those leases in a safe and environmentally responsible 
manner, but relinquished the acreage after considering the unique 
characteristics of the area and your request for the withdrawal.
    We hope that the Senate will act expeditiously in its consideration 
of S. 233.
            Sincerely,
                                               Jim E. Ford,
                                                    Vice President.
                                 ______
                                 
                                      Northwest Healthcare,
                                      Kalispell, MT, June 1 , 2011.
Hon. Max Baucus,
Senator, 511 Hart Senate Office Bldg., Washington, DC.
    Dear Senator Baucus: Thank you for introducing Senate Bill 233, the 
North Fork Watershed Protection Act, a bill that protects Glacier 
National Park as well as the ecological and economic future of our 
Flathead Valley communities.
    Conservation affects the attractiveness of the area and the kinds 
of people we can recruit to the Flathead Valley. V/e have been able to 
attract and retain an outstanding medical staff because this is such a 
nice place to live. Those qualities that make the region a nice place 
to live--clean water, air quality, Glacier National Park, Flathead 
Lake--are assets we need to conserve.
    Glacier is a big part of why I choose to live here, and why many of 
our high-quality professional medical staff chooses to live here. The 
park is a huge part of our valley's quality of life, and that quality 
of life is why our economy is growing.
    Our challenge is to make sure we protect these qualities for the 
long term, and Senate Bill 233 meets that challenge by safeguarding 
Glacier Park and the Flathead's waterways for future generations.
            Sincerely,
                                           Velinda Stevens,
                                                 President and CEO.
                                 ______
                                 
Statement of Oliver Meister, the North Fork Hostel & Inn and the Square 
                               Peg Ranch

    As individual business leaders from Montana's Flathead Valley, we 
understand that the traditional values of our community, coupled with 
our spectacular natural setting, help attract and retain our region's 
highly qualified workforce and the kinds of investments that keep our 
community strong. We recognize the importance of our scenic landscapes 
and clean water to future economic vitality.
    Glacier National Park, the scenic Flathead River system, Flathead 
Lake and the slopes of Whitefish Mountain Resort are among the many 
assets that make western Montana a wonderful place to live, work and 
invest. They are a powerful economic engine driving local jobs and 
prosperity. It's simply good business to take care of our greatest 
assets, and to pass this inheritance on to the next generation of civic 
and business leaders.
    As a small business we depend on the protection of this watershed 
for our livelihood, people from all over the US and many international 
visitors come here just because of the pristine quality and unspoiled 
grandeur of this area lost in so many other places. I cannot emphasize 
more the importance of this place!
    In the words of Kalispell Chamber of Commerce president Joe 
Unterreiner: ``The Chamber wishes to ensure that Glacier Park, the 
North Fork River, and Flathead Lake remain as economically productive 
as they are today.''
    We join the Chamber, as well as local municipalities, in support of 
The North Fork Watershed Protection Act (Senate Bill 233), which would 
limit mining and oil and gas drilling on lands immediately adjacent to 
Glacier National Park, including two Wild and Scenic River corridors, 
the destination ski resort and drinking water supply of Whitefish. 
Major energy companies recognize the common sense behind this bill and 
have already voluntarily relinquished existing leases there; this bill 
ensures that those voluntary retirements are honored into the future. 
This bill maintains our Valley's traditional and long-term economic 
engines by:

  <bullet> Ensuring the Flathead's clear water by keeping headwaters 
        pristine. (The value of Flathead Lake to the broader regional 
        economy is estimated at up to $10 billion dollars.)
  <bullet> Safeguarding the integrity of Glacier National Park. Glacier 
        Park draws more than 2 million visitors to the Flathead Valley 
        annually, where they spend more than $150 million each year, 
        even amid a global recession.
  <bullet> Protecting Whitefish Mountain Resort and Haskill Basin, the 
        water supply for the city of Whitefish

    This bill also preserves our heritage and way of life by:

  <bullet> Defending traditional fishing, hunting, wildlife-viewing and 
        camping. These activities bring in more than $1 billion to 
        Montana annually, and contribute to Montana's rural way of 
        life. SB 233 is endorsed by several hunting and fishing groups, 
        including Backcountry Hunters and Anglers, Billings Rod and Gun 
        Club, Magic City Fly Casters and Theodore Roosevelt 
        Conservation Partnership.
  <bullet> Respecting property rights. SB 233 applies only to federal 
        lands.

    Importantly, this bill costs taxpayers nothing, and is supported by 
several major energy companies, which already have voluntarily 
relinquished their development leases in the area.
    Those include ConocoPhillips, Chevron, BP, XTO Energy (subsidiary 
of ExxonMobil Corp.), Anadarko, Allen and Kirmse, Ltd., Pioneer Natural 
Resources, USA, Clayton Williams Energy, Inc., and Forest Oil Corp.
    While there are places in Montana where mining and energy 
development are highly appropriate, there are also places where other 
values should prevail. Safeguarding the Flathead's traditional economic 
engines will require conservative stewardship of our shared natural 
inheritance, and we thank you for assistance in protecting our 
community assets and future well being.
                                 ______
                                 
                              Glacier Guides, Inc.,
                                          Montana Raft Co.,
                                    West Glacier, MT, May 18, 2011.
Hon. Max Baucus,
Senator, 511 Hart Senate Office Bldg., Washington, DC.
Hon. Jon Tester,
Senator, 724 Hart Senate Office Building, Washington, DC.
Re: S233

    Dear Senators Max Baucus & Jon Tester, First things first: Thank 
you. Congratulations on the recent announcement of a longterm agreement 
between the State of Montana and Province of British Columbia to 
protect the Transboundary Flathead River Valley from all types of 
mining and oil and gas extraction. It took decades, but we got here 
together.
    Our business relies on the pristine natural values of the Wild & 
Scenic North and Middle Forks of the Flathead River to provide our 
customers with unique recreational experience that they are seeking. We 
serve thousands of individuals each year and employ 80 people during 
peak operating season.
    I thank you for introducing S233, and are highly encouraged that 
this will implement an oil and gas lease and mining withdrawal for 
Flathead National Forest that includes not only the North Fork but the 
non-wilderness and non-national park public lands surrounding the Wild 
& Scenic Middle Fork of the Flathead River, as well. We are requesting 
for several specific reasons:

          1) Protect the business-operating model of the entire 
        business community of Glacier National Park gateway communities 
        in the Hwy 2 corridor. This area is reliant on tourism dollars 
        and already faces existing congestion challenges. Oil and gas 
        exploration activities would have adverse impacts.
          2) Protect the existing water quality and fishery values of 
        the Wild & Scenic Middle Fork of the Flathead. Additionally, 
        this area would also include the Nyack Flats Region. A unique 
        micro-ecosystem in the Flathead Drainage. It is also logical to 
        bring the area under lease withdrawal in this region to connect 
        with the upper reaches of the Middle Fork, which are already 
        withdrawn by the good Rocky Mountain Front legislation.
          3) Prevent future land-use conflicts due to traditional 
        surface usage that is incompatible with sub-surface energy 
        extraction. For example, one area that is currently leased is 
        the USFS parcel directly adjacent to West Glacier that contains 
        the West Glacier Bridge river access point, one of the most 
        popular take-outs on the entire river corridor. Another example 
        is the existing leases that underlay the Coram Experimental 
        Forest, an important forestry research facility.

    Protecting these corridors is the right action for Glacier National 
Park and the hundreds of small businesses that currently operate in the 
Columbia Falls, Hungry Horse, Coram, Apgar, and West Glacier area.
    Once again, thank you for a truly historic accomplishment.
            Sincerely,
                                             Cris Coughlin,
                                                             Owner.
                                 ______
                                 
                        Fields Construction Services, Inc.,
                                       Whitefish, MT, May 24, 2011.
Hon. Senator Baucus,
511 Hart Senate Office Bldg, Washington, DC.
    Dear Senator Baucus: Fields Construction Services, Inc. is a 
residential and commercial building contractor located in Whitefish, 
Montana. As the owner, I write you today in full support of SB 233, the 
``North Fork Watershed Protection Act of 2011''.
    SB 233 accomplishes several important outcomes important to me. It:

  <bullet> Balances the commitment made by British Columbia, Canada, to 
        ban mining and energy extraction industry from the North Fork 
        Flathead watershed;
  <bullet> Protects the Waterton-Glacier International Peace Park and 
        World Heritage Site from the potentially devastating 
        consequences from such industrial activities;
  <bullet> Ensures that the leases given up voluntarily by oil and gas 
        companies will not be re-lent in the future;
  <bullet> Ensures that the tourism and recreation economy of this part 
        of Montana is not compromised by inappropriate mineral and 
        energy development in a place that ALL Montanans regard as very 
        special place; and
  <bullet> Protects our clean water at the source and our wildlife 
        populations that crisscross the international border.

    I very much appreciate that SB 233 costs the US taxpayer nothing, 
while accomplishing so much in just 190 words. This is federal 
legislation at its very best.
    Fields Construction Services wishes you success in your efforts to 
move SB 233 through the committee process and on to affirmative action 
by Congress. We appreciate you vigilant defense of the North Fork 
Flathead River. Please do not hesitate to call on me personally if I 
may be of any direct assistance with this or future measures needed to 
protect the North Fork and Glacier National Park.
            Best Regards,
                                              Edwin Fields,
                                                             Owner.
                                 ______
                                 
                                        Glacier Park, Inc.,
                               East Glacier Park, MT, June 8, 2011.
Hon. Senator Baucus,
via email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8cbc8ddd6dbddca9595dfcad9c1f8dad9cddbcdcb96cbddd6d9ccdd96dfd7ce96">[email&#160;protected]</a>
Hon. Senator John Tester,
via email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="54272031243c313a3a3179793c3526303d3a33142031272031267a27313a3520317a333b22">[email&#160;protected]</a>
The Great State of Montana

    Dear Senator Baucus and Senator Tester, It is with great concern I 
write this letter to you both encouraging the passing of this vital 
bill, SB233. Glacier National Park was founded upon the love of the 
incredible beauty of this land, the pristine lakes and waterways, the 
wildlife that has survived for centuries and the willingness of a 
people devoted to protecting all it has to offer. We need to preserve 
this land as it is now and has been for years for all of our generation 
and those to come.
    As individual business leaders from Montana's Flathead Valley, we 
understand that the traditional values of our community, coupled with 
our spectacular natural setting, help attract and retain our region's 
highly qualified workforce and the kinds of investments that keep our 
community strong. We recognize the importance of our scenic landscapes 
and clean water to future economic vitality.
    As the operator of Many Glacier Hotel, Lake McDonald Lodge, the 
Village Inn, Rising Sun Motor Inn, Swiftcurrent Motor Inn and the Two 
Medicine Campstore inside Glacier National Park, and Owner/Operator of 
Glacier Park Lodge in East Glacier Park, Grouse Mountain Lodge in 
Whitefish and the Prince of Wales Hotel in Waterton National Park, we 
have a vested interest in insuring that Glacier National Park, the 
scenic Flathead River system, Flathead Lake and the slopes of Whitefish 
Mountain Resort remain a wonderful place to live, work and invest. They 
are a powerful economic engine driving local jobs and prosperity. It's 
simply good business to take care of our greatest assets, and to pass 
this inheritance on to the next generation of civic and business 
leaders.
    We join the Chamber, as well as local municipalities, in support of 
The North Fork Watershed Protection Act (Senate Bill 233), which would 
limit mining and oil and gas drilling on lands immediately adjacent to 
Glacier National Park, including two Wild and Scenic River corridors, 
the destination ski resort and drinking water supply of Whitefish. 
Major energy companies recognize the common sense behind this bill and 
have already voluntarily relinquished existing leases there; this bill 
ensures that those voluntary retirements are honored into the future.
    This bill maintains our Valley's traditional and long-term economic 
engines by:

          Ensuring the Flathead's clear water by keeping headwaters 
        pristine. (The value of Flathead Lake to the broader regional 
        economy is estimated at up to $10 billion dollars.)
          Safeguarding the integrity of Glacier National Park. Glacier 
        Park draws more than 2 million visitors to the Flathead Valley 
        annually, where they spend more than $150 million each year, 
        even amid a global recession.
          Protecting Whitefish Mountain Resort and Haskill Basin, the 
        water supply for the city of Whitefish.

    This bill also preserves our heritage and way of life by:

          Defending traditional fishing, hunting, wildlife-viewing and 
        camping. These activities bring in more than $1 billion to 
        Montana annually, and contribute to Montana's rural way of 
        life. SB 233 is endorsed by several hunting and fishing groups, 
        including Backcountry Hunters and Anglers, Billings Rod and Gun 
        Club, Magic City Fly Casters and Theodore Roosevelt 
        Conservation Partnership.
          Respecting property rights. SB 233 applies only to federal 
        lands.

    Importantly, this bill costs taxpayers nothing, and is supported by 
several major energy companies, which already have voluntarily 
relinquished their development leases in the area. Those include 
ConocoPhillips, Chevron, BP, XTO Energy (subsidiary of ExxonMobil 
Corp.), Anadarko, Allen and Kirmse, Ltd., Pioneer Natural Resources, 
USA, Clayton Williams Energy, Inc., and Forest Oil Corp.
    We urge you to keep the area alive for years while protecting one 
of Montana's finest natural resources. The strength of this state and 
economic foundation depend on its preservation.
            Sincerely,
                                          Cynthia Ognjanon,
                                     President and General Manager.
                                 ______
                                 
                                    The North Fork Compact,
                                                      May 23, 2011.

Hon. Senator Jon Tester,
    Dear Senator Tester, On behalf of the members of the North Fork 
Compact, a civic organization composed of landowners in the North Fork 
of the Flathead Valley, Montana, I write to express our enthusiastic 
support for S233, the North Fork Watershed Protection Act of 2011 which 
would eliminate the possibility of future mining, oil and gas 
exploration and geothermal development on US Forest Service Land in 
Montana's North Fork Flathead River watershed.
    Our organization has worked for nearly 30 years to protect the 
uniquely pristine ecology of the North Fork River which is a 
Congressionally designated Wild & Scenic River Corridor.
    We strongly commend your efforts to protect the North Fork River 
and its surrounding habitat and appreciate your cooperation with the 
Governor's office to quickly implement the provisions called for in the 
British Columbia/Montana Memorandum of Understanding. We view S233 as a 
vital step in the protection of Glacier National Park, the Wild & 
Scenic North Fork of the Flathead River and surrounding ecosystem. This 
largely empty wild area is one of the few remaining unspoiled 
ecosystems in the lower 48 states, home to the greatest diversity of 
carnivores in the country.
    Please let me know if there is anything the North Fork Compact can 
do to help you in the passage of S233.
            Sincerely,
                                           Donald Sullivan,
                                                          Chairman.
                                 ______
                                 
                                           Flathead Lakers,
                                          Polson, MT, May 24, 2011.
Hon. Max Baucus,
U.S. Senate, 511 Senate Hart Office Building, Washington, DC.
    Dear Max: Thank you for your leadership and perseverance in 
protecting the Flathead Watershed from upstream coal mines. Your work 
on this threat to clean water in the North Fork Flathead River on 
downstream to Flathead Lake has been instrumental in protecting 
Flathead waters for three decades and led to the landmark agreement 
between Montana and British Columbia that will greatly benefit 
priceless waters, wildlife and scenic beauty on both sides of the 
international boundary for many generations to come.
    The Flathead Lakers strongly support your bill, S 233, the North 
Fork Watershed Protection Act of 2011, to withdraw public lands from 
leasing for mining and energy extraction in the North Fork Flathead 
Watershed, the area adjacent to Glacier National Park along the Middle 
Fork Flathead River, and areas in the Whitefish River headwaters, which 
drain into the mainstem Flathead River and Flathead Lake, one of the 
cleanest large lakes in the world. The Flathead Lakers is a nonprofit 
organization dedicated to protecting clean water, healthy ecosystems 
and lasting quality of life in the Flathead Watershed. Our organization 
was founded in 1958 and currently has over 1,500 members.
    Passage of this bill will not only protect Flathead waters and 
natural heritage for the future, but will also demonstrate Montana and 
the United States' commitment to implementing the Montana-British 
Columbia agreement and protecting Flathead waters. We applaud your 
dedication to transboundary cooperative natural resource management in 
the Flathead and believe it will be rewarded with long-term dividends.
            Sincerely,
                                          Robin Steinkraus,
                                                Executive Director.
                                 ______
                                 
                                        Headwaters Montana,
                                       Whitefish, MT, May 17, 2011.
Hon. Max Baucus,
Senator, 511 Hart Senate Office Bldg, Washington, DC.
Hon. Jon Tester,
Senator, 724 Hart Senate Office Building, Washington, DC.
    Dear Senators Baucus and Tester: Thank you for re-introducing the 
``North Fork Watershed Protection Act'' this year to help meet the 
challenge of balancing transboundary management of the North Fork 
Flathead River with our British Columbian neighbors. As you know too 
well, getting to this point has taken over 36 years of effort on the 
part of many citizens from both the U.S. and Canada. We cannot 
overemphasize how important all western Montanans feel this legislation 
is to protecting our clean water and Flathead Lake.
    Without SB 233's passage, the delicate pact with B.C. that would 
eliminate the future threat of mining and energy development in this 
pristine, international watershed, would be seriously jeopardized. 
Waterton--Glacier International Peace Park is a World Heritage Site and 
Biosphere Reserve. The IUCN/WHO determined in 2009 that industrial 
mining and energy proposals in the B.C. portion of the watershed could 
lead to the site being listed as ``in danger''. The premier of B.C. has 
committed to legislation that would ban mining and energy development 
in their part of the watershed; SB 233 accomplishes the same, 
reciprocal commitment.
    Headwaters Montana has been in on the effort to protect the North 
Fork Flathead. In fact, we and NPCA suggested to Senator Baucus' office 
the idea of SB 233. We've talked to every conceivable interest group in 
the Flathead Valley to garner support. Universal support exists for 
this legislation... among Republicans, Democrats, liberal, 
conservatives, motorized and quiet recreationists. People understand 
that their clean water and the future integrity of Glacier National 
Park ride on this legislation.
    We look forward to the Senate Public Lands and Forests Committee's 
favorable vote on SB 233 so that Montanans and U.S. citizens can know 
that Glacier Park will be protected long into the future.
    Thank you for your sponsorship of this important legislation.
            Sincerely,
                                               Dave Hadden,
                                                          Director.
                                 ______
                                 
                                      Clark Fork Coalition,
                                        Missoula, MT, May 17, 2011.
Hon. Max Baucus,
Senator, 219 Dirksen Senate Office Building, Washington, DC.
Hon. Jon Tester,
Senator, 724 Hart Senate Office Building, Washington, DC.
    Dear Senator Baucus and Senator Tester, Thank you for introducing 
S. 233, the North Fork Watershed Protection Act of 2011. The Clark Fork 
Coalition fully supports this important piece of legislation and its 
goal of protecting public lands, rivers and streams in the North Fork 
Flathead watershed by withdrawing future mining, oil and gas drilling, 
and geothermal development on U.S. Forest Service land.
    The Clark Fork Coalition, founded in 1985, is a non-profit 
representing 2,700 members united behind the cause to create healthy 
rivers and vibrant communities. The Flathead River is the largest 
tributary to the 22,000 square-mile Clark Fork River basin. The land 
and water resources in the Flathead provide vital economic benefits and 
ecological services for Montana as well as the Northern Rockies and 
Cascadia ecosystems.

  <bullet> Its headwaters flow through some of the richest and most 
        diverse habitat in the lower 48, and supply clean, cold water 
        to Flathead Lake, one of the most pristine lakes in the world.
  <bullet> The groundwater and streams provide drinking water for 
        several communities in western Montana.
  <bullet> The trout streams, magnificent forests and towering peaks in 
        the Flathead watershed offer unparalleled public recreational 
        opportunities beloved by the Coalition's 2,700 members and 
        cherished by people nationwide.

    The Clark Fork Coalition believes that S. 233 is an important piece 
of legislation that will ensure the headwaters of the Flathead River 
can sustain our communities for future generations of Montanans. It 
also offers immense conservation value nationwide.
    Thank you again for introducing S. 233. We appreciate all of your 
work on behalf of Missoula's residents and natural resources.
            Respectfully,
                                             Karen Knudsen,
                                                Executive Director.
                                 ______
                                 
                                  Whitefish Lake Institute,
                                       Whitefish, MT, May 19, 2011.
Hon. Max Baucus,
Senator, 511 Hart Senate Office Building, Washington, DC.
Hon. Jon Tester,
Senator, 724 Hart Senate Office Building, Washington, DC.
RE: Support for Senate Bill 233

    Dear Senators Baucus and Tester: The Whitefish Lake Institute 
enthusiastically supports Senate Bill 233 to provide resource and water 
quality protection in the ``Crown of the Continent.''
    The Whitefish Lake Institute is a science and education based non-
profit corporation designed to protect and improve the Whitefish, 
Montana area lake resources.
    Thank you for including the Haskill Basin Watershed in the proposed 
protection area. Haskill Basin supplies part of the drinking water for 
the City of Whitefish. The Whitefish Lake Institute recommends that the 
Whitefish Lake Watershed be included in this bill, considering 
Whitefish Lake also supplies drinking water to the City of Whitefish 
and serves as a very popular recreational waterbody.
    Thank you for your time and consideration in processing this 
request.
            Sincerely,
                                               Mike Koopal,
                                                Executive Director.
                                 ______
                                 
              The Confederated Salish and Kootenai 
                     Tribes of the Flathead Nation,
                                            Tribal Council,
                                           Pablo, MT, May 25, 2011.
Hon. Max Baucus,
U.S. Senate, 511 Hart Senate Office Bldg, Washington, DC.
RE: Senate Bill 233, the North Fork Watershed Protection Act

    Dear Senator Baucus: On behalf of the Confederated Salish and 
Kootenai Tribes (CSKT), I am writing to offer our wholehearted support 
for Senate Bill 233, the North Fork Watershed Protection Act.
    For thousands of years, the Flathead drainage system--from the 
headwaters in British Columbia through Flathead Lake and down to the 
confluence with the Clark Fork River--has been an artery running 
through the heart of the tribes' territories. Our elders have 
documented dozens of traditional place names along these vital 
waterways, where the tribes have lived for countless generations, 
drinking the pure waters, gathering plants for food and medicinal use, 
fishing, hunting, canoeing, bathing, swimming--and praying. The 
anthropologist Carling Malouf wrote that ``the density of occupation 
sites around Flathead Lake, and along the Flathead River...indicates 
that this was, perhaps, the most important center of ancient life in 
Montana west of the Continental Divide.''
    From time immemorial, in short, these waters have sustained our 
people, and we in turn have taken care of them. Among the many actions 
taken by the CSKT in recent years to protect these resources was our 
adoption, in 1993, of the Lower Flathead River Management Plan, which 
states that the river's ``natural and cultural values shall be 
preserved for present and future generations of the Tribes.'' And each 
year, we host hundreds of area school children at our annual, three-
day-long ``River Honoring'' event, the largest environmental education 
effort in Montana.
    For over thirty years, however, the CSKT have been deeply concerned 
about the threat to these irreplaceable cultural and natural resources 
from the industrial and energy development projects proposed for the 
North Fork headwaters. We were therefore relieved and hopeful when we 
learned of the agreement between Montana and British Columbia to ban 
these activities on both sides of the border. The state and the 
province, as well as both nations, have recognized that the Flathead is 
an environmental asset of the very highest order, and we all have an 
obligation to see that it stays that way.
    Yet the promising recent steps to set aside lands on the Canadian 
side of the river still compel the United States to take prompt, 
commensurate action on our side. Senate Bill 233 meets this need by 
protecting more than 400,000 acres of U.S. Forest Service lands along 
the North Fork. With passage of your bill, this area will be placed off 
limits to hardrock mining, oil and gas development, and geothermal 
leasing. S. 233 thus helps ensure the future integrity of the natural 
values not only of the North Fork of the Flathead River, but also the 
waters downstream in Flathead Lake and the lower Flathead River. Those 
natural values, in turn, are also the basis of the region's economy. S. 
233 not only does the right thing for this unique environmental 
resource; it also makes good economic sense.
    All the land encompassed within S. 233 is part of CSKT aboriginal 
territories, ownership of which we ceded to the United States in the 
Hell Gate Treaty of 1855. Under the terms of this treaty, however, the 
Tribes reserved the right to continue using open and unclaimed ceded 
lands for traditional uses. Protecting this land while also providing 
for continued public use under Forest Service management will be a 
benefit to all Americans.
    Thank you for bringing forward this important, timely, and much 
needed legislation. We urge all members of the Senate to support its 
passage.
            Respectfully,
                                           Ernest T. Moran,
                                                          Chairman.
                                 ______
                                 
  Statement of the National Parks Conservation Association, on S. 233

    Dear Chairman Bingaman, Ranking Member Murkowski, and Members of 
the Committee:
    Thank you for the opportunity to submit written testimony regarding 
S. 233, The North Fork Watershed Protection Act--an important piece of 
legislation that will help preserve the international legacy of 
Waterton-Glacier International Peace Park. We thank Senators Baucus and 
Tester for introducing this legislation and take particular note of 
Senator Baucus' 30-year commitment to protect Glacier National Park and 
the North Fork Flathead River Valley from industrial mining, in both 
the Canadian headwaters and the Montana portions of the watershed.
    Since 1919, the National Parks Conservation Association (NPCA) has 
been the leading voice of the American people on behalf of our national 
parks. Our mission is to protect and enhance America's National Park 
System for current and future generations. On behalf of our more than 
340,000 members, we urge the Committee's support and passage of S. 233.
    Our national parks are home to some of the nation's most iconic and 
sacred landscapes, monuments, and historic sites. They are among the 
most recognizable places in the world. One year ago, on May 11th, our 
nation commemorated the 100th Anniversary of Glacier National Park. The 
passage of S. 233 represents a historic opportunity for today's 
Congress to build upon this historic legacy in its own right.
    Protecting more than one million acres of public lands in northwest 
Montana, Glacier National Park is a crown jewel of the national park 
system. Established a century ago ``for the benefit and enjoyment of 
the people of the United States,'' Glacier's sculpted peaks, mountain 
valleys, and clean waters are enjoyed by more than two million people 
each year, and provide crucial habitat for threatened species including 
the grizzly bear, bull trout and Canada lynx.
    The natural and ecological benefits provided by Glacier National 
Park extend beyond the park's boundaries. From the snow-fed streams and 
mountain rivers of Glacier flow the headwaters of North America, the 
source of rivers that run through 16 states and four Canadian provinces 
before flowing finally into the Pacific Ocean, Gulf of Mexico and 
Hudson Bay. Glacier's snow-covered peaks serve as a natural reservoir 
and essential source of clean water--which is one of our continent's 
most important and essential resources.
    The park also plays a significant role in the regional economy of 
many Montana communities. More than two million travelers visit Glacier 
each year, providing a direct economic impact exceeding $150 million 
dollars. The Chamber of Commerce in Kalispell, Montana, estimates that 
20 percent of the Flathead Valley's economic activity is the direct 
result of Glacier National Park. The economic value of protecting 
Glacier's unique and pristine waters and surrounding public lands 
through this legislation cannot be overstated.

  S. 233 WILL PROTECT THE WORLD'S FIRST INTERNATIONAL PEACE PARK, AND 
                  STRENGTHEN US RELATIONS WITH CANADA

    In 1932, acts of the US Congress and Canadian Parliament designated 
Glacier National Park and Waterton Lakes National Park in Alberta, 
Canada, as the Waterton-Glacier International Peace Park--the world's 
first international peace park. This relationship of transboundary 
peace and goodwill has served as a source of inspiration for nations 
around the world, and today there are more than 100 international peace 
parks on five continents.
    The exceptional natural values of Waterton-Glacier International 
Peace Park are of global significance. National Geographic magazine has 
deemed it ``one of the most diverse and ecologically intact natural 
ecosystems in the temperate zones of the world.'' In 1995, Waterton-
Glacier was added to the list of the United Nations Educational, 
Scientific and Cultural Organization's (UNESCO) World Heritage sites, 
in recognition of the peace park's unique geology, abundant and diverse 
plant and animal communities, and glacial landscape. In 2010, the IUCN/
World Heritage Center delivered a report to the governments of Canada 
and the United States supporting a prohibition on mining in the 
Flathead Valley, and recommending that a conservation and wildlife 
management plan be developed for the peace park.
    Also in 2010, Montana Governor Brian Schweitzer and British 
Columbia Premier Gordon Campbell signed a Memorandum of Understanding 
(MOU) and Cooperation on environmental protection, climate action, and 
energy. The two-page document identifies broad areas for cooperation 
and partnership; and, most importantly, the MOU also contains some very 
specific language regarding the North Fork Flathead River Valley: ``BC 
and Montana commit to remove mining, oil and gas, and coal development 
as permissible land uses in the [North Fork].'' The MOU still must be 
implemented by passage of applicable legislation in both countries. In 
British Columbia, the Premier amended three different laws to ban 
mining in the Canadian Flathead, the day after the signing of the MOU. 
For the US, S. 233 is a crucial step forward in meeting the State of 
Montana's responsibilities under the MOU, and enjoys strong support 
from many business and community groups, including the Kalispell Area 
Chamber of Commerce. Other supporters include energy majors such as 
Chevron and ConocoPhillips, which already have relinquished lease 
options in the region at no cost to taxpayers.

    TO BETTER SAFEGUARD GLACIER NATIONAL PARK AND THE CROWN OF THE 
CONTINENT ECOSYSTEM, THE WITHDRAWAL BOUNDARY HAS BEEN DRAWN TO INCLUDE 
                LANDS ADJACENT TO GLACIER NATIONAL PARK

    NPCA strongly supports S.233, not only for its protections of the 
North Fork Flathead River Valley but also for its protections of public 
lands that provide a drinking water supply for the City of Whitefish, 
as well as public lands located in the Congressionally designated Wild 
& Scenic River corridor of the Middle Fork Flathead River, which forms 
the southwestern boundary of Glacier National Park. These lands are 
important to the area's economy, recreation and municipal development, 
as reflected by S. 233 support provided by Whitefish's Mayor, the 
owners of Whitefish Mountain Resort, and local companies doing business 
on the Middle Fork Flathead River. From its British Columbia headwaters 
downstream to Flathead Lake, the Flathead River system forms the core 
of the Crown of the Continent Ecosystem, supporting an unmatched 
diversity of wildlife and human communities.
    With S. 233 you have a tremendous opportunity to make a lasting 
contribution to the international legacy of Glacier National Park. 
Americans love our national parks, and this legislation affords the 
opportunity for our generation to bequeath to our children and 
grandchildren the opportunity to experience a wild and scenic Flathead 
River--just as we have.
    This concludes NPCA's written testimony. Please feel to contact us 
with any further questions you or your staff may have. Thank you.
                                 ______
                                 
                                   American Rivers,
                                          Northern Rockies,
                                         Bozeman, MT, June 7, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, 304 Dirksen 
        Senate Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, 304 
        Dirksen Senate Office Building, Washington, DC.
Re: Testimony in Support of S. 233

    Dear Chairman Bingaman and Ranking Member Murkowski: On behalf of 
American Rivers, I am pleased to present our written testimony in 
support of S. 233, the North Fork Watershed Protection Act of 2011 
introduced by Montana Senators Max Baucus and Jon Tester. After 
carefully reviewing the bill, and having personally spent a 
considerable amount of time visiting the landscape it would affect, 
American Rivers believes S. 233 offers substantial conservation 
benefits for one of North America's most spectacular watersheds, the 
local communities that are sustained by it, and the millions of 
tourists from across the nation and around the world who visit Glacier 
National Park and the surrounding area. This vital legislation is 
strongly supported by a broad cross-section of Montanans including 
local residents and elected leaders, small businesses, chambers of 
commerce, hunters and anglers, conservation organizations and energy 
companies. To our knowledge, no organized group in Montana has spoken 
out in opposition to this extremely popular bill.

                         ABOUT AMERICAN RIVERS

    American Rivers is the nation's leading river conservation 
organization, with more than 65,000 members and supporters from all 50 
states--including hundreds of Montanans--who share a commitment to 
protecting and restoring our nation's rivers for the benefit of people, 
wildlife and nature. For decades we have worked with local partners in 
Montana to permanently protect the North Fork of the Flathead River 
from various forms of mining and oil and gas drilling. In 2009, 
American Rivers included the North Fork on its annual list of Most 
Endangered Rivers<SUP>TM</SUP> due to threats from industrial-scale 
coal mining, gold mining, and oil and gas drilling in its headwaters 
along the Montana-British Columbia border.

             GLOBALLY SIGNIFICANT FISH & WILDLIFE RESOURCES

    Due to its remoteness, lack of development, and pristine water 
quality, the North Fork serves as a globally significant stronghold for 
native fish, wildlife and plant species. Among the native fish species 
found in the North Fork are bull trout, a federally threatened species, 
and westslope cutthroat trout, which have been petitioned for listing 
under the Endangered Species Act and are considered a Species of 
Special Concern by the U.S. Forest Service and state of Montana. Both 
fish species migrate from Flathead Lake in Montana up to 150 miles 
upstream to the headwaters of the North Fork in British Columbia where 
they spawn in some of the cleanest, coldest water in North America. The 
migratory bull trout of the North Fork can reach over 15 pounds and 
three feet in length.
    Thanks to its status as the last remaining undeveloped low-
elevation valley in the Northern Rockies and its unique location at the 
crossroads of five major ecosystem types, the North Fork supports an 
unparalleled diversity of wildlife species including grizzly and black 
bears, gray wolves, wolverines, Canada lynx, elk, mule deer, whitetail 
deer, moose, bighorn sheep and mountain goats. Among its superlatives, 
the North Fork is believed to contain the greatest density of 
carnivores in North America and the greatest diversity of plant species 
in Canada including over 1,000 species of wildflowers.

                       WILD & SCENIC RIVER STATUS

    The North Fork, along with the Middle Fork and South Fork of the 
Flathead, were added to the National Wild and Scenic Rivers System in 
1976 in order to protect their ``outstandingly remarkable values,'' 
which include recreation, scenery, historic sites, and unique fisheries 
and wildlife. In passing the Wild and Scenic Rivers Act, Congress 
stated:
    ``It is hereby declared to be the policy of the United States that 
certain selected rivers of the Nation which, with their immediate 
environments, possess outstandingly remarkable scenic, recreational, 
geologic, fish and wildlife, historic, cultural or other similar 
values, shall be preserved in free-flowing condition, and that they and 
their immediate environments shall be protected for the benefit and 
enjoyment of present and future generations. The Congress declares that 
the established national policy of dams and other construction at 
appropriate sections of the rivers of the United States needs to be 
complemented by a policy that would preserve other selected rivers or 
sections thereof in their free-flowing condition to protect the water 
quality of such rivers and to fulfill other vital national conservation 
purposes.''
    In addition to the North Fork already being designated as a Wild 
and Scenic river, the U.S. Forest Service has found 113 miles of its 
tributaries to be eligible for inclusion in the National Wild and 
Scenic Rivers System. These tributaries, all of which flow into the 
North Fork from the Whitefish Range, include Big Creek, Coal Creek, 
South Fork Coal Creek, Cyclone Creek, Gateway Creek, Hallowat Creek, 
Langford Creek, Mathias Creek, Moose Creek, Red Meadow Creek, Shorty 
Creek, South Fork Shorty Creek, Trail Creek, and Whale Creek (see 
Appendix B for map showing all designated and eligible river reaches in 
the Flathead watershed). Under the Wild and Scenic Rivers Act and the 
Flathead National Forest's current Forest Plan, these eligible 
tributaries are supposed to be managed as it they were already 
designated.

                     OIL & GAS RESOURCES NEGLIGIBLE

    While some public lands in the North Fork watershed were leased for 
oil and gas drilling in the 1980s, the Department of the Interior 
subsequently suspended all of those leases due to legal deficiencies 
pertaining to National Environmental Policy Act and Endangered Species 
Act compliance. Consequently, no oil and gas drilling has occurred on 
public lands in the North Fork watershed, and no economic impacts would 
occur if these leases were permanently withdrawn. In fact, since the 
North Fork Watershed Protection Act was first introduced in the 111th 
Congress, energy companies including Conoco Phillips, Chevron, 
Anadarko, Allen and Kirmse, Ltd., Exxon Mobile/XTO Energy, and BP have 
voluntarily relinquished oil and gas leases on 200,000 acres in the 
Flathead watershed at no cost to American taxpayers. This represents 
80% of the leased acreage on the Flathead National Forest.
    There is recent precedent for Congress withdrawing certain 
outstanding public lands from mining and oil and gas leasing due to 
unacceptable impacts to water quality, air quality, fish and wildlife, 
scenery, and archeological sites. For example, in 2006 Senator Baucus 
sponsored legislation that withdrew 500,000 acres of public lands along 
the Rocky Mountain Front from oil and gas leasing. In the Omnibus 
Public Lands Management Act of 2009, Congress withdrew 1.2 million 
acres of the Wyoming Range in northwest Wyoming from oil and gas 
leasing, and another 101,000 acres in New Mexico's Valle Vidal.

              AGREEMENT BETWEEN MONTANA & BRITISH COLUMBIA

    Following more than three decades of highly contentious battles 
over proposed mining and oil and gas drilling in the headwaters of the 
North Fork, British Columbia announced in February 2010 its intention 
to withdraw its portion of the Flathead watershed from all forms of 
mining and oil and gas drilling. Shortly thereafter, Montana Governor 
Brian Schweitzer and British Columbia Premier Gordon Campbell signed an 
international agreement that committed the U.S. and Canada to, among 
other things: ``Remove mining, oil and gas, and coal development as 
permissible land uses in the Flathead River Basin.'' By passing S. 233, 
Congress can uphold the promises Montana made in the agreement, while 
also increasing the likelihood that British Columbia will follow 
through on its commitments.

                               CONCLUSION

    Given the globally significant environmental values of the North 
Fork watershed including its pristine water quality, wild rivers, and 
unparalleled abundance and diversity of fish and wildlife; the non-
existent role that mining and oil and gas drilling in the North Fork 
plays in the local economy; the widespread local support for 
permanently protecting the watershed from such activities; and the 
recent agreement signed by Montana and British Columbia; American 
Rivers strongly supports passage of S. 233 and commends Senators Baucus 
and Tester for taking a leadership role in introducing it. In the wake 
of the 100-year anniversary of Glacier National Park in 2010, Congress 
could give the nation no greater gift than to protect the pristine 
waters that form its western boundary.
    Thank you for taking our testimony into consideration.
            Sincerely,
                                               Scott Bosse,
                                                          Director.
                                 ______
                                 
                         Missoula Area Chamber of Commerce,
                                         Missoula, MT, May 4, 2011.
Hon. Senator Jon Tester,
724 Hart Senate Office Building, Washington, DC.
    Dear Senator Tester, The Missoula Chamber of Commerce has tracked 
the progress of the Forest Jobs and Recreation since its introduction 
in July of 2009. Recently, after several educational presentations and 
a great deal of conversation, our Governmental Affairs Committee voted 
unanimously to recommend that we endorse the bill and on April 20th, 
our Board of Directors accepted this recommendation and we're pleased 
to announce our endorsement of this important legislation.
    The Forest Jobs and Recreation Act represents a turning point in 
the long and tense debate over the management of federal land in 
Montana. This legislation offers Montanans the opportunity to move 
beyond the false choices of Wilderness conservation, forest recreation 
or active timber management. Instead, this legislation aims to advance 
each of these objectives at the same time by managing a 'land of many 
uses' in a manner that increases timber production, guarantees 
recreational access and protects some of our last best places.
    By ensuring timber supply to local mills, protecting wildlife 
habitat that is vital to Western Montana's tourism industry and 
guaranteeing recreational access for all Montanans, the Forest Jobs and 
Recreation Act opens the door to new and sustained economic 
productivity on Montana's forests. We encourage you and your colleagues 
in the Senate to do all that you can to pass this legislation.
    Thank you for all that you and your staff are doing for Montanans.
            Sincerely,
                                                Gary Clark,
                                                          Chairman.
                                             Kim Latrielle,
                                                     President/CEO.
                                 ______
                                 
                                 Broadwater County,
                            Broadwater County Commissioner,
                                        Townsend, MT, June 7, 2011.
Hon. Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee.
Re-Support for Forest Jobs and Recreation Act from Montana

    Dear Senator Bingaman and Distinguished Members of the Committee, 
Thank you for taking the time for this very important hearing.
    The Forest Jobs and Recreation Act is important to Montana and 
important to Broadwater County.
    In Montana, we've lost too many lumber mills and, by extension, too 
many jobs. Currently we are dealing with record flooding due, in large 
part, to lack of forest management. Forest fires from a decade ago left 
tree skeletons that do nothing to alleviate spring runoff resulting in 
nearby streams filling with silt and debris.
    In Broadwater County, RY Timber is one of the few lumber mills 
left, not only in Montana, but in this western region. They have been a 
good neighbor and a good partner with agencies like the Forest Service, 
and through their work have aided in Forest Management, when allowed.
    RY Timber provides work for 100 direct employees and 200 indirect 
employees and they contract with another 200 individuals. These are 
good paying jobs with full benefits and needed for our community and 
our local economy. Their business plan is to log private land and 
harvest that timber, along with working on federal lands. Those managed 
private forests have been healthy as compared to Forest Service land 
where trees have had to complete with over growth and for water through 
draught, this has left them vulnerable to the Pine Bark Beetle, which 
has resulted in mountains of federal forest that are red, dead and 
decaying.
    With spring rains and runoff there is nothing to stop the top soil 
from flowing down the mountain into streams which fills up culverts and 
result in flooding over roads, onto fields and into homes.
    Please support and vote for the Forest Jobs and Recreation Act. It 
is indeed a jobs bill, an economic development opportunity and a 
responsible compromise that positively supports the west, Montana, our 
forests and our communities.
    Thank you,
                                               Laura Obert,
                                                             Chair.
                                           Elaine Graveley,
                                                        District 2.
                                            Gail M. Vennes,
                                                        District 3.
                                 ______
                                 
 Statement of Mark Anderlik, Local Union 427, Union Executive Officer, 
Missoula Area Central Labor Council, AFL-CIO, President, Missoula, MT, 
                               on S. 268

    By a majority vote, the Missoula Area Central Labor Council (MACLC) 
Executive Board voted to endorse U.S. Senator Jon Tester's ``Forest 
Jobs and Restoration Pilot Initiative,'' previously known as the 
``Forest Jobs and Recreation Act.''
    The bill was slightly modified from the previous version, with the 
major difference being, according to the Missoulian, is that a logging 
mandate that called for 100,000 acres of ``mechanical treatment'' over 
10 years has been extended to 15 years. See the 12/15/10 Missoulian 
article by Rob Chaney at http://missoulian.com/news/local/
article_7037921e-07c8-11e0-a539-001cc4c002e0.html.
    The MACLC involvement has included both the bill's proponents and 
opponents addressing our Council. We had been waiting for bill language 
that would strengthen the creation of good sustainable jobs. The 
language of the bill now includes ``best value contracting'' language, 
and, as a Federally-funded project, it will require that prevailing 
wages (Davis-Bacon Act) be paid. The ``best values'' have not been 
determined yet and is not written into the bill. That will be done 
administratively, and is a process that we will help influence. However 
the commitment to create good sustainable Montana jobs is clearly 
there.
    We applaud Sen. Tester and his staff for all of the work they put 
into finding common ground among very diverse interests within Montana 
in crafting this bill. As union members we know that we don't always 
get everything we want in negotiations. Yet this bill overall is a big 
step forward for working Montanans and for our environment. And we are 
encouraged that the open and collaborative process used in creating the 
bill will be used elsewhere in the state. We hope this bill will be 
passed in the near future.
    Please visit Sen. Tester's website at http://tester.senate.gov/
Legislation/foresthome.cfm for more detailed information about the 
bill.
                                 ______
                                 
                           Seeley Lake Rural Fire District,
                                     Seeley Lake, MT, May 26, 2011.
Montana Congressional Delegation.

Hon. Sen. Jon Tester,
Hon. Sen. Max Baucus,
Hon. Rep. Denny Rehberg.

    Dear Sirs, The Seeley Lake Rural Fire Department wishes to express 
its support for Senator Tester's Senate Bill 268, Forest Jobs and 
Recreation Act of 2011. This bill is a made-in-Montana solution for our 
economic and environmental woes as seen in our loss of timber mills, 
beetle epidemic, and lack of protection for some of the most pristine 
portions of our state. It is the culmination of the work of three 
collaborative groups across the state--the Beaverhead-Deerlodge 
Partnership, the Blackfoot Clearwater Stewardship Project, and the 
Three Rivers Challenge--who have taken the initiative, with local input 
and support across a wide range of perspectives, to develop plans for 
wise resource management, create jobs in the woods, and protect forever 
some of the most beautiful landscapes in Montana. We encourage you to 
support this well-balanced legislation.
    In all three project areas, the Forest Jobs and Recreation Act 
proposes stewardship logging and forest restoration projects that will 
result in healthier watersheds, enhanced wildlife habitat, and working 
forests while concurrently providing good paying jobs for local 
residents. In addition, the bill encourages biomass energy production 
in all project areas. This will provide an outlet for local forest 
products well beyond those provided by the stewardship projects as well 
as place Montana as a leader in energy independence.
    The bill also sets aside some of Montana's most pristine 
backcountry so that future generations of Montanans can camp, hunt, 
fish, and recreate with their families just as we do today. These areas 
are set aside without negatively affecting motorized or mechanized use. 
Our forests are big enough for everyone, and the Forest Jobs and 
Recreation Act embodies this philosophy.
    The Seeley lake Rural Fire Department has thoroughly reviewed and 
discussed the various components of this legislation. We believe the 
Forest Jobs and Recreation Act will significantly improve the safety of 
communities and reduce the risk of catastrophic wildfire by mitigating 
fuels in the forest, making use of small wood, and reducing the risk of 
beetle infestation in the future. Fuels mitigation projects are already 
taking place in the Clearwater and Blackfoot valleys, but these 
projects need to continue for our forests to be healthy and our 
communities safe. The Forest Jobs and Recreation Act will help put more 
projects on the ground to reduce the risk of wildfire.
    Thank you for your consideration of this important legislation. If 
you have any questions, please feel free to contact me at your 
convenience.
                                             Frank Maradeo,
                                                             Chief.
                                 ______
                                 
                                                      June 8, 2011.
Hon. Senator Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Energy and Natural 
        Resources Committee Office, 304 Dirksen Senate Building, 
        Washington, DC.
    Senator Wyden, and members of the Subcommittee: The undersigned 
members of the Blackfoot-Clearwater Stewardship Project steering 
committee request that the following comments be submitted for the 
Congressional record concerning Senate Bill 268, the Forest Jobs and 
Recreation Act of 2011.
    We greatly appreciate the time and attention given this legislation 
by the Subcommittee for Public Lands and Forests, as well as the Senate 
Energy and Natural Resources Committee as a whole, since this 
legislation was first introduced in July of 2009. For several reasons, 
we encourage you and your Senate colleagues to do all that you can to 
ensure the passage of this legislation at the nearest opportunity.
    For more than five years, local communities in the Blackfoot and 
Clearwater River watersheds have worked together to establish and 
promote a vision for wilderness, snowmobile recreation, and increased 
forest management for commercial timber harvest and restoration on the 
Seeley Lake Ranger District of the Lolo National Forest. Senator Tester 
took this vision one big step closer to reality when he included our 
legislative ideas as part of the Forest Jobs and Recreation Act.
    While we cannot speak to the provisions of this legislation that 
pertain to the Beaverhead-Deerlodge or Kootenai National Forests, we 
can state for the record that passage of the Forest Jobs and Recreation 
Act is a critical step toward realizing the goals championed by this 
steering committee in the Blackfoot Clearwater Stewardship Project. We 
hope to see this legislation pass very soon.
    Thank you for your consideration.
            Sincerely,
                    Orville Daniels, Former Supervisor, Lolo National 
                            Forest; Jim Stone, Rolling Stone Ranch--
                            Ovando, MT; Bill Wall, Sustainable, Inc.--
                            Seeley Lake, MT; Smoke Elser, Wilderness 
                            Outfitters--Missoula, MT; Jack Rich, Rich 
                            Ranch Outfitting--Seeley Lake, MT; Loren 
                            Rose, Comptroller, Pyramid Mountain Lumber; 
                            Jon Haufler, President, Clearwater Resource 
                            Council; Gloria Flora, Executive Director, 
                            Sustainable Obtainable Solutions; Brian 
                            Sybert, Executive Director, Montana 
                            Wilderness Association; Scott Brennan, 
                            Northern Rockies Forest Program Director, 
                            The Wilderness Society.
                                 ______
                                 
                                Montana High Divide Trails,
                                                      June 7, 2011.
Hon. Senator Jeff Bingaman,
Chair, U.S. Senate, Energy and Natural Resources Committee, Washington, 
        DC.
Re: Urge Passage of S-268, Forest Jobs and Recreation Act

    Dear Senator Bingaman, Montana High Divide Trails is the nation's 
largest partnership between horseback riders, mountain bikers, hikers 
and conservationists. Five years ago, representatives from nine Montana 
outdoor organizations met for the first time to begin negotiations 
resulting in a cooperative agreement for conserving wild lands and 
backcountry trails along 240 miles of the Continental Divide and Flint 
Creek Range.
    We are very pleased that Senator Tester included joint 
recommendations from Montana High Divide Trails in the Forest Jobs and 
Recreation Act.
    The nine partner organizations listed above strongly support 
passage of the Forest Jobs and Recreation Act, S-268, as amended. S-268 
includes seven wilderness and backcountry recreation areas endorsed by 
Montana High Divide Trails in the Flints and along the Continental 
Divide.

  <bullet> Lost Creek Protection Area
  <bullet> Dolus Lakes Wilderness
  <bullet> Thunderbolt Creek Recreation Area
  <bullet> Anaconda-Pintler Wilderness Additions
  <bullet> Humbug Spires Wilderness
  <bullet> Highlands Wilderness
  <bullet> Electric Peak Wilderness

    This bill combines years of collaborative work by Montanans into a 
transformative vision of conservation stewardship. Passage of the 
Forest Jobs and Recreation Act will protect and pass on outstanding 
areas of wilderness and backcountry recreation of great value to our 
diverse members and their families and communities across Southwest 
Montana.
    In December 2009, the nine groups that comprise Montana High Divide 
Trails submitted the attached testimony which we again submit to 
committee members and staff in support of passage of S-268 which will 
permanently protect seven outstanding wilderness and recreation areas 
endorsed by our partners.
    The Forest Jobs and Recreation Act was recently amended in response 
to public and agency comments. One change converts 5,000 acres of 
proposed wilderness into the Highlands Special Management Area with 
provisions to protect municipal water and transmission facilities and 
continue mountain training from time to time with helicopter support.
    We support the amended Highlands Wilderness and Special Management 
Area and applaud Senator Tester and the committee staff for listening 
and responding in a way that fully protects this majestic range of 
snowcapped mountains south of Butte.
    Other changes clarify management of proposed Recreation Areas 
including the proposed Lost Creek and Thunderbolt Creek Recreation 
Areas of great interest to Montana High Divide Trails. We support these 
improvements. We also respectfully suggest to avoid confusion, the 
reference under Section 207 (b) Administration (4B subparts i and ii) 
to ``mechanized vehicles'' (mountain bikes) be preceded by the word 
``non-motorized.''
    We wish to express our deep appreciation for Senator Tester's 
visionary leadership in sponsoring the Forest Jobs and Recreation Act 
and urge passage by the Committee.
    Please include these comments and attachments from Montana High 
Divide Trails Partnership in the hearing record for S.268, the Forest 
Jobs and Recreation Act.
     Attachment.--Unified Support for Highlands Proposed Wilderness
                                                   January 8, 2010.

    In reviewing USDA testimony we were surprised to find a suggestion 
that the Highlands Crest may be dropped from wilderness consideration.
    The proposed Highlands Crest Wilderness forms a majestic mountain 
backdrop for the community of Butte, towering above the surrounding 
Continental Divide and Continental Divide National Scenic Trail.
    The rugged 10,000 + foot peaks of the Highlands Recommended 
Wilderness with its deep canyons, archeological sites, mountain goat, 
moose elk and bighorn sheep habitat are central to a unique 
collaborative partnership endorsed by mountain bikers, back country 
horsemen, hunters, hikers and conservation groups known as Montana High 
Divide Trails.
    Due to outstanding wilderness characteristics, the Highlands 
Wilderness was recommended for wilderness by the U. S. Forest Service 
in the 2009 final Beaverhead-Deerlodge National Forest Plan.
    The committee should be aware the forest plan recommendation to 
designate the Highlands Wilderness is one which all nine of our 
organizations recommended in the draft forest plan and supported in the 
final.
    The rationale cited in USDA testimony is related to an issue that 
had been carefully worked out collaboratively in advance of the 
introduction of S. 1470.
    Here is an excerpt from Under Secretary Harris Sherman's Testimony:

          Highlands: This area was recommended for wilderness in the 
        Beaverhead-Deerlodge Land and Resource Management Plan. 
        Specifically the bill allows for helicopter landings for 
        military exercises. When the Forest Service made its wilderness 
        recommendation it envisioned the military flights being 
        relocated to a different location when the special use 
        authorization expired, and thus viewed them as temporary in 
        nature. S. 1470 would permanently authorize helicopter landings 
        for military training within the Highlands area. We are not 
        aware of a military landing being legislatively authorized in 
        wilderness before and we are concerned that a precedent may be 
        established by this legislation. We would like to work with the 
        committee to either remove this requirement or explore 
        alternative designations for the Highlands area.

Background
    Several times a year the U. S. Forest Service permits a Montana 
national guard helicopter to briefly land on a small level area atop 
10,223-foot Table Mountain. No personnel or supplies are off-loaded. 
The purpose of the landing is simply to be readily available in the 
event that any of a small group of wilderness skills trainees dropped 
by parachute miss the summit and drift onto surrounding cliffs.
    With all due respect, we don't believe this sets a damaging 
precedent. The U. S. Forest Service, National Park Service and Bureau 
of Land Management currently authorize (limited) helicopter landings 
for a variety of purposes within designated wilderness areas.
    While we agree finding an alternative location outside wilderness 
is desirable, we are also aware from our collaborative work on the 
Highlands Wilderness that Table Mountain presents circumstances that 
may not be readily duplicated.
    We would like to suggest that the USDA look for reasonable options 
that don't require loss of this outstanding recommended wilderness.
    The nonconforming use cited by USDA only takes place in one very 
specific location of perhaps 100 acres on Table Mountain. No other 
locations within the proposed wilderness are affected.
    If changes are necessary we respectfully request the committee 
consider a alternative designation ONLY for the specific area where 
nonconforming use is an issue, while acting to keep the remaining 
proposed 20,000 acre Highlands Wilderness intact -as recommended in the 
new forest plan.
    Please include this as a special addendum to Dec 16, 2009 letter of 
support for S 1470 submitted for hearing record on behalf of the above 
listed southwest Montana outdoor and conservation organizations.
    Montana High Divide Trails is the nation's largest conservation 
agreement between mountain bikers, backcountry horsemen and women, 
hikers, and conservationists. http://www.wildmontana.org/programs/
quiettrails2.php
                                 ______
                                 
Hon. Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee, U.S. Senate, SD-
        304 Washington, DC.
Hon. Lisa A. Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, U.S. 
        Senate, SD-304 Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski: Montana's 
legendary hunting and fishing and outdoors heritage is closely tied to 
our public lands legacy. As such, Senator Jon Tester's Forest Jobs and 
Recreation Act (FJRA), S. 268, provides the best chance in a generation 
to ensure that Montana's highquality sporting traditions endure for 
generations in several important regions of the state.
    FJRA maps out a plan of protection for some of Montana's most 
critical intact wildlife and fisheries habitat with the designation of 
more than 600,000 acres of popular wild country into the nation's 
Wilderness System, and another 300,000 acres-plus into undeveloped 
recreation areas. These tracts, in western and southwestern Montana, 
contain critical security habitat for big game such as elk, bighorn 
sheep, mountain goats, moose and mule deer. These areas are also vital 
for conservation of rare species such as wolverine, sage grouse and 
grizzly bears. Headwater tributaries of some of Montana's most critical 
and famed blue ribbon trout rivers, including Rock Creek and the Big 
Hole, Missouri, Madison, Jefferson, Beaverhead, Kootenai, Blackfoot and 
Clark Fork Rivers are contained within proposed Wilderness areas in 
FJRA. This bill would protect critical species such as bull trout and 
westslope cutthroat trout while ensuring that future generations of 
anglers and hunters will have places to fish and hunt.
    This bill also includes a mechanism for restoring many miles of 
damaged trout stream and thousands of acres of forest through 
stewardship projects that trade the value of timber removed through 
environmentally responsible logging and thinning for restoration 
activities, such as reducing erosion sources and barriers to fish 
movement. By harvesting a renewable resource in previously developed 
areas that are being attacked by insect infestations, FJRA partners and 
the Forest Service can better reduce fire risk to communities, private 
property and important public infrastructure that adjoins national 
forests.
    Moreover, FJRA will help ensure that steady, good-paying jobs 
working in the woods stay in Montana. The jobs will be in local logging 
companies and mills, outfitting and guiding services, businesses that 
specialize in habitat restoration and improving recreational sites. 
Security habitat for elk will be restored through FJRA's tools, as will 
creeks that have been damaged by extractive practices of generations 
before.
    FJRA also ensures that the responsible sportsmen and women who use 
motorized vehicles off highway to access public lands designated for 
that use will continue to have access. By designating more than 300,000 
acres of motorized areas to the national recreation system, FJRA 
ensures that the existing, legal motorized access, such as snowmobile 
use, in these areas continues.
    As sportsmen and women with a passion for the outdoors and for the 
Montana way of life that depends so much on a public lands tradition, 
we are in full support of Sen. Tester's bill. It represents balance and 
a protection of the customs and culture that characterize our outdoor 
legacy.
            Sincerely,
                    Backcountry Hunters and Anglers, MT, Backcountry 
                            Hunters and Anglers, National, Big 
                            Blackfoot Chapter, Trout Unlimited, Bitter 
                            Root Chapter, Trout Unlimited, Flathead 
                            Backcountry Horsemen, Flathead Valley 
                            Chapter, Trout Unlimited, Hellgate Hunters 
                            and Anglers, Joe Brooks Chapter, Trout 
                            Unlimited, Kootenai Valley Trout Club, 
                            Lewis and Clark Chapter, Trout Unlimited, 
                            Madison Gallatin Chapter, Trout Unlimited, 
                            Magic City Fly Fishers, Montana Backcountry 
                            Horsemen, Montana Trout Unlimited, Montana 
                            Wildlife Federation, National Trout 
                            Unlimited, National Wildlife Federation, 
                            Pat Barnes-Missouri River Chapter, Trout 
                            Unlimited, Snowy Mountain Chapter, Trout 
                            Unlimited, Theodore Roosevelt Conservation 
                            Partnership, West Slope Chapter, Trout 
                            Unlimited.
                                 ______
                                 
 Statement of Jenn Dice, Director of Government Affairs, International 
 Mountain Bicycling Association, on S. 233, S. 268, S. 375, S. 714 and 
                                 S. 730

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to provide input on S. 268, the Forest Jobs and Recreation 
Act of 2011. The International Mountain Bicycling Association (IMBA) 
appreciates the effort by U.S. Senator Jon Tester and his staff to 
maintain an ongoing dialogue regarding the concerns of the mountain 
bicycling community. IMBA supports many of the proposed Wilderness 
areas and applauds the senator's desire to include Special Management 
Area (SMA) and Recreation Management Area (RMA) designations that will 
protect the undeveloped nature of these areas while embracing the 
recreational values for which these lands are cherished.
    Founded in 1988, IMBA leads the national and worldwide mountain 
bicycling communities through a network of 80,000 individual 
supporters, 750 affiliate clubs, and 600 dealer members. IMBA teaches 
sustainable trail building techniques and has become a leader in trail 
design, construction, and maintenance; encourages responsible riding, 
volunteer trail work, and cooperation among trail user groups and land 
managers. Each year, IMBA members and affiliated clubs conduct almost 
one million hours of volunteer trail stewardship on America's public 
lands and are some of the best assistants to federal, state, and local 
land managers.
    Wilderness designations are a difficult issue for IMBA and mountain 
bicyclists. On the one hand we want to preserve the beauty and 
experience of wild landscapes for future generations. On the other 
hand, federal land management agencies interpret the Wilderness Act of 
1964 to prohibit the use of mountain bicycles. Our decision to support 
a Wilderness proposal or bill is not one we take lightly. Only when we 
have worked with the Wilderness proponents to develop win-win solutions 
can we fully support the designation.

               BENEFITS TO THE MONTANA RECREATION ECONOMY

    Of the thirty-five (35) units, totaling 1,019,764 acres, IMBA 
supports thirty (30) in their entirety. We request boundary adjustments 
in the remaining five (5) units. The changes would lead to a net 
reduction of Wilderness of 23,419 acres and a net increase in 
Recreation Management Area acreage of 16,319. Thus, IMBA supports 97.7 
percent of the acreage in the current draft of this bill.
    Rural communities around the West can no longer depend entirely on 
resource extraction. Many small towns have diversified and now reap the 
benefits of a recreation goods and services economy. The recreation 
industry creates jobs through increased visitation, which drives retail 
sales and services across multiple channels. Locations with valuable 
recreational assets also attract outdoor and cycling industry companies 
that have employees and owners who prefer to live and work close to the 
places they play.
    This bill includes many provisions that support the recreation 
economy by opening trails to cyclists through the release of more than 
66,815 acres of Wilderness Study Area (WSA), and the creation of more 
than 369,500 acres of Recreation Management Area or Special Management 
Area. Some trail examples are:

  <bullet> Tobacco Roots RMA: Lost Cabin Trail and the Tobacco Root 
        Trail totaling roughly 30 miles
  <bullet> Axolotl Lakes former WSA: Proposed Virginia City Trails 
        estimated at 30 miles
  <bullet> West Pioneer RMA: West Pioneer Loop and additional trails 
        totally potentially 220 miles
  <bullet> Lost Creek RMA: 15 miles of existing trail
  <bullet> Thunderbolt Creek SMA: 40 miles of proposed trail

    IMBA does not agree with the Forest Service Region One (R1) 
decision to ban bikes from Recommended Wilderness, however, we applaud 
Senator Tester's efforts with this legislation to move this issue 
forward by proposing a permanent solution for these world-class Montana 
landscapes.

 CONTINUED MOUNTAIN BICYCLE ACCESS TO THE CONTINENTAL DIVIDE NATIONAL 
                     SCENIC TRAIL AND OTHER TRAILS

    Since the deliberations for S. 268 have evolved over many years, it 
is important to note that the USDA Forest Service recently released 
their new directives for the Continental Divide National Scenic Trail 
(CDNST) which states, ``Bicycle use may be allowed on the CDNST (16 
U.S.C. 1246(c)) if the use is consistent with the applicable land and 
resource management plan and will not substantially interfere with the 
nature and purposes of the CDNST.''
    Cycling on the CDNST in Southwestern Montana is a unique and 
important recreational asset. While there are some sections of the 
trail not appropriate for mountain biking, many portions of the trail 
are. IMBA places high priority on the CDNST and has asked for several 
small adjustments to keep this important trail open to mountain 
bicycling.

  <bullet> Anaconda/Pintlar Wilderness Additions: IMBA requests 
        boundary adjustments for the CDNST, Bender Point, and Trail #44 
        to Twin Lakes. This boundary adjustment would result in a 
        reduction of Wilderness of less than 3,000 acres.
  <bullet> Italian Peak: A boundary adjustment of roughly 4,000 acres 
        is requested here to allow continued access to the CDNST.
  <bullet> Centennial/ Mt Jefferson: In several extremely short 
        sections along the southern border of the proposed Centennial 
        Wilderness, the CDNST crosses the boundary. We request that the 
        trail become the boundary to maintain the possibility of future 
        bicycle access. We further request that the boundary between 
        these two units be a non-wilderness corridor, allowing non-
        motorized access to the existing CDNST with no net loss of 
        Wilderness acreage.

    IMBA requests several other important adjustments:

  <bullet> Lima Peaks: We request that this area become two units 
        divided by a non-wilderness corridor, allowing non-motorized 
        access on the Little Sheep Creek Trail. The resulting 
        Wilderness units would both be roughly 17,000 acres and the 
        Wilderness reduction would be less than 1000 acres.
  <bullet> Scapegoat Wilderness Addition: We request the enlarging the 
        Otatsy Recreation Management Area to encompass the Falls Creek 
        Trail and allowing non-motorized access to this trail. This 
        would expand the RMA to roughly 15,289 acres and reduce the 
        Scapegoat Wilderness addition to 18,178 acres. The result would 
        be a net increase in protected lands of 2,500 acres.
  <bullet> West Big Hole Recreation Management Area and Wilderness: We 
        believe this important Recreation Management Area should allow 
        bicycle access to the trails within the north and south 
        Wilderness units. We believe non-motorized trail corridors 
        would be the best way to maintain this access, which would 
        result in less than a thousand (1000) acre reduction of 
        Wilderness and is still protected by the Recreation Management 
        designation. These two proposed Wilderness units within the 
        West Big Hole RMA were not Forest Service Recommended 
        Wilderness.

        STEWARDSHIP TRAIL PROJECTS AND ROAD TO TRAIL CONVERSIONS

    Finally, the Act stipulates that forest and watershed restoration 
projects will be designated each year. These stewardship projects use 
new best management logging practices with regard to timber sales, road 
densities, wildlife habitat, trail development, and allow for revenue 
from timber sales to remain in the district. IMBA hopes the USDA Forest 
Service and Senator Tester will consider directing potential funding to 
trail building in order to replace trails where mountain bikes are no 
longer allowed. IMBA will participate at the local level to aid in the 
creation of new trails. IMBA appreciates that the legislation has 
suggested road to trail conversions in some cases, and offers our 
professional trail building expertise in creating an environmentally 
sound, sustainable trail systems.
    IMBA and the Montana mountain bicycling community welcome the 
opportunity to join with others to protect Montana, to ensure current 
and future generations can enjoy high-quality outdoor experiences away 
from development, noise, and poorly planned resource extraction. We 
look forward to continued discussion of how best to meet the needs of 
mountain bikers and other trail users for these very special regions of 
Montana.
                                 ______
                                 
                          Back Country Horsemen of Montana,
                                           Butte, MT, June 8, 2011.
Hon. Jon Tester,
Senator, 724 Hart Senate Building, Washington DC.
    Dear Senator Tester, The Back Country Horsemen of Montana are 
committed to helping with the solid endorsement and support of your 
newly introduced bill S.268, The Forest Jobs and Recreation Act of 
2011.
    We have in the past endorsed the Beaverhead Partnership and the 
Blackfoot Clearwater Stewardship Projects. And it should be no great 
surprise that we endorse any new wilderness designations suitable for 
our great state.
    Beyond the wilderness issue is the jobs issue which we have been 
equally concerned about over the past few years as we have watched our 
timber industry disintegrate here in Montana. The cooperative efforts 
exemplified in such initiatives as the Beaverhead and Blackfoot 
projects are grand representations of what Montanans can do when they 
sit down together to solve their problems together.
    Our pine forests are in desperate need of attention and while we 
certainly wouldn't want to log it all, the establishment of a 
sustainable timber base coupled with stewardship projects that return 
harvested areas to productive use quickly, and provide for protected 
water and wildlife sanctuaries, represents sound thinking that will 
serve Montanans for many generations to come.
    S.268 stands to greatly aid Montana in preserving its timber 
processing infrastructure, an industry we cannot afford to loose. At 
the same time it will help preserve, protect and enhance some of the 
best wildlife and fisheries habitat in North America. It also ensures 
that traditional activities such as fishing ,hunting, horse packing, 
camping and hiking will continue for generations. It also guarantees 
access for every outdoor pursuit.
    Back Country Horsemen of Montana applaud you on these complex 
matters and will stand beside you as partners through this legislative 
process.
            Sincerely,
                                             John Chepulis,
                                                          Chairman.
                                 ______
                                 
 Statement of Bill Hallinan, President, the Wild Divide Chapter of the 
         Montana Wilderness Association, Helena, MT, on S. 268

    As the Wild Divide Chapter of the Montana Wilderness Association 
based in Helena, Montana, we represent over 500 members in an area 
encompassing lands to be included in the Forest Jobs and Recreation 
Act. As such, we strongly support the creation of this Act to both 
preserve pristine wild lands and ensure resource jobs for future 
generations in Montana. The Act is truly a grassroots, Montana made 
initiative, as local as any proposal can get in the United States 
representing a broad range of groups from hunters and anglers, to 
hikers, bikers, horsemen, ranchers, and loggers.
    As Montanans we feel strongly about deciding what is in the best 
interest of our state and our backyard. The FJRA is a Montana 
initiative made in the state, for the future generations of the state 
and not created by Washington lobbyists. We appreciate the approval of 
the Committee to uphold our right to do what is best for our own 
backyard, and to preserve what is best about America.
    Many of the lands included in the FJRA will be utilized for off-
road vehicle enthusiasts, timber sales and other multi-use purposes. 
The wilderness component of the legislation is a very small portion of 
the lands included in the Act, and will preserve some of the most 
pristine and inaccessible environments of the United States, which host 
some of the most dynamic and vital ecosystems in the world. The timber 
sales included in the act will ensure the creation of new timber jobs 
in towns hard hit by recent economic times such as Townsend, Hamilton, 
Libby, and Deer Lodge Montana.
    None of the areas identified as potential wilderness in the FJRA 
have abundant mineral extraction potential, nor do they possess any 
other need for development such as abundant water resources or even 
large scale timber extraction. These lands represent a small fraction 
of the wild West--just three-quarters of one percent of Montana 
(0.74%). They are important for Montanans to protect for future 
generations because they are beautiful, irreplaceable locations: they 
encompass key wildlife habitat, important watersheds, opportunities for 
quiet recreation, and a source of economic stability and growth. We of 
the Wild Divide Chapter of the Montana Wilderness Association are 
committed to protecting both jobs and the environment in our state, and 
we urge the committee to pass the Act, and allow us to self-determine 
what is best for our land and our backyard.
                                 ______
                                 
      Statement of Steve Seninger, Ph.D., Economist, Missoula, MT

    Public lands, wilderness areas, and road less backcountry play an 
active and important role in Montana's economy creating jobs and 
stimulating economic growth. Wilderness lands are sources of clean air 
and water, provide wildlife habitat and are a sustainable base for some 
of Montana's major industries, such as tourism/recreation and forest 
products. The Forest Jobs and Recreation Act's creation of both new 
wilderness lands and increased timber harvests focuses on jobs & 
economic viability in two important economic sectors, tourism/
recreation and forest products.
    Jobs in Montana's outdoor recreation and tourist industry are based 
on the attractive power of our scenic outdoors, mountains, forests and 
the highways providing access to these attractions. Annual surveys of 
out-of-state visitors to Montana show that the state's most important 
attracting attributes were clean waterways, clean air, wildlife viewing 
opportunities, scenic vistas, open space, opportunities to view the 
night sky, and access to public lands and waters. Survey data also show 
positive out-of-state visitor perceptions of Montana, giving our state 
high scores for road conditions and environmental stewardship [Bureau 
of Business and Economic Research, University of Montana, 
www.bber.umt.edu ].
    Missoula County's tourism and outdoor recreation sector is a major 
employer representing 3,200 jobs annually making this one of the top 
five employment sectors in the county. Annual spending by out of state, 
non-resident visitors to Missoula County in 2009 was approximately $227 
million dollars and spending by residents on all forms of outdoor 
activity and recreation was $61 million dollars for a total of $288 
million dollars in expenditures annually within the county. At the 
state level, in 2009, travel expenditures by nonresident visitors 
totaled over $2.3 billion, which generated over $153 million in state 
and local taxes within Montana. Nonresident visitor spending generated 
25,480 Montana jobs and contributed $661 million in total personal 
income for Montana households [Institute for Tourism and Recreation 
Research, University of www.itrr.umt.edu ].
    Montana's wilderness areas support the state's outfitting industry, 
composed of guided hunting, fishing, and wilderness trips. In 2005, 
319,000 people took guided trips, and only 10 percent were from 
Montana. Using non-resident visitation and expenditure data for 
Missoula County yields estimates of 260 full time jobs in the 
outfitting industry as part of the non-resident visitation employment 
base within the county.
    State and federal forest lands are an important part of Montana's 
primary wood and paper products industry with total sales of $325 
million, employment of over 6800 workers in 2010 and important tax 
payments to our state and local governments. Forest products firms are 
major employers in many towns and rural communities throughout Montana 
[Montana Department of Labor and Industry, www.ourfactsyourfuture.org; 
Bureau of Business and Economic Research, www.bber.umt.edu ].
    The Forest Jobs and Recreation Act provision of guaranteed timber 
acreage from federal forest lands offers long run sustainability of 
many local lumber mills and employment for restoration contractors and 
foresters for private and public land management. Establishment of a 
more reliable lumber supply for local lumber mills is especially 
critical in the next several years as improving wood products markets 
recover and experience increased softwood lumber exports creating new 
jobs and alleviating unemployment in rural communities throughout 
Montana.
    Wilderness and protected public lands also affect economic growth 
in other sectors such as business and professional services. People 
come to business conferences and meetings in Montana attracted by 
opportunities to float and fly fish a river, pack into wilderness back 
country, or simply get out and recreate in scenic public landscapes. 
These experiences serve as a `magnet' to new businesses and jobs in 
sectors such as financial services, health care, and information 
technology. In the new economy, a quality environment is a key economic 
asset. Protecting and enhancing environmental qualities has been 
essential for economic prosperity throughout the larger Rocky Mountain 
West region--Montana, Idaho, Utah, Wyoming, and Colorado. Communities 
in this region with quality businesses and quality workers will 
likewise grow and prosper. When people are asked why they are moving to 
these areas, they say ``for the quality of life, the open lands and the 
natural environment''. Wilderness areas and public lands are an 
integral, sustainable part of Montana's economy and major reasons why 
we live, work, and recreate in this state [.Center for the Rocky 
Mountain West, www.crmw.org/MontanaOnTheMove; Sonoran Institute, 
www.sonoraninstitute.org].

                                SOURCES

    Bureau of Business and Economic Research, Outlook 2011: Paying for 
the Recession Rebalancing Montana's Economy, University of Montana, 
Missoula, Montana, 2011, pp. 18, www.bber.umt.edu
    Center for the Rocky Mountain West, University of Montana, 2003, 
www.crmw.org/MontanaOnTheMove .
    Headwaters Economics, Energy Development and the Changing Economy 
of the West, Bozeman, Montana, September 2008-revised 06/24/09, 
www.headwaterseconomics.org/energy .
    Institute for Tourism and Recreation Research, The Economic Review 
of the Travel Industry in Montana: 2010 Biennial Edition, University of 
Montana, Missoula, Montana, July 2010; www.itrr.umt.edu .
    Montana Department of Labor and Industry, 
www.ourfactsyourfuture.org.
    Niche News: Montana's Outfitter and Guide Industry 2007, 
www.itrr.edu.
    Sonoran Institute, (Ray Rasker, Ben Alexander, Jeff van den Noort, 
and Rebecca Carter) Prosperity in the 21st Century West: The Role of 
Protected Public Lands, July 2004, http://www.sonoraninstitute.org/
library/reports .
    US Department of Commerce, Bureau of Economic Analysis, 
www.bea.doc.gov .
    Western Montana InBusiness Monthly, May, 2010 vol. 8, no.5.
                                 ______
                                 
  Statement of Jennifer Lazo, the Greater Yellowstone Coalition, Los 
                         Angeles, CA, on S. 268

    I am writing to express my support for S. 268, the Forest Jobs and 
Recreation Act of 2011.
    We need this bill to protect and restore the Greater Yellowstone 
Ecosystem's natural heritage because it is one of the last remaining, 
nearly intact ecosystems left in the world.
    S. 268 will protect some of the last and best unroaded backcountry 
habitats in SW Montana. These core habitats are vital to the Greater 
Yellowstone Ecosystem's iconic wildlife. The bill will put people back 
to work in the woods fixing damaged landscapes and reducing wildfire 
hazards near our rural communities. This bill offers a new vision for 
the management of our public lands, and I wholeheartedly support this 
bill not only for Montana, but for all Americans who enjoy wild places.
    I also support the wilderness designations in this bill. Places 
like the Snowcrest Range, Centennial Mountains and the East Pioneers 
have long deserved permanent protection. It has been almost 30 years 
since a Montana wilderness bill has passed; in that time we have lost a 
lot of wilderness quality lands. Now is the time to act, before we lose 
more of our pristine backcountry lands.
    This bill will help build new restoration jobs and strengthen 
Montana's timber infrastructure. We need to maintain sawmills and 
infrastructure to address the restoration needs on our national forests 
and the wildfire hazards surrounding our communities.
    The Forest Jobs and Recreation Act will benefit people across the 
country by ensuring healthy forests and clean water for future 
generations. It will add 650,000 acres of new wilderness, and it will 
create jobs. Please support S.268. Americans will benefit from it 
today, and for years to come.
                                 ______
                                 
                                   American Rivers,
                                          Northern Rockies,
                                         Bozeman, MT, June 7, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, 304 Dirksen 
        Senate Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, 304 
        Dirksen Senate Office Building, Washington, DC.
    Re: Testimony in Support of S. 268

    Dear Chairman Bingaman and Ranking Member Murkowski: On behalf of 
American Rivers, I am pleased to offer our written testimony in support 
of S. 268, the Forest Jobs and Recreation Act of 2011 sponsored by 
Senator Jon Tester and co-sponsored by Senator Max Baucus. After 
carefully reviewing this legislation, attending several public meetings 
on the bill, and visiting all the landscapes it would affect, we 
believe S. 268 offers substantial benefits for some of western 
Montana's most storied rivers and streams and the people, fish and 
wildlife, and communities which depend on them.
    American Rivers is the nation's leading river conservation 
organization, with over 65,000 members from all 50 states--including 
hundreds of Montanans--who share a commitment to protecting and 
restoring our nation's rivers for the benefit of people, wildlife and 
nature. In 2009, we opened a Northern Rockies office in Bozeman in 
order to play a more active role in protecting and restoring Montana's 
unparalleled collection of free-flowing rivers and wild trout 
fisheries.
    American Rivers believes S. 268 will result in substantial net 
benefits for several nationally renowned rivers in western Montana 
including the Beaverhead, Big Blackfoot, Big Hole, Clark Fork, 
Jefferson, Madison, Red Rock, Ruby, Swan, Yaak, and Rock Creek. These 
benefits will come primarily in the form of 666,260 acres of federally 
designated wilderness at the headwaters of these rivers and an 
additional 369,500 acres that would be protected as Special Management 
Areas or National Recreation Areas. We are particularly pleased to see 
that S.268 includes nearly 66,000 acres of new wilderness on BLM lands 
in the Dillon Resource Area. Moreover, S. 268 would create a new 
revenue stream for much-needed fish and wildlife habitat restoration 
projects on the Beaverhead-Deerlodge National Forest and the Three 
Rivers Ranger District of the Kootenai National Forest.
    Congress has not passed any major public lands legislation in 
Montana for several decades, largely because historically competing 
interests--particularly conservation groups and the timber industry--
have been unable to come to the table and arrive at reasonable 
compromises that satisfy a broad array of interests. Recent polling 
clearly shows that S. 268 enjoys support from a strong majority of 
Montanans of all demographic backgrounds because it is Montana-grown, 
it protects some of western Montana's best fishing and hunting grounds, 
and it would create good-paying jobs in the timber industry by 
encouraging the harvest of beetle-killed timber in already-roaded areas 
and at the urban-wildland interface.
    Normally, American Rivers would be reluctant to support any federal 
legislation that mandates timber harvest on a specific amount of 
acreage on public lands. However, after carefully reviewing S. 268, we 
believe that any adverse impacts from logging would be minimal for the 
following reasons:

          1) The bill orders timber to be harvested on only a very 
        small portion (.2 percent) of the Beaverhead-Deerlodge and 
        Kootenai national forests;
          2) Timber harvest would be directed to areas that are already 
        roaded, with an emphasis on the urban-wildland interface;
          3) All timber sales would still have to comply with all 
        environmental laws including the National Environmental Policy 
        Act, Clean Water Act, and Endangered Species Act;
          4) All landscapes where timber harvest would occur must be 
        left with road densities of less than 1.5 linear miles per 
        square mile in order to provide wildlife security;
          5) Revenue generated by these timber sales would be used to 
        pay for fish and wildlife habitat restoration projects on the 
        same forests where they occur.

    As it was made clear at the May 25 subcommittee hearing, S. 268 is 
not supported by everyone in Montana, or in neighboring Idaho. Some 
special interest groups (e.g. snowmobilers and other motorized users) 
believe it protects too much land as wilderness, while others believe 
it does not designate enough wilderness and no public lands bill should 
ever mandate any amount of timber harvest. American Rivers encourages 
the Committee to focus on S. 268's bottom line: It protects more than 1 
million acres of pristine lands and waters in western Montana as 
wilderness or other special management areas, while requiring a minimal 
amount of timber to be harvested in already developed areas, the 
receipts from which will be used to pay for fish and wildlife habitat 
restoration projects in those same areas.
    For these reasons we strongly and unequivocally support S. 268, and 
ask the committee to look favorably upon it when it comes to a vote.
    Thank you for taking our comments into consideration.
            Sincerely,
                                               Scott Bosse,
                                                          Director.
                                 ______
                                 
    Statement of David Dreher, the PEW Charitable Trusts, on S. 268

    In the mid-1980s the Montana congressional delegation struggled to 
reach a compromise on forest wilderness in the state. After six years 
of strife Congress ultimately passed a statewide wilderness bill 
despite opposition from both ends of the political spectrum. It has 
been twenty-two years, six months, and sixteen days since President 
Ronald Reagan responded to some of that opposition by vetoing the 
legislation. Some of those who supported, and indeed pushed for, that 
veto now support Senator Tester's Forest Jobs and Recreation Act. It 
took more than two decades for Montanans to get where they are now--
working together to move beyond the divisive debates of the past and 
craft a common vision for the future--but they have arrived, and they 
will not go back. I am honored, on behalf of the Pew Environment 
Group's Campaign for America's Wilderness, to join them in support of 
this legislation.
    Different people support this legislation for different reasons. 
Some people love that it designates almost 700,000 acres of wilderness, 
the first such designation for Montana in thirty years. As an 
organization supportive of wilderness conservation, that is certainly 
our primary policy interest in the legislation. Other people like that 
the bill directs the Forest Service to treat the forest and produce 
wood products. However, in Montana there are many people that do not 
necessarily care about either of those things. What they care about is 
civil dialogue, people working together to solve problems, sustaining 
rural jobs, protecting clean water, and conserving and restoring their 
favorite places to fish and hunt. That is why when this proposal was 
first rolled out it garnered support from nearly 70 percent of 
Montanans. There are many things in Montana to disagree about, but 
people working together to solve problems is not one of them.
    The Forest Jobs and Recreation Act is about so much more than 
wilderness or wood. It is about the people of Montana and the common 
values they all share.
    The wilderness areas that would be protected by Senator Tester's 
bill are spectacular. From Roderick Mountain in the northwest corner of 
the state, to the Snowcrest and Centennial Mountains in the south, 
these areas truly represent some of the best wild places the West has 
to offer. We should not allow another congress to pass without 
protecting these majestic landscapes.
    Too often with this legislation the wilderness and wood components 
get the lion's share of attention while the fish and wildlife benefits 
the bill would provide get overlooked. Groups like Montana Trout 
Unlimited and Montana Wildlife Federation have been strong supporters 
of this legislation from the beginning. Sportsmen see the effects of 
decades of road-building, unfettered motorized use, and indiscriminate 
logging first hand on the habitats of fish and elk.
    The work to reverse these trends and mitigate past impacts takes 
cooperation and collaboration. It requires conservationists, mill 
owners, ranchers, and parts of the broader public all coming to the 
table with the agency to design and implement projects. The Forest Jobs 
and Recreation Act rewards the collaborative efforts already underway--
in the Yaak Valley, with the Blackfoot Challenge, and the Beaverhead-
Deerlodge Partnership--and provides a foundation to greatly expand this 
vital work.
    It is not often that people get a second chance like this one. 
After decades of arguing over natural resource management in Montana, 
there are special wild places that still need wilderness protection, 
small towns with people who need jobs in the woods, and an ever-growing 
need to better manage off-road vehicles. None of these things will be 
done perfectly, but they will all be done better with the Forest Jobs 
and Recreation Act and the people behind it.
    Senator Tester's Forest Jobs and Recreation Act is an opportunity 
that we, and the United States Congress, cannot let pass. Thank you for 
the opportunity to express our support.
                                 ______
                                 
           National Parks Conservation Association,
                                  Yellowstone Field Office,
                                         Bozeman, MT, June 7, 2011.
Dylan Laslovich,
Office of Senator Tester, 724 Hart Senate Office Building, Washington, 
        DC.
    Dear Dylan, Please accept this letter of support for the Forest 
Jobs and Recreation Act of 2011, S.268, from the National Parks 
Conservation Association (NPCA), Yellowstone Field Office.
    The Forest Jobs and Recreation Act is good for Montana and good for 
Yellowstone National Park's wildlife. The legislation takes a 
comprehensive approach to managing and protecting National Forest and 
Bureau of Land Management lands in southwestern Montana outside of 
Yellowstone National Park. These lands, specifically the Snowcrests in 
Madison County and the Centennial Mountains in Beaverhead County, play 
a key role in maintaining wildlife connectivity for Yellowstone's 
wildlife such as grizzly bear. We encourage the inclusion of these two 
landscapes in final passage of the bill.
    Yellowstone National Park's wildlife depend on healthy landscapes 
outside of the park. By creating wilderness on lands in the Beaverhead 
Deerlodge National Forest and the Dillon BLM, these landscapes will be 
permanently protected, ensuring a place for Yellowstone's wildlife to 
roam now and in the future.
    NPCA fully supports Senator Tester and his common-sense endeavor to 
pass legislation that creates jobs in Montana's forests, protects clean 
water and safeguards Yellowstone's wildlife habitat for future 
generations.
    Please feel free to contact me with any questions.
            Sincerely,
                                             Patricia Dowd,
                                       Yellowstone Program Manager.
                                 ______
                                 
                               Montana Wildlife Federation,
                                          Helena, MT, June 8, 2011.
Hon. Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
RE: Montana Wildlife Federation Support for the Forest Jobs and 
Recreation Act

    Dear Chairman Bingaman, Thank you for the opportunity to submit 
written testimony supporting S. 268, the Forest Jobs and Recreation Act 
(FJRA).
    The Montana Wildlife Federation (MWF) is Montana's oldest and 
largest hunter/angler conservation organization with approximately 7500 
members and 23 affiliated Rod and Gun Clubs. Formed in 1936, MWF has 
strongly supported sensible land use policies that enhance and improve 
wildlife habitat and support increased fair chase hunting and angling 
opportunities for our members. MWF's heritage of supporting wise 
management of the forest resource leads us to continue to support 
Senator Tester's Forest Jobs and Recreation Act.
    S. 268 is the culmination of years of hard work by the 
collaborators who, through an open and honest process, showed that 
ending gridlock was possible and it was possible to get Montanan's back 
in to the Forests both to play and work. We commend the Collaborators 
for their forward thinking approach and Senator Tester for continuing 
his support of goals and processes that bring all sides to the table to 
achieve important successes.
    For MWF and our members, FJRA means several things. First and 
foremost, it will result in improved habitat for many species that are 
important for the future of the hunting and angling heritage that the 
Montana Wildlife Federation has supported t for 75 years. Of special 
note, the Act will serve as a vehicle to help both preserve and restore 
elk security habitat while providing good jobs for our members and 
their families and freinds.
    Secondly, the stewardship requirements to be accomplished along 
with the logging and other vegetation management activities will help 
ensure clean water for imperiled aquatic species such as Bull Trout and 
West Slope Cutthroat. These stewardship acomplishments will also 
increase available spawning habitat for other wild populations of cold 
water fish and increase the opportunities for our members to enjoy 
their angling heritage.
    Third, the common sense wilderness additions in the Forest Jobs and 
Recreation Act will provide protection for future supplies of clean 
water for fish and important habitat for elk, deer, bighorn sheep and 
mountain goats. It will also ensure that areas that truly deserve 
wilderness protection are finally protected and help keep what we have 
today for tomorrow. MWF has a long history supporting these same kinds 
of well thought out inclusions in to the Wilderness System. While the 
final product is often times different than what was started out with, 
the necessary and critically important dialog and final consensus will 
benefit Montana's wildlife and to her generations of hunters and 
anglers.
    In conclusion, this is the right bill coming at the right time. 
This kind of visionary leadership and willingness to work with all 
sides on contentious matters has been lacking from many important 
Natural Resource Conservation issues for some time. For these and other 
reasons MWF strongly supports Senator Tester's Forest Jobs and 
Recreation Act, and believes that passage of S. 268 will only lead to 
improved management of our public lands, better support the diverse 
outdoor recreational activities for our members, while providing the 
jobs that they so desperately need.
    Thank you for the opportunity to comment,
                                               Tim Aldrich,
                                                         President.
                                 ______
                                 
             Statement of The Wilderness Society, on S. 268

    The Wilderness Society (TWS), representing over 500,000 supporters 
and members, supports S. 268, the ``Forest Jobs and Recreation Act'' 
introduced by Montana Senator Jon Tester, and co-sponsored by Senator 
Max Baucus. Many of the national forest lands addressed in this bill 
are of national significance and passage of this legislation would 
benefit Americans from current and future generations. This bill has 
diverse, bi-partisan support from across Montana and we commend Senator 
Tester and his staff for their effort and leadership in developing this 
important bill and tirelessly engaging with Montanans on its 
provisions. We are committed to working with Senator Tester, the 
committee, and the administration to address concerns, seek creative 
solutions and to ensure the final version of this bill is the best 
possible legislation for Montana and the nation.
    TWS strongly supports the provisions of S. 268 that would designate 
677,000 acres of wilderness. We also support this bill's twin goals of 
enhancing ecological restoration on appropriate national forest lands 
while aiding a struggling timber industry in western Montana. We also 
respect the diverse, collaborative efforts that developed many of the 
provisions embodied in this bill. Conservationists, hunters, anglers, 
timber industry representatives, recreation interests, and many others 
have engaged in countless meetings over many years in a sincere effort 
to address forest management conflicts that have remained unresolved 
for decades while advancing the restoration of degraded forest lands.
    Montana's communities, forests, fish and wildlife all deserve a 
chance to see this bill work. While we have identified some concerns 
and specific areas for refinement, we want to be clear that we support 
the bill's overall goals and stand ready to work with Senator Tester, 
the committee and the administration to ensure this bill can fulfill 
its promise and become law.

                      MONTANA'S WILDERNESS CONTEXT

    It has been over a decade since any member of Montana's 
congressional delegation has introduced a bill addressing wilderness in 
the state and more than 25 years since Congress last passed legislation 
designating Montana wilderness. The last time a new wilderness area was 
successfully added in Montana was 1983. Since that time, every other 
western state has seen areas added to the National Wilderness 
Preservation System. Today only 4% of Montana's total land base is 
protected as wilderness--the lowest relative amount of any western 
state. The percentage of other western states designated as wilderness 
ranges from 5% for Wyoming and Nevada to 15% and 16% for California and 
Alaska, respectively.
    Thus, while S. 268 is much more than just a wilderness bill, it is 
nonetheless critically important that this bill addresses a 
longstanding need and backlog of areas deserving of the protections 
that wilderness designation brings. Indeed, many of the 677,000 acres 
designated as wilderness in this bill (whether on the Beaverhead-
Deerlodge, Lolo, or Kootenai National Forests or on BLM lands within 
the Dillon Resource Area) have been formally recommended by the 
agencies for wilderness protection and are already mostly managed to 
maintain wilderness values.
    S. 268 is also noteworthy because it represents a new approach to 
addressing disputes over natural resources management and land 
protection, which have a long and bitter history in Montana. While 
collaboration is an often overused word, this bill is truly ``bottom-
up'' and represents the product of neighbors and even adversaries 
sitting down long enough to get to know one another, learning to 
respect one another, and forging a common vision for the management of 
our public lands.
    Indeed, we are seeing other collaborative efforts involving 
wilderness designation and forest restoration in Montana and throughout 
the west. Perhaps most noteworthy in Montana is the ``Rocky Mountain 
Front Heritage Proposal'' (www.savethefront.org) for the Forest Service 
and BLM lands east of the Bob Marshall Wilderness which includes a 
noxious weed restoration component. Passage of S. 268 will help provide 
the momentum and model for consideration of other Montana wildlands 
deserving of protection that have for too long been in a holding 
pattern.

 THE PROMISE OF THE BLACKFOOT CLEARWATER LANDSCAPE STEWARDSHIP PROJECT

    While S. 268 addresses three forest landscapes (the Three Rivers 
District of the Kootenai National Forest, the Beaverhead-Deerlodge 
National Forest and the Seeley Lake Ranger District of the Lolo 
National Forest) TWS was only involved in the development of the 
Blackfoot Clearwater Landscape Stewardship Project (BCSP) on the Lolo's 
Seeley Lake Ranger District. We believe the BCSP model is a blueprint 
for success because it promotes pre-NEPA collaboration, ensures 
adequate funding for forest restoration, and promotes the development 
of forest biomass infrastructure while respecting the integrity of all 
existing laws and regulations.
    The BCSP proposal recognized that the Blackfoot-Clearwater Valley 
is a unique ecosystem with significant forest, wildlife and wilderness 
resources. It was made possible by the culture of cooperative 
conservation common throughout the Blackfoot-Clearwater Valley and 
informed by lessons learned from the recently completed Clearwater 
Stewardship Project. Several years ago residents of the Blackfoot-
Clearwater region expressed interest in forest restoration, sustainable 
logging, ranching, recreation and wilderness uses across the landscape. 
The BCSP proposal emerged from a three-year dialogue among key 
stakeholders and it demonstrates that wilderness and wildlife can be 
protected alongside historic and traditional activities.
    As a demonstration project for cooperative public-private 
stewardship across a landscape area, the original BCSP was intended to 
facilitate cooperative stewardship via Congressional funding for forest 
restoration and for a biomass cogeneration facility in Seeley Lake, 
Montana as well as inclusion of recommended tracts within the Bob 
Marshall-Scapegoat and Mission Mountain wilderness totaling 87,000 
acres. The project addressed the 400,000-acre Seeley Ranger District of 
the Lolo National Forest within the Blackfoot watershed as well as 
lands within the public-private 41,000-acre Blackfoot Community 
Conservation Area.
    The BCSP vision would maintain traditional wilderness pack trails 
on the Seeley Lake Ranger District as well as all of the existing 
groomed snowmobile trails and areas. Groups have agreed to additional 
snowmobile opportunities in the area between East Spread Mountain and 
Otatsy Lake. The participating groups agreed to a revision in the 
proposed Lolo Forest Plan to allow an approximately 2,000 acre ``winter 
motorized use area'' in this area. The BCSP identifies a management 
approach that allows for most active management such as livestock 
grazing, logging and restoration work in the roaded lands found at 
lower elevations. All the activities envisioned by the BCSP would be 
consistent with all existing laws and regulations, including proposed 
revisions to the Lolo National Forest Management Plan.
    The original proposal included a funding request to allow the 
Forest Service to plan and implement landscape stewardship and 
restoration projects on 400,000 acres in the Lolo National Forest 
portion of the Blackfoot-Clearwater watershed. It calls for restoration 
logging to protect large trees and restore pre-suppression old growth 
conditions, with the receipts from the logging being used for 
restoration work on the ground including watershed improvements, road 
rehabilitation work and weed eradication.
    Within the 41,000 acre Blackfoot Community Conservation Area, 
cooperative management of timber, grazing lands, weeds, hunting and 
other recreational uses is being planned. BCSP supporters have long 
believed this proposal represents a new model for landscape-level 
conservation in Montana. This proposal would help keep historic and 
traditional activities as part of the landscape, add diversity and 
sustainability to the local economy with both recreation and forestry 
jobs, and enhance watersheds and the landscape.
    The spirit of the original BCSP proposal is captured in S. 268 in 
the form of wilderness designations, utilization of stewardship 
contracting, and support for forest restoration and biomass 
infrastructure.

                      TIMBER SUPPLY PREDICTABILITY

    The Wilderness Society has concerns over S.268's provision that 
calls for a mandatory number of acres to be mechanically treated on the 
Beaverhead and Kootenai National Forests. The Society strongly endorses 
the overall goals of the bill to provide a more predictable supply of 
timber to mills, and we have been quite vocal in stating that Montana 
needs a viable, diverse wood products manufacturing infrastructure to 
meet our forest restoration and fuel reduction goals. The question is 
how to best meet the goal of a more predictable supply while achieving 
restoration goals. We do not support Congressionally mandated treatment 
levels in the bill as we do not believe they will work on the ground.
    While the Blackfoot-Clearwater Stewardship proposal was being 
crafted we deliberately avoided mandatory mechanical treatment language 
because we, and our partners, believe strongly that a strategy based on 
inclusive, diverse, pre-NEPA collaboration, adequate funding and a 
clear Congressional and agency commitment to ecological restoration 
will produce far greater positive results on the ground. The BCSP 
participants, including TWS, made a clear decision to let the landscape 
analysis dictate what restoration treatments are appropriate. One of 
the reasons we included a biomass provision in the original proposal 
was to help create a market for small diameter material that did not 
have value as commercial saw logs, but were important to remove as part 
of the restoration strategy. We want to avoid situations where 
landscape analysis areas are gerrymandered to ensure that a certain 
number of acres are available for mechanical treatment.
    While we were crafting the BCSP proposal, TWS conducted a review of 
collaborative efforts between conservation and timber interests 
throughout the West. The collaborative efforts that successfully 
completed projects had in common strong pre-NEPA collaboration and 
adequate funding. In examples where mandatory targets were created, 
they were never met, even in cases where adequate funding was provided.

        THE MONTANA FOREST RESTORATION COMMITTEE AND PRINCIPLES

    The Wilderness Society is engaged in a number of collaborative 
forest restoration efforts around the country and we believe that the 
Montana Forest Restoration Committee (MFRC) offers a promising model 
that we should consider as we work together to refine and advance S. 
268. The MFRC, founded in early 2007, has developed 13 restoration 
principles that define a ``zone of agreement'' regarding the 
restoration of national forest lands in Montana. The Wilderness Society 
has played a leadership role in this effort from its inception to the 
present day and these principles, coupled with pre-NEPA collaboration 
and consistent agency engagement, have resulted in strong consensus and 
significant progress regarding the development of on the ground 
restoration work on the Lolo, Helena and Bitterroot National Forests 
over the past four years.
    We believe strongly that the MFRC principles, highlighted below, 
coupled with adequate funding and diverse, inclusive, pre-NEPA 
collaboration at the project level can provide a viable model for 
forest restoration in Montana, including areas affected by this bill on 
the Beaverhead-Deerlodge and Kootenai National Forests.
    The Montana Forest Restoration Principles (available online at 
www.montanarestoration.org) address the following:

  <bullet> Restoring functioning ecosystems by enhancing ecological 
        processes;
  <bullet> Applying an adaptive management approach;
  <bullet> Using the appropriate scale of integrated analysis to 
        prioritize and design restoration activities;
  <bullet> Monitoring ecological restoration outcomes;
  <bullet> Reestablishing fire as a natural process on the landscape;
  <bullet> Considering social constraints and seeking public support 
        for reintroducing fire on the landscape;
  <bullet> Engaging community and interested parties in the restoration 
        process;
  <bullet> Improving terrestrial and aquatic habitat and connectivity;
  <bullet> Emphasizing ecosystem goods and services and sustainable 
        land management;
  <bullet> Integrating restoration with socioeconomic well-being;
  <bullet> Enhancing education and recreation activities to build 
        support for restoration;
  <bullet> Protecting and improving overall watershed health, including 
        stream health, soil quality and function and riparian function; 
        and
  <bullet> Establishing and maintaining a safe road and trail system 
        that is ecologically sustainable.

               COMMENTS ON SPECIFIC PROVISIONS OF S. 268

    The Wilderness Society appreciates the openness and constructive 
attitude that Senator Tester and his staff have shown in considering 
the questions and concerns Montanans from all walks of life have raised 
regarding S.268. We applaud the Senator and his staff for their 
proactive efforts to inform groups and individuals about the bill 
through community presentations, creation of a dedicated section on the 
Senator's website, meetings with many organizations and local 
businesses, and other means.
    In this vein, many of the issues we raise below have been 
previously shared with the Senator and we are heartened by his 
commitment to address them at some level. We share the concerns raised 
by USDA that certain components of the legislation carry national 
implications for the management of the National Forest System and 
should be reviewed and modified by the Senate Committee on Energy and 
Natural Resources when it reports S. 268 to the U.S. Senate.

Forestry Projects
    We support many of the goals of the environmental analysis and 
administrative review provisions, such as encouraging more 
comprehensive environmental analysis at a landscape scale, engagement 
of local multi-stakeholder advisory groups, more efficient NEPA 
reviews, and the continued implementation of project components that 
have not been challenged or enjoined. We also support prioritizing 
forest restoration projects in impaired landscapes, and the application 
of INFISH guidelines to restoration projects. Further, we support the 
overall reduction in road density envisioned by the legislation, as 
well as the limitations on road-building in restoration projects.

Wilderness Areas
    It is worth noting that much of the wilderness acreage in S. 268 is 
not small, isolated, high alpine areas but instead represents diverse 
and critically important habitat types for both important game 
populations and rare species. For example, the Snowcrest Wilderness, 
the largest wilderness area in the bill includes rolling sagebrush 
foothills, whitebark pine stands, aspen, and alpine grasslands. It 
offers some of the highest quality wolverine habitat in southwest 
Montana, with grizzly bears, mountain lion and large elk herds also 
roaming these remote mountains. Due to the abundance of big game, the 
Snowcrest Mountains are among the most heavily hunted areas in Montana. 
Streams on the eastern side of the Snowcrest Mountains feed the famed 
Ruby River which is noted for both trout and grayling fisheries. It is 
also noteworthy that S. 268 includes both BLM and USFS wilderness areas 
in Southwest Montana with several of them connecting to existing 
protected areas, as well as supported by contiguous newly designated 
Recreation Areas in some cases.
    Our detailed recommendations regarding wilderness areas follow:

          1) Mount Jefferson: While only encompassing 4,500 acres, this 
        proposed wilderness area on the Beaverhead-Deerlodge National 
        Forest near the Idaho state line and adjacent to the BLM's 
        28,000-acre Centennial Wilderness Study Area (which S. 268 
        would also designate wilderness) has nationally significant 
        ecological values and has attracted vocal, out-of-state 
        opposition. The Wilderness Society supports the current 
        boundaries in S. 268 for Mount Jefferson. Moving the boundary 
        from the state line, which is also the drainage divide (and the 
        continental divide), would only continue and exacerbate an 
        existing illegal snowmobile trespass problem in the Mount 
        Jefferson recommended wilderness area and into the adjacent 
        BLM's Centennial Wilderness Study Area and also harm existing, 
        locally owned Montana businesses (Hellroaring Ski Adventures 
        and Centennial Outfitters). The Forest Service has documented 
        repeated snowmobile trespass into adjacent lands that would be 
        designated wilderness under S.268. Further, the agency 
        estimates that at most one job in Island Park would be impacted 
        by managing all 4,500 acres of the Montana side of Mount 
        Jefferson for non-motorized recreation. This job loss is more 
        than offset by the gains in employment in Montana's human-
        powered recreation industry. Thus, we hope to see S. 268 
        continue to include all 4,500 acres in the Mount Jefferson 
        Wilderness Area.
          2) BLM wilderness areas: We support Senator Tester's 
        inclusion in S. 268 of appropriate BLM lands including the 
        6,200-acre East Fork Blacktail Wilderness. The East Fork 
        Blacktail Wilderness Study Area sits in the heart of a 
        landscape managed for conservation purposes. It is contiguous 
        on two sides with the proposed Snowcrest Wilderness in S. 268 
        and adjacent to two state Wildlife Management Areas.
          3) Lee Metcalf Wilderness addition: For the north unit of 
        this wilderness addition we support the revision that 
        eliminated the non wilderness corridor (Trail #315) that was 
        part of the original legislation. This would have bisected this 
        proposed wilderness addition into two units. This trail 
        corridor was originally added to the bill to accommodate 
        mountain bike use, but it was then determined that the western 
        portion of this trail crosses onto private land with a public 
        use easement that is clearly limited to only foot and horse 
        traffic. Hence it made no practical sense to include this 
        corridor and it was appropriately dropped from S. 268.
          4) East Pioneers, West Pioneers, and West Big Hole areas: The 
        Beaverhead-Deerlodge Partnership Agreement negotiated larger 
        wilderness areas for these three areas. Given the wild values 
        and ecological importance of these areas (as well as the fact 
        that the expanded East Pioneers acreage is recommended 
        wilderness by the Forest Service), we suggest reconsideration 
        of S. 268's boundaries for these areas, with expansion of some 
        of them to more closely follow what the Partnership originally 
        proposed.
          5) Peet Creek/Price Creek: We recommend that the Peet Creek/
        Price Creek parcel in the Centennial Mountains be added to the 
        proposed Centennial Mountains Wilderness with a cherry stemmed 
        boundary to accommodate the existing improved logging road in 
        the E. Fork of Peet Creek. This is the largest of the five 
        parcels recommended for release from the BLM Centennial 
        Wilderness Study Area (approximately 3,800 acres). This parcel 
        has significant conservation value for big game, wolverine, 
        bears and westslope cutthroat trout. Its protection as 
        wilderness enhances the Centennial Mountains wildlife linkage 
        area and connectivity between greater Yellowstone and central 
        Idaho.

                     WILDERNESS MANAGEMENT LANGUAGE

    While we are not opposed to continued grazing in the Snowcrest 
proposed wilderness area, we believe S. 268's language providing for 
continued motorized access for sheep trailing and maintenance of water 
impoundments is unnecessary. The Congressional Grazing Guidelines, 
incorporated in S. 268 at Section 204(i), provide time-tested guidance 
for the managing agency to effectively balance existing grazing related 
motorized and mechanized use with the Wilderness Act's management 
provisions.

             ADDITIONAL QUESTIONS AND COMPONENTS FOR REVIEW

    The Wilderness Society strongly supports the wilderness designation 
and forest restoration goals of S. 268 and we respect the diverse 
collaborative efforts that have worked for years to chart a new path 
forward. We also agree with Secretary Vilsack, who said in his 
groundbreaking speech in Seattle in August of 2009, that our shared 
vision for the national forests begins with restoration.
    We also recognize and respect the concerns of our partners in the 
timber industry regarding the fact that the Forest Service does not 
have the capacity to address all of the forest restoration needs that 
exist today and thus the importance of maintaining some timber 
infrastructure in the state. If we hope to complete these forest 
restoration needs, we believe we must take the following steps:

  <bullet> Ensure adequate funding for Forest Service restoration 
        programs in Montana and nationally;
  <bullet> Sustain a right-sized timber industry infrastructure 
        adequate to carry out much-needed forest restoration 
        activities;
  <bullet> Protect the integrity of all existing laws and regulation 
        including the National Environmental Policy Act, Endangered 
        Species Act, National Forest Management Act, and others;
  <bullet> Examine other forest restoration models to ensure the final 
        version of S. 268 is modeled after approaches that have worked 
        on the ground while avoiding the pitfalls of failed attempts at 
        forest management.
  <bullet> Consider the impact of S. 268's provisions on other 
        collaborative efforts under development or those that could 
        arise in the future, given the growing interest in tackling 
        forest protection, logging, restoration issues outside of the 
        regular national forest planning process and the tendency to 
        incorporate approaches already ratified by Congress.

    Finally, as many have noted, the specific components of the Forest 
Jobs and Recreation Act were not intended to be replicated nationally 
or to resolve the longstanding calls for review and reform of the many 
mandates driving national forest management.

                               CONCLUSION

    The Wilderness Society's vision for our National Forests is to 
maintain and restore healthy and sustainable natural forests that will 
be resilient in the face of climate change while providing multiple 
benefits, from recreation to jobs for future generations of Americans. 
We share Secretary Vilsack's view that forest restoration represents 
the Forest Service's future. We agree that the Montana Forest 
Restoration Committee and the Southwestern Crown of the Continent FLRA 
effort are viable models that deserve further study and support. We 
believe it is appropriate to continue managing the forests for 
recreation, timber, livestock forage, and other commodities, but only 
when doing so is consistent with ecosystem integrity, is economically 
sound, and benefits from citizen participation. Our experience has 
shown that conservationists, hunters, anglers and the timber industry 
can find common ground regarding national forest management. 
Participants in the MFRC define this common ground as a ``zone of 
agreement'' and we believe that operating within this zone of agreement 
is the most likely path to success.
    In conclusion, TWS supports S. 268 and is committed to working with 
Senator Tester, the committee and the administration to address 
concerns, seek creative, workable solutions and to ensure the final 
version of this bill is the best possible legislation for Montana and 
the nation.
                                 ______
                                 
 Statement of Matthew Koehler, Executive Director, WildWest Institute, 
                         Missoula, MT, on S.268

    My name is Matthew Koehler and I'm the executive director of the 
WildWest Institute, a Montana-based conservation group. Our mission is 
to protect and restore forests, wildlands, watersheds and wildlife in 
the northern Rockies. We help craft positive solutions that promote 
sustainability in our communities through jobs restoring naturally 
functioning ecosystems and protecting communities from wildfire. We 
also ensure that the Forest Service follows the law and best science 
when managing our public forests by fully participating in the public 
decision process and through on-the-ground monitoring.

                           SUMMARY OF S. 268

    S.268 affects over 3 million acres of National Forest System and 
Bureau of Land Management lands in Montana and contains a nearly 
bewildering list of new definitions, designations, management 
practices, required studies, reports and publications. Approximately 
680,000 acres are designated as new Wilderness Areas, another 336,000 
acres as National Recreation Areas, Protection Areas, Recreation Areas, 
and Special Management Areas, each with their own management language. 
Nearly 3 million acres are designated as Stewardship Areas where 
logging is expressly allowed and encouraged. It mandates that at least 
100,000 acres of the Beaverhead-Deerlodge National Forest and the Three 
Rivers District of the Kootenai National Forest be logged within 15 
years as well as an undetermined amount on the Seeley Lake District of 
the Lolo National Forest.
    The findings, purposes and subsequent sections of S.268 clearly 
define it as a bill whose primary purpose is promotion of commercial 
logging through localized management of National Forest System lands. 
Touted as a bill that is good for the environment, S.268 would 
accomplish several conservation goals, including the designation of new 
wilderness areas and headwaters protection for several streams 
important to native fish.
    S.268 does contain admirable language for restoration of fish, 
wildlife and watersheds, and there is a potential to lower road density 
in some watersheds. However, these restoration goals are optional, 
unlike the mandated logging, and S.268 effectively jeopardizes these 
goals through its action provisions and the methods dictated.
    The various sections of the bill have been carefully constructed to 
affect a desired outcome that would be difficult to challenge through 
citizen appeals or litigation. For example, Sec. 2(a)(2)(A) 
``encourages the economic, social, and ecological sustainability of the 
region and nearby communities.'' Sec. 2(a)(2)(B) ``promotes 
collaboration,'' 2(b)(2) declares a major purpose ``to reduce gridlock 
and promote local cooperation and collaboration in the management of 
forest land.'' It does this through use of ``advisory committees'' or 
``local collaborative groups.'' Again, this seeks the localization, 
through private interests, of National Forest System lands. 2(b)(3) 
states a purpose is enhancement of forest diversity and production of 
wood fiber to accomplish habitat restoration and generation of a more 
predictable flow of wood products for local communities. This purpose 
is later matched with the definitions of the bill to establish 
commercial logging as the primary means of fish and wildlife habitat 
restoration. For example, one of the definitions S.268 uses for 
restoration is ``maintaining the infrastructure of wood products 
manufacturing facilities.''
    S.268 is not a budget-neutral bill. It authorizes practically 
unlimited expenditures from the U.S. Treasury and other sources, and 
empowers ``Resource Advisory Committees'' or ``Local Collaboration 
Groups'' to spend federal funds, including on private, non-National 
Forest System lands. This provision and others in S.268 give the 
``Resource Advisory Committees'' or ``Local Collaboration Groups'' 
sweeping powers that could effectively, if not officially, usurp 
management and budgetary authority from the Forest Service and grant it 
to private interests. Professional staff from the Forest Service will 
be replaced with citizen committees whose members are mandated to 
include industry groups. S.268 also authorizes the Secretary of 
Agriculture to expend taxpayer funds for Fiscal Year 2010 to pay a 
federal share in construction of ``combined heat and power biomass 
systems that can use materials made available from the landscape-scale 
restoration projects.''
    The different funding provisions of the bill raise a real potential 
for other National Forests and Forest regions to have their funds 
transferred to projects under S.268. Pitting one forest against another 
for funding is unhealthy and does not promote a wholistic, ecosystem 
approach to public lands management in the Northern Rockies.
    It is important to note that in legislation there is specific legal 
meaning to terms such as ``shall'' versus ``may'' or ``can.'' The word 
``shall'' has the force of law, once a bill is enacted and signed into 
law by the President. Thus, when S.268 states the Secretary ``shall 
generate revenue,'' ``shall maintain the infrastructure of woods 
products manufacturing facilities that provide economic stability to 
communities in close proximity to the aggregate parcel (timber harvest 
unit) and to produce commercial wood products,'' it means just that. It 
will be the law that the Secretary must keep specific, private timber 
mills open and fed with timber from public lands, at least through the 
term of authority, if not indefinitely. This is not only an open-ended 
subsidy, it interferes with free enterprise.
    Ultimately, where there is a question of ambiguity, Courts will 
review a bill's purposes and its legislative history to divine 
Congress' intent. When purposes conflict, the overall goals of the bill 
will prevail. When wilderness and ecological restoration are 
consistently listed last, as they are in S.268, a Court can be expected 
to conclude the logging provisions take precedence.
    In summary, the S.268 is a significant departure from traditional 
wilderness bills. It contains several major precedent-setting 
provisions potentially detrimental to national public lands management 
that may be repeated in future bills. These include:

          1) Localizing of National Forest management by private, local 
        entities for private profit. Other members of Congress may seek 
        to exploit similar special management for national public lands 
        in their states. This could represent the fragmentation of 
        National Forest system management and regulations to a serious 
        degree and ignores the basic principle that national public 
        lands belong to all Americans, not just those in nearby local 
        communities.
          2) Mandated logging of National Forest land is an 
        unscientific override of current forest planning by 
        professional Forest Service staff. The logging mandates greatly 
        exceed the average levels since the 1950s on the Beaverhead-
        Deerlodge and are an unbelievable 14 times the sustainable 
        level recently calculated by the Forest Service. The mandated 
        logging area includes the Three Rivers District of the Kootenai 
        National Forest, where the endangered grizzly bear population 
        is nearly extinct due to very heavy logging and roadbuilding.
          3) Numerous unfunded mandates and blank check spending 
        authority for the Secretary of Agriculture and Secretary of the 
        Interior. Gives ``Resource Advisory Committees'' or ``Local 
        Collaboration Groups'' spending authority and allows funds to 
        be drawn from other forests and Forest Service regions to 
        implement S.268, pitting forests against another for funding. 
        This creates hard feelings and mistrust rather than 
        cooperation. Authorizes the Secretary to build heat and power 
        generating facilities, a new expansion of authority. Mandates 
        numerous studies, reports, plans and publications, and numerous 
        10 year contracts, competing with other forests in the region 
        for staff time, printing and distribution. Dedicating staff to 
        the numerous reports and planning removes them from other 
        management duties.
          4) Contains several provisions that abrogate the Wilderness 
        Act by allowing non conforming uses including motorized access, 
        and other intrusions.
          5) Releases numerous Wilderness Study Areas protected by law 
        under S. 393, sponsored by the late Senator Lee Metcalf (D-MT), 
        and releases BLM-administered Wilderness Study Areas that have 
        been protected for more than 30 years.

    Thank you for the opportunity to submit this written testimony. If 
you have any questions, feel free to contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9f2d6dcd1d5dccbf9ced0d5ddcbd6dad2d0dcca97d6cbde">[email&#160;protected]</a> or 406-396-0321.
                                 ______
                                 
 Statement of Denise Boggs, Executive Director, Conservation Congress, 
                             Livingston, MT

    We are adamantly opposed to Senator Tester's Forest Jobs and 
Recreation Act. It sets a terrible precedent that mandates logging 
directed by Congress rather than by the Forest Service. If this bill 
passes other states will likely follow and the Forest Service will no 
longer have any authority over public lands. The role of Congress is 
not to manage public lands. In addition, as someone who personally 
supported Senator Tester I am dismayed at how dishonest he has been 
regarding the development of this bill. The process was exclusionary; 
was not open or transparent; and the majority of the public knew 
nothing about it until it was finished. Senator Tester has been 
terrible on the environment and when he can't get what he wants he 
attaches riders. I suspect he will do the same with FJRA. Mr. Tester is 
attempting to appease rural voters who didn't support him and never 
well, while going back on his word to those of us who did support him. 
Regardless, FJRA is a bad bill and it should never see the light of 
day. I hope we can count on the Committee to make certain it does not 
pass.
                                 ______
                                 
 Statement of Arlene Montgomery, Program Director, Friends of the Wild 
                          Swan, Swan Lake, MT

    Please accept into the hearing record the following comments on 
Senate Bill S268, the ``Forest Jobs and Recreation Act of 2011'' 
introduced by Senator Jon Tester. Friends of the Wild Swan is a non-
profit environmental organization that has been involved in state and 
federal projects and policy issues dealing with the protection and 
restoration of Montana's aquatic and terrestrial ecosystems for over 24 
years. We have serious concerns about S268 and the impacts this bill 
will have on the management of federal lands.
    S268 mandates logging on the Beaverhead-Deerlodge and Kootenai 
National Forests at unsustainable levels. While the bill says that the 
Healthy Forests Restoration Act will be followed it is counterintuitive 
to mandate logging before an environmental analysis has been completed. 
These forests are home to threatened and endangered species such as 
grizzly bear, Canada lynx and bull trout as well as sensitive species 
such as wolverine, northern goshawk and westslope cutthroat trout. This 
bill puts the habitat needs of these species behind logging and road 
building and facilitates the spread of noxious weeds.
    Under the Endangered Species Act federal land management agencies 
are charged with recovering threatened and endangered species. The 
National Forest Management Act directs National Forests to develop 
Forest Plans based on multiple factors including the needs of ESA 
listed species and protecting water quality. By mandating a set acreage 
to be logged this bill sets aside our bedrock environmental laws.
    The ``wilderness'' proposed by S268 would be fragmented and 
unconnected islands of largely ``rocks and ice,'' with no biological 
integrity and no potential for sustaining biodiversity. The minimal 
``wilderness'' designated would fail to protect different elevation 
habitats and their dependent species with core areas, buffer zones, and 
connecting biological corridors. The bill authorizes numerous actions 
that are clearly incompatible with the 1964 Wilderness Act, including 
motorized access into and through ``wilderness,'' military aircraft 
landings, possible ``wilderness'' logging, and other intrusive 
violations.
    Management decisions on the National Forests affected by this bill 
will be weighted heavily to local collaborative interests. The bill 
ignores the fact that these public lands belong to ALL Americans, not 
just those who live near them.
    S268 will cost taxpayers by subsidizing ``below-cost'' timber sales 
and biomass power plants. This ``logging bonus'' for a few timber 
companies near the three National Forests will deny other federal lands 
the financial resources for needed restoration activities.
    The bill ignores the financial realities that the United States is 
still in an economic downturn and a lumber ``depression.'' Demand for 
timber and new home construction continues in a downward spiral. 
Putting more timber on the market when there is no demand will further 
depress prices placing more of a financial burden on taxpayers. The 
United States government is deep in debt and cannot afford to subsidize 
the timber industry at the expense of social security and medicare. 
This bill increases spending by mandating below cost timber sales.
    S268 specifically eliminates from mandated protection large 
portions of the late Senator Lee Metcalf's wildlands legacy. 
Congressionally-designated Wilderness Study Areas will be opened up for 
roading, logging, and other development without any assessment of their 
habitat values for wildlife. Roadless wildlands are scarce and once 
developed their wild character is irretrievably lost.
    Friends of the Wild Swan supports wilderness that fully complies 
with the Wilderness Act and our country's environmental laws. We 
believe that protecting biological diversity in the Northern Rockies is 
paramount to recovering imperiled species and leaving a wildlands 
legacy for future generations. S268 undermines our environmental laws 
and fragments our precious wildlands. Please vote against this short-
sighted and damaging legislation. Thank you for considering our 
comments.
                                 ______
                                 
Statement of Rick R. Sandru, President, Ruby Valley Stock Association, 
                            Twin Bridges, MT

    As President of the Ruby Valley Stock Association (RVSA) located in 
Madison County Montana, I feel obligated to convey to this Committee 
our opposition to S.268. RVSA does not believe additional wilderness is 
needed or warranted and certainly do not feel our grazing interests are 
protected in the scant verbiage pertaining to grazing that is included 
in this bill.
    RVSA is deeply concerned that if this bill passes as written 
extreme environmental groups will sue to have cattle removed from 
grazing in wilderness or severely restrict our management abilities. We 
have no confidence in the ``strong language'' in the bill to protect 
our right to graze. Let me remind you about strong language in 
legislation ten years ago that called for thirty breeding pair or 300 
wolves mainly confined to Yellowstone Park and if livestock predation 
occurred wolves would be dealt with swiftly. Extremist groups have this 
in court continually. We now have 2000 wolves or more and they still 
don't have enough. Another example is the Missouri River Breaks 
National Monument. Environmental groups are suing over original 
management plans to remove cattle grazing and access rights previously 
agreed to. Another case in the Gallatin Forest created a wilderness 
area and snowmobiling was recognized as an historical use of the area. 
A district judge recently sided with environmental groups denying 
access to snowmobiles. Wilderness designation just gives these 
extremist groups a leg up in their quest to eliminate man from the 
landscape. We cannot give them that advantage.
    RVSA believes that most people, including this committee, don't 
realize what is at stake here or that the lands proposed for wilderness 
do not even fit the definition of wilderness. RVSA is sickened that the 
people of southwest Montana that make a living and recreate on these 
lands are being sold out for Senator Tester's political paybacks.
    Eight Ruby Valley ranching families comprise the RVSA, a closely 
knit group of progressive stockmen that graze some of the finest 
commercial cattle in the U.S. on the Upper Ruby Three Forks Allotment. 
The proposed Snowcrest Wilderness would encompass half our grazing 
allotment. We sternly reject the argument that these proposed 
wilderness areas will protect watersheds or expand recreational 
activities. RVSA is proud of its many accomplishments on the Three 
Forks Allotment that do protect the resources. With the Forest Service, 
the RVSA has implemented a very successful rest rotation grazing system 
that ensures a healthy plant community and succulent fed for livestock 
and wildlife, a massive water distribution system to disburse cattle 
away from creeks and allow utilization of upland grasses, documented 
improved riparian function and stream bank improvement, increased aspen 
regeneration multi-agency hardened crossing and corral relocation 
project to further reduce sediment in the Ruby River, voluntary 
trailing guidelines, voluntarily agreed to embrace Fish Wildlife & 
Parks reintroduction of Arctic Grayling to the Ruby River. This is the 
only successful reintroduction effort to date. Grayling need extremely 
cold and clean water to thrive. I ask you, how can designating 
wilderness, basically no management, improve on this record of 
exemplary management.
    The proposed Snowcrest Wilderness will include 20 of our water 
tanks, miles of pipeline, roughly 25 miles of seasonal roads used by 
the public for hunting, wood gathering, camping or sightseeing and the 
permittees to maintain this costly and critical infrastructure. Miles 
of fence also needs constant repair and occasional replacement. Salt 
and mineral needs to be scattered to distribute the cattle evenly and 
to avoid death losses from larkspur poisoning. 250 pound protein tubs 
are used to draw cattle to underutilized areas or in dry years to pull 
the cows off the creeks to the uplands.
    RVSA believes they provide a bargain to the American public by the 
outstanding stewardship they provide both on the Three Forks allotment 
and their deeded or ``base'' properties that lie in the Alder to Twin 
Bridges area. Driving through this beautiful mountain valley it is 
apparent the vast majority of open space is directly tied to summer 
grazing in the Upper Ruby. It is imperative for the survival of our 
ranching heritage in this valley that summer grazing in the Upper Ruby 
is not jeopardized.
    The public's loss of recreational access due to road closures would 
be substantial, but would pale in comparison to the amount of 
recreational opportunities on the base properties in the Ruby Valley 
that could potentially be lost. If summer grazing is curtailed or 
disallowed, these base properties would likely be sold or subdivided. 
Net result--less open space--less recreational opportunities--less 
wildlife.
    Senator Tester's Jobs and Recreation Act is not a jobs or 
recreation bill but a poorly disguised wilderness bill that was crafted 
around the partnership plan promoted by Sun Mountain Lumber, Montana 
Wilderness Association, Trout Unlimited, National Wildlife Federation, 
and a couple other lumber companies. Senator Tester ignored input from 
the Madison/Beaverhead County Commissioners, ranchers, and local 
outdoors associations. The counties that will bear the burden of 
additional wilderness were totally left out of the process.
    Roughly 600,000 acres in the Beaverhead/DeerLodge National Forest 
are proposed wilderness. These areas are now managed for multiple use 
so all Americans can enjoy and recreate on them and benefit from the 
natural resources that they may provide. If they become wilderness, 97% 
of the American public will not recreate and 100% of the American 
public will not realize any benefit from natural resources harvested 
from these lands.
    This bill calls for treating 7,000 acres per year for ten years for 
a total of 70,000 acres. Treating could be selective thinning, urban 
fire hazard reduction, road reclamation or prescribed burns. It does 
not mean merchantable timber will be harvested. I see no benefit to the 
timber industry.
    Stewardship contracting is mentioned by Tester as a dazzling new 
way of doing business. In fact, stewardship contracting is a tool that 
has been available to the forest service for years, but not often used. 
To have a successful stewardship project you have to be working with a 
product of high value. Timber prices are so low that after the 
administration of a timber sale there is rarely money left over for 
stewardship projects. The jobs portion of this bill could expire before 
profitability returns to the timber industry.
    The largest obstacle to managing our Forest Service lands is the 
endless litigation by extremist groups and judges with an agenda. No 
Senator Tester, I don't believe a judge will care if this is an act of 
Congress. Montana has 15 wilderness areas comprising 3.4 million acres, 
do we need more? To manage for healthy forests, the laws must be 
changed so extreme groups cannot delay or dismantle management 
activities in court. Second, they must not be reimbursed for legal 
expenses. Third, we must get back to managing forests for multiple use. 
Locking more land up as wilderness, effectively no management, is 
exactly the wrong way to be headed.
                                 ______
                                 
         Statement of Scott Bunge, Stevensville, MT, on S. 268

    Four generations of my family have called Montana home and we've 
all hunted, fished, recreated and enjoyed her enormous beauty. For 
several of us, our livelihood was derived from the land and natural 
resources. We love this place. We don't want to see Montana's land, 
water, or air destroyed but our right to access public lands and its 
resources must be protected.
    In proposing S268, Senator Tester may be attempting to balance 
protection, access, and economic benefit. It might be well intentioned 
but we believe creating more wilderness and tighter federal control is 
not the answer. With the federal government's obvious propensity to 
manage-by-closure, common sense tells us that this law would probably 
not result in enhanced access or economic benefit. History and common 
sense tells us this law would simply result in another closure.
    Further, there appears to be several legal issues with S268 making 
the law unconstitutional as well as unwise. The attached document may 
be of interest.
    In spite of Senator Tester's claim, S268 does not provide the 
management most Montanan's want. It is certainly not the approach our 
family or friends want.
    Thank you for your time.
                                 ______
                                 
 Statement of Patti L. Rowland, Representing Beaverhead Water Company, 
                               on S. 268

    Please accept this letter as a comment to the Forest Jobs, and 
Recreation Act of 2011 S268, on behalf of the Beaverhead Water Company 
(hereinafter ``BHWC''). The BHWC, by and through the West Bench 
Irrigation District, provide over 6,000 acres of land with water for 
irrigation. The sources of water for irrigation are generally Birch 
Creek, Willow Creek, and their tributaries with the various associated 
reservoirs located in the East Pioneers. BHWC is opposed to designation 
of the East Pioneers Wilderness Area included in S268.
    The water language eventually included in S. 1470 was an attempt to 
alleviate the concerns that BHWC had with a wilderness designation in 
the East Pioneers. Although the language did not go far enough to 
protect the historic rights of BHWC to access, inspect, operate, 
maintain, repair and upgrade its water storage and water conveyance 
systems, the language did provide some protections to the existing uses 
of BHWC. The discretionary provisions in Section 204(1) of S268, 
provide less than a minimum of protection needed by BHWC for its water 
use, storage, and conveyance system; use which existed prior to the 
Forest Service in this area.
    S268 as written does not recognize existing State water rights, 
water use, or the easements applicable to that use. Instead S268 puts 
State based water right authority and access under the discretion of a 
line officer. The 1964 Wilderness Act clearly states there are no 
exemptions in the Act to exempt the Federal Government from State water 
laws.
    Apparently, the language now included in S268 is similar to 
language in Idaho legislation. This language is not workable for 
Montana, generally, and is not an acceptable situation for the BHWC as 
it severely limits the existing and historic use of BHWC. BHWC would 
strongly urge inclusion of the following specific language to S268 or 
any other bill which designates wilderness:

          Nothing in this act shall be construed as affecting or 
        limiting in any manner Montana's authority or jurisdiction over 
        water resources. Congress expressly recognizes and confirms 
        that nothing in this act shall be construed to limit any water 
        rights arising under Montana law, or to affect the jurisdiction 
        of the state of Montana to allocate water resources associated 
        within any area designated under this act.
          Nothing in this act shall affect in any manner the right to 
        use quantities of water under water rights arising under or 
        protected by state law. Such protection shall include the right 
        to divert and use water for beneficial use under state law, or 
        otherwise use water for beneficial purposes as determined under 
        state law. Such protection extends to rights to use water 
        existing on [effective date] and to those rights granted or 
        authorized by th e state under state law arising after 
        [effective date]. Such protection extends to the right to use, 
        maintain, construct, repair, and upgrade existing ditches, head 
        gates, conveyance systems of any type, dams, reservoirs, and 
        the ability to ingress, egress, and utilize motorized means for 
        these purposes is expressly protected and recognized.
          Nothing in this act shall affect, preclude, or limit in any 
        manner construction and use of new water storage facilities or 
        access to same.

    Beaverhead Water Company stores and utilizes water from Boot Lake, 
May Lake, Chain Lake, Tub Lake, Pear Lake, Anchor Lake, Bond Lake, and 
Deerhead Lake. In addition, BHWC has water rights from Bond Creek, 
Birch Creek, and Willow Creek which are utilized for irrigation 
purposes. These are headwaters that need protected from the devastation 
that fire in a wilderness area could create. Removal of dead and 
diseased timber from this area should be a priority.
    S268 also ignores historic use by BHWC of motorized vehicles for 
ingress and egress to its reservoirs and conveyance systems and makes 
this use discretionary. BHWC must have access to its impoundments and 
conveyance structure by motorized vehicle in the future. If BHWC is not 
able to adequately maintain the safe operation of all of its structures 
because the area is designated and managed as wilderness, someone other 
than BHWC must accept the liability associated with not being able to 
maintain the safe operation of the dams and reservoirs. BHWC should not 
be required to get a permit for access and access should not be limited 
to non-motorized use.
    Finally, I express concern that there has been no public input or 
local community input on this bill. Now the hearing is being held out 
of the public view and without outside testimony. This action lacks 
openness and transparency. We do, however, thank you for consideration 
of these written comments.
                                 ______
                                 
                 Statement of Citizens for Balanced Use

    Citizens for Balanced Use completed a legal review of S268 and has 
found that it violates the following laws and our U.S. Constitution.

          National Environmental Policy Act
          National Forest Management Act
          Multiple Use Sustained Yield Act
          Endangered Species Act
          Clean Water Act
          Clean Air Act
          Data Quality Act
          Council on Environmental Quality regulations
          Administrative Procedure Act
          Federal Advisory Committee Act
          Separation of Powers requirements of the U.S. Constitution
          Fifth Amendment to the U.S Constitution
          Tenth Amendment to the U.S. Constitution

                         LEGAL DEFECTS IN S268

    The Bill surreptitiously alters the Coordination requirements of 
the Forest Management Act and the National Environmental Policy Act.
    To the detriment of every county, city, and local district of 
government in Montana, this Bill provides the federal agencies with a 
means to evade and avoid the requirements in the Forest Management Act 
and the National Environmental Policy Act that the agencies 
``coordinate'' with local government.

A. The National Forest Management Act
    The National Forest Management Act mandates that the Secretary of 
Agriculture ``Shall develop, maintain, and, as appropriate, revise land 
and resource management plans for units of the National Forest System, 
coordinated with the land and resource management planning processes of 
State and local governments and other Federal agencies.'' To local 
governments this mandated coordination is critical. In 1982, the first 
rules issued by the Secretary of Agriculture after the statutory 
mandate was created, the Secretary directed Forest Service line 
officers to assure that forest service personnel ``coordinate'' federal 
planning efforts with local governments. 36 C.F.R. Section 219.7 
provides:

          ``The responsible line officer shall coordinate regional and 
        Forest planning with the equivalent and related planning 
        efforts Of other Federal agencies, State and local governments 
        and the Indian tribes.''

    The Secretary then defines what he means by ``coordinate'' by 
requiring the following actions:

          1. give early notice of preparation of federal plan;
          2. review plans and policies of local government, the review 
        to include:

          a. consider objectives of local government
          b. assess interrelation of impacts between local and federal 
        plans and policies
          c. determine how Forest should deal with the impacts
          d. consider alternatives for resolution of conflicts between 
        local policies and federal
          e. meet with local government at beginning of planning to 
        develop protocol for coordination
          f. seek input from locals to resolve conflicts
          g. monitoring and evaluation to consider impacts

    This level of coordination is critical to local governments which 
are responsible for the economic stability of public health and safety 
of its constituents.
    Senator Tester's Bill provides an escape mechanism for the Forest 
line officers by requiring in section 103(c) that as to stewardship and 
restoration projects, the Secretary shall coordinate with ``applicable 
advisory committees or local collaborative groups''. There is no 
mention in S 268 of the duty to coordinate with local government.
    So, does this amount to a repeal of the National Forest Management 
Act's requirement of coordination? The answer to the question is 
debatable. It is a valid argument to say that under S 268 the Secretary 
does not have to coordinate with local government as to any `` 
restoration projects'' because S 268 specifically requires 
``collaboration and consultation'' only with non-governmental 
committees. Even those who would argue that S 268 does not strictly 
repeal the coordination requirements of the Forest Management Act, must 
admit that it provides ``weasel room'' for line officers to evade and 
avoid the coordination requirements. The impact of this provision of S 
268 strikes at the very heart of the protection to local government for 
which counties and special interest government districts have worked so 
hard for the past twenty years. Through coordination, local government 
has been able to hold the agencies at bay when trying to put down local 
ranchers and recreation users.
    Whether intentionally, or accidentally, S 268 strikes a potentially 
deadly blow to every local government associated with the national 
forests subject to this Bill.

B. National Environmental Policy Act
    Senator Tester's S 268 has the same impact on NEPA which provides 
that ``it is the continuing responsibility of the Federal Government to 
use all practicable means, consistent with other essential 
considerations of national policy, to improve and coordinate Federal 
plans, functions, programs, and resources...''
    In bringing about this coordination, all federal agencies are 
directed to cooperate with local government. 42 USC Section 4331 (a) 
and (b).
    S 268 either specifically amends NEPA as to ``restoration 
projects'' in the wilderness areas designated by the bill, or provides 
the evasive path for forest personnel to ignore and avoid the 
coordination requirements.
    Intentionally and maliciously, or unintentionally and ineptly, the 
impact of S 268 is the same: the language of Section 103 (c) will undo 
years of progress made by local governments to get the Forest Service 
to the table on an equal discussion basis.
    Senator Tester's Wilderness Bill, S. 268 Removes Management 
Discretion Given to the Secretary by the National Forest Management Act
    The National Forest Management Act of 1976 and its predecessor acts 
endow the Secretary of Agriculture with a vast amount of discretion to 
plan for and administer the forests for the public good. The Act 
provides that the Secretary shall take into account the newest and 
highest quality information regarding management of the Forests. It 
also provides that he will take input and advice from local government, 
state government and all members of the public. There is no provision 
of the Act that provides for the Secretary to just arbitrarily apply a 
particular management technique to the exclusion of alternatives.
    The provisions of the National Environmental Policy Act, of course, 
provide that the Secretary will seek public input under NEPA before 
adapting and applying a technique to the exclusion of others. In making 
his decisions, he must take into consideration all management acts 
relating to the forests, the Endangered Species Act, the Clean Water 
and Clean Air Act and the Data Quality Act.
    But, S. 268 just arbitrarily dictates to the Secretary that he WILL 
apply each standard ``described in the inland native fish strategy 
relating to the conservation and management of riparian habitat'' to 
each restoration project. Section 104 (b) (1) (A & B). There is no 
exception. It is a mandate, no matter what the Secretary might find 
that would negate the usefulness of the standards.
    Thus, the Senator, with limited input, in a bill written behind 
closed doors and with input from a very select group of special 
interests, has mandated the application of native fish strategy 
REGARDLESS OF THE CONDITIONS AND CIRCUMSTANCES PRESENT WHEN THE PROJECT 
IS PLANNED----AND REGARDLESS OF THE DETERMINATION OF BEST AVAILABLE 
SCIENCE---AND REGARDLESS OF PUBLIC INPUT.
    This provision is not only contrary to the discretion granted by 
the National Forest Management Act, it violates the National 
Environmental Policy Act by evasion, and it violates the Separation of 
Powers requirements of the United States Constitution.
    As to the latter point, Congress is indeed the manager of the 
federal lands including the forests. The Constitution so provides. But, 
Congress can delegate, and has delegated, to the executive branch the 
authority to manage the forests and other federal lands. That having 
been done, Congress has no authority, under the separation of powers, 
to meddle in the authority it has granted. Congress, no doubt, could 
reclaim the authority it delegated. But, it cannot have it both ways. 
It cannot delegate management authority, and then meddle by requiring 
the managers to apply an arbitrary rule that negates the general 
authority granted.
    By requiring that the native fish strategy be applied, without 
question and without regard to the circumstances, Congress would also 
be taking away from local government access to management techniques 
through coordination.

C. Senator Tester's Wilderness Bill denies due process of law by 
        allowing parties otherwise not having standing to become 
        parties to appeals and litigation
    Section 103 (d) provides for the current court process for 
``Administrative Review'' which is in place today. Anti access and 
management organizations will continue to litigate timber projects. All 
proposed stewardship contacts in S 268 will most likely continue to be 
challenged in court.
    S 268 also bestows standing on committee and organization members 
who might have no standing at all. The Bill thus changes the process 
that is available to adversely effected persons through the 
Administrative Procedure Act and through the appellate rules of the 
Service.
    Due process of law guarantees to all citizens the protection of 
statutory processes which have been established. Under the 
Administrative Procedure Act, and under Administrative rules issued by 
the Secretary, an appellant is entitled to a process uniquely styled to 
his/her facts, and open to only those who have been previously 
identified as having standing. This Bill provides standing to the 
world, regardless of the issue and regardless of adverse impact.

D. Senator Tester's Wilderness Bill severely limits the full impact of 
        the National Environmental Policy Act
    The Bill grants exclusive input to the special interest groups who 
have helped the Senator to draft this Bill behind closed doors, without 
public meetings or public hearings, without input from or coordination 
with either the State or local government. This provision violates the 
provisions of NEPA, the process established by Council on Environmental 
Quality regulations, the coordination requirements of the Forest 
regulations and National Forest Management Act, and the requirements of 
the Federal Advisory Committee Act by allowing select special interest 
groups to exert undue influence on the agency.
    Subsection 103 (c) (1,2 & 3) further compounds the violation by 
MANDATING that the Secretary ``consult with advisory committees or 
local collaborative groups'' before any environmental analysis is 
conducted to reduce conflict and expedite project implementation. This 
provision also cuts out the entire rest of the public from any 
meaningful input to and on the environmental issues and concerns 
related to the project.

E. Senator Tester's Wilderness Bill violates the Fifth Amendment to the 
        United States Constitution
    Section 204 (c), (d), (f), (i), (l) (m) violates the Fifth 
Amendment to the United States Constitution by restricting private 
property in such a way as to interfere with investment backed 
expectations. The measuring test established by Penn Central 
Transportation Company v. City of New York, provides that a taking can 
occur when an investment backed expectation of a property owner is 
taken or so severely restricted as to constitute a taking.
    This Section places the use of private property totally in the 
discretion of a line officer of the Forest Service--one of the least 
qualified protectors of property interests in the world. It does not 
provide for exclusion of private property from wilderness designations, 
and it does not provide for payment for private property surrounded as 
an in holding by the wilderness designation. Rather, it provides that 
the Secretary shall provide ``adequate access to the private property 
to ensure the reasonable use and enjoyment of the property by the 
owner.''
    The term ``adequate'' leaves it totally to the discretion of a line 
officer as to what type of access to permit. It provides no basis for 
the owner to have any input into the determination of ``adequate'' 
access; it provides no arbiter for determining whether the access 
allowed is truly ``adequate''. it leaves it to a bureaucrat to 
determine adequacy, and to determine when to change any definition of 
access. It also leaves it to a line officer bureaucrat to determine 
what is ``reasonable use and enjoyment'' of the owner's property.
    Specifically in Section 204 (l), the Secretary or appointed line 
officer determines whether to allow existing water rights to be 
delivered to right holder. Line officer also determines whether 
existing water impoundment and storage structures will be allowed to 
remain in place or continue to be used by water right holder. No longer 
would a property owner have a valid Montana State water right but this 
right would be under the discretion of the line officer. The 1964 
Wilderness Act clearly states there are no exemptions in the Act to 
exempt the Federal Government from State water laws.

                          1964 WILDERNESS ACT

    Sec 1133 use of wilderness areas (d)(6) State water laws exemption 
``Nothing in this chapter shall constitute an express or implied claim 
or denial on the part of the Federal Government as to exemption from 
State water laws''.
    Portions of Section 204 takes from the owner that element of 
control of his property which would assure protection of his investment 
backed expectation, and which would assure him any practical use of his 
property. The section is a move by Congress to ``take'' control of an 
owner's property, put it in the hands of a bureaucrat and make no 
compensation to the owner.
    This Bill in no way is comparable to the method of designating 
wilderness in the Owyhee Public Lands Management Act passed in 2009. In 
that bill, no private land was included in wilderness except on a 
voluntary basis, with the owner agreeing to inclusion or, in the 
alternative, receiving compensation for his property.
    The spirit, and letter of the Fifth Amendment is violated by the 
provisions of this section. It allows for a taking without compensation 
of any type. It allows for that taking without even allowing a basis 
for the owner to file a takings claim. The jurisdictional basis for 
establishing a taking will always be held in abeyance by the Forest 
Service's line officers through simple manipulation of access.
    In providing a basis for depriving an owner of virtually all 
practical use of his property, without establishing the base line for a 
taking claim, the Bill deprives an owner of private property of due 
process of law. The owner can seek, and should seek, compensation 
pursuant to the Monterey Dunes Case in which the U.S. Supreme Court 
allowed a land owner to sue for damages in a jury trial.
    This is a blatant attack on the property rights of owners of 
private property engulfed by wilderness decided on by select special 
interest groups working with the Senator behind closed doors, outside 
the public scrutiny.

F. Senator Tester's Wilderness Bill Evades the National Environmental 
        Policy Act and the Coordination Requirements of the National 
        Forest Management Act by Establishing Special Use Areas in 
        Sections 205-210
    The Bill establishes special protective areas and recreation areas 
in section 207 without any public input, meaningful or otherwise, in 
violation of the National Environmental Policy Act.
    Only a very select group of forest users were allowed to 
participate in the drafting of this Bill. Neither the groups involved 
in the drafting, nor the Senator himself, will attend public meetings 
to discuss the contents of the Bill and answer questions regarding its 
drafting and its purposes.
    The policy which Congress itself established in the National 
Environmental Policy Act has been violated by this Bill. In NEPA, 
Congress declared it to be in the national interest to involve the 
public through meaningful participation in reviewing and analyzing 
proposals for land use projects. This Bill evades that policy 
completely by arbitrarily designating special interest areas, the 
boundaries thereof, and the rules for administration thereof.
    Senator Tester, his staff, and his self appointed and designated 
drafting organizations have refused to meet with multiple use 
organizations, grazing organizations and all but a very limited 
representation of timber and logging interests to even discuss the 
contents of this Bill.
    Public claims that this Bill is supported by and was drafted by a 
great cross section of users of the forest lands are simply not 
accurate. Local governments impacted by the special area designations 
have been ignored and kept outside the circle of drafters. Montana 
elected officials including commissioners, mayors, representatives and 
senators have been ignored and kept outside the circle of drafters. 
This is a special interest bill, designed to cater to and serve the 
whims of a very select group of organizations.
    Not only is the lawful policy of the National Environmental Policy 
Act violated by the Bill, so is the statutory mandate that land use 
decisions affecting local government be coordinated with those units of 
local government. The counties and cities adversely impacted by the 
Bill's designations and land use restrictions have been ignored in the 
drafting of the Bill.
    In short, this Bill represents a statement that Congress can ignore 
policy and law which it has created. This Bill puts Congress itself 
above the executive department and above the people of the United 
States by violating statutes that bind the public, that bind local 
governments, that bind private business.

G. Senator Tester's Wilderness Bill, S. 1470 violates the Tenth 
        Amendment to the United States Constitution By Restricting 
        Access of Public Safety and Health Emergency Services through 
        Memoranda of Understanding
    The tenth Amendment to the United States Constitution guarantees to 
local jurisdictions the authority to exercise the police powers related 
to public safety and health, without restriction by the federal 
government. There is no provision in the Constitution which allows the 
federal government, Congress or otherwise, to restrict access of law 
enforcement authorities to carry out their duties to protect the public 
health and safety.
    For Congress to assert an authority to restrict access by the terms 
of this wilderness bill is a clear violation of the Tenth Amendment. 
The Congress oversteps its constitutional bounds by ignoring local 
authorities in making sweeping land use designations which may hamper 
provision of local police services to the citizens of a state. S 268 
makes no mention or grants no authority to local governments to provide 
access for health and safety.

H. S 268 violates the 1964 Wilderness Act
    Sec. 1133. (d)(2) `` Use of wilderness areas such areas shall be 
surveyed on a planned, recurring basis consistent with the concept of 
wilderness preservation by the United States Geological Survey and the 
United States Bureau of Mines to determine the mineral values, if any, 
that may be present; and the results of such surveys shall be made 
available to the public and submitted to the President and Congress.''
    Congress clearly intended for all mineral resources to me 
inventoried and mapped prior to these lands inclusion into the 
wilderness preservation system. Senator tester has repeatedly refused 
to comply with this requirement under the 1964 Wilderness Act.
    Professor Robin McCullogh from the Butte School of Mines is quoted 
as saying ``to lock away land in wilderness before identifying the 
location of mineral reserves present is like cutting off your nose 
despite your face.''
    The areas of the Beaverhead Deerlodge National Forest targeted by 
Senator Tester for wilderness designations are known to be the most 
mineral rich lands in the United States. Designation of wilderness 
which would remove availability of these resources from the citizens of 
the United States today and for future generations would pose a threat 
to our national security.
                                 ______
                                 
                                   State of Alaska,
                                    Office of the Governor,
                                          Juneau, AK, May 24, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, U.S. Senate, 304 
        Darken Senate Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, U.S. Senate, 
        304 Dirksen Senate Building, Washington, DC.
Re: Southeast Alaska Native Land Entitlement Finalization and Jobs 
Protection Act (S. 730)

    Dear Chairman Wyden and Ranking Member Barrasso, The State of 
Alaska provides the following comments on the Southeast Alaska Native 
Land Entitlement Finalization and Jobs Protection Act (S. 730) for the 
subcommittee's hearing on May 25, 2011.
    The State commends the subcommittee's attention to the important 
issue of resolving Sealaska Corporation's land entitlement, due under 
the Alaska Native Claims Settlement Act (ANCSA) of 1971. Nearly 40 
years since the passage of ANCSA, the equitable satisfaction of 
Sealaska's remaining entitlement is long overdue.
    It is the State's view that lands conveyed to Sealaska must be 
suitable to meet its cultural, traditional, and economic needs. Lands 
currently available to Sealaska are inadequate, particularly for 
economic purposes. In contrast, the new acreage proposed under S. 730 
offers greater timber harvest potential.
    Southeast Alaska's remaining timber industry, which is a vital 
sector of the economy, is on the verge of collapse. Currently, the 
industry is at its lowest level of production since Alaska became a 
state in 1959. This is due in large part to the fact that only 144,000 
acres of the 17 million acres in the Tongass are currently considered 
``roaded suitable'' by the Forest Service. The remaining timber 
industry of Southeast Alaska relies on Forest Service timber contracts; 
contracts provided by the State of Alaska, which manages limited State 
lands in Southeast; and harvests on Sealaska's lands. Combined timber 
from these three sources supports the industry's logging, manufacturing 
and export infrastructure. Each of the timber sources is critical to 
the log supply and stability to the current industry, and allowing the 
industry to rebuild and create new jobs in the region. The population 
for virtually every village and community in Southeast Alaska has 
fallen over the last ten years. This alarming trend is forecast to 
continue over the next 25 years, unless significant steps are taken 
now.
    Sealaska states that without the passage of legislation, the 
corporation will run out of commercially viable timber to harvest from 
its lands and will be forced to shut down its timber operations in 
2012. In contrast, with passage of this legislation, Sealaska forecasts 
being able to support a sustainable forestry program from its lands, 
indefinitely, allowing the corporation to continue its essential 
economic contribution to the region.
    Furthermore, the proposed selections contain stands of young-growth 
forest, whereas the remaining valuable timber areas in current 
selections include only old growth forest. The ratio of young to old 
growth in the proposed selections will help accelerate the region's 
transition from old growth to young growth harvest and encourage 
investment in domestic wood processing and bioenergy facilities.
    The State endorses the objectives of S. 730 and recognizes the 
improvements to this latest version of the Sealaska legislation. 
However, certain provisions in this legislation raise concerns. The 
State's primary concerns are described below.
    First, we oppose the designation of new conservation lands (151,565 
acres in this bill). The lands identified in this section already are 
provided with sufficient protection under the current Tongass Land 
Management Plan. Placing these lands in a more restrictive land use 
designation further reduces the lands available for economic 
development and iobs and upsets the balance reached as part of the 
Tongass Land Management Plan.
    Second, in certain circumstances, 5.730 raises concerns regarding 
public access across conveyances. Certain provisions in the bill lack 
standards for regulating public access, would delegate to Sealaska 
broad discretion to determine when and where public easements are 
necessary, and would preclude challenges to decisions by Sealaska 
regarding public access. In this regard, it does not appear that 
Section 17(b) of ANCSA applies in all circumstances.
    Third, some concern persists regarding the large number of small 
parcels involved in the bill. For example, certain local communities 
object to sites proposed by Sealaska. The inclusion of strong 
provisions related to public access would significantly diminish our 
concern.
    Fourth, the State questions the puipose of language proposing to 
terminate restrictive covenants on historic and cemetery sites. This 
would represent a fundamental change to how the newly selected, as well 
as previously conveyed sites are treated under ANCSA. We believe the 
relevant ANCSA language, which applies to all regional corporations, 
strikes a reasonable balance between site protection and possible uses.
    Fifth, the State would like clarification that parcel transfers 
will not disrupt the Division of Forestry's beach log salvage program 
for most of the coastline from Dixon Entrance to Cape Yakataga. If the 
selected upland parcels are transferred from federal ownership to 
Sealaska Corporation and are within an established Beach Log Salvage 
Area, we believe Sealaska Corporation should continue the tradition of 
granting permission to recover logs in the area between the mean high 
tide line and mean higher high tide line with no associated charges.
    Finally, S. 730 proposes to transfer roads to Sealaska for timber 
harvesting and other development and a right to construct a log storage 
facility on state tidelands, apparently without the requirement of a 
State tidelands permit. It is important that these roads and future 
improvements are available for other timber owners to use including the 
State, the Alaska Mental Health and University of Alaska land trusts, 
other Native corporations, and private landowners.
    The State requests clarification that a State tidelands permit is 
required for log transfer facilities. The State of Alaska is eager to 
work with the Senate Energy and Natural Resources Committee, Senator 
Murkowski, and Sealaska to address our concerns. Thank you for the 
oppornmity to comment on S.730. We respectfully request that this 
letter be included in the hearing record.
            Sincerely,
                                              John W. Katz,
    Director of State/Federal Relations and Special Counsel to the 
                                                          Governor.
                                 ______
                                 
      Statement of Owen Graham, Executive Director, Alaska Forest 
                         Association, on S. 730

    My name is Owen Graham. I am executive director of the Alaska 
Forest Association. The AFA is the statewide association representing 
companies engaged in forest practices including support companies. We 
have 115 members and represent timber companies, loggers, trucking and 
towing companies, suppliers, and other members who have a stake in the 
future of a vital and hopefully healthy timber economy in Alaska.
    AFA strongly supports the passage of S. 730 without delay. Passage 
of this bill is critical to the future of our remaining industry. 
Alaska Native timber is in decline in part because ANCSA land 
entitlement has not been fulfilled, even though ANCSA was passed over 
three decades ago. The Native lands represent only about 3% of the land 
in Southeast Alaska, but Sealaska's timber operations, currently 
support about 40% of the forest industry employment in the region 
because of the inappropriate reductions in timber harvest from federal 
lands.
    Drastic reductions in the federal timber sale program since 1990, 
after the Tongass Timber Reform Act was enacted, have been disastrous 
for our industry and our communities. The federal lands comprise about 
94% of the total land in the region and, as a result of the dramatic 
decline in federal timber sales; our industry has declined over 90%. If 
Sealaska is unable to continue their forestry operation, we will not be 
able to maintain much of our industry support infrastructure--
transportation companies, fuel barges, equipment suppliers, etc.
    Even though the Forest Service has a timber plan in place which 
claims to provide up to 267 million board feet annually, the agency has 
only offered about 15 mmbf of new timber sales annually. Because the 
timber sale program on federal lands is so unreliable, it is critical 
that private timber be available to support our industry. In most 
states, there is a mix of federal, state, and private timber which 
provides more opportunity to compensate for periodic declines in the 
federal timber sale program. We do not have that diversity of land 
ownership in Southeast Alaska, but it is vitally needed. This 
legislation will move the region a little closer to balance.
    From today's struggles described above, AFA hopes our industry can 
be restored to a level closer to what we had in 1990.That is why the 
passage of this bill is so vital and so timely, and why this Committee 
and Congress need to act immediately.
    Please do not be persuaded by those who claim the passage of this 
bill will threaten wildlife viability or plant diversity. This is 
simply not correct. There are millions of acres under complete 
protection in the Tongass including nearly 7 million acres of 
wilderness or legislated LUD II areas where development is statutorily 
prohibited. These legislatively set-aside areas include about 2 million 
acres of commercial timberland. The Tongass Land Management Plan 
administratively sets aside more than 3 million additional acres of 
commercial timberland. The commercial lands that are the subject of 
this legislation total less than 85 thousand acres--less than 2% of the 
commercial timberlands in Southeast Alaska.
    Sealaska is a good steward for their lands. They comply with the 
State Forest Practices Act regulations and they put an effort into 
managing their young-growth timber for the future. In addition, their 
lands are managed to allow timber, wildlife and fish to all prosper on 
the same acres. I have seen this with my own eyes.
    Some of those who speak against this legislation are the same 
people that have used administrative appeals, litigation and political 
pressure to drive down the timber supply from federal lands.
    A number of small communities have expressed concerns about 
potential impacts on the timber supply for local processors. Further, 
these communities fear a loss of recreational and subsistence access to 
the lands that Sealaska has selected. Sealaska has addressed these 
concerns; land selections have been modified to avoid the most 
contentious areas and Sealaska has agreed to provide public access to 
their lands. Further, the Forest Service timber sale plans for these 
areas indicate no conflict over the next few years and the agency has 
ample opportunity to adjust the forest plan to account for potential 
future timber sale impacts. After all, the forest plan has about three 
million acres of commercial forestland held in reserve that could be 
put to use if needed.
    Fish streams, wildlife habitat and recreation opportunities are 
already well protected in this region; what is not assured is the 
future of our timber industry. We have lost 90% of our employment due 
primarily to a decline in the availability of timber from the federal 
lands in the region. We cannot afford to reduce the timber supply from 
private lands as well.
    Sealaska has agreed to provide access to their lands for both 
subsistence and recreational hunting and fishing and Sealaska's 
operations will provide continued jobs and other economic benefits to 
both regional and local communities.
    This bill does not finalize the total acres that Sealaska will 
receive under ANSCA, so we also recommend that the Committee instruct 
the BLM to work with Sealaska to negotiate the final entitlement.
    However, the AFA does have suggested changes to the bill in the 
Senate. AFA strongly urges that the Committee adopt the recommendations 
of the State of Alaska to eliminate the ``new conservation areas'' 
which are in the draft bill. These are not necessary and will provide 
very negative effects on the ability of the AFA and its members to 
conduct timber operations in these areas. Each of the areas is 
sufficiently managed under existing state and federal law. As with the 
State, AFA does not support the designation of ``new conservation 
lands.''
    Additionally, the AFA strongly urges the deletion of any new ``100 
no cut buffer'' on any streams conveyed to Sealaska. These will b e 
private lands and the State Forest Practices Act fully protects these 
streams with its existing management regime. It is unnecessary and an 
unfunded mandate for Congress to impose this additional burden on the 
State and a private landowner. This provision should be deleted from 
the final bill.
    Thank you again. The AFA urges immediate passage of this bill to 
help keep our industry alive and our communities healthy.

                     ATTACHMENT.--REGIONAL IMPACTS

  <bullet> Sealaska employment and its contractor employment combined 
        is the largest for-profit sector employer in Southeast Alaska.
  <bullet> Many Southeast communities, including Juneau, experience 
        some level of economic impact from Sealaska timber harvest 
        operations.
  <bullet> In 2008 Sealaska Corporation, Sealaska Timber Corporation 
        and Sealaska Heritage Institute spend $45 million in Southeast 
        Alaska.
  <bullet> Sealaska and its contractors directly employed 363 workers 
        in 2008
  <bullet> Including both direct and indirect employment, Sealaska-
        related employment totaled nearly 490 workers and $21 million 
        in payroll in 2008.

Summary
  <bullet> The timber industry and the communities in Southeast Alaska 
        need the continued economic activity provided by Sealaska's 
        operations.
  <bullet> The only impacts on the federal timber supply for local 
        sawmills in the next 5-years are two commercial thinning 
        projects proposed on Kosciusko Island (both of which have 
        questionable economic viability). Beyond the next 5-years, 
        there is a potential 2% impact, but that impact can easily be 
        avoided by minor schedule changes.
  <bullet> We need to sustain all of our timber employment--both from 
        private and public lands--and there is more than adequate 
        timber available to do so. The maximum timber harvest rate on 
        the federal timberlands in Southeast Alaska over the next 100-
        years would still leave about 90% of the existing old-growth 
        commercial timberlands untouched.
                                 ______
                                 
                                    Alaska Outdoor Council,
                                       Anchorage, AK, May 24, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee.
RE: Senate Bill 730--Transfer of National Forest Lands to Sealaska 
Corporation

    Dear Senator Bingaman and Members of the Senate Natural Resources 
Committee, As the largest statewide outdoors organization in Alaska, 
since before statehood, the Alaska Outdoor Council (AOC) advocates for 
equal access for all Alaskans to public resources. AOC's memberships, 
of over 10,000 Alaskans, are dependent on regulations that allow public 
access to federal lands. The ``Southeast Alaska Native Land Entitlement 
Finalization and Jobs Protection Act'', S.730 is an unwarranted attempt 
by the, for profit, Sealaska Corporation to seize National Forest Lands 
that have been designated as multiple-use through a laborious public 
process.
    Transfer of lands selected by the Sealaska Corporation in the 2008 
letter to Ms Ramona Chinn, Deputy State Director, Conveyance 
Management, can be achieved without further federal legislation. 
Section 403 of the ``Alaska Land Transfer Acceleration Act of 2004'' 
established a deadline of June 10, 2008 for Alaska Native Corporations 
to select remaining entitlement. Sealaska Corporation complied and 
submitted prioritized land selections. AOC finds no compelling reason 
to open up further amendments to the ``Alaska Native Claims Settlement 
Act of 1971'' (ANCSA) in order to complete Sealaska's land conveyances. 
S.730 has the potential of igniting years of further ANCSA amendments 
and possible litigation regarding land conveyances already agreed upon 
by the other Alaska Native Corporations created by ANCSA. Such actions 
could lead to years of negotiations and cost to individuals, public 
conservation organizations, and the State of Alaska as it tries to 
complete ANCSA lands transfers once and for all.
    Alaska's congressional delegation continues to ignore the concerns 
of outdoors people and the residents of coastal communities in 
southeast Alaska by re-introducing legislation that was strongly 
opposed in 2010, S.881. The divisiveness among Alaskans created by the 
introduction of S.730 far outweighs the economic advantages that could 
be realized by shareholders in the Sealaska Corporation. AOC does see 
merit in having BLM complete the transfer of the remaining ANCSA lands 
to the Sealaska Native Corporation pursuant to the Alaska Land Transfer 
Acceleration Act of 2008.
            Sincerely,
                                                  Rod Arno,
                                                Executive Director.
                                              Bill Iverson,
                                                         President.
                                 ______
                                 
  Statement of Mike Daulton, Vice President of Government Relations, 
                  National Audubon Society, on S. 730

    The National Audubon Society opposes S. 730 as the legislation is 
presently proposed.
    S. 730 is a controversial proposal that would allow the Sealaska 
Corporation to select and take title to valuable lands within the 
Tongass National Forest that are currently open to the public for 
fishing, hunting, and recreation. Much of the land sought by Sealaska 
would be subject to intensive clear-cut logging. Although a relatively 
small total percentage of the forest acreage has been logged on the 
Tongass National Forest, half or more of the large-tree old growth 
forest has already been logged in Southeast Alaska. The very largest 
trees--the individual ``giants'' greater than 10 feet in diameter--were 
largely eliminated in the last century. Forest stand diversity in the 
Tongass National Forest has already been substantially altered due to 
past logging.
    The National Audubon Society fully respects the right of the 
Sealaska Corporation to obtain its full land entitlement as provided 
for by law under the Alaska Native Claims Settlement Act (ANCSA) and 
supports the prompt conveyance by the Bureau of Land Management (BLM) 
of the lands already selected by Sealaska Corporation. S. 730 is not 
needed to satisfy Sealaska Corporation's entitlement and would convey 
public lands in the Tongass National Forest from scores of new areas 
ranging in size from a few acres to several thousands of acres and 
create numerous land use conflicts with local communities and other 
forest stakeholders.
    All aboriginal Alaska Native land claims were settled under ANCSA, 
historic legislation that required a complicated balancing of private 
and public interests. S. 730 would bypass ANCSA for the benefit of a 
single, private for-profit business, the Sealaska Corporation. S. 730 
would provide the Sealaska Corporation a unique ability to obtain 
dozens of large and small parcels of high-value public lands 
strategically sited throughout the Tongass National Forest in Southeast 
Alaska.

  <bullet> Sealaska has targeted some of the most biologically 
        productive public lands in the Tongass for logging and other 
        kinds of development, including some inventoried roadless 
        areas. Lands that Sealaska Corporation seeks to obtain includes 
        areas that are heavily used and highly valued as public lands 
        by southeast Alaska residents, commercial fishermen, local 
        outfitters/guides, and visitors to Alaska's Inside Passage.
  <bullet> No further Congressional action is needed for Sealaska to 
        obtain its land entitlement. In fact, Sealaska Corporation has 
        already made its final land entitlement selections of 
        approximately 65,000 acres with the BLM. Sealaska Corporation 
        is itself responsible for the delay in acquisition of its 
        remaining entitlement as it has asked the BLM to hold off on 
        conveyance of its remaining land selections while it seeks to 
        get more valuable lands by lobbying Congress.
  <bullet> Sealaska has previously received a significant claims 
        settlement. Sealaska received a substantial settlement under 
        ANCSA, including more than $90 million and approximately 
        354,000 acres of land to be selected in ``compact'' and 
        ``contiguous'' tracts within the vicinity of nine Native 
        villages in Southeast Alaska. Sealaska's past selections have 
        included large tracts of valuable old growth timber that have 
        since been harvested.
  <bullet> Sealaska supported designation of the land selection areas 
        that it now seeks to modify. Sealaska Corporation supported 
        legislation that established the selection areas that the 
        corporation is now seeking to modify. As reported by Alaska 
        Congressman Don Young, the selection areas established in 1976 
        ``embodies a compromise negotiated and supported by Sealaska, 
        the State of Alaska, Native villages in the region and various 
        environmental groups.'' (Congressional Record, Dec. 16, 1975) 
        The land selection rights Sealaska Corporation now seeks to 
        change are exactly what the corporation requested previously. 
        Sealaska now wants to override ANCSA so the corporation can 
        select more valuable lands in a combination of large and small 
        parcels scattered across the Tongass National Forest.
  <bullet> S. 730 would establish a new precedent for the privatization 
        of public lands. As proposed, the legislation could predictably 
        result in additional small parcel claims on public lands being 
        proposed throughout Alaska by other Alaska Native Corporations.
  <bullet> The lands that Sealaska has proposed to obtain are 
        substantially more valuable than the lands it is entitled to 
        under current law. The proposed acquisition is not based on a 
        value-for-value exchange of the lands currently selected by 
        Sealaska Corporation. The lands that Sealaska Corporation now 
        seeks are disproportionately valuable relative to the forest 
        overall including old growth timber values that are 
        substantially greater than the forest average.

    In conclusion, S. 730 would severely impact the national interest 
in the balanced management and conservation of public resources within 
the Tongass National Forest and should not be enacted.
                                 ______
                                 
                Statement of Clarice Johnson, Sitka, AK

    I am a Sealaska shareholder and a member of the Sitka Tribes of 
Alaska and I am writing to oppose the Sealaska Lands Bill (S.703 and HR 
1408). Please accept this testimony as part of the official record.
    Sealaska has created a bill that is causing division across 
Southeast Alaska. By selecting lands which are most valuable for local 
residents for fishing, hunting and recreation and with no guarantees 
for continued access to these lands this bill is causing unnecessary 
turmoil.
    Sealaska has a history of poor land management and also is often 
insensitive to need the local communities and tribes. There is a 
history of conflict between Sealaska and tribes in Southeast Alaska. In 
the 1980's, residents of Hoonah protested Sealaska logging of the land 
surrounding their village. Residents of Kake won a lawsuit against 
Sealaska valued at over $30 million, in part to recover damages for 
misrepresentation and fraud and to rescind and/or reform multimillion-
dollar timber sales transactions. Currently the tribal organizations of 
Kake and Craig are on record opposing the Sealaska selections of 
cultural sites near their villages.
    Recently Sealaska has been referring to its shareholders as 
``tribal member shareholders'' in an attempt to blur the lines between 
a for profit corporation and tribal governing body in the minds of the 
public and elected officials. Sealaska is a corporation in name and 
spirit and should never be confused with a tribe.
    I cannot state this strongly enough. Sealaska does not speak for 
all Alaska Natives living in the Tongass. Villages have tribal bodies 
which address their individual concerns. Sealaska's mandate is to make 
a profit, which can conflict with what is best for towns and villages 
in Southeast Alaska. Sealaska has developed a voting system which 
ensures that the current board members are kept in power. Many Sealaska 
shareholders are intimidated by the power Sealaska wields. They are 
reluctant to speak out against Sealaska, for fears that their children 
may be denied Sealaska college scholarships. Whether this fear is real 
or perceived, the silencing effect is the same. Certainly Senator 
Kookesh's behavior in Craig, Alaska in 2010, shows the lengths Sealaska 
is willing to go to obtains the results they want.
    Sealaska has portrayed this bill as a native rights issue. By using 
this strategy, it allows supporters to dub any opponents of the bill as 
racist. Many Southeast residents who care deeply about the land are not 
comfortable speaking out on this issue due to the inflammatory nature.
    There has not been a Sealaska board member from Sitka in decades, 
even though we are the 3rd largest city in Southeast Alaska. Sealaska 
did not consult with the Sitka Tribes of Alaska prior selecting 
cultural sites near Sitka. Sealaska has not had any economic presence 
in Sitka, and the City of Sitka Assembly passed on May 24, 2011

          ``RESOLUTION NO. 2011-13 A RESOLUTION OF THE CITY AND BOROUGH 
        OF SITKA OPPOSING PROPOSED FEDERAL LEGISLATION RELATED TO 
        SEALASKA CORPORATION ANCSA LAND SELECTION TO THE EXTENT THE 
        BILLS PRIVATIZE VALUABLE AND POPULAR PUBLIC LANDS WITH 
        OUTSTANDING SUBSISTENCE, RECREATION AND ECONOMIC VALUE LOCATED 
        IN OR NEAR CITY AND BOROUGH OF SITKA, AND RENDER THOSE LANDS 
        INACCESSIBLE TO AVAST MAJORITY OF SITKA'S CITIZENRY

    Sealaska representatives promised over 2 years ago to consult with 
the mayor of Sitka and the City Assembly as the legislation moved 
along. This promise was not kept.

                       SACRED AND HISTORIC SITES

    This bill essentially hands Sealaska a 3,600 acre shopping basket 
in which to put our most treasured public lands and privatize them. The 
Southeast Alaska topography concentrates use in limited areas and the 
bill would allow Sealaska to select lands carte blanche and without 
public comment. Sacred sites are best protected under the current 
federal guidelines with the government to government relationship with 
the local tribes.
    While Sealaska may say that they will allow access to their lands 
once privatized, this is contrary to their policy stated on their 
website which states.

                 COMMERCIAL AND NON-SHAREHOLDER ACCESS

    ``Access and usage of Sealaska Corporation property for any 
commercial use and for any non-shareholders requires prior written 
authorization. When authorization is granted, Sealaska will place 
necessary conditions to protect all natural and cultural resources and 
the safety of those using our property. Sealaska is not obligated to 
provide access to non-shareholders and may deny access to our property 
at our discretion. ''
    Sealaska General Counsel, Jaleen Araujo is on record stating that 
access will be allowed on a ``case by case basis''.
    Although as a shareholder, I may be eligible for special access to 
the many fishing, hunting and recreation areas which will be selected 
by Sealaska as sacred or historical sites, this brings me no pleasure. 
My wish is to retain open public access, so I can enjoy them alongside 
all my neighbors. The only way this will happen is if you vote no on 
Sealaska Lands Bill (S.703 and HR 1408).
                                 ______
                                 
   Statement of Judy Magnuson, Secretary, Port Protection Community 
                    Association, Port Protection, AK

    Port Protection Community Association is on record as being 
strongly opposed to S730, which will privatize already encumbered 
public lands, and give them to a private corporation for their 
exclusive use. Despite the outcry from many of Southeast Alaska's 
citizens, both native and non native, public resolutions and opposition 
from many communities, opposition from sportsman's groups, guide 
hunters, tourist groups, fishermen and fishing associations, National 
and Alaskan Cave groups. Fish and Game Officials, the USFS, and BLM. 
Despite all this opposition, Sealaska and our Senators are still 
supporting this bad legislation, for a Private Corporation that has 
invested heavily in their campaigns.
    To also include the title of `Jobs Protection', in light of the 
jobs this legislation has the potential to negatively impact is 
misleading. Though it sounds good on the surface it is only protecting 
a few hundred jobs that Sealaska says they will lose if they don't get 
their land exchange. In fact Sealaska will still get their land despite 
this legislation, and if they take care of it instead of abusing it 
like they did with the last 291,000 acres, they should still produce 
those jobs.
    This legislation is also unfair to the taxpayers who have paid for 
the infrastructure, maintenance, thinning of second growth, expensive 
roads, and years of forest planning. Many communities such as ours have 
invested decades in our surrounding forest plans, in countless meetings 
with the USFS, protecting valuable wildlife habitat from clear cut 
logging. Much of this valuable timber is still here today because 
communities fought for it during the time of the 50 year timber 
contracts, this legislation aims to wipe out all the work of thousands 
of public citizens and the communities they represent.
    Salmon is truly Southeast Alaska's greatest resource, salmon 
habitat has been hard hit over the years from timber harvest. Streams 
rely on the forest canopy sheltering the streams to keep them cool 
during summer drought and hot weather, both situations we see more 
often of late. Timber harvest on Karst land around Salmon streams is 
particularly destructive. There are salmon streams and karst included 
in some of these selections. Salmon streams in Karst cannot be 
protected by stream buffers as the debris from logging is carried under 
ground for many miles, clogging and plugging up the entire hydrological 
area and negatively impacting the streams ability to support a healthy 
fish population. Our community is primarily a fishing community with a 
strong subsistence tradition in our surrounding forest, the impact of 
this legislation on fish and wildlife habitat is of particular concern. 
These are things that should be determined by experts in the field , 
NOT by legislators in Washington D.C.
    The significant loss of Old Growth Reserves included in this 
legislation could trigger the Endangered Species Act. These reserves 
were created in response to species that were petitioned to be included 
in the lists, and were only rejected because of planning by the USFS to 
provide habitat needs with these Old Growth Reserves. Lands in this 
legislation have some of the highest value old growth forests, wildlife 
habitat, and karst formations in Southeast Alaska .
    This legislation is not based on a equal exchange. Besides the 
inclusion of valuable infrastructure, paid for by the taxpayer. 
Valuable old growth and wildlife habitat and fish streams. Work done 
for decades on second growth stands, intended for small mills on POW 
Island, to produce jobs in the future are at risk. A professional 
assessment was called for last year of the various lands in this 
legislation by the agencies involved, to determine how this legislation 
would impact fisheries, wildlife, jobs, forest planning, subsistence, 
recreation and communities. In this legislation Sealaska Corporation is 
trying to get what they are not entitled to, land already encumbered by 
others, infrastructure paid for by others and the work of others. To 
allow them to just select wherever they want after 40 years have gone 
by is wrong and we are strongly oppose to it.
    This legislation will also set a precedent in the future for giving 
public lands away to private corporations. Many communities were 
concerned with this precedent setting possibility during Senator 
Murkowski's meetings last year, and even though the Senate 
representative assured all present that this would not be so, Ms 
Kookesh Araujo stated in the Wrangell meeting, that if this bill passes 
it could serve as precedent in the future for other Native lands 
issues. Are we to have this same fight into perpetuity? Will we have to 
always be on the look out for any corporation that has the money to 
promote legislation in it's favor and at the expense of the public and 
taxpayers? We have jobs to do and business to attend to, we cannot 
spend years fighting off corporate influence and incursion such as this 
without it taking it's toll.
    Port Protection Community is opposed to this legislation for the 
above reasons and many others. This legislation is very complex, with 
many possible negative side effects. The lack of community and public 
support being just a part of it. Without this legislation Sealaska will 
still have their land they have their 80,000 acres already selected 
within their chosen boxes, they will still have their other 291,000 
acres previously harvested, and their other investments and no bid 
contracts. If this legislation is passed, the people and communities 
will never have their land back, taxpayer investments will be given 
away. Vital habitat for fish and wildlife will be lost as Sealaska 
clear cuts valuable Old Growth Reserves, and ship's the timber and jobs 
overseas.
                                 ______
                                 
                              Resource Development Council,
                                       Anchorage, AK, May 23, 2011.
Hon. Lisa Murkowski,
Senator, U.S. Senate, Washington, DC.
Re: Supporting Sealaska Corporation's Land Entitlement Legislation, 
S.730

    Dear Senator Murkowski: The Resource Development Council is writing 
to express its support for S. 730, the Southeast Alaska Native Land 
Entitlement Finalization and Jobs Protection Act.
    RDC is a statewide, non-profit, business association comprised of 
individuals and companies from Alaska's oil and gas, mining, timber, 
tourism and fisheries industries. Our membership also includes Native 
regional and village corporations, local governments, organized labor 
and industry support firms. In fact, all of Alaska's 13 Native Regional 
Corporations are members of RDC. Our mission is to help grow Alaska's 
economy through the responsible development of the state's natural 
resources.
    S. 730 is the result of more than 225 community meetings and 
reflects the needs and concerns of Southeast Alaska residents. RDC 
appreciates the efforts of the Alaska Congressional Delegation to 
fulfill the 40-year old promise of the Alaska Native Claims Settlement 
Act (ANCSA) and convey to Sealaska Corporation its final 85,000 acres 
of land.
    In 1971, Congress enacted ANCSA to recognize and settle the 
aboriginal claims of Alaska Natives to their traditional homelands by 
authorizing the establishment of Alaska Native corporations to receive 
and manage lands and funds awarded in settlement of the claims. The 
purposes of ANCSA were not only to settle the land claims of Alaska 
Natives, but also to provide them with a means to pursue economic 
development and create sustainable economies for the benefit of 
Alaska's Native people. However, more than 35 years after the passage 
of ANCSA, the land conveyances have yet to be completed.
    Since 1971, many Alaska Native corporations have become successful 
and powerful economic engines within their regions and throughout the 
State of Alaska. Sealaska is the single largest private employer in 
Southeast Alaska, providing hundreds of part-time and full-time jobs 
annually, and contributing as much as $90 million each year to the 
Southeast Alaska economy. Sealaska also provides a significant benefit 
to Alaska Natives across the state through its annual 7(i) revenue 
sharing contributions, which have totaled over $300 million.
    In recent years, Sealaska has engaged in a comprehensive land 
entitlement and conservation initiative, allowing it to complete its 
land entitlement by making cultural and economic land selections 
outside of original ``withdrawal areas.'' ANCSA limited Sealaska land 
selections to withdrawal areas surrounding certain Native villages in 
Southeast Alaska. The problem is that in Sealaska's case, there are no 
lands remaining in these withdrawal areas that meet the corporation's 
traditional, cultural, or socioeconomic needs. Forty percent of the 
original withdrawal areas are salt water. Selection from the withdrawal 
areas would not fulfill the promise of ANCSA--to create sustainable 
economies for the Native people of Southeast Alaska.
    In return for selecting lands outside the withdrawal areas, 
Sealaska would allow removal of the encumbrance created by the 
withdrawal of lands for Alaska Native selection in Southeast Alaska. 
These lands have significant public value as 85 percent are roadless 
areas containing some of the highest value intact watersheds important 
to local communities, have over 112,000 acres of productive old-growth 
timber and 125,000 acres of core biological and high value areas.
    Benefits of this legislation to the federal government are clear. 
Passage will enable the federal government to complete its statutory 
obligation to the Natives of Southeast Alaska, as promised under ANCSA. 
Sealaska would relinquish selection rights on 327,000 acres of land in 
the original withdrawal areas, which results in management efficiency 
and certainty for the U.S. Forest Service. Completion of ANCSA 
conveyances would also be significant for the Bureau of Land 
Management.
    Benefits to others are also clear. For Alaska Natives throughout 
Alaska, sustainable Sealaska timber operations means continued revenue 
sharing distributions to other Alaska Natives under ANCSA Section 7(i). 
For some Alaska Native corporations, 7(i) revenues are vital to their 
survival. For supporters of roadless designations, Sealaska would 
relinquish selection rights in areas that are largely roadless and of 
high value fish and wildlife habitat. More than 70 percent of the acres 
identified in the bill for selection are in roaded areas. Most 
importantly, the legislation fulfills Sealaska's final entitlement of 
85,000 acres--no more land than is originally owed to the corporation 
under ANCSA.
    If Sealaska does not receive conveyance of all of the lands to 
which it is entitled in the near term, the primary economic activity of 
Sealaska will soon cease, which will impact Southeast Alaska's Native 
people, the Southeast Alaska economy, and Alaska Native corporations 
throughout the state that have come to rely upon Sealaska's 7(i) 
contributions.
    The Resource Development Council strongly supports the enactment by 
the United States Congress of S.730 to complete Sealaska's ANCSA land 
entitlement to allow the corporation to continue to help meet the 
economic needs of our Native people and their corporations throughout 
Alaska. Moreover, the Alaska Federation of Natives and the CEOs of all 
of Alaska's regional Native corporations endorse Sealaska's land 
legislation.
    Thank you for introducing S. 730 and standing up for the Native 
people of Southeast Alaska. RDC stands ready to assist your efforts in 
Congress on this important legislation.
            Sincerely,
                                              Carl Portman,
                                                   Deputy Director.
                                 ______
                                 
                     Southeast Alaska Conservation Council,
                                          Juneau, AK, June 9, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, U.S. Senate, 304 
        Dirksen Senate Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, U.S. Senate, 
        304 Dirksen Senate Building, Washington, DC.
Re: Southeast Alaska Native Land Entitlement Finalization and Jobs 
Protection Act (S.730)

    Dear Chairman Wyden and Ranking Member Barrasso: We understand that 
the official hearing record remains open until June 9, 2011, following 
the Subcommittee hearing on S.730 held May 25, 2011. We respectfully 
request that the following testimony and attached supporting material 
be added to the Subcommittee's official record for S.730 and shared 
with all the members of the Subcommittee.
    The day following your Subcommittee hearing, Chairman Don Young of 
Alaska held a hearing in the Subcommittee on Indian and Alaska Native 
Affairs on the House-version of the Sealaska lands bill, H.R. 1408. At 
that hearing, Chairman Young leveled some outrageous charges at SEACC--
all of which were wrongheaded. As we noted in our Supplemental 
Statement on H.R. 1408, Chairman Young's tirade was eerily reminiscent 
of the conspiracy theories alleged by Alaska's Congressional Delegation 
and the timber industry back in 1995 as part of an all-out attack 
during the 104th Congress on the Tongass Timber Reform Act, Pub. L. 
101-626, 104 Stat 4426-35 (1990) (hereinafter ``Tongass Reform 
Law'').\1\ Given the changes in Senate membership, most of the leaders 
in this landmark legislative effort are no longer serving in the U.S. 
Senate. Please accept copies of our Supplemental Statement on H.R. 1408 
and accompanying materials, along with this testimony for the official 
hearing record on S.730.\2\ We hope these materials set the record 
straight and help educate Subcommittee members about the nationally and 
internationally significant Tongass National Forest.
---------------------------------------------------------------------------
    \1\ In total, beginning in the fall of 1994 until the end of 1996, 
the Alaska Delegation held 15 hearings on 17 pieces of legislation 
aimed at rolling back the Tongass Reform Law, increasing clearcutting, 
and giving away the Tongass.
    \2\ Instead of including our statement on H.R. 3659 as we did in 
SEACC's Supplemental Statement on H.R. 1408, the version of SEACC's 
Attachment K submitted here for the Senate Subcommittee's official 
hearing record on S.730, is SEACC's July 10, 1996 hearing statement on 
S.1877, the Senate companion to H.R. 3659.
---------------------------------------------------------------------------
    Of everything said at the Senate hearing, the exchange between 
Senator Murkowski and Jaeleen Araujo, Sealaska Vice President and 
General Counsel, regarding whether S.730 would ``somehow or other this 
open[s] the door under ANCSA for the other 11 Alaska Native 
Corporations to come back in and basically reselect . . . '' is most 
telling. See Hearing Webcast at 159:15--159.24. Ms. Araujo's response 
was, at best, inconsistent. She first stated ``I don't think that 
allowing us to go outside those withdraw areas opens up some box for 
other communities.'' Id. at 160.28--160.34. Next, she said ``I also 
would submit that if other regions have similar inequalities or 
problems in their region then they should present those to Congress and 
have a similar public process.'' Finally, when Senator Murkowski asked 
whether ``Sealaska is the last Native corporation to, to finalize their 
selections,'' id. at 161:37--161:47, Ms. Araujo admitted that ``I don't 
know about the exact situation of all the others, but I think that we 
are one of the lasts (sic).'' Id. at 161.46-161.53. We submit that 
neither the public nor members of this Subcommittee can know how other 
Alaska Native Regional Corporations may respond to the fundamental 
changes proposed in S.730 to ANCSA, including changes:

  <bullet> In the scope of access across ANCSA Corporation lands and 
        who manages the easements;
  <bullet> That create new categories of selections not available to 
        other regional corporations;
  <bullet> That authorize the selection of a number of individual small 
        parcels instead of large blocks as other regional corporation 
        were required to do;
  <bullet> That abolish restrictive covenants on cemeteries and 
        historic sites conveyed to Sealaska but not to the other 
        regional corporations;
  <bullet> That conveys lands outside of the withdrawal areas 
        designated by Congress in ANCSA.

    SEACC has participated diligently and in good faith through this 
legislative process over the past four years, including weeks of 
intense discussions with Sealaska last year trying to resolve key 
issues. As we explained to this subcommittee in 2009:

          SEACC supports completion of Sealaska Corporation's remaining 
        land entitlement under ANCSA. We respect the history and 
        traditions of the Tlingit, Haida, and Tsimshian people who are 
        Sealaska Corporation's shareholders. It is not necessary, 
        however, for Congress to take any action for Sealaska to 
        complete its remaining ANCSA land entitlement. We oppose S.881 
        as introduced because of the significant changes to ANCSA and 
        other federal laws it proposes and its impact to the Tongass 
        National Forest and the communities and residents that depend 
        on it. We fear that S.881 will not redress any inequities but 
        create new ones among forest users and communities within 
        Southeast Alaska and with other regional corporations across 
        Alaska.

    SEACC submitted extensive comments to Senator Murkowski in response 
to the ``discussion draft'' of the Sealaska legislation circulated in 
Southeast Alaska in February 2011. We respectfully request that those 
comments, dated March 17, 2011, be entered into the official record of 
the Subcommittee hearing on S.730.
    We recognize and appreciate the improvements made by Senator 
Murkowski in this latest version of the Sealaska legislation, but 
continue to have major concerns and believe more changes to the 
legislation are needed. In addition to the fundamental changes in ANCSA 
and how it is implemented noted above, additional primary concerns are 
described below.
    First, the title of S.730 continues to claim it will ``finalize'' 
Native land claims in Southeast Alaska. Last Congress, Senator 
Murkowski introduced S.784, a bill to recognize 5 new Native urban 
corporations in communities that did not meet the criteria set for 
village status under ANCSA and grant each of these corporations 23,040 
acres of land--nearly 180 square miles of public lands--from anywhere 
on the Tongass. She has not chosen to introduce similar legislation 
this Congress, so far. If Congress chooses to recognize these 
communities, how much, if any, Tongass lands are conveyed to these 
unrecognized communities, necessarily implicates how much land Sealaska 
is actually entitled too. If you intend to address the claims, the best 
time to do so is now.
    Second, the lack of legal descriptions and individual maps for all 
the parcels Sealaska seeks in Section 3 makes it impossible for 
Congress and the public to know with specificity what public lands are 
being withdrawn for potential conveyance to Sealaska. We also remain 
concerned about losing the valuable wildlands near Hydaburg, Hollis and 
Edna Bay to clearcut logging if they are conveyed to Sealaska. For 
example, instead of conveying any part of the Keete, Kassa, and Mabel 
watersheds to Sealaska, these lands deserve permanent protection as 
additions to either the Nutkwa Legislated LUD II or South Prince of 
Wales Wilderness because of their critical importance for fish and 
wildlife habitat and their high value to tourism and recreation. There 
are also other potential locations for possible 2nd growth timber 
selections, like lands north of a line running west from the head of 
Warm Chuck on Heceta Island that could alleviate stress on communities 
like Edna Bay.
    Third, the provision imposing salmon stream buffers under Alaska 
law for state lands on lands conveyed to Sealaska ``for a period of 5 
years beginning on the date of enactment of this Act,'' just doesn't 
cut it. While the 100 foot buffer was considered ``state of the art'' 
back in 1990 when enacted, in a 1995 report to Congress, federal 
scientists concluded that 100 foot buffers in Southeast Alaska ``are 
not fully effective to prevent habitat degradation or fully protect 
salmon and steelhead stocks over the long term.'' See USDA Forest 
Service, Report to Congress, Anadromous Fish Habitat Assessment at 10 
(Pacific Northwest Research Station and Region 10, R10-MB-238 (1995). 
While current management on the Tongass reflect most of the 
improvements recommended in the Assessment, the State of Alaska's 
habitat standards do not. Worse, the short term this ``requirement'' 
would be applicable, makes any salmon habitat protection illusory at 
best.
    Fourth, the provision allowing Sealaska to select a new category of 
lands--not enjoyed by other regional corporations--outside of existing 
withdrawal areas remains highly problematic. Paradoxically, Sealaska 
several of these sites are slated for ecotourism development at the 
same time it wants to place exceptional fish and wildlife watersheds, 
like Shipley Bay, Calder Creek, Old Tom's Creek, and Keete Inlet on the 
chopping block of industrial logging development. Some of these sites 
directly conflict with existing small businesses and community plans, 
and all block future investment by any other party. Sites, like 
Pegmatite Mountain, Spring Creek, and Blake Channel are actively 
opposed by local communities. See http://m.juneauempire.com/local/2011-
05-07/tenakee-springs-opposes-sealaska-and-ipecgeothermal-site-
selection.
    Fifth, because an easement, whether exclusive or not, is an 
interest in land that may be conveyed, the bill should clarify that BLM 
will survey the boundaries of the easement and deduct the acreage from 
Sealaska's remaining entitlement.
    Sixth, while S.730 no longer authorizes the encroachment on the 
Hoonah Indian Association's unique government-to-government 
relationship with the National Park Service in managing Glacier Bay 
National Park, significant tribal concerns remain with provisions 
relating to conveyance of sites with sacred, cultural, traditional 
historical significance to Sealaska. See e.g., Letter to Senators Wyden 
and Barrasso from the Organized Village of Kake (June 1, 2011). 
Further, as written, S.730 does not guarantee access to the public or 
Tribes to hunt, fish, or enjoy such lands.
    Seventh, selection and conveyance of identified lands for intensive 
logging development threatens to unravel the existing wildlife habitat 
conservation strategy on Prince of Wales and surrounding islands. The 
reality is that not all old-growth has the same fish and wildlife 
habitat value. So, whether the lands Sealaska seeks to relinquish 
contain more old-growth acres than the lands they are seeking is beside 
the point. The question we hope the Subcommittee asks the Forest 
Service to explain is what differences exist between the habitat values 
of the lands Sealaska wishes to relinquish and the lands they seek for 
intensive logging development.
    Eighth, we are concerned with the provision designating certain 
Tongass lands ``Conservation Areas'' because we think the management 
requirements proposed fall short of safeguarding the significant 
resource values these lands possess. In particular, all these and 
existing LUD II lands should be withdrawn from mineral entry.
    Finally, much was said at the hearing regarding how enacting this 
bill is key to maintain the timber mill infrastructure in Southeast 
Alaska and be a boon for the Southeast Alaska economy. We disagree. 
This bill will keep Sealaska Timber Corporation running for a few more 
years, but it will do nothing to support timber mill infrastructure in 
Southeast Alaska. Clearly, the point of this bill is not how Sealaska 
can provide a portion of the logs from its lands to local mills. 
Sealaska does not have any mills and exports virtually all its timber 
unprocessed to overseas markets. The stevedoring jobs Sealaska provides 
in some local communities are sporadic at best. Sealaska populates its 
logging camps mostly with loggers that come from all over the West 
Coast and little of their wage income is captured in the Alaska economy 
or local Native communities. A very small proportion of those working 
on Sealaska timber lands are local residents.
    Community leaders from across the political and economic spectrum 
are actively working towards a different vision of the future for 
Southeast Alaska than that proposed in this bill. Our salmon forest 
supports the sustainable nearly $1 billion fishing industry, which 
employs nearly 10 times the number of workers as timber. Our fish, 
wildlife, and outdoor recreation opportunities support over a billion 
dollars in direct, indirect, and induced visitor spending in Southeast 
Alaska, and provide over 21 percent of the full and part time jobs in 
Southeast Alaska. The critical foundation of the region's economy is 
customary and traditional hunting, fishing and gathering; salmon is the 
primary source of food for rural Southeast Alaskans. We acknowledge the 
difficult times and economic desperation that our small communities are 
facing, but logging watersheds vital to food gathering makes it even 
more difficult for them.
    SEACC is willing to work with the Senate Energy and Natural 
Resources Committee, Senator Murkowski, and Sealaska to address our 
concerns. Thank you for the opportunity to comment on S.730.
            Best Regards,
                                           Buck Lindekugel,
                                         SEACC Grassroots Attorney.
                                                 Bob Claus,
                                           Forest Program Director.
                                 ______
                                 
   Statement of Debbie Sease, National Campaign Director, Sierra Club

    On behalf of the more 1.3 million members and supporters of the 
Sierra Club, I am writing to express our opposition to S. 730, the 
Southeast Alaska Native Land Entitlement Finalization and Jobs 
Protection Act. This legislation would transfer public lands in the 
Tongass National Forest to Sealaska Corporation. While the bill has 
made minor improvements from years past, if enacted as proposed this 
legislation would have widespread and far-reaching impacts on the 
Tongass.
    While the Sierra Club respects Sealaska's right to secure its 
remaining land entitlement consistent with the Alaska Native Claims 
Settlement Act (ANCSA), the proposed legislation would alter the terms 
of the original settlement legislation and effectively eliminate 
previous boundaries defining the area from which Sealaska would make 
selections. As you can appreciate, the ANCSA legislation of 1971 
required a complicated balancing of public and private interests. The 
land transfers proposed by S. 730 threaten this carefully crafted 
balance and present a number of serious concerns:

  <bullet> The legislation will greatly hamper the U.S. Forest 
        Service's management of the region. The Forest Service manages 
        these public lands for multiple uses and has announced a 
        transition plan to phase out old-growth logging and ensure a 
        sustainable future for the Tongass. The agency is moving toward 
        long-term productivity and sustainable long-term management of 
        young growth and renewable resources. The Forest Service says 
        that it needs the lands that Sealaska is targeting to fulfill 
        that transition and help stabilize southeast Alaska. S. 730 
        would adversely affect that transition and only benefit a 
        select few.
  <bullet> The legislation authorizes Sealaska Corporation to cherry 
        pick 30 additional sites for commercial development. In 
        addition to allowing tens of thousands of acres outside of 
        Sealaska's original land grants to be selected for their 
        valuable old growth and second growth timber, the bill creates 
        a special new category of land--often referred to as ``futures 
        sites''--and would privatize scores of smaller parcels 
        throughout the Tongass for purposes other than logging and 
        mining, such as large scale commercial development. Many of 
        these areas adjoin designated Wilderness areas, or are hunting 
        and fishing hotspots necessary to local outfitters, 
        subsistence, and recreational users. Transfer of these parcels 
        not only pose immediate threats to the Tongass itself but also 
        create highly problematic precedent, as this is the first 
        instance that a native corporation has been granted such access 
        to these sites.
  <bullet> The legislation is extremely controversial within Southeast 
        Alaska, numerous local governments have expressed concerns and 
        opposition to the legislation, and despite claims to the 
        contrary, there has been no public process to engage 
        communities in Southeast Alaska that would be directly impacted 
        by the proposed land transfers.

    While the total acreage involved may appear small relative to the 
overall size of the Tongass, the legislation would have 
disproportionate impacts on important conservation and public use 
values throughout the region. The Tongass is by far our country's 
largest and wildest national forest. Comprising misty fjords and old-
growth stands, the Tongass serves as unparalleled habitat for wildlife, 
stores huge amounts of carbon, and provides exceptional recreational 
opportunities. It is rightly considered the crown jewel of the national 
forest system.
    The Sealaska Corporation has a well-documented history of clearcut 
logging in the Tongass, and S. 730 would allow for more of these 
destructive logging practices in some of the most important and diverse 
habitat of the Tongass, including roadless areas.
    For these reasons, we oppose S. 730 and urge that you oppose the 
bill. Again, our organizations respect the importance of fulfilling 
Sealaska's unsatisfied land entitlement; however we believe this can be 
done without additional legislation. Any future legislation regarding 
the Tongass must consider the region's true economic engines including 
the conservation and protection of fish and wildlife resources, 
fishing, recreation, tourism, subsistence, and other public uses of the 
Tongass National Forest.
                                 ______
                                 
   Statement of Andrew Thoms, Executive Director, Sitka Conservation 
                                Society

    Southeast Alaska is an awe-inspiring place of glaciers, fiords, and 
towering spruce trees. For all of its natural beauty, however, one of 
the region's most remarkable characteristics is that its land is held 
almost entirely in public hands as the Tongass National Forest. The 
public not only has free access to the land, but the public has a say 
in how the land should be developed while the Forest Service seeks to 
find the best balance for all users and most significant social/
economic impact. The Sitka Conservation Society has over 1000 local 
members who are all part of our organization because they value the 
lands and waters of the Tongass. Our membership includes native and 
non-native Alaskans and also includes shareholders of Sealaska and 
other Native Corporations.
    Our membership is extremely concerned about the the Sealaska Lands 
Bill (S.703 and HR 1408). We are scared of this legislation because, if 
passed, some of the most important and beloved places in Southeast 
Alaska will be taken from public hands and placed in those of a private 
corporation. The public will need special permission to access the 
land, and the public will have no power to determine whether and how 
the land should be developed. For these reasons, we oppose the Bill and 
request that you do as well.
    The Tongass National Forest is enormous, but its richest natural 
resources are concentrated in a small handful of places, many of which 
have been identified as Sealaska selections. Most of the acreage in the 
Sealaska Bill is timber land. A transfer to Sealaska would mean the 
loss of some of the largest and oldest trees in Southeast Alaska as 
well as crucial habitat, with only a short-term financial benefit to a 
limited number of people. It would also mean a loss of millions of 
dollars of tax-payer investment in Forest Service infrastructure that 
would be transferred to Sealaska Corporation. This infrastructure would 
include roads, bridges, landings, and more. Taxpayer investments in 
this land also has included timber stand management such as thinning 
and pruning that significantly increases the value of many of the acres 
that Sealaska has selected, and makes these acres critical for future 
Forest Service land management plan actions. The land that Sealaska is 
selecting in the bill is much more valuable than that in the original 
agreement made under ANCSA. If Sealaska is allowed to select outside of 
the originally agreed upon boxes, we would demand that it be a value-
for-value trade rather than an acre-for-acre trade.
    While we are alarmed by Sealaska's timber selections, our largest 
concern lies in the 3,600 acres of unidentified cultural sites. Under 
the Bill, practically anything can qualify as a cultural site, 
regardless of whether there is evidence of human habitation at the 
site. Sealaska has yet to make its cultural site selections, but, based 
on its previous ANCSA selections, popular subsistence salmon streams 
appear particularly vulnerable. Sealaska selected Redoubt Falls, the 
nearest subsistence stream to Sitka, as a cultural site under ANCSA, 
despite no archeological evidence that the site had been historically 
used by Native people. There are a few other subsistence streams within 
a couple hours of town, which hundreds of Sitka families depend on to 
fill their freezers each year. All of these streams would qualify as 
cultural sites. We consider the selection at Redoubt to foreshadow the 
conflicts that will occur over the next 10 years as Sealaska 
strategically selects small parcels of critically important social/
economic/environment acres across the Tongass.
    Once in private hands, cultural sites would have no federal 
protections, such as the Native America Graves Protection and 
Repatriation Act. This means Sealaska, which has a horrific land 
management record, would be left to care for its newly acquired lands 
with practically no oversight. Sealaska has not made it public among 
tribes, clans, historical associations, and local governments that once 
in their hands, important sacred and cultural sites will lose their 
NAGPRA protections. We find it cynical that Sealaska is selling a story 
of these sites being better protected in their hands than with the 
already strict protections under NAGPRA as well as the taxpayer 
investment and protection afforded by multiple federal agencies who 
currently oversee these sites in collaborative agreements with local 
tribes and clans.
    We request that the 3600 acres granted to Sealaska to choose 
throughout the Tongass be removed from the legislation and that 
Sealaska work with local tribes and federal agencies to develop 
cooperative co-management agreements for the sites so that historically 
important acres remain a public resource and gain all the protections 
under NAGRPA, the Antiquities Act, and other federal agency management 
protections.
    Finally, we are alarmed that Sealaska has not divulged to local 
constituencies that the privatization of public lands would result in 
the lands no longer offering the subsistence opportunities and 
regulations that are provided to Southeast Alaska residents on public 
lands. In many cases, the lands that Sealaska is selecting are 
important for subsistence uses for local Native and non-Native 
citizens. With these lands in private hands, the subsistence 
regulations would change from federal land to state/private lands. This 
would mean that extended seasons and bag-limits would not apply to 
these lands which would further shut off subsistence access.
    Overall, we are extremely disappointed in the way that the Sealaska 
Corporation and its representatives have organized support for this 
legislation. The most glaring case has been when Albert Kookesh, a 
Sealaska Board Member who is also a sitting Alaska State Senator, made 
an assertion to the Craig City Assembly in an official meeting that 
they would not receive state funding for their needed projects if they 
didn't support the Sealaska legislation. That Sealaska Board Member/
Senator was subsequently found in violation of state ethics policies. 
This blazon threat was made in full public display in a City Assembly 
forum. We have heard worse from local citizens of threats made for not 
supporting the legislation behind closed doors. Locally, we have heard 
Sealaska board members use race-based arguments to raise support for 
the legislation when challenged with non-racial access and land-value 
issues. It has gone so far as to make people feel that they can't 
oppose the legislation based on its merits for fear that they will then 
be branded a ``racist'' in the region. This dynamic is causing great 
chagrin in a region that has worked to overcome a history of racial 
conflict. If this legislation is causing so much divisive conflict, and 
if the methods of building support are so divisive, we feel that there 
is obviously a problem with the legislation. If the legislation was a 
good thing for the region, it would not be causing so much controversy.
    The Sealaska Lands Bill already has been divisive in Sitka and 
other communities, but we may be seeing only the start. If the Bill 
passes and Sealaska follows through with the land management practices 
it has used in the past, communities will suffer far more than they 
will gain. We want what is best for our community and the awe-inspiring 
place that we live. The best thing for us would be that this Bill is 
voted down and sent back to the drawing board.
    On behalf of the membership of the Sitka Conservation Society, we 
would thank you for your consideration of our concerns.
                                 ______
                                 
                                                     June 10, 2011.

Senate Committee on Energy and Natural Resources,
House Committee on Natural Resources.
RE: S. 730 and H.R. 1408

    Dear Committee Members, The undersigned* lodge owners, guides and 
outfitters, sporting goods companies, hunting & fishing groups, and 
non-government fish and wildlife conservation organizations from Alaska 
and across the country are writing to express our opposition to the 
Southeast Alaska Native Land Entitlement Finalization and Jobs 
Protection Act (S. 730 and H.R. 1408, although the bills are far from 
identical).
---------------------------------------------------------------------------
    * Other signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
    We do not dispute the fact that Sealaska has legitimate claim to 
acreage on the Tongass. However, the locations for selection were 
clearly defined in the Alaska Native Claims Settlement Act (ANCSA) of 
1971. Now, almost 40 years later, Sealaska is trying to change the 
rules by picking high-value public lands outside these defined 
selection areas. Sealaska has had the opportunity to select from these 
areas for a number of years and absolutely no legislation is required 
for the settlement of their claims.
    Sealaska's land selections outlined in S. 730 and H.R. 1408 include 
many of the best hunting, fishing, subsistence, and outfitter/guide use 
areas on the Tongass. The sporting community has objected to prior 
versions of this legislation because of concerns over threats to fish 
and wildlife habitat from increased timber harvest, limits to public 
access, increased commercial development, and displacement of existing 
businesses and operators. Given these concerns have not been adequately 
addressed in the current legislation, and there is no legal 
justification for Sealaska to make selections outside the ANCSA areas, 
we urge you to oppose S. 730 and H.R. 1408.
    Thank you for your continued support for fish and wildlife 
conservation on America's public lands.
            Best regards,
                                  Randi Swisher, President,
           American Fly Fishing Trade Association, Westminster, CO.
                         Jim Martin, Conservation Director,
          Berkley Conservation Institute / Pure Fishing Mulino, OR.
                                 ______
                                 
  Statement of Carol Cairnes, President, Tongass Conservation Society

    We are the Tongass Conservation Society (TCS). The majority of our 
members live in the Tongass National Forest. We are writing to you 
today because our members strongly oppose Senate Bill 730, cited as the 
``Southeast Alaska Native Land Entitlement Finalization and Jobs 
Protection Act''. S730 proposes to transfer publicly owned lands in the 
Tongass National Forest to a private corporation. Sealaska Corporation 
has already selected its remaining lands inside the agreed upon 
withdrawal areas in accordance with The Alaska Land Transfer 
Acceleration Act. We oppose allowing Sealaska Corporation to select 
lands other than those already selected within the boundaries 
established under the Alaska Native Claims Settlement Act of 1971. 
These outside selections would significantly compromise the unique 
values of the Tongass National Forest for wildlife habitat, fish 
propagation and recreational opportunities now available to all 
Americans. Passage of S730 would undermine the Tongass Land Management 
Plan and the Tongass Transition Framework being developed by the USDA.
    S730 would authorize an exchange of low value timberland for some 
of the best fish and wildlife habitat in the United States, if not the 
world, so Sealaska Corporation can log these areas and ship the 
unprocessed logs overseas. Our concern about this threat to the 
ecological integrity of the Tongass National Forest comes from direct 
observation of Sealaska's intensive logging practices (practices that 
would be illegal on National Forest land) including: clearcutting 
timber from the alpine edge all the way to the beach without leaving 
any remnant old-growth stands of trees and leaving inadequate timber 
buffers along waterways to protect resident and anadromous fish stream 
habitat. While S730 includes a provision for 100 foot stream buffers 
(state Class 1A riparian areas), but this provision would be in effect 
for only 5 years and not enforceable even during the 5 year time 
period.
    Many of our members make their livelihood from fishing on the 
waters of the Tongass National Forest. Still others are in visitor, 
tourism and outdoor recreation businesses. S730 would privatize some 50 
undeveloped coves, bays and streams currently publicly accessible for 
recreational use. The ``enterprise/native futures'' sites are poorly 
defined in S730, leaving valuable archeological sites of interest to 
all of humanity at risk of unrestricted eventual development. For 
example: The oldest human remains yet found in North America have been 
found in the Prince of Wales Island Archipelago, the site of most of 
Sealaska Corporation's selections in S730, and these human remains are 
not genetically related to the Alaska Native peoples currently residing 
in Southeast Alaska.
    Congressional action is not necessary for Sealaska Corporation to 
complete conveyance of its land entitlements under ANCSA. Finalization 
of these entitlements should be a priority, but TCS does not agree with 
any proposal that extends beyond the withdrawal areas agreed upon under 
ANCSA and strongly opposes S730. We encourage you to oppose this bill 
to ensure that the diverse values of the Tongass National Forest are 
retained for all citizens of the United States and our visitors from 
around the world.
                                 ______
                                 
             Statement of mary Therese Thompson, Sitka, AK

    Please work with the Energy Committee to ensure that section 3c 
(Sacred and Historic Sites) is deleted from S730. Many southeast 
Alaskans depend on the lands in 3c for recreation, subsistence, and 
indirectly for part of their livelihoods.
    I am opposed in general to putting public lands into private hands, 
and especially into the hands of a corporation such as SeaAlaska, which 
historically has not demonstrated good stewardship of land. I realize 
that SeaAlaska is entitled to a land selection. However, 3c selects the 
lands which are the most extensively used by the public. There is no 
assurance that in the future I and other Alaskans would have access to 
these lands, which we have long depended upon for subsistence and 
recreation. SeaAlaska would be free to use these lands as they choose.
    Piece mealing the Tongass Forest is a threat to the integrity of 
the forest, the sense of wilderness important for tourism, and creates 
the potential for destruction of salmon habitat and a negative impact 
on fisheries.
                                 ______
                                 
                        Statement of Alan Stein

    My name is Alan Stein. Over 40 years ago as a young man, I looked 
through a seaplane window at Prince of Wales Island where today 
Sealaska has stirred up great controversy by having Senator Murkowski 
introduce S 730.
    It was April, 1971 when I landed in Port Protection only to learn 
Native Alaskans had blocked all public land transfers in the State of 
Alaska pending a final settlement in the Alaska Native Claims 
Settlement Act ANCSA (December, 1971).
    The US Forest Service told me I could not obtain title to the land 
I homesteaded until the Natives settled their claims.
    While building a cabin with a chain saw and hammer, I became the 
President of the Point Baker Association to protect Northern Prince of 
Wales Island. Our lawsuit resulted in the National Forest Management 
Act (1976). I came before this committee in March of that year to 
present oral testimony and I represented the United Fishermen of Alaska 
and PBA.
    I worked as a commercial logger at Dean Hiner's floating log camp 
near Calder Bay and appreciate the bone weary work men of the woods do. 
Dean and 50 other small outfits sued the two Pulp Companies for anti 
trust violations that put them out of business and won in federal 
court. But not before they were driven out of business.
    I owned and operated many commercial fishing vessels during my 25 
years in Alaska. I will always consider Alaska my true home.
    In 1989, I organized a coalition of Alaskan Natives, commercial 
fishermen, canneries ,and others into the Salmon Bay Protective 
Association (SBPA). I was elected the Director. About 1,000 commercial 
fishermen joined our organization. Republican cannery owners such as 
Alec Brindle of Ward Cove and Bob Thorstenson's Icicle Seafoods to 
Democratic owners such as Terry Gardiner of Norquest Seafoods made 
substantial contributions. The United Fishermen of Alaska supported our 
efforts. As did the major fishing organizations in SE Alaska.
    Our law suit, Stein v Barton (1990) did two things.

  <bullet> First, it led to Congressional recognition and permanent 
        protection of some of the habitat Alaskan Natives and others 
        used to hunt and fish on some federal land on Prince of Wales 
        Island.
  <bullet> Second it won the first national permanent protections of 
        salmon streams during logging and the injunction put into place 
        was used as a model when Congress made 100 foot no cut buffer 
        strips permanent protection provisions in the Tongass Timber 
        Reform Act 1990.

  SEALASKA NEVER ACTED TO PROTECT SUBSISTENCE HABITAT ON FEDERAL LAND 
     SPIRITUAL CONNECTION ARGUMENT WEAKENED BY ITS 40 YEAR INACTION

    Sealaska's arguments of dispossession from their lands by a 
colonial power would be laughable historically were the earnestness of 
the claim not so great.
    The Wrangell Natives in the SBPA included some whose relatives had 
been the subjects of the Tee Hit Ton decision. 348 U.S. 272 (1955). 
Byron Mallot attaches a report by Walter Echo Hawk claiming this 
Supreme Court case is `` one of the worst decisions handed down.'' P4 
Echo Hawk.
    In Echo Hawk's view, the US Forest Service was a colonial power 
over the SE Alaska Natives and Tee Hit Ton is the ``Law of 
Colonialism.'' Echo Hawk p 7
    Mallot's reliance on Echo Hawk--who invokes ideology steeped in 
``genocide,'' ``marginalization,'' ``colonization,'' ``post 
colonization,'' ``subjugation, dispossession, and exploitation'' to 
urge a new Congressional policy toward the Tlingit and Haida ``in their 
indigenous aboriginal habitats'' ( Echo Hawk p1-2)--strikes me as sheer 
nonsense in light of the rest of the story on Salmon Bay.
    Eddie Churchill, an Alaskan Native of blessed memory, who was the 
head of the Wrangell Cooperative Association, sat on our board of 
directors. I fought long and hard to make sure that he and his tribe (s 
well as everyone else) could continue to hunt and fish in Salmon Bay by 
protecting its fish and wildlife. Congress agreed with us when they 
designated Salmon Bay a LUD II protecting it for all users, so long as 
it remains in US Forest Service hands. Sealaska AWOL when it came to 
protecting indigenous native habitat at Salmon Bay in 1990---undercuts 
their argument they consider all wildlife sacred
    Although I knew many of the members of the Board of Directors of 
Sealaska Corporations at the time, never did any of them express any 
desire to assist the Natives of Wrangell to preserve the land around 
Salmon Bay Lake . Never did Byron Mallot or Al Kookesh ask to intervene 
in this case on the behalf of Native subsistence users.
    If Byron really believes Echo Hawk's ``statement that monetary 
compensation does not protect a way of life (hunting, fishing),'' p 8, 
then where was Byron and Sealaska when I was fighting to save that way 
of life?
    The absence of the Sealaska Board of Directors from the SBPA case 
reinforced something that I heard from the Chief of the Chilkoot 
Tlingit, Austin Hammond of blessed memory. ``There are those of us who 
want to honor the land and take only what we need,'' he told me while 
standing in front of his house on the shore of Lynn Canal. ``Some of 
the young men in Sealaska only see money in the trees. Remember what I 
tell you.''
    If Austin were here today, I am sure he would disapprove of 
Sealaska's bill S.730 to destroy the fishing and hunting grounds of 
other tribes , other towns of men who grew up outside. Austin would get 
Byron and Al to sit on the peace rock along the Chilkoot River and 
talk, before they could get up, with all the leaders of the towns whose 
lives they want to upset with this bill. Austin would tell them Echo 
Hawk is sheer bull, a policy whose foundations falter on false 
historical and legal interpretation.

    SEALASKA SEEKS EXPANSIONS FAR BEYOND THE SCOPE OF ANCSA, ANILCA 
                    AND OTHER CONGRESSIONAL STATUTES

    New land categories are unfair, unjust, and break previous 
settlements hammered out over decades.
    S 730 must be seen in the context of the substantial benefits 
Sealaska has won from Congress over the last 40 years.
    Since the 1960s, Sealaska has obtained multiple settlements of its 
lands claims, all of which constitute what was fair and just. It has 
also benefited from other special interest Native bills in Congress.
    S 730 goes far beyond anything contemplated in ANCSA or subsequent 
settlements.

  <bullet> A cash settlement of over seven million dollars in the late 
        sixties compensated Natives for lands they occupied or used 
        that had been placed into the Tongass National Forest. This was 
        a final settlement, but a few years latter, Natives sought more 
        compensation.
  <bullet> ANCSA gave Natives a total of 656,400 acres or 1,025.62 
        square miles. All but 65,000 acres or 100 square miles have 
        been transferred. Sealaska also got a fair share of one billion 
        dollars in cash. This land is among the most valuable 
        timberland in the United States.

    --Villages got 286,400 acres or 447.5 square miles
    --Sealaska got 370,000 acres or 578 square miles. Source: 2007 
            Annual Report Sealaska.

  <bullet> Natives then sought Subsistence rights to hunt and fish on 
        all federal land as a priority over all other users, arguing 
        that their spiritual needs were not met by ANCSA.
  <bullet> In 1980, Congress in TITLE 8 of the Alaska National Interest 
        Lands Act. gave Alaska Natives the subsistence hunting and 
        fishing they sought. This exclusive priority to hunt and fish 
        was a huge additional benefit that Natives had not won in 
        ANCSA.
  <bullet> Congress created huge tax benefit to Sealaska when it 
        allowed it to sell net operating losses (the value of the 
        timber in 1971 minus the value at a low point in the market, 
        such that ``Sealaska has not paid State or Federal taxes ) See 
        Sealaska Annual Report 2010 page 54 and may not pay taxes on 
        profits long into the future.
  <bullet> Sealaska shareholders get free medical care from birth to 
        grave even though the United States never subdued or conquered 
        Alaska Natives.
  <bullet> Finally, Sealaska and other Alaska Native Corporations under 
        the 8 (a) provision of a federal law were given a huge benefit 
        worth in excess of 25 billion dollars over the last ten years. 
        Alaska Native Corporations do not have to compete with other 
        corporations for federal contracting. They have exclusive 
        bidding rights. See last year's Washington Post article for 
        abuses under this scheme that Congress failed by one vote to 
        remedy this year. SEE http://www.washingtonpost.com/wp-dyn/
        content/article/2010/10/07/AR2010100707217.html

    --http://www.govexec.com/dailyfed/0309/030609rb1.htm
    --http://voices.washingtonpost.com/federal-eye/2009/07/
            lawmakers_cast_a_critical_eye.html

    Despite these and other land, cash, tax, health benefits, and 
hunting and fishing exclusive rights that taxpayers have given the 
Tlingit and Haida to make them whole, the rationale in Byron Mallot's 
testimony, in Sealaska 2010 Annual Report and in S 730 is that the 
injustice of conquest was so great that only greater and more valuable 
assets will bring peace to the soul of America's conscience.
    Besides resting on false assumptions, the Sealaska approach raises 
troubling issues.
    When is final final?
    When is enough enough?
    Where will the 40 year history of hand outs end?
    Will it be when all public lands in Alaska are tied up, access 
blocked by Alaska Native Corporations, forever breaking the historical 
compromises hammered out in 1971, 1975, 1980, and subsequent years? It 
seems to me ANSCA was supposed to put Alaska Natives on their feet, not 
establish an elite class of corporate officers who make high salaries 
while shareholders get bupkees. This despite the trusts set aside for 
elders and students filled not so much by timber money as 8(a) profits.
    At some point Congress must put its foot down and tell Sealaska 
they should spend their time figuring out how to make money rather than 
take money from taxpayers.
    I find this approach not only hypocritical but historically 
inaccurate in that legal precedent and demographic movements have been 
jammed into an ideological prism so out of wack with reality that the 
goal of justice is distorted beyond recognition.
    Specifically the Enterprise or Future Sites have extraordinary 
value both in dollars and use. The Icy Straights site should be either 
leased to a private corporation based on the projected revenue of power 
generated from what is likely to be worth more than all the Columbia 
River Dams. Sealaska should be allowed no Future or Enterprise sites. 
Enough is enough with taxpayer give aways above and way beyond what 
justice requires.
    Cultural or Sacred sites such as cemeteries are adequately 
protected under Federal Law as administered by the US Forest Service. 
This to is nothing but a scam against taxpayers seeking to lock up land 
now used by many for benefit of a few. The location of gravesites is so 
closely held that the wilderness itself protects them.
    I specifically object to what I have heard one of Sealaska 
lobbyists who has told me that SE Alaska Natives were disposed of the 
entire Tongass. This is contemporary myth making on a grand scale and 
is false.

              HISTORY AND ARCHEOLOGY BELIE SEALASKA CLAIMS

    Over the ten thousand years of the archeological record of SE 
Alaska that I have studied, several cultures have occupied the roughly 
350 mile long coastline.

  <bullet> The 9,200 year old man found in a cave near Port Protection 
        has not been shown to be genetically akin to modern Tlingit or 
        Haida. Yet Tlingits claimed and obtained the remains as one of 
        their own.
  <bullet> A cultural shift occurred around five thousand years ago per 
        the research at Tebenkoff Bay by the University of California 
        Santa Barbara archeologists who found a transition from back 
        bay fish based economies to front bay deer hunting and war like 
        cultures at this period before Abraham left Bagdad.
  <bullet> Nevertheless, Tlingit occupation may or may not date from 
        five thousand years ago when they migrated out of Japan or 
        Korea and merged with previous cultures. If Tlingits assert 
        their occupation was from time immemorial, they draw on myth, 
        not the archeological record.
  <bullet> Haida migrations out of the Queen Charlotte Islands, which 
        displaced Tlingit villages northward on Prince of Wales, did 
        not occur until just before first contact around 1774.

    While Tlingits may argue they occupied the entire Tongass National 
Forest, the archeological truth is that there were winter villages in 
major bays with a population estimated before the small pox epidemic of 
the early 1830s at less than 10,000. First Coast Survey.
    By the time of transfer to the United States, the population was 
estimated to have shrunk by half.
    The distribution of population continued to be winter villages with 
smaller groups shifting over time during the summer to sockeye stream 
to sockeye stream with a pattern of depletion and movement prominent. 
So that in any one decade, use of the land was limited to shorelines at 
productive salmon creeks. Of the 2500 salmon creeks in SE Alaska, very 
small percentages were ever used during any decade. And never 
continuously. The Tlingit and other prehistoric residents occupied a 
very small part of the Tongass at any one time.
    Per the Organic Act of 1884, use and possession of land was 
required to establish ownership. Given the transitory use of a limited 
amount of land, the more than 1000 square miles Sealaska has/will have 
received alone is just reflection of scope of the land used and 
occupied in any one decade prior to 1867. No future or sacred sites 
need to be added to sweeten the deal.
    I have studied the historical record extensively from the time of 
first contact through the early 20th century and can find no record of 
forcible ejection of Haida or Prince of Wales Tlingit from their lands 
on any where near a systematic or extensive basis. ( I was trained in 
the graduate school of history at the University of Wisconsin, Madison. 
I have published on the subject matter of Prince of Wales Archeology.)
    So, a far different dynamic than the simplistic charge of Echo 
Hawk's colonialism was at work
    Abandonment of traditional villages by 1907 or earlier was the rule 
and practice on the Prince of Wales Archipelago. Thus the migration 
from the Kaigani Haida in Klinkwan, Sukwan, Koinglass, and the smaller 
settlements south of Sukwan Island had been completed or were well 
underway. Howkan had a post office and missionary provided school 
teacher from about 1883. It inhabitants moved to Hydaburg, Craig, 
Ketchikan, and other places after the turn of the century. The 
abandonment occurred in response to opportunity--opportunity to make 
money in the salteries and new canneries on the West Coast of Prince of 
Wales; opportunity to get a better education; opportunity to be near 
medical care.
    A similar dynamic occurred for the village of Tukexan and Kareen, 
Old Kassan, and the village near Cape Fox, which was abandoned when the 
Harriman Expedition arrived with John Muir aboard at the fin de sicle.
    It is offensive to the historical record to overlay Echo Hawk's 
rigid ideological colonialism explanation for the conversion of the 
Tlingit and Haida to Christianity and adoption of modern dress and work 
ethic. The people who moved to Craig and Hydaberg and Klawock put meat 
on the table. They were as far from chains and indenture as you and me.
    As for the land ethic portrayed by Sealaska of respecting all 
living things, we should not forget that between the first Boston men 
who arrived in the 1780s and 1820, a vast herd of sea otter were hunted 
nearly to extinction by Alaska Natives on Prince of Wales who wanted 
rifles, blankets, and other trade goods. While the Russians did enslave 
the Aleuts who they brought to finish off the sea otters after 1802, 
the Haida and Tlingit on Prince of Wales were able to bring the 
population of sea otter to near extinction by reason of zeal for modern 
trade goods alone.

    NORTHERN SEALASKA BOARD MEMBERS AND LOGGING IN SOUTHERN TRIBES' 
            BACKYARD, MOST OF IT IN ANCIENT HAIDA TERRITORY

  <bullet> Almost all the commercial selections in S. 730 are on the 
        southern Tongass where most of the heavy logging occurred in 
        the past.
  <bullet> Yakutat's Byron would rather concentrate logging onto Prince 
        of Wales Island Archipelago than allow any around his home 
        village at Yakutat and made sure Congress made the 100 square 
        mile ANCSA lands at Yakutat off -limits.
  <bullet> Angoon's Al Kookesh made sure logging for his town occurred 
        also in the south square in ancient Haida territory.
  <bullet> Kluckwan on the Chilkaat was all too willing to select lands 
        for logging off the West Coast of Prince of Wales in Haida 
        territory. The combined affect of these changes to ANCSA which 
        moved the selections away from their villages boxes designated 
        in 1975 amendments and concentrated them onto the Prince of 
        Wales Archipelago made sure the hunting and fishing of their 
        fellow Haida and Southern Tlingit were put into jeopardy. This 
        is a second example of hypocrisy on the part of Sealaska.

    It is hard for me to fathom why the Tlingit would want to force 
almost all the logging onto former Haida territory. Perhaps some 
ancient grievance is at the bottom of it.
    I am all for a settlement of Sealaska's claims in the areas it 
selected in 2008 when it made submissions to the BLM which are inside 
the boxes established in 1975 by request to Congress of Sealaska's 
President.
    Congress should walk away from S 730 and encourage Sealaska to live 
up to the capitalistic goals which Byron Mallot helped create when he 
worked as an aide to Ted Stevens forty years ago.
                                 ______
                                 
    [The following documents and statements are attachments 
submitted with the prepared statement of Myla Poelstra, 
Representing Nine Alaska Towns, Edna Bay, AK.]

                              ATTACHMENT 1

                                        City of Thorne Bay,
                                      Thorne Bay, AK, May 18, 2011.

Energy and Natural Resources Committee, 709 Hart Senate Building 
        Washington, DC.
RE: Senate Bill 730--Southeast Alaska Native Land Entitlement 
Finalization and Jobs Protection Act

    ATTN: Senators, The City of Thorne Bay, located on the eastern side 
of Prince of Wales Island, does not support Senate Bill 730. We 
question the reasoning and intent behind the request of Sealaska but 
our main concern is the impact that will threaten the economic 
viability of our community and other communities on Prince of Wales 
Island and throughout Southeast Alaska. We continually work with the 
state and federal governments to develop management plans that will 
help balance the preservation and uses of our natural resources in 
hopes to achieve sustainability for our communities and their citizens.
    We see Senate Bill 730 not as a ``Jobs Protection Act'' but 
legislation that has the real ability to eliminate natural resource 
jobs, the mainstay of employment in Southeast Alaska. From Timber 
Harvesting, to Lumber Milling, to Recreation Uses, To Tourist 
Enjoyment, we see a direct impact to our communities. Removing 
additional lands from the Tongass National Forest and placing them into 
private hands will lead to loss of jobs and loss of revenues that are 
vital in sustaining our economies. Local mills in Thorne Bay, and 
throughout Prince of Wales (POW) Island, will be depleted of long term 
timber supplies that are necessary to sustain their business. It is 
these local mills, and their lumber, that provides building material to 
POW Island and much of Southeast Alaska.
    The plan as present has implications of eliminating 20 plus jobs 
from the Thorne Bay Ranger District alone. This may sound small in the 
scheme of things but for the City of Thorne Bay the loss of any jobs is 
devastating. Most likely the Thorne Bay Ranger District will be reduced 
from a district headquarters to a field office eliminating the need for 
support staff and a District Ranger. This will have a direct impact on 
Southeast island School District as these employees have children in 
school. Less students, means less teachers, which means less funding, a 
ripple effect that impacts the School District's ability to maintain 
programs and schools. For the remaining students the loss of programs 
and closure of schools means a decline in education, something that no 
one wants to see in this day and age. The loss of these employees also 
has the same ripple effect on our communities. Less jobs, means less 
dollars being spent, means less goods being purchase, means less taxes 
being collected for needed services adding, means the loss of secondary 
jobs.
    With a declining timber industry and struggling fishing industry 
our communities cannot with stand another major impact form loss of 
jobs being created by this plan. We worked hard and cooperatively to 
develop programs like the 2008 Tongass Land Management Plan and the 
USDA Forest Service Master Plans that will build positive foundations 
to replace the past economies. Senate Bill 730 in our eyes will set 
these efforts back and in many ways and negate some efforts all 
together. Again it conies back to the jobs. Our efforts over the past 
years have been programs and plans that will sustain and build on our 
labor force. This plan throws away all this effort along with existing 
jobs.
    We respectively ask that you vote no on Senate Bill 730. If that is 
not an option please consider only those portions of the legislation 
that will provide positive economic impacts to our communities today 
and into the future. We are trying to plan generations out, as we 
strive to maintain economic viability and sustainability to Southeast 
Alaska.
    Thank you for allowing the City of Thorne Bay the opportunity to 
present our concerns.
            Sincerely,
                                            James A. Gould,
                                                             Mayor.
                              attachment 2
                               Alaska Trollers Association,
                                          Juneau, AK, May 20, 2011.
Hon. Lisa Murkowski,
U.S. Senate, 709 Hart Building, Washington, DC.
    Dear Senator Murkowski: The Alaska Trollers Association (ATA) is 
concerned about the terms of S. 730, which seeks to finalize land 
selections promised to Sealaska under the 1971 Alaska Native Claims 
Settlement Act (ANCSA). ATA appreciates your willingness to listen and 
work with our industry to affect a number of good changes, however one 
of the most important provisions, buffer strips, is still sorely 
lacking. ATA supports conveyance of acreage to Sealaska as outlined in 
ANCSA. However, without an unqualified minimum 100' buffer strip 
provision, ATA simply cannot support a bill that alters the original 
deal.
    The Southeast troll fleet is one of the largest in the state. 
Trollers fish in state waters from Dixon Entrance to Cape Suckling and 
up to 50 miles into federal waters. Our fishery has three distinct 
seasons and occurs in every month of the year. The troll fleet is 85% 
resident and a great many of our members live in rural communities. 
With over 2500 permit holders, roughly half of them fishing each year, 
our boats cover a lot of area and fish almost every nook and cranny of 
the Tongass.
    Late winter and early spring are busy times for trollers. It was 
only last week that our organization became aware of the new revision 
and upcoming hearings. I would imagine that most fishermen and their 
gear groups will not have adequate time to review the specifics of this 
very complex bill and provide comment prior to the May 25 & 26 
hearings. As you heard over the past year, the bill is of concern to 
fishermen due to potential impacts on habitat, fishing areas, and 
anchorages.
    The terms of this proposed lands trade are far reaching and extend 
beyond the bounds of the original ANCSA agreement. Significant 
consternation has erupted from a great many community leaders and valid 
concerns have been raised about the impact of this proposed lands 
package on current and future decisions issued under the Endangered 
Species Act. You have made obvious efforts to address some issues, but 
given opposition that still exists in key communities, it appears there 
is work yet to be done.
    Sealaska does not need this legislation to finalize its land 
entitlements. It can stay `in the box' and ask that the selections 
requested in 1975 by then Sealaska President John Borbridge be conveyed 
to the corporation. Since ANCSA was signed, multiple management plans 
for the Tongass have been negotiated, all at great cost to the tax 
payers. Federal rules require 100' buffer strips along all anadromous 
salmon streams, except those on private lands, which fall under a 
special state standard of 66' with variances to permit cutting within 
the buffer. The lands traded to Sealaska will become `private'--and ATA 
supports private property rights--but it is important to remember the 
significant impact logging and other activities done on these 
particular lands are likely to have on natural resources owned by the 
public. ATA is not optimistic that the State of Alaska will widen the 
66' buffers for private land currently allowed under the Forest 
Practices Act (FPA), despite the fact that this standard has proven 
wholly inadequate protection in many places. With the S. 730 buffer 
strip provision relying on modification of the FPA, there is absolutely 
no assurance that our habitat concerns will be addressed.
    While ATA opposed the state's 66' standard for private land, we 
respect that it is law and long ago accepted that the 1975 selections 
were likely to be subject to that law. Decisions were made during 
Tongass planning to balance those impacts on resident activities and 
other Tongass-reliant industries. Why would we now support trades of 
different `out of the box' public lands to Sealaska if the corporation 
will be allowed to apply lesser conservation measures to that acreage--
much of which is in prime salmon rearing and/or fishing country? This 
is unacceptable.
    There must be a higher bar on lands that were not previously 
designated part of the 1975 ANCSA lands bill. The lands in question 
have been woven into the Tongass management plan according to their 
various conservation and land use values. The public has a right to 
demand better logging practices be part of any `out of the box' deal. 
66' buffer strips are clearly not better than 100', which has always 
been identified as the bare minimum necessary to safeguard anadromous 
fish. Some vulnerable areas need 500' or more, so from our perspective, 
100' is already a significant compromise.
    Finally, many of the `out of the box' areas already have existing 
roads or other publically paid for infrastructure. Where are the 
analyses that would explain to the public what the 'out of the box' 
trades will mean to the region? Is this new deal good for everyone, or 
just one party?
    In sum, ATA agrees that it is important to resolve the long-
standing ANCSA commitment to Sealaska, but the language currently 
proposed for S.730 doesn't do enough to protect critical habitat that 
will be slated for logging and other development. In addition, there 
are remaining areas of local concern, with respect to area selections 
and use of those selections, which we will not have time to fully 
analyze prior to the hearing, or during the fishing season.
    Thank you for the opportunity to comment on this important matter.
            Best regards,
                                               Dale Kelley,
                                                Executive Director.
Attachment.--Alaska Trollers Association S.730 / H.2099: Issues of 
        Concern

     LACK OF ANALYSIS AND PUBLIC PROCESS FOR SOUND DECISION MAKING

    To date we have yet to see any scientific, legal, or socio-economic 
analyses comparing the impacts of various lands trade options on 
critical fish and wildlife habitat; onshore and nearshore fishing 
areas/anchorages; communities; the state; existing Tongass management 
plans; or any other important public considerations. If such analyses 
exist, we encourage you to distribute them. If not, we ask that you 
have them developed for public review. The affected public must be 
better engaged in the selection process and provided the tools to do 
comparative analysis to underpin their positions.

                                HABITAT

    ATA's primary interest with respect to any commercial activity in 
the Tongass involves ensuring protection of fish and wildlife habitat 
values. We have long supported the current federal riparian habitat 
standards and state Forest Practices Act as important mechanisms to 
protect fish and game.
    Nowhere in the draft language does it appear to require enhanced 
habitat protection for lands proposed for conveyance that lie beyond 
the previously negotiated ANCSA withdrawal areas. Why would the fishing 
community support less habitat protection than is already there? ATA 
was involved in the original buffer strip debate and we know full well 
that the fishing industry supported the 66' buffer strip and variance 
provisions on native lands only as a compromise based on a package 
deal. Our industry anticipated that lands outside the original ANCSA 
withdrawal areas would be protected by more restrictive federal and 
state rules.
    Many of the watersheds slated for logging in your draft inventory 
are known spawning areas considered of high value by state and federal 
biologists. With this in mind, ATA urges you to amend S. 730/H.R. 1408 
with language requiring enforcement of riparian standards equivalent to 
federal law for any lands selected outside the already agreed to ANCSA 
withdrawal areas. Obviously, additional protections inside those areas 
would be appreciated and strongly supported.

                        IMPACT ON FISHING AREAS

    Our members want assurances that there will be no negative impacts 
to traditional fishing areas, including safety at sea through loss of 
anchorages. This concern is not based on idle speculation or paranoia 
about what could happen; in fact, we have already seen many key fishing 
areas and safe harbors compromised in previously logged areas. Seafood 
is the biggest economic driver in the region and state; our industry 
and communities rely on healthy fish stocks and safe, productive 
fishing areas.

                  PUBLIC ACCESS AND TONGASS MANAGEMENT

    Public access is a key consideration to those who live, work, hunt, 
gather, and recreate in the Tongass. ATA does not support loss of 
existing public access--now or in the future. A significant amount of 
time and tax payer money has gone into planning and implementing 
management regimes to secure multiple use of the forest. For instance, 
LUD II designations have long been important tools to balance habitat 
values and local use. Language in the bills does not do enough to 
protect habitat and sends a mixed message about whether or not access 
to transferred lands can ultimately be restricted or denied.

                              FUTURE SITES

    The intent of these sites, and how they will be managed, remains 
unclear. Many of the proposed areas are important both for local use 
and to protect fish and wildlife; they have been afforded the 
appropriate protections under the Tongass land use plan. How will those 
values be protected if the lands are put into private ownership? Who 
will pay to monitor streams and upland habitat? How will protections be 
enforced? Will local use be permitted over time? ATA believes the 
public should be afforded access comparable to what now exists and the 
state must be maintain authority to enforce its fish and wildlife laws.

                              ATTACHMENT 3

                            JuneauEmpire.com
                my turn: murkowski bill is bad for fish
Posted: May 21, 2011--9:57pm
Advertisement
By PAUL OLSON

    Next week the Senate Natural Resources Committee will hold hearings 
on U.S. Sen. Lisa Murkowski's Southeast Alaska Native Land Entitlement 
Finalization and Jobs Protection Act. The bill perpetuates a 40-year-
old history of efforts to solve the native lands claim issues with a 
failed economic model--intensive old-growth clear cutting. This is bad 
public policy and a rotten deal for salmon fisheries.
    This transfer of public forests to a private corporation poses 
significant risks to habitat. Bill proponents have not been candid 
about these impacts. They say the bill ``protects'' some watersheds to 
offset the habitat loss. They act like it is a good compromise to place 
temporary riparian buffers on limited number of streams. But an 
outdated and temporary buffer program and a few conservation areas do 
nothing to mitigate the impacts of further industrial scale clear 
cutting on Prince of Wales Island (POW).
    The only issue the bill presents for people who fish relates to 
mixed-stock fisheries management. Too much habitat loss in one area 
causes population depletions or even localized extirpations. This then 
triggers restrictive measures like shorter seasons or smaller bag 
limits or closures of traditional fishing areas. To illustrate, there 
are many healthy salmon populations up and down the west Pacific coast. 
There are also nearly 30 salmon stocks listed under the Endangered 
Species Act. It is those listed fish and other weak stocks that have 
triggered the periodic or permanent closure of nearly every fishery 
south of Dixon Entrance.
    This means that it does not really matter how many acres the bill 
allocates to some protected status. The acres that matter most from a 
fishery perspective are those where fish habitat is at risk under 
Alaska's lax forest practices rules. The new clearcuts spawned by 
Murkowski's legislation will occur in the middle of an island with the 
highest habitat related fish kill rates in the region.
    High stream temperatures and poor stream flows are responsible for 
many of these fish kills. Warm rivers are a significant problem for 
salmon, including in Alaska. Scientists documented this problem on the 
Kenai Peninsula, on the Yukon River and in this region, on POW in 
particular. This is a serious issue. The overall global climate and 
especially the Alaska climate are in a long-term warming trend.
    Roads and logging directly contribute to stream temperature 
problems. It is no coincidence that the worst fish kills occur in 
heavily logged and roaded areas such as POW. In 2001, the Forest 
Service reported 318 days of high stream temperature events at a number 
of sites on the island. Alaska Department of Fish and Game estimated 
fish kills there in the tens of thousands. The fish kills happened 
again in 2003. Then, in 2004, record temperatures and record low levels 
of precipitation occurred throughout the Tongass. Temperatures of some 
small streams reached 82 degrees. In some cases, salmon even bypassed 
their natal streams on islands for mainland streams cooled by glacial 
runoff. Two years later, in 2006, the pink salmon run failed. Harvests 
fell to their lowest levels since 1988--to 11 million fish. In 2008, 
returns remained well below the long-term averages of 30 million fish.
    The 100-foot buffers on class I streams will not add meaningful 
protection to salmon that have to survive both habitat loss and the 
periodic hot, dry summers that climate change scientists project for 
this region. First, the buffers are temporary and Alaska's legislature 
would never make them permanent. Many of them simply blow down after 
the removal of the surrounding forest. Neither Murkowski's bill nor 
Alaska law protects the countless miles of lower class streams that 
influence water quality. The lack of protection for these headwater 
streams is scientifically indefensible. And finally, Alaska's buffer 
system ignores the relationship between temperature, water quality and 
the surrounding landscape.
    It is important for fishermen to let the committee know that this 
legislation is poor public policy that poses unacceptable risks to 
fishery habitat. Emails can be sent to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e390808c9797cece8e8a8f8f8691a3868d8691849acd90868d829786cd848c95">[email&#160;protected]</a> 
and faxes to the committee at (202) 224-6123. The bill needs to go away 
and not come back. There is no improving it when it comes to fishery 
impacts.

  <bullet> Olson is a resident of Sitka.

                              ATTACHMENT 4

         Letter from Barth Hamberg, Sitka, AK, 30-year resident
                                                      May 20, 2011.

    To the Senate Committee on Energy and Natural Resources: The 
Sealaska Corporation's land selection of the falls at Redoubt Lake, 
Sitka's most important sockeye subsistence fishing site, would give one 
the town's most prized parcels of public land to a private corporation 
and eliminate the public's right to fish there. Southeast Alaskans 
better get used to the idea, because under Senator Lisa Murkowski's 
Sealaska Lands bill, we will likely see this repeated over and over, as 
Sealaska takes prized beaches, Forest Service cabins, trails, hot 
springs, and just about any site they want by providing only the 
thinnest evidence of cultural use.
    Under this bill, Sealaska has 10 years to claim 3,600 acres 
wherever their hired consultants deem to be a ``cultural site'', with 
no right of protest by the public. Contrary to popular belief, these 
sites don't have to be village or burial sites; they can be any site 
with ``cultural use'' or ``cultural landscapes'' even if the nature of 
that use is unknown and undocumented. Since virtually any site of 
interest to the public today was likely used by people in the past, 
Sealaska can claim about any site they want.
    It gets even worse. Contrary to claims by Sealaska and Senator 
Murkowski that public access to these sites would continue, the law 
actually precludes public access for the harvest of fish and game, and 
only allows for public access easements ``across'' and not ``on'' the 
property. The public's use would be at the whim of the corporation.
    Even if you aren't a recreationist, guide, or tour operator, you 
should be incensed that all of this would be paid for by the US 
taxpayer at the cost of many millions of dollars in planning, review 
and survey costs. The Forest Service has invested millions of dollars 
in infrastructure in docks, cabins, and trails and the like; the real 
estate value of these prime parcels alone would be staggering.
    The supporters of this bill imply that these lands are somehow 
``threatened''. In fact, cultural sites are better preserved today 
under the strong cultural resource protection laws on public lands than 
they would be under a private corporation who could sell or lose them 
in bankruptcy proceedings. Local tribes, who have a much more intimate 
knowledge and connection with the land than the Corporation, already 
have a strong role in any proposed activities on cultural sites.
    This bill would change the unique lifestyle and economy of 
Southeast Alaska forever. We would no longer manage our most important 
lands through a public process. Instead, decisions would be made in the 
corporate boardroom of the Sealaska Corporation. I strongly urge the 
committee to table this bill once and for all.

                              ATTACHMENT 5

 Letter from Chris McNeil, Jr., President and CEO, Sealaska Corporation
    Today's summit is a very pivotal moment for all of us, as we take 
measure of where we are.
    Because the jobs and income from timber are crucial to our region's 
economy, our decisions affect not only everyone in this room but also 
the thousands not present who are stakeholders in our decisions.
    This morning..

  <bullet> I will review the vital role that timber and Sealaska play 
        in our SE economy and how we impact both Native and non-Natives 
        citizens.
  <bullet> I have some very sobering information about the extent of 
        our timber resources.
  <bullet> I will talk about how we currently manage public and private 
        timber resources in Southeast.
  <bullet> And, finally, I want to share with you some new ideas that 
        can lead us all to a better future. (pause)

    As most of you know, Sealaska Corporation is the leading private 
provider of jobs and income in Southeast Alaska. We provide 700 direct 
jobs with a $20 million payroll, and support more than 1,000 direct and 
indirect jobs worth about $30 million a year in wages. In all, Sealaska 
contributes $90 million a year to Southeast Alaska, benefiting some 350 
businesses and organizations in the region.
    In addition, Sealaska is the leading provider of revenues shared 
with other Regional Corporations through the Section 7(i) of ANCSA.
    Since revenue sharing began in 1982, Sealaska has contributed 
nearly 300 million dollars to the other Regional Corporations. Think of 
that: more than oil, more than minerals, the timber owned by Sealaska 
has been the most abundant producer of revenue from the natural 
resources owned by all Native Corporations.
    This contribution--some 42% of all shared revenues under ANCSA--
comes from less than 1% of all ANCSA lands. And managed properly, this 
resource can provide for a sustainable economy.
    Many of you know our Board and management is guiding Sealaska 
through a diversification strategy in which we are investing some of 
our income in industries and places far from our base here in 
Southeast. I believe this strategy will ultimately provide a measure of 
security to all our people. But there is no question that timber will 
likely always be the greatest source of local jobs and revenue for 
Sealaska.
    As you know, the most important aspect of any business plan is 
reliability. That brings me to the most crucial part of my message to 
you today.
    To be painfully clear, we have new information that shows that we 
cannot sustain our current level of harvest and jobs.
    First, let me give you a little background. Sealaska has always 
been committed to sustainable harvests. We believe in managing forests 
for future generations. Our harvest rates were based on:

  <bullet> An estimate of our timber resources;
  <bullet> The assumption that our young forests would reach commercial 
        maturity 50 to 70 years after we began harvesting;
  <bullet> And the faith that we would gain title to all our lands in a 
        reasonable time period.

    Based on these estimates and assumptions, we have managed our lands 
sustainably.
    But some of those assumptions were wrong--and this is a key point.
    We assumed that that federal government would complete our land 
entitlements in a timely manner. Further, we assumed that the federal 
government would cooperate with Sealaska to exchange our most 
environmentally sensitive lands for lands well-suited to timber 
management.
    Our expectations have not been met--and this forces us to 
reevaluate our rate of harvest.
    Before I continue, I am mindful of the irony of Sealaska 
complaining about not receiving all our lands, when many of you 
represent people who have never been granted any land. These problems 
deserve resolution, as well.
    My second key point involves new information.
    As you can imagine, having accurate information about our resource 
is vital to Sealaska. Recently, using the most technically 
sophisticated analysis available, timber professions developed a far 
more accurate assessment of our timber inventory than was available to 
us in the past. We not only studied Sealaska lands, we also studied all 
of the Tongass National Forest.
    We believe we now know more about the state of the forest resources 
in Southeast Alaska than anyone. I want to share those findings with 
you today because we all have a stake in this information. And we must 
all decide what we will do.
    We discovered that our total inventory of un-harvested timber is 
less than we believed, and given current economic conditions is about 
400 to 500 million board feet.
    The implications of this new understanding are sobering:

          1. Sealaska will reduce its harvest by 25% in 2006, and 
        probably will reduce it further over time.
          2. It is even more urgent that the federal government 
        complete its longstanding promise to Sealaska to transfer all 
        our entitlement lands.
          3. It is now more urgent that Sealaska exchange its high 
        public value land for land in the Tongass.
          4. Even if these matters were resolved, we would still need 
        to reduce harvest now in order to avoid an even greater 
        reduction in the future, because the lands we have previously 
        harvested will not have harvestable timber for another 25 to 35 
        years.
          5. The reduced harvest will obviously lead to reductions in 
        employment, Sealaska income, and 7(i) revenue sharing money.
          6. We estimate the total reduction in economic terms to the 
        state of Alaska would be in the range of 22+ million dollars. 
        This would reflect the reduction in net income to Sealaska, the 
        reduction in wages, benefits, and taxes, the reduction in 7(i) 
        revenues, and the associated multiplier effect.

    There is another concern: the Tongass inventory may also be lower 
than first thought.
    I hasten to say this does not reflect on the Forest Service 
management, any more than this new information should reflect on past 
Sealaska management. The fact is this new information was not available 
before now.
    But, regardless of whether the information is welcome or not, we 
cannot ignore it.
    The implications are significant to SE Alaska. Although the 
domestic processing of Forest Service logs produces fewer jobs than in 
the past, it is still important in some communities, and it matters to 
the contractors and their employees who build roads and harvest timber.
    So, we are left with one conclusion: the quality and grade of 
timber sales from the Tongass will have to change.
    Currently, the majority of the Tongass--more than seven million 
acres--is off limits to any development at all. This protected acreage 
would not have been protected without the political support of the 
Alaska Native Community. That said, the capacity of the Tongass 
National Forest that is designated for harvest far exceeds the actual 
production.
    It is currently authorized to sell 267 million board feet per year. 
In fact, the harvest plans typically call for cutting around 160 mmbf/
yr. But only about 50 mmbf/yr are sold and cut--about half of what 
Sealaska itself has been producing on a fraction of that land base.
    Not long ago it would have been inconceivable that the Tongass, 
with a land base of over 16 million acres, would be producing lower 
harvests than Sealaska, with a base of just 290,000 acres.
    This is not due to market conditions, but the constant legal 
challenges to Tongass sales as it is to harvest regulations. And as 
Native leaders, we must be willing to point out the truth--that the 
strategy of our friends in the environmental community to severely 
limit harvest on the Tongass is hurting Native people 
disproportionately.
    The bottom line is this: The trend for timber sales on the Tongass 
is not encouraging to those in Southeast who depends on or support the 
industry.
    The question before us now is, ``What will we do about it?'' That 
brings me to the final point of my presentation this morning.
    We need to think and act differently. We need new ideas--truly, a 
new paradigm. And we need to do so from the perspective of how we can 
help each other, rather than from a view of scarcity and win-lose.
    At Sealaska, our goal has always been to protect and grow our 
assets for economic, cultural and social benefits--today and in the 
future. As stewards of our land, Sealaska spends over two million 
dollars annually on silviculture. This is all for the future benefit of 
our tribal member shareholders and the SE economy, for which there will 
be no economic return for about 50 to 70 years. By extending this 
philosophy to all of Southeast, I believe that through thoughtful, 
focused, strategic management, we can extract greater value from our 
forests.
    Today, I want to offer to you--and to all the citizens of our 
communities in Southeast Alaska--a new vision of Sealaska: a vision of 
integrated management and marketing that can create greater benefit for 
all Alaskans.
    First, I see Sealaska as a true brand--a focused, aligned, and 
powerful brand that itself creates value. Achieving this goal requires 
a consistent vision for our future and flexibility in how we do 
business.
    As part of that flexibility, we need to fundamentally rethink our 
core strategies. We need to evaluate the future of the forest products 
industry in Southeast Alaska, and Sealaska's role in it.
    As global competition increases, pressure for ever-cheaper timber 
also increases and our margins decrease. When timber is viewed as a 
commodity, our distance from markets and regulatory framework put us at 
a distinct disadvantage.
    Yet there is another way. If we build a brand and customer base 
around our cultural and environmental stewardship, and deliver a 
superior product, our timber can command a premium price.
    This has been done may times before. For example, the seafood 
industry is making the same shift.
    Is Copper River salmon really so superior to other kinds? What 
about Yakutat Wild, Yukon Wild or Rainforest Wild?
    In today's market, delivering top quality timber is not enough. In 
addition, we need to build the Sealaska brand to reflect our cultural 
identity, community connections and environmental stewardship. And we 
need to reflect these values in the way we operate.
    For example, we must consider an independent certification of our 
forestlands, as the fishermen did with the Marine Stewardship Council. 
If we want to project our environmental stewardship, we must find 
responsible environmental partners to endorse our forest management and 
tell the world about the quality of our work on the ground.
    These initiatives would be part of our overall strategy to align 
the company's image and operations. Becoming a model of forest 
management, community relations and cultural promotion would support 
Sealaska's position as a company delivering value to our customers and 
communities.
    We are mindful that environmentalists have successfully stigmatized 
any timber that comes out of the Tongass National Forest. This 
adversely impacts all of Southeast Alaska, and disproportionately 
impacts Alaska Native people. I believe that our branding approach, 
together with the other ideas I will outline, can overcome and turn 
this around. We hope all responsible groups will work with our 
community to define and support this new brand.
    Second, as part of Sealaska's continuing program to diversify its 
income and investments, we are evaluating investing in non-ANCSA timber 
enterprises that contribute to our economy and employment 
opportunities.
    The third major course of action is one I mentioned earlier. To 
ensure that Sealaska's harvests do not decline more than necessary, we 
must resolve two very fundamental and important issues:

  <bullet> First, the federal government must fulfill its commitment to 
        transfer at least 64,000 acres to Sealaska as entitlement 
        lands. And because we believe the original federal lands 
        ``withdrawn'' for this transfer are not adequate, we propose 
        that the entitlement selections be made from outside the old 
        withdrawal areas.
  <bullet> Second, the federal government needs to complete a long-
        contemplated land exchange with Sealaska. Sealaska owns some 
        very special lands that frankly would fit better in public 
        ownership.

    All of these ideas, however valuable, are incremental in scope. We 
also need to think bigger thoughts. This brings me to the fourth and 
most important part of this new vision for all Alaskans.
    I invite you to consider the possibility of consolidating all the 
timber programs of Southeast Alaska--including that portion of the 
Tongass designated for harvest--under one organization--a Native 
Stewardship Trust. Consider the possible benefits of a unified timber 
supply:

  <bullet> A single management team
  <bullet> Sealaska could provide valuable marketing and branding 
        capabilities to the timber produced--something that would be 
        virtually impossible with a Forest Service product
  <bullet> Timber could be managed to high standards, as both 
        organizations do now, but under Sealaska, it could be managed 
        with far more certainty and predictability--a great advantage 
        for anyone wishing to invest in domestic processing
  <bullet> A single ownership could manage the landscape more 
        effectively and efficiently.
  <bullet> With Sealaska as the steward, it is likely that more timber 
        could be produced at lower cost and with greater 
        predictability.
  <bullet> Under that model, it should be possible to generate more 
        jobs and income for both the processing side of the industry 
        and the round log side.
  <bullet> The public access now available on federal lands could be 
        continued on the lands shifted to Sealaska's stewardship.

    All Alaskans, Natives and non-Natives, have shared values and a 
shared future. Too often, we Natives continue to think in the old 
paradigm of separateness. There are times when, as in sustaining our 
cultural heritage, that is necessary and appropriate. But increasingly 
in our economic lives, separateness may be self-limiting.
    In creating value from the vast forest resources of Southeast 
Alaska, Native people have something special to offer, not just to 
Alaskans, but to the world. I ask you all to hold your heads high and 
carry this conversation to all our fellow Alaskans.
    Remember this: As Natives, we understand that a forest is a unified 
community, a complex system that is greater than the sum of its parts. 
The same is true for the human community of Southeast Alaska. Together, 
we can produce something far better than we are doing separately.
    Thank you.
                              attachment 6
     Alaska Editorial: A new vision for our forests and our future
By CHRIS E. MCNEIL JR.
                                                 November 21, 2005.

    Forest resources are vital to the future of Alaska and all its 
people. In Southeast Alaska, after fishing, forests provide the most 
private jobs. And income from Sealaska's timber harvest is the leading 
source of revenue shared among over 80,000 Alaska Native tribal 
shareholders, through the 12 regional corporations and over 200 village 
corporations.
    I invite all Alaskans to consider a new vision: a vision that 
creates more jobs, stability, and value from the forests of Southeast 
Alaska.
    This vision centers on two primary ideas:

  <bullet> fulfilling all land entitlements promised by the federal 
        government to Sealaska, and;
  <bullet> unifying management of all harvestable timberlands in 
        Southeast Alaska under a Native Stewardship Trust, to be 
        operated for the benefit of all citizens.

    It is critical we have this discussion right now.
    Recently, I announced sobering news that, because our forest 
inventory is smaller than previously understood and the federal 
government has been slow to complete its promises of land, Sealaska 
must reduce its timber harvests.
    While the news coverage has understandably focused on reduced jobs 
and expenditures, (some $22.5 million annually) the important question 
before us is, ``What do we do now?'' I see three critical steps:
    First, the federal government must quickly complete the land 
transfers to Native corporations it promised 30 years ago under the 
Alaska Native Claims Settlement Act. We kept our part of the bargain; 
the federal government has not.
    Sealaska is still awaiting transfer of 64,000 acres of land it is 
entitled to under ANCSA--land that could help restore lost timber 
revenue and jobs.
    Second, the federal government should complete the long-
contemplated land exchange with Sealaska. Sealaska owns some very 
special lands that frankly would fit better in public ownership. 
Exchanging those lands for property better suited to timber harvest is 
not only the right thing to do, it would ease our current crisis.
    And finally, all Alaskans--indeed all Americans--would benefit from 
more effective management of our existing public timber resources. In 
Alaska, this is our elephant in the room, the thing everyone knows and 
no one discusses.
    The Forest Service is hamstrung at every turn by activist lawsuits. 
The Tongass harvest is only about 20 percent of what's authorized in 
the Tongass Land Management Plan. Why do Alaskans continue to accept 
that?
    I propose that management of the harvestable portion of the Tongass 
be returned to its original stewards--Alaska Natives--through a Native 
Stewardship Trust led by Sealaska. Under unified management, timber 
could be produced more efficiently, with consistency and high 
standards, generating more jobs and income for all Alaskans.
    Of course, public access now available on federal lands would 
continue on the lands shifted to Sealaska's stewardship. And, as part 
of our program to position Sealaska as a provider of highly valued 
``green'' products, we would pursue independent certification of our 
forest lands to confirm the good work we do on the ground. This would 
also help the mills these lands support.
    While our ancestors were the original stewards of these forests, 
Sealaska has also demonstrated the ability and commitment to properly 
steward our forests. We're proud, for example, that peer-reviewed 
scientific studies confirm our practices protect fish, streams and 
other natural resources.
    Over the last 50 years, the federal government has increasingly 
assumed management of our timber resources, while creating social 
programs to provide for Alaska Natives. And over time, Natives and non-
Natives have come to view natural resources as something to be divided, 
rather than shared. We need a different vision--a win-win concept.
    It is time Alaskans consider the benefits of acting together, and 
time for Alaska Natives to once again assume responsibility for our own 
future. The first step in that journey can be the Native Stewardship 
Trust.
    In creating value from the vast forest resources of Southeast 
Alaska, Native people have something special to offer, not just to 
Alaskans, but to the world. We understand that the forest is an ancient 
yet renewable gift that, treated with respect and carefully managed, 
will provide a better future for all Alaskans.
    That is my vision. I invite you to become part of the discussion.

  <bullet> Seattle and Juneau resident Chris E. McNeil Jr. is the 
        president and CEO of Sealaska Corp.
                              attachment 7
               From the desk of Wayne Regelin, Juneau, AK
                                                    April 28, 2010.

Hon. Lisa Murkowski,
U.S. Senate, 709 Hart Senate Building, Washington DC.
    Dear Senator Murkowski : Passage of the ``southeast Alaska Native 
Land Entitlement Finalization Act'' (S.SS1) could have unintended 
consequences that would cause severe economic problems for Southeast 
Alaska.
    Both the Queen Charlotte goshawk and the Alexander Archipelago wolf 
have been identified as distinct population segments for the puposes of 
consideration under the Endangered Species Act. A vital part of the 
conservation strategies contained in the Tongass Land Management Plan 
to keep these populations from being listed as ENDANGERED SPECIES by 
the U.S. Fish and Wildlife Service was the creation of oldgrowth forest 
reserves in the Tongass National Forest where logging would not occur. 
The referenced legislation would allow the Sealaska Corporation to 
select several of the old-growth reserves in southern Southeast Alaska 
and the corporation's representatives have stated that they inteld to 
log the-lands selected for economic development. If these reserves are 
conveyed to Sealaska by Congress it will almost certainly lead to a new 
petition to list the goshawk and wolf as endangered species and the 
distinct possibility that they will be so designated.
    After careful deliberations amongst ourselves and after consulting 
with key members of the scientific community, the three of us have 
concluded that this issue must be carefully examined from a political 
and scientific point of view. It is also crucial that this examination 
be conducted before any further decisions are made on land exchanges, 
new land selections, or modifications to TLMP.
    The scientific assessments and the politics surrounding proposal 
such as this legislation is an arena in which the three of us have 
spent considerable time and effort and have developed an expertise that 
we feel qualified to exercise. Collectively, we have spent over 50 
years dealing with all of the nuances of the Endangered Species Act and 
the many attempts to defend against its abuses and to modify the Act 
into a more workable and effective federal law. All three of us have 
occupied the Wildlife Division Director position within the Alaska 
Department of Fish and Game and two of us served as Deputy 
Commissioner.
    We have concluded that the proposed land ``exchanges'' being 
proposed in S. 881 have huge endangered species ramifications for the 
Alexander Archipelago wolf and the Queen Charlotte goshawk. Both 
species have been petitioned to be listed as endangered or threatened 
species in the past. These petitions were rejected by the U.S. Fish and 
Wildlife Service for listing in Alaska, atthe time, because the 
planning processes implemented by the U.S. Forest Service adequately 
provided for the habitat needs of the species and as a result the 
projected population decreases presented by the environmental community 
were not imminent.
    The November 8, 2007 News Release by the U.S. Fish and Wildlife 
Service on their decision to NOT list the goshawk is relevant:

          ``We find that the best available information on biological 
        vulnerabilif and threats to the goshawk does not support 
        listing the Alaska population as threatened or endangered at 
        this time, in light of current conservation strategies being 
        implemented by the Tongass National Forest, including 
        designation of substantial areas of the forest in no-harvest 
        stafus and use of goshawk standards and guidelines in those 
        portions of the forest open to timber harvest.''

    It is obvious that the selection of lands in southern Southeast 
Alaska could substantially affect the conservation strategy implemented 
on the Tongass National Forest. A quote from the October 8, 2009 
comments by Department of Agriculture Under Secretary Jay Jensen to the 
Senate Subcommittee on Public Land and Forests, Energy and Natural 
Resources Committee says :

          ``The lands currently selected by Sealaska in the withdrawal 
        areas generally do not contain significant amounts of 
        economically viable old growth''
          ``The proposed selection areas on Prince of Wales, Tuxekan, 
        and Kosciusko Islands include approximately 55,000 acres of 
        productive old growth. They are within the Phase I lands of the 
        2008 TLMP Timber Sale Adaptive Management Plan and are suitable 
        for harvest, with the exception of portions currently 
        designated as old growth reserves. There are 12 old-growth 
        reserves within the above mentioned proposed selection areas. 
        All or part of thrce of the four old growth reserves on 
        Kosciusko Island would be removed from federal ownership, as 
        would two of the three on Tuxekan Island. These lands represent 
        a significant component of the TLMP conservation strategy area 
        for wildlife. Loss of these old-growth areas would likely 
        undermine the conservation strategy in TLMP and potentially 
        lead to threatened and endangered species listings.''
          ``Even though timber harvest in the proposed selection areas 
        may have been considered in TLMP, the Forest Service is 
        required to mitigate effects from such activities to avoid 
        species listings, whereas private landowners do not have a 
        similar requirement. ''

    If Sealaska applies the same logging practices on the proposed 
sites that it has applied to its previous selections, we can say 
without reservation that radical environmental groups will once again 
file petitions to list both the wolf and northern goshawk as 
endangered. Due to the politics surrounding this controversial issue, 
it is not beyond the realm of possibility that the eight small 
communities that oppose the existing legislation would join the 
environmental groups in filing a petition or file their own petition 
for listing. They fear their communities will cease to exist if S.881 
passes and will fight for survival.
    Considering the fact that in 2009 the United States listed the 
Queen Charlotte form of the Northem Goshawk as threatened throughout 
British Columbia, except for Vancouver Island where it was listed as 
endangered, it would seem reasonable to assume that the conditions 
leading to these listings could be duplicated in Alaska. Certainly, 
those areas identified in TLMP as necessary wildlife reserves should be 
seriously considered for protection of some sort. Most certainly, the 
State's Forest Practices Act does not provide the necessary oversight 
or guidelines.
    Wolf population flucfuations tied to deer population declines have 
created concerns over intense logging practices which temporarily or 
permanently cause deer populations to decline markedly. This is 
especially true for Prince of Wales Island which has experienced 
significant deer population declines and corresponding declines in the 
wolf populations. State hunting regulations and federal subsistence 
regulations have already significantly reduced opportunities to harvest 
deer on Prince of Wales Island and surrounding areas. Additional 
hunting restrictions are likely if large scale timber harvest occurs in 
this area.
    We have examined the listing petitions, records of decisions, 
proposed rules, TLMP, Forest-wide Wildlife Standards and Guidelines and 
the scientific information available to us. It is our professional 
opinion that inadequate professional assessments of the potential 
wildlife impacts of this legislation have been conducted. We believe it 
is essential that athorough analysis of the various land selections 
under consideration in S 881 and the selections made under the existing 
law be evaluated. There are complex trade offs that would affect the 
amounts of timber that could be harvested and the potential effects on 
listings ofendangered species.
    We strongly recommend that you immediately request the involved 
agencies (U.S. Forest Service, U.S. Fish and Wildlife Service and the 
Alaska Department of Fish and Game) conduct an emergency assessment of 
the various land exchange options being considered. The assessment 
should include how the various options would impact deer, wolf and 
goshawk populations. It is essential that this analysis be complete 
before any final decision is made on land exchanges or land selections. 
Such an analysis can be completed in a few weeks if the agencies make 
it a priority.
    With adequate input from the agency professionals, modifications to 
this legislation may be possible to dampen the potential listing 
possibilities. If either species is listed as either threatened or 
endangered the effect will be the elimination of any logging industry 
in the region--either on private or public lands. Remember when 
Weyerhaeuser Corporation said, ``the spotted owl will never affect 
us.''
    Currently, the only analysis of the tradeoffs between the currently 
selected lands and those proposed in S 881 and FfR 2099 has been 
conducted by David Albert of The Nature Conservancy. His preliminary 
analysis of the ecological values associated with the various selection 
options shows great disparity in timber value and wildlife habitat 
between the currently selected areas and those proposed in S. 881 and 
HR 2099. The analysis is complex and according to Sealaska it is 
controversial. It shows that lands proposed for selection in 
legislation have some of the highest value old growth forest, wildlife 
habitat and karst formations in Southeast Alaska. This analysis, while 
usefiJ, does not consider the ramifications of the Endangered Species 
Act. An analysis of the ramifications for species listing conducted by 
the federal and state agencies responsible for managing the Tongass 
Forest is required in order that sound public policy decisions can be 
made.
    We wish to clarify that this correspondence is being submiued by 
the three of us as wildlife professionals with over 75 years of 
experience with the Alaska Deparfinent of Fish and Game and does not 
reflect the position of anyone else or any organization.
    We are willing to assist in the process of assuring that Sealaska 
Corporation receives its land entitlement. We stand ready to 
participate in any habitat and population assessments if we can help 
expedite the process or contribute our experiences in dealing with the 
Endangered Species Act.
    Thank you for considering this recommendation.
                                         Dr. Wayne Regelin,
      Director, Alaska Division of Wildlife Conservation 1995-2002.
 Deputy Commissioner, Alaska Department of Fish and Game 2003-2006.
                                            Ron Somerville,
      Director, Alaska Division of Wildlife Conservation 1979-1984.
 Deputy Commissioner, Alaska Department of Fish and Game 1991-1993.
                                                Matt Robus,
      Director, Alaska Division of Wildlife Conservation 2002-2008.
                              attachment 8
                   U.S. Department of the Interior,
                                 Bureau of Land Management,
                                  Washington, DC, October 15, 2010.
Ms. Heather Pichter,
President, Edna Bay, Alaska, General Delivery, Edna Bay, AK.
    Dear Ms. Pichter: Thank you for your September 13, 2010, letter to 
Secretary of the Interior Ken Salazar requesting immediate conveyance 
of land to Sealaska Corporation under the Alaska Native Claims 
Settlement Act. Secretary Salazar has asked me to respond to your 
letter.
    The Bureau of Land Management honors the responsibility of 
finalizing land entitlements and claims due Native corporations, Alaska 
Native individuals, and the State of Alaska under the Alaska Native 
Claims Settlement Act of 1971 (ANCSA), the Native Allotment Act of 
1906, the Alaska Native Veteran's Allotment Act of 1998, and the Alaska 
Statehood Act of 1959. Sealaska filed its final land selection on June 
10, 2008, in compliance with the deadline set by the Alaska Land 
Transfer Acceleration Act of 2004. In that letter, Sealaska requested 
that the BLM delay conveyance of remaining entitlements, pending the 
outcome of proposed federal legislation, S. 881 and H.R. 2099, the 
Southeast Alaska Native Land Entitlement Finalization Act. The BLM has 
complied with the corporation's request.
    I appreciate your concerns and the concerns of those who signed the 
September 13 letter. I assure you the timely conveyance of Sealaska's 
85,000-acre entitlement is important to BLM, as is the conveyances of 
each remaining entitlement. We continue to work closely with our land 
transfer clients to balance remaining work and meet client priorities.
    We sent a copy of your letter to Sealaska and placed another in our 
files If you have additional questions please contact Ramona Chinn. 
Deputy State Director, Alaska Lands, at 907-271-3806.
            Sincerely,
                                           Robert V. Abbey,
                                                           Director


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
